No. 19-1212

In the Supreme Court of the United States
CHAD WOLF, ACTING SECRETARY OF HOMELAND
SECURITY, ET AL., PETITIONERS
v.
INNOVATION LAW LAB, ET AL.
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

JOINT APPENDIX
(VOLUME 1)

JEFFREY B. WALL
Acting Solicitor General
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

Counsel of Record
for Petitioners

JUDY RABINOVITZ
American Civil Liberties Union
Foundation
125 Broad Street, 18th Floor
New York, N.Y. 10004
jrabinovitz@aclu.org
(212) 549-2618

Counsel of Record
for Respondents

PETITION FOR A WRIT OF CERTIORARI FILED: APR. 10, 2020
CERTIORARI GRANTED: OCT. 19, 2020

TABLE OF CONTENTS

Page
Volume 1
Court of appeals docket entries (19-15716) .......................... 1
District court docket entries (19-cv-00807-RS) .................. 30
U.S. Immigration and Customs Enforcement, Memorandum from Ronald Vitiello, Deputy Director and
Senior Official Performing the Duties of the
Director, for Executive Associate Directors and
Principal Legal Advisor, Implementation of the
Migrant Protection Protocols (Feb. 12, 2019)
(A.R. 5)† ............................................................................. 57
Aliens Subject to a Bar on Entry Under Certain
Presidential Proclamations; Procedures for
Protection Claims, 83 Fed. Reg. 55,934
(Nov. 9, 2018) (A.R. 37) .................................................... 61
Press Release, Position of Mexico on the U.S. Decision
to Invoke Section 235(b)(2)(C) of its Immigration
and Nationality Act (Dec. 20, 2018) (A.R. 318) ............ 147
U.S. Immigration and Customs Enforcement,
FY 2016-2019 YTD ATD FAMU vs. Non-FAMU
Absconder Rates (A.R. 418) .......................................... 151
Excerpt from U.S. Immigration and Customs
Enforcement, Fiscal Year 2018 ICE Enforcement
and Removal Operations Report (A.R. 419) ................. 152
1

The administrative record included a public notice describing
this document, rather than the document itself. See Pet. App. 164a165a. All parties agree that this document is part of the administrative record.
†

(I)

II
Table of Contents—Continued:

Page

U.S. Citizenship and Immigration Services, Office of
Refugee, Asylum, & Int’l Operations, Asylum Div.,
Asylum Officer Basic Training Course, Lesson
Plan on Reasonable Fear (Feb. 13, 2017)
(A.R. 444) ........................................................................ 172
Excerpt from DHS Office of Immigration Statistics
(OIS), U.S. Customs and Border Protection,
Enforcement Actions – OIS Analysis FY 2018
Q1 – Q3 (A.R. 498) .......................................................... 295
U.S. Citizenship and Immigration Services, Asylum
Division, Briefing Paper on Expedited Removal
and Credible Fear Process (Updated Oct. 5, 2018)
(A.R. 518) ........................................................................ 296
Testimony of Robert E. Perez, Acting Deputy
Commissioner, U.S. Customs and Border Protection re “The Implications of the Reinterpretation
of the Flores Settlement Agreement for Border
Security and Illegal Immigration Incentives”
(Sept. 18, 2018) (A.R. 544) ............................................. 301
Excerpt from Statement of Matthew T. Albence,
Executive Associate Director, Enforcement
and Removal Operations, U.S. Immigration and
Customs Enforcement (Sept. 18, 2018) (A.R. 570) ...... 309
U.S. Immigration and Customs Enforcement, Memorandum for the Record re: U.S. Immigration and
Customs Enforcement Data Regarding Detention,
Alternatives to Detention Enrollment, and Removals as of December 23, 2018, Related to Rulemaking Entitled, Procedures to Implement Section
235(b)(2)(C) of the Immigration and Nationality
Act (A.R. 575, RIN 1651-AB13) ..................................... 317
Executive Office for Immigration Review, Statistics
Yearbook, Fiscal Year 2017 (A.R. 628) ......................... 319

III
Table of Contents—Continued:

Page

Excerpt from Muzaffar Chisti & Faye Hipsman,
Dramatic Surge in the Arrival of Unaccompanied
Children Has Deep Roots and No Simple Solutions, Migration Policy Institute (June 13, 2014)
(A.R. 699) ........................................................................ 366
Excerpt from Geoffrey A. Hoffman, Symposium: The
U.S.-Mexico Relationship in International Law
and Politics, Contiguous Territories: The Expanded Use of “Expedited Removal” in the Trump
Era, 33 Md. J. Int’l Law 268 (2018) (A.R. 712) ............ 370
Excerpt from Nick Miroff & Carolyn Van Houten,
The border is tougher to cross than ever.
But there’s still one way into America,
Wash. Post. (Oct. 24, 2018) (A.R. 730) .......................... 377
Barnini Chakraborty, San Diego non-profits running
out of space for migrant caravan asylum seekers,
Fox News (Dec. 7, 2018) (A.R. 742) .............................. 379
Christopher Sherman, ‘We’re heading north!’
Migrants nix offer to stay in Mexico, Associated
Press (Oct. 27, 2018) (A.R. 770) ..................................... 386
Excerpt from Medecins Sans Frontieres, Forced
to Flee Central America’s Northern Triangle:
A Neglected Humanitarian Crisis (June 14, 2017)
(A.R. 775) ........................................................................ 392
Excerpt from Congressional Research Service,
Unaccompanied Alien Children: Potential Factors
Contributing to Recent Immigration (July 3, 2014)
(A.R. 807) ........................................................................ 417
Letter from Congresswoman Grace Meng, et al. to
President Donald J. Trump re “Remain in Mexico”
(Nov. 30, 2018) (A.R. 834) .............................................. 422

IV
Table of Contents—Continued:

Page

Volume 2
Complaint for declaratory and injunctive relief
(D. Ct. Doc. 1) (Feb. 14, 2019) ....................................... 425
Declaration of John Doe, attached to administrative
motion for leave to proceed pseudonymously
(D. Ct. Doc. 5-1) (Feb. 15, 2019) .................................... 477
Declaration of Gregory Doe, attached to administrative motion for leave to proceed pseudonymously
(D. Ct. Doc. 5-2) (Feb. 15, 2019) .................................... 487
Declaration of Bianca Doe, attached to administrative motion for leave to proceed pseudonymously
(D. Ct. Doc. 5-3) (Feb. 15, 2019) .................................... 496
Declaration of Dennis Doe, attached to administrative motion for leave to proceed pseudonymously
(D. Ct. Doc. 5-4) (Feb. 15, 2019) .................................... 508
Declaration of Evan Doe, attached to administrative
motion for leave to proceed pseudonymously
(D. Ct. Doc. 5-7) (Feb. 15, 2019) .................................... 517
Declaration of Frank Doe, attached to administrative
motion for leave to proceed pseudonymously
(D. Ct. Doc. 5-8) (Feb. 15, 2019) .................................... 525
Declaration of Kevin Doe, attached to administrative
motion for leave to proceed pseudonymously
(D. Ct. Doc. 5-9) (Feb. 15, 2019) .................................... 535
U.S. Dep’t of State, Mexico 2017 Human Rights
Report, attached to Declaration of Rubi Rodriguez
in support of motion for temporary restraining
order (D. Ct. Doc. 20-3) (Feb. 20, 2019) ........................ 543

V
Table of Contents—Continued:

Page

Amnesty Int’l., Overlooked, Under Protected:
Mexico’s Deadly Refoulement of Central Americans Seeking Asylum (Jan. 2018), attached to
Declaration of Rubi Rodriguez in support of
motion for temporary restraining order
(D. Ct. Doc. 20-3) (Feb. 20, 2019) .................................. 602
Human Rights First, A Sordid Scheme: The Trump
Administration’s Illegal Return of Asylum Seekers
to Mexico (Feb. 2019), attached to Declaration of
Rubi Rodriguez in support of motion for temporary restraining order (D. Ct. Doc. 20-3) (Feb. 20,
2019) ................................................................................ 647
Declaration of Rena Cutlip-Mason, Tahirih Justice
Center, in support of motion for temporary
restraining order (D. Ct. Doc. 20-4) (Feb. 20, 2019).... 683
Declaration of Eleni Wolfe-Roubatis, Centro Legal
de la Raza, in support of motion for temporary
restraining order (D. Ct. Doc. 20-5) (Feb. 20, 2019).... 696
First Declaration of Stephen Manning, Innovation
Law Lab, in support of motion for temporary restraining order (D. Ct. Doc. 20-6) (Feb. 20, 2019) ....... 706
Declaration of Nicole Ramos, Al Otro Lado, in support of motion for temporary restraining order
(D. Ct. Doc. 20-7) (Feb. 20, 2019) .................................. 718
Declaration of Laura Sanchez, CARECEN of Northern California, in support of motion for temporary
restraining order (D. Ct. Doc. 20-8) (Feb. 20, 2019).... 737
Declaration of Jacqueline Brown Scott, University of
San Francisco School of Law Immigration Deportation and Defense Clinic, in support of motion for
temporary restraining order (D. Ct. Doc. 20-9)
(Feb. 20, 2019)................................................................. 750

VI
Table of Contents—Continued:

Page

Declaration of Adam Isacson in support of motion for
temporary restraining order (D. Ct. Doc. 20-10)
(Feb. 20, 2019)................................................................. 760
Declaration of Kathryn Shepherd in support of motion for temporary restraining order (D. Ct. Doc.
20-11) (Feb. 20, 2019) ..................................................... 767
Declaration of Daniella Burgi-Palomino in support of
motion for temporary restraining order (D. Ct.
Doc. 20-13) (Feb. 20, 2019)............................................. 778
Second Declaration of Stephen Manning in support of
motion for temporary restraining order (D. Ct.
Doc. 20-14) (Feb. 20, 2019)............................................. 785
Declaration of Jeremy Slack in support of motion for
temporary restraining order (D. Ct. Doc. 20-17)
(Feb. 20, 2019)................................................................. 790
Excerpt of Notice to Appear – Alex Doe (Jan. 30,
2019), attached to administrative motion to file
under seal (D. Ct. Doc. 44-3) (Mar. 1, 2019) ................. 832
Excerpt of Notice to Appear – Bianca Doe (Jan. 30,
2019), attached to administrative motion to file
under seal (D. Ct. Doc. 44-3) (Mar. 1, 2019) ................. 845
Excerpt of Notice to Appear – Christopher Doe
(Jan. 30, 2019), attached to administrative motion
to file under seal (D. Ct. Doc. 44-3) (Mar. 1, 2019) ...... 851
Excerpt of Notice to Appear – Dennis Doe (Jan. 30,
2019), attached to administrative motion to file under seal (D. Ct. Doc. 44-3) (Mar. 1, 2019) ..................... 861
Excerpt of Notice to Appear – Evan Doe (Jan. 30,
2019), attached to administrative motion to file under seal (D. Ct. Doc. 44-3) (Mar. 1, 2019) ..................... 874
Excerpt of Notice to Appear – Frank Doe (Feb. 3,
2019), attached to administrative motion to file
under seal (D. Ct. Doc. 44-3) (Mar. 1, 2019) ................. 883

VII
Table of Contents—Continued:

Page

Excerpt of Notice to Appear – Gregory Doe (Jan. 30,
2019), attached to administrative motion to file
under seal (D. Ct. Doc. 44-3) (Mar. 1, 2019) ................. 896
Excerpt of Notice to Appear – Howard Doe (Feb. 4,
2019), attached to administrative motion to file
under seal (D. Ct. Doc. 44-3) (Mar. 1, 2019) ................. 909
Excerpt of Notice to Appear – Ian Doe (Feb. 4, 2019),
attached to administrative motion to file under
seal (D. Ct. Doc. 44-3) (Mar. 1, 2019) ............................ 919
Excerpt of Notice to Appear – John Doe (Jan. 30,
2019), attached to administrative motion to file
under seal (D. Ct. Doc. 44-3) (Mar. 1, 2019) ................. 929
Excerpt of Notice to Appear – Kevin Doe (Jan. 30,
2019), attached to administrative motion to file
under seal (D. Ct. Doc. 44-3) (Mar. 1, 2019) ................. 942

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

Docket No. 19-15716
INNOVATION LAW LAB; CENTRAL AMERICAN
RESOURCE CENTER OF NORTHERN CALIFORNIA;
CENTRO LEGAL DE LA RAZA; UNIVERSITY OF SAN
FRANCISCO SCHOOL OF LAW IMMIGRATION AND
DEPORTATION DEFENSE CLINIC; AL OTRO LADO;
TAHIRIH JUSTICE CENTER, PLAINTIFFS-APPELLEES
v.
CHAD F. WOLF, ACTING SECRETARY OF HOMELAND
SECURITY, IN HIS OFFICIAL CAPACITY; U.S.
DEPARTMENT OF HOMELAND SECURITY; KENNETH T.
CUCCINELLI, DIRECTOR, U.S. CITIZENSHIP AND
IMMIGRATION SERVICES, IN HIS OFFICIAL CAPACITY;
ANDREW DAVIDSON, CHIEF OF ASYLUM DIVISION, U.S.
CITIZENSHIP AND IMMIGRATION SERVICES, IN HIS
OFFICIAL CAPACITY; UNITED STATES CITIZENSHIP AND
IMMIGRATION SERVICES; TODD C. OWEN, EXECUTIVE
ASSISTANT COMMISSIONER, OFFICE OF FIELD
OPERATIONS, U.S. CUSTOMS AND BORDER PROTECTION,
IN HIS OFFICIAL CAPACITY; U.S. CUSTOMS AND BORDER
PROTECTION; MATTHEW ALBENCE, ACTING DIRECTOR,
U.S. IMMIGRATION AND CUSTOMS ENFORCEMENT,
IN HIS OFFICIAL CAPACITY; US IMMIGRATION AND
CUSTOMS ENFORCEMENT, DEFENDANTS-APPELLANTS
DOCKET ENTRIES
DATE

4/10/19

DOCKET
NUMBER PROCEEDINGS

1

DOCKETED CAUSE AND ENTERED APPEARANCES OF
COUNSEL. SEND MQ: Yes.
(1)

2

DATE

DOCKET
NUMBER PROCEEDINGS

The schedule is set as follows:
Mediation Questionnaire due on
04/17/2019. Transcript ordered
by 05/10/2019. Transcript due
06/10/2019.
Appellants Lee
Francis Cissna, John L. Lafferty,
Kevin K. McAleenan, Kirstjen
Nielsen, Todd C. Owen, U.S. Customs and Border Protection, U.S.
Department of Homeland Security, US Immigration and Customs Enforcement, United States
Citizenship and Immigration Services and Ronald D. Vitiello opening brief due 07/19/2019. Appellees Al Otro Lado, Central American Resource Center of Northern California, Centro Legal De
La Raza, Innovation Law Lab,
Tahirih Justice Center and University of San Francisco School of
Law Immigration and Deportation Defense Clinic answering
brief due 08/19/2019.
Appellant’s optional reply brief is due
21 days after service of the answering brief due 08/19/2019.
[11259911]
(JMR)
[Entered:
04/10/2019 03:53 PM]
*

*

*

*

*

3

DATE

DOCKET
NUMBER PROCEEDINGS

4/11/19

3

4/12/19

4

4/12/19

5

Filed (ECF) Appellants Lee
Francis Cissna, John L. Lafferty,
Kevin K. McAleenan, Kirstjen
Nielsen, Todd C. Owen, U.S. Customs and Border Protection, US
Immigration and Customs Enforcement, USCIS, USDHS and
Ronald D. Vitiello EMERGENCY
Motion to stay lower court action.
Date of service:
04/11/2019.
[11261528] [19-15716] (Reuveni,
Erez) [Entered:
04/11/2019
09:03 PM]
Filed (ECF) Appellees Al Otro
Lado, Central American Resource Center of Northern California, Centro Legal De La Raza,
Innovation Law Lab, Tahirih Justice Center and University of San
Francisco School of Law Immigration and Deportation Defense
Clinic response opposing motion
([3] Motion (ECF Filing), [3] Motion (ECF Filing)). Date of service:
04/12/2019.
[11261704]
[19-15716] (Rabinovitz, Judy)
[Entered: 04/12/2019 09:08 AM]
Filed (ECF) Appellants US Immigration and Customs Enforcement, Lee Francis Cissna, John
L. Lafferty, Kevin K. McAleenan,

4

DATE

DOCKET
NUMBER PROCEEDINGS

4/12/19

6

4/15/19

7

Kirstjen Nielsen, Todd C. Owen,
U.S. Customs and Border Protection, USCIS, USDHS and Ronald
D. Vitiello reply to response ().
Date of service:
04/12/2019.
[11262595] [19-15716] (Reuveni,
Erez) [Entered:
04/12/2019
03:25 PM]
Filed order (DIARMUID F.
O’SCANNLAIN, WILLIAM A.
FLETCHER and PAUL J. WATFORD) The court has received
appellants’ emergency motion for
a stay. The district court’s April
8, 2019 preliminary injunction order is temporarily stayed pending
resolution of the emergency stay
motion. The opposition to the
emergency motion is due at 9:00
a.m. Pacific Time on April 16,
2019. The optional reply in support of the emergency motion is
due at 9:00 a.m. Pacific Time on
April 17, 2019. [11262714] (ME)
[Entered: 04/12/2019 04:16 PM]
Filed (ECF) Appellants Lee
Francis Cissna, John L. Lafferty,
Kevin K. McAleenan, Kirstjen
Nielsen, Todd C. Owen, U.S. Customs and Border Protection, US

5

DATE

DOCKET
NUMBER PROCEEDINGS

Immigration and Customs Enforcement, USCIS, USDHS and
Ronald D. Vitiello Mediation
Questionnaire. Date of service:
04/15/2019. [11264025] [19-15716]
(Reuveni,
Erez)
[Entered:
04/15/2019 02:10 PM]
*
4/16/19

9

4/16/19

10

* * * *
Filed (ECF) Appellees Al Otro
Lado, Central American Resource Center of Northern California, Centro Legal De La Raza,
Innovation Law Lab, Tahirih Justice Center and University of San
Francisco School of Law Immigration and Deportation Defense
Clinic response opposing motion
([3] Motion (ECF Filing), [3] Motion (ECF Filing)). Date of service:
04/16/2019.
[11264929]
[19-15716] (Rabinovitz, Judy)
[Entered: 04/16/2019 08:29 AM]
Filed (ECF) Appellees Al Otro
Lado, Central American Resource
Center of Northern California,
Centro Legal De La Raza, Innovation Law Lab, Tahirih Justice
Center and University of San
Francisco School of Law Immigration and Deportation Defense

6

DATE

4/17/19

DOCKET
NUMBER PROCEEDINGS

Clinic Correspondence: Exhibits for response to motion [9].
Date of service:
04/16/2019.
[11264934] [19-15716]—[COURT
UPDATE: Updated docket text
to reflect correct ECF filing type.
04/17/2019 by SLM] (Rabinovitz,
Judy) [Entered:
04/16/2019
08:31 AM]
Filed (ECF) Appellants Lee
Francis Cissna, John L. Lafferty,
Kevin K. McAleenan, Kirstjen
Nielsen, Todd C. Owen, U.S. Customs and Border Protection, US
Immigration and Customs Enforcement, USCIS, USDHS and
Ronald D. Vitiello reply to response( ).
Date of service:
04/17/2019. [11266493] [19-15716]
(Reuveni,
Erez)
[Entered:
04/17/2019 08:16 AM]

11

*
4/23/19

18

* * * *
Filed (ECF) Appellees Al Otro
Lado, Central American Resource Center of Northern California, Centro Legal De La Raza,
Innovation Law Lab, Tahirih Justice Center and University of San
Francisco School of Law Immigration and Deportation Defense

7

DATE

4/24/19

DOCKET
NUMBER PROCEEDINGS

Clinic citation of supplemental
authorities.
Date of service:
04/23/2019. [11274563] [19-15716]
(Rabinovitz, Judy) [Entered:
04/23/2019 05:15 PM]
Filed Audio recording of oral argument. Note: Video recordings of public argument calendars
are available on the Court’s website, at http://www.ca9.uscourts.
gov/media/[11275675] (BJK) [Entered: 04/24/2019 01:55 PM]

19

*
5/6/19

21

5/7/19

22

* * * *
Filed letter dated 05/03/2019 re:
Non party letter from Sallie E.
Shawl—misc statements in support of plaintiffs/appellees. Paper filing deficiency:
None.
[11289641]
(CW)
[Entered:
05/07/2019 02:45 PM]
Filed Per Curiam Opinion
(DIARMUID
F.
O’SCANNLAIN,
WILLIAM
A.
FLETCHER and PAUL J. WATFORD) (Concurrences by Judge
Watford and Judge Fletcher) In
January 2019, the Department of
Homeland Security (DHS) issued
the Migrant Protection Protocols

8

DATE

5/13/19

DOCKET
NUMBER PROCEEDINGS

23

(MPP), which initiated a new inspection policy along the southern border. Before the MPP,
immigration officers would typically process asylum applicants
who lack valid entry documentation for expedited removal. If
the applicant passed a credible
fear screening, DHS would either
detain or parole the individual until her asylum claim could be
heard before an immigration
judge.
(SEE OPINION FOR
FULL TEXT) The motion for a
stay
pending
appeal
is
GRANTED. [11289987] (RMM)
[Entered: 05/07/2019 04:45 PM]
Filed (ECF) Appellees Al Otro
Lado, Central American Resource Center of Northern California, Centro Legal De La Raza,
Innovation Law Lab, Tahirih Justice Center and University of San
Francisco School of Law Immigration and Deportation Defense
Clinic motion for reconsideration
of non-dispositive Judge Order of
05/07/2019.
Date of service:
05/13/2019. [11295040] [19-15716]
(Rabinovitz, Judy) [Entered:
05/13/2019 12:39 PM]

9

DATE

DOCKET
NUMBER PROCEEDINGS

*
5/22/19

26

5/22/19

27

5/23/19

28

* * * *
Submitted (ECF) Opening Brief
for review. Submitted by Appellants Lee Francis Cissna, John
L. Lafferty, Kevin K. McAleenan,
Todd C. Owen, U.S. Customs and
Border Protection, US Immigration and Customs Enforcement,
USCIS, USDHS and Ronald D.
Vitiello.
Date
of
service:
05/22/2019. [11306600] [19-15716]
(Ramkumar, Archith) [Entered:
05/22/2019 08:15 PM]
Submitted (ECF) excerpts of record. Submitted by Appellants
Lee Francis Cissna, John L. Lafferty, Kevin K. McAleenan, Todd
C. Owen, U.S. Customs and Border Protection, US Immigration
and
Customs
Enforcement,
USCIS, USDHS and Ronald D.
Vitiello.
Date
of
service:
05/22/2019. [11306603] [19-15716]
(Ramkumar, Archith) [Entered:
05/22/2019 08:22 PM]
Filed clerk order: The opening
brief [26] submitted by appellants
is filed. Within 7 days of the filing of this order, filer is ordered

10

DATE

5/24/19

DOCKET
NUMBER PROCEEDINGS

to file 7 copies of the brief in paper format, accompanied by certification (attached to the end of
each copy of the brief) that the
brief is identical to the version
submitted electronically. Cover
color: blue. The Court has reviewed the excerpts of record [27]
submitted by appellants. Within
7 days of this order, filer is ordered to file 4 copies of the excerpts in paper format securely
bound on the left side, with white
covers. The paper copies shall
be submitted to the principal office of the Clerk.
[11307022]
(LA) [Entered: 05/23/2019 10:29
AM]
Filed order (DIARMUID F.
O’SCANNLAIN, WILLIAM A.
FLETCHER and PAUL J. WATFORD): Appellees’ motion for
reconsideration of the panel’s decision to publish the stay order
(Dkt.
[23])
is
DENIED.
[11308257]
(AF)
[Entered:
05/24/2019 08:41 AM]

29

*
6/19/19

34

* * * *
Submitted (ECF) Answering
Brief for review. Submitted by

11

DATE

DOCKET
NUMBER PROCEEDINGS

6/19/19

35

6/19/19

36

Appellees Al Otro Lado, Central
American Resource Center of
Northern California, Centro Legal De La Raza, Innovation Law
Lab, Tahirih Justice Center and
University of San Francisco
School of Law Immigration and
Deportation
Defense
Clinic.
Date of service:
06/19/2019.
[11338415] [19-15716] (Rabinovitz,
Judy) [Entered:
06/19/2019
11:42 PM]
Submitted (ECF) supplemental
excerpts of record. Submitted
by Appellees Al Otro Lado, Central American Resource Center of
Northern California, Centro Legal De La Raza, Innovation Law
Lab, Tahirih Justice Center and
University of San Francisco
School of Law Immigration and
Deportation
Defense
Clinic.
Date of service:
06/19/2019.
[11338416] [19-15716]—[COURT
UPDATE: Attached corrected
PDF of excerpts. 06/20/2019 by
RY] (Rabinovitz, Judy) [Entered:
06/19/2019 11:45 PM]
Filed (ECF) Appellees Al Otro
Lado, Central American Resource
Center of Northern California,

12

DATE

6/20/19

DOCKET
NUMBER PROCEEDINGS

37

Centro Legal De La Raza, Innovation Law Lab, Tahirih Justice
Center and University of San
Francisco School of Law Immigration and Deportation Defense
Clinic Motion to take judicial
notice of.
Date of service:
06/19/2019. [11338418] [19-15716]
(Rabinovitz, Judy) [Entered:
06/19/2019 11:49 PM]
Filed clerk order: The answering brief [34] submitted by appellees is filed. Within 7 days of the
filing of this order, filer is ordered
to file 7 copies of the brief in paper format, accompanied by certification (attached to the end of
each copy of the brief) that the
brief is identical to the version
submitted electronically. Cover
color: red. The Court has reviewed the supplemental excerpts
of record [35] submitted by appellees. Within 7 days of this order,
filer is ordered to file 4 copies of
the excerpts in paper format securely bound on the left side, with
white
covers.
The
paper
copies shall be submitted to the
principal office of the Clerk.

13

DATE

DOCKET
NUMBER PROCEEDINGS

[11339490]
(KT)
06/20/2019 02:32 PM]
6/26/19

*

* * * *
Submitted (ECF) Amicus brief
for review (by government or with
consent per FRAP 29(a)). Submitted by LOCAL 1924. Date of
service: 06/26/2019. [11345407]
[19-15716] (Mangi, Adeel) [Entered: 06/26/2019 01:33 PM]

*

* * * *
Filed clerk order: The amicus
brief [39] submitted by Local
1924 is filed. Within 7 days of
the filing of this order, filer is ordered to file 7 copies of the brief
in paper format, accompanied by
certification (attached to the end
of each copy of the brief) that the
brief is identical to the version
submitted electronically. Cover
color: green. The paper copies
shall be submitted to the principal
office of the Clerk. [11345524]
(LA)
[Entered:
06/26/2019
02:05 PM]
Submitted (ECF) Amicus brief
for review (by government or
with consent per FRAP 29(a)).

39

6/26/19

41

6/26/19

43

[Entered:

14

DATE

6/26/19

DOCKET
NUMBER PROCEEDINGS

Submitted by Former U.S. Government Officials. Date of service:
06/26/2019.
[11345820]
[19-15716] (Schoenfeld, Alan)
[Entered: 06/26/2019 03:29 PM]
Submitted (ECF) Amicus brief
for review (by government or
with consent per FRAP 29(a)).
Submitted by Amnesty International, The Washington Office on
Latin America, The Latin America Working Group, and The Institute for Women in Migration
(“IMUMI”).
Date of service:
06/26/2019. [11345933] [19-15716]
(Wang,
Xiao)
[Entered:
06/26/2019 04:05 PM]

44

*
6/26/19

46

* * * *
Filed clerk order: The amicus
brief [43] submitted by Former
U.S. Government Officials is
filed. Within 7 days of the filing
of this order, filer is ordered to
file 7 copies of the brief in paper
format, accompanied by certification (attached to the end of each
copy of the brief) that the brief is
identical to the version submitted
electronically.
Cover color:
green. The paper copies shall be

15

DATE

DOCKET
NUMBER PROCEEDINGS

6/26/19

47

6/26/19

48

submitted to the principal office
of the Clerk. [11346140] (LA)
[Entered: 06/26/2019 05:44 PM]
Filed clerk order: The amicus
brief [44] submitted by Amnesty
International-USA, Washington
Office on Latin America, Latin
America Working Group, and
IMUMI is filed. Within 7 days of
the filing of this order, filer is ordered to file 7 copies of the brief
in paper format, accompanied by
certification (attached to the end
of each copy of the brief) that the
brief is identical to the version
submitted electronically. Cover
color: green. The paper copies
shall be submitted to the principal
office of the Clerk. [11346144]
(LA) [Entered: 06/26/2019 05:45
PM]
Submitted (ECF) Amicus brief
for review (by government or
with consent per FRAP 29(a)).
Submitted by The Office of the
United Nations High Commissioner for Refugees.
Date of
service: 06/26/2019. [11346192]
[19-15716]—[COURT UPDATE:
Attached corrected PDF of brief,

16

DATE

6/26/19

DOCKET
NUMBER PROCEEDINGS

removed unnecessary motion, updated docket text to reflect content of filing. 07/02/2019 by LA]
(Reyes,
Ana)
[Entered:
06/26/2019 07:00 PM]
Submitted (ECF) Amicus brief
for review (by government or
with consent per FRAP 29(a)).
Submitted by HUMAN RIGHTS
FIRST.
Date
of
service:
06/26/2019.
[11346211] [1915716] (Igra, Naomi) [Entered:
06/26/2019 10:05 PM]

49

*
6/27/19

51

* * * *
Filed clerk order: The amicus
brief [49] submitted by Human
Rights First is filed. Within 7
days of the filing of this order,
filer is ordered to file 7 copies of
the brief in paper format, accompanied by certification (attached
to the end of each copy of the
brief) that the brief is identical to
the version submitted electronically.
Cover color:
green.
The paper copies shall be submitted to the principal office of the
Clerk.
[11346596] (LA) [Entered: 06/27/2019 10:24 AM]

17

DATE

7/2/19

7/10/19

DOCKET
NUMBER PROCEEDINGS

*

* * * *
Filed clerk order: The amicus
brief [48] submitted by Office of
the United Nations High Commissioner for Refugees is filed.
Within 7 days of the filing of this
order, filer is ordered to file 7 copies of the brief in paper format,
accompanied by certification (attached to the end of each copy of
the brief) that the brief is identical to the version submitted electronically. Cover color: green.
The paper copies shall be submitted to the principal office of the
Clerk.
[11352606] (LA) [Entered: 07/02/2019 03:28 PM]

*

* * * *
Submitted (ECF) Reply Brief for
review.
Submitted by Appellants Lee Francis Cissna, John L.
Lafferty, Kevin K. McAleenan,
Todd C. Owen, U.S. Customs
and Border Protection, US Immigration and Customs Enforcement, USCIS, USDHS and
Ronald D. Vitiello. Date of service:
07/10/2019.
[11359989]

56

59

18

DATE

7/11/19

DOCKET
NUMBER PROCEEDINGS

[19-15716] (Reuveni, Erez) [Entered: 07/10/2019 07:27 PM]
Filed clerk order:
The reply
brief [59] submitted by appellants
is filed. Within 7 days of the filing of this order, filer is ordered
to file 7 copies of the brief in paper format, accompanied by certification (attached to the end of
each copy of the brief) that the
brief is identical to the version
submitted electronically. Cover
color: gray. The paper copies
shall be submitted to the principal
office of the Clerk. [11360213]
(LA) [Entered: 07/11/2019 09:32
AM]

60

*
10/1/19

70

10/1/19

71

* * * *
ARGUED AND SUBMITTED
TO FERDINAND F. FERNANDEZ, WILLIAM A. FLETCHER and RICHARD A. PAEZ.
[11450728]
(ER)
[Entered:
10/01/2019 05:35 PM]
Filed Audio recording of oral argument. Note: Video recordings of public argument calendars
are available on the Court’s website, at http://www.ca9.uscourts.

19

DATE

DOCKET
NUMBER PROCEEDINGS

10/3/19

72

10/30/19

73

10/31/19

74

gov/media/ [11451490] (BJK)
[Entered: 10/02/2019 12:10 PM]
Filed (ECF) Appellees Al Otro
Lado, Central American Resource Center of Northern California, Centro Legal De La Raza,
Innovation Law Lab, Tahirih Justice Center and University of San
Francisco School of Law Immigration and Deportation Defense
Clinic Correspondence:
Plaintiffs’ correction to representation
made in oral argument. Date of
service:
10/03/2019 [11452728]
[19-15716] (Rabinovitz, Judy)
[Entered: 10/03/2019 10:48 AM]
Filed (ECF) Appellants Lee
Francis Cissna, John L. Lafferty,
Kevin K. McAleenan, Todd C.
Owen, U.S. Customs and Border
Protection, US Immigration and
Customs Enforcement, USCIS,
USDHS and Ronald D. Vitiello citation of supplemental authorities. Date of service: 10/30/2019.
[11483551] [19-15716] (Reuveni,
Erez) [Entered:
10/30/2019
02:13 PM]
Filed (ECF) Appellees Al Otro
Lado, Central American Resource

20

DATE

DOCKET
NUMBER PROCEEDINGS

11/13/19

75

11/14/19

76

Center of Northern California,
Centro Legal De La Raza, Innovation Law Lab, Tahirih Justice
Center and University of San
Francisco School of Law Immigration and Deportation Defense
Clinic citation of supplemental
authorities.
Date of service:
10/31/2019. [11485256] [19-15716]
(Rabinovitz, Judy) [Entered:
10/31/2019 03:18 PM]
Filed (ECF) Appellees Al Otro
Lado, Central American Resource Center of Northern California, Centro Legal De La Raza,
Innovation Law Lab, Tahirih Justice Center and University of San
Francisco School of Law Immigration and Deportation Defense
Clinic citation of supplemental
authorities.
Date of service:
11/13/2019. [11497729] [19-15716]
(Rabinovitz, Judy) [Entered:
11/13/2019 01:24 PM]
Filed (ECF) Appellants Lee
Francis Cissna, John L. Lafferty,
Kevin K. McAleenan, Todd C.
Owen, U.S. Customs and Border
Protection, US Immigration and
Customs Enforcement, USCIS,

21

DATE

DOCKET
NUMBER PROCEEDINGS

USDHS and Ronald D. Vitiello citation of supplemental authorities.
Date of service:
11/14/2019.
[11499071] [19-15716] (Reuveni,
Erez) [Entered: 11/14/2019 12:11
PM]
*
11/21/19

81

11/26/19

82

* * * *
Filed (ECF) Appellees Al Otro
Lado, Central American Resource Center of Northern California, Centro Legal De La Raza,
Innovation Law Lab, Tahirih Justice Center and University of San
Francisco School of Law Immigration and Deportation Defense
Clinic citation of supplemental
authorities.
Date of service:
11/21/2019. [11506691] [19-15716]
(Rabinovitz, Judy) [Entered:
11/21/2019 09:44 AM]
Filed (ECF) Appellants Lee
Francis Cissna, John L. Lafferty,
Kevin K. McAleenan, Todd C.
Owen, U.S. Customs and Border
Protection, US Immigration and
Customs Enforcement, USCIS,
USDHS and Ronald D. Vitiello citation of supplemental authorities. Date of service: 11/26/2019.
[11512235] [19-15716] (Reuveni,

22

DATE

DOCKET
NUMBER PROCEEDINGS

12/2/19

83

12/3/19

84

Erez) [Entered:
11/26/2019
06:30 AM]
Filed (ECF) Appellants Lee
Francis Cissna, John L. Lafferty,
Kevin K. McAleenan, Todd C.
Owen, U.S. Customs and Border
Protection, US Immigration and
Customs Enforcement, USCIS,
USDHS and Ronald D. Vitiello
citation of supplemental authorities. Date of service: 12/02/2019.
[11516626] [19-15716] (Reuveni,
Erez) [Entered:
12/02/2019
06:29 AM]
Filed (ECF) Appellees Al Otro
Lado, Central American Resource Center of Northern California, Centro Legal De La Raza,
Innovation Law Lab, Tahirih Justice Center and University of San
Francisco School of Law Immigration and Deportation Defense
Clinic citation of supplemental
authorities.
Date of service:
12/03/2019. [11519502] [19-15716]
(Rabinovitz, Judy) [Entered:
12/03/2019 01:59 PM]
*

*

*

*

*

23

DATE

DOCKET
NUMBER PROCEEDINGS

2/28/20

87

2/28/20

88

2/28/20

89

Appellants Kevin K. McAleenan,
Lee Francis Cissna, John L. Lafferty and Ronald D. Vitiello in
19-15716 substituted by Appellants Chad F. Wolf, Kenneth T.
Cuccinelli, Andrew Davidson and
Matthew Albence in 19-15716
[11612131]
(TYL)
[Entered:
02/28/2020 08:47 AM]
Filed order (FERDINAND F.
FERNANDEZ, WILLIAM A.
FLETCHER and RICHARD A.
PAEZ) Appellees’ motion for judicial notice (Dkt. Entry 36) is
hereby GRANTED. [11612163]
(AKM) [Entered:
02/28/2020
08:57 AM]
FILED OPINION (FERDINAND F. FERNANDEZ, WILLIAM A. FLETCHER and
RICHARD A. PAEZ) We lift
the emergency stay imposed by
the motions panel, and we affirm
the decision of the district
court.
AFFIRMED.
Judge:
FFF Dissenting, Judge: WAF
Authoring. FILED AND ENTERED JUDGMENT. [11612187]
—[Edited 02/28/2020 (attached
corrected PDF—typos corrected)
by AKM]—[Edited 03/02/2020

24

DATE

DOCKET
NUMBER PROCEEDINGS

2/28/20

90

2/28/20

91

(attached corrected PDF—additional typos corrected) by AKM]
(AKM) [Entered: 02/28/2020
09:08 AM]
Filed (ECF) Appellants Matthew
Albence, Kenneth T. Cuccinelli,
Andrew Davidson, Todd C. Owen,
U.S. Customs and Border Protection, US Immigration and Customs
Enforcement,
USCIS,
USDHS and Chad F. Wolf
EMERGENCY Motion for miscellaneous relief [Emergency motion under Circuit Rule 27-3 for
an immediate stay pending disposition of petition for certiorari or
an immediate administrative stay].
Date of service:
02/28/2020.
[11613665] [19-15716] (Reuveni,
Erez) [Entered:
02/28/2020
05:21 PM]
Filed (ECF) Appellants Matthew
Albence, Kenneth T. Cuccinelli,
Andrew Davidson, Todd C. Owen,
US Immigration and Customs
Enforcement, USCIS, USDHS
and Chad F. Wolf EMERGENCY
Motion for miscellaneous relief
[(CORRECTED)
Emergency
motion under Circuit Rule 27-3
for an immediate stay pending

25

DATE

DOCKET
NUMBER PROCEEDINGS

2/28/20

92

2/28/20

93

disposition of petition for certiorari or an immediate administrative stay].
Date of service:
02/28/2020.
[11613675] [1915716] (Reuveni, Erez) [Entered:
02/28/2020 05:28 PM]
Filed (ECF) Appellants Matthew
Albence, Kenneth T. Cuccinelli,
Andrew Davidson, Todd C. Owen,
US Immigration and Customs
Enforcement, U.S. Customs and
Border Protection, USCIS and
Chad F. Wolf EMERGENCY
Motion for miscellaneous relief
[CORRECTED (operative version) Emergency motion under
Circuit Rule 27-3 for an immediate stay pending disposition of petition for certiorari or an immediate administrative stay]. Date
of
service:
02/28/2020.
[11613700] [19-15716] (Reuveni,
Erez) [Entered:
02/28/2020
05:50 PM]
Filed order (FERDINAND F.
FERNANDEZ, WILLIAM A.
FLETCHER and RICHARD A.
PAEZ) The emergency request
for an immediate stay of this
court’s February 28, 2020 deci-

26

DATE

DOCKET
NUMBER PROCEEDINGS

3/2/20

94

3/3/20

95

sion pending disposition of a petition for certiorari is granted
pending further order of this
court. Appellees are directed to
file a response by the close of
business on Monday, March 2,
2020. Any reply is due by the
close of business on Tuesday,
March 3, 2020.—[COURT UPDATE—replaced order with corrected version, corrected typo—
02/28/2020 by SVG][11613715]
(SVG) [Entered:
02/28/2020
07:05 PM]
Filed (ECF) Appellees Al Otro
Lado, Central American Resource Center of Northern California, Centro Legal De La Raza,
Innovation Law Lab, Tahirih Justice Center and University of San
Francisco School of Law Immigration and Deportation Defense
Clinic response to motion ([92]
Motion (ECF Filing), [92] Motion
(ECF Filing)). Date of service:
03/02/2020. [11615573] [19-15716]
(Rabinovitz, Judy) [Entered:
03/02/2020 04:42 PM]
Filed (ECF) Appellants Matthew
Albence, Kenneth T. Cuccinelli,
Andrew Davidson, Todd C. Owen,

27

DATE

3/4/20

DOCKET
NUMBER PROCEEDINGS

96

U.S. Customs and Border Protection, US Immigration and Customs
Enforcement,
USCIS,
USDHS and Chad F. Wolf reply
to response (). Date of service:
03/03/2020. [11617160] [19-15716]
(Reuveni,
Erez)
[Entered:
03/03/2020 04:34 PM]
Filed Order for PUBLICATION
(FERDINAND F. FERNANDEZ, WILLIAM A. FLETCHER and RICHARD A. PAEZ)
(Partial Concurrence & Partial
Dissent by Judge Fernandez) We
stay, pending disposition of the
Government’s petition for certiorari, the district court’s injunction insofar as it operates outside
the Ninth Circuit. We decline to
stay, pending disposition of the
Government’s petition for certiorari, the district court’s injunction against the MPP insofar as it
operates within the Ninth Circuit.
The Government has requested in
its March 3 reply brief, in the
event we deny any part of their
request for a stay, that we “extend the [administrative] stay by
at least seven days, to March 10,
to afford the Supreme Court an

28

DATE

3/11/20

DOCKET
NUMBER PROCEEDINGS

97

orderly opportunity for review.”
We grant the Government’s request and extend our administrative stay entered on Friday, February 28, until Wednesday, March
11. If the Supreme Court has
not in the meantime acted to reverse or otherwise modify our decision, our partial grant and partial denial of the Government’s
request for a stay of the district
court’s injunction, as described
above, will take effect on Thursday, March 12. So ordered on
March 4, 2020.
[11618488]—
[Edited 03/11/2020 (attached
reformatted pdf) by AKM]
(AKM) [Entered:
03/04/2020
03:56 PM]
Received copy of US Supreme
Court order filed on 03/11/2020—.
The application for stay presented to Justice Kagan and by
her referred to the Court is granted,
and the district court’s April 8,
2019 order granting a preliminary injunction is stayed pending
the timely filing and disposition of
a petition for a writ of certiorari.
Should the petition for a writ of
certiorari be denied, this stay

29

DATE

DOCKET
NUMBER PROCEEDINGS

shall terminate automatically.
In the event the petition for a writ
of certiorari is granted, the stay
shall terminate upon the sending
down of the judgment of this
Court. Justice Sotomayor would
deny the application. PANEL
[11626152]
(CW)
[Entered:
03/11/2020 11:41 AM]
*
4/15/20

99

10/19/20

100

*

*

*

*

Supreme Court Case Info Case

number:
19-1212 Filed on:
04/10/2020 Cert Petition Action 1:
Pending [11661959] (RR) [Entered: 04/15/2020 01:51 PM]
Supreme Court Case Info Case
number:
19-1212 Filed on:
04/10/2020 Cert Petition Action 1:
Granted, 10/19/2020 [11864022]
(JFF) [Entered:
10/19/2020
02:44 PM]
*

*

*

*

*

30
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF CALIFORNIA
(SAN FRANCISCO)

Docket No. 3:19-cv-00807-RS
INNOVATION LAW LAB; CENTRAL AMERICAN
RESOURCE CENTER OF NORTHERN CALIFORNIA;
CENTRO LEGAL DE LA RAZA; UNIVERSITY OF SAN
FRANCISCO SCHOOL OF LAW IMMIGRATION AND
DEPORTATION DEFENSE CLINIC; AL OTRO LADO;
TAHIRIH JUSTICE CENTER, PLAINTIFFS-APPELLEES
v.
CHAD F. WOLF, ACTING SECRETARY OF HOMELAND
SECURITY, IN HIS OFFICIAL CAPACITY; U.S.
DEPARTMENT OF HOMELAND SECURITY; KENNETH T.
CUCCINELLI, DIRECTOR, U.S. CITIZENSHIP AND
IMMIGRATION SERVICES, IN HIS OFFICIAL CAPACITY;
ANDREW DAVIDSON, CHIEF OF ASYLUM DIVISION, U.S.
CITIZENSHIP AND IMMIGRATION SERVICES, IN HIS
OFFICIAL CAPACITY; UNITED STATES CITIZENSHIP AND
IMMIGRATION SERVICES; TODD C. OWEN, EXECUTIVE
ASSISTANT COMMISSIONER, OFFICE OF FIELD
OPERATIONS, U.S. CUSTOMS AND BORDER PROTECTION,
IN HIS OFFICIAL CAPACITY; U.S. CUSTOMS AND BORDER
PROTECTION; MATTHEW ALBENCE, ACTING DIRECTOR,
U.S. IMMIGRATION AND CUSTOMS ENFORCEMENT,
IN HIS OFFICIAL CAPACITY; US IMMIGRATION AND
CUSTOMS ENFORCEMENT, DEFENDANTS-APPELLANTS
DOCKET ENTRIES
DATE

2/14/19

DOCKET
NUMBER PROCEEDINGS

1

COMPLAINT for Declaratory
and Injunctive Relief against Lee

31

DATE

2/14/19

DOCKET
NUMBER PROCEEDINGS

2

Francis Cissna, John Lafferty,
Kevin K. McAleenan, Kirstjen
Nielsen, Todd C. Owen, U.S. Citizenship and Immigration Services, U.S. Customs and Border
Protection, U.S. Department of
Homeland Security, U.S. Immigration and Customs Enforcement, Ronald D. Vitello (Filing
fee $400.00, receipt number 097113093503.).
Filed by Central
American Resource Center of
Northern California, Innovation
Law Lab, Tahirih Justice Center,
Centro Legal de la Raza, Immigration and Deportation Defense
Clinic at the University of San
Francisco School of Law, Al Otro
Lado. (Attachments: # 1 Civil
Cover Sheet) (Newell, Jennifer)
(Filed on 2/14/2019) Modified on
2/22/2019
(gbaS,
COURT
STAFF). (Entered: 02/14/2019)
Case assigned to Magistrate Judge
Joseph C. Spero.
Counsel for plaintiff or the removing party is responsible for
serving the Complaint or Notice
of Removal, Summons and the assigned judge’s standing orders
and all other new case documents

32

DATE

DOCKET
NUMBER PROCEEDINGS

upon the opposing parties. For
information, visit E-Filing A New
Civil Case at http://cand.uscourts.
gov/ecf/caseopening.
Standing orders can be downloaded from the court’s web page
at www.cand.uscourts.gov/judges.
Upon receipt, the summons will
be issued and returned electronically.
Counsel is required to
send chambers a copy of the initiating documents pursuant to L.R.
5-1(e)(7).
A scheduling order
will be sent by Notice of Electronic Filing (NEF) within two business days. Consent/Declination
due by 2/28/2019. (as, COURT
STAFF) (Filed on 2/14/2019) (Entered: 02/14/2019)
*
2/14/19

4

* * * *
ADMINISTRATIVE MOTION
for Leave to Proceed Pseudonymously filed by Al Otro Lado,
Central American Resource Center of Northern California, Centro Legal de la Raza, Immigration
and Deportation Defense Clinic
at the University of San Francisco School of Law, Innovation
Law Lab, Tahirih Justice Center.

33

DATE

2/15/19

DOCKET
NUMBER PROCEEDINGS

5

Responses due by 2/19/2019.
(Attachments: # 1 Declaration,
# 2 Proposed Order)(Newell,
Jennifer) (Filed on 2/14/2019)
(Entered: 02/14/2019)
Declaration of John Doe; Gregory
Doe; Bianca Doe; Dennis Doe;
Alex Doe; Christopher Doe; Evan
Doe; Frank Doe; Kevin Doe;
Howard Doe; Ian Doe in Support
of 4 ADMINISTRATIVE MOTION for Leave to Proceed Pseudonymously filed by Al Otro Lado,
Central American Resource Center of Northern California, Centro Legal de la Raza, Immigration
and Deportation Defense Clinic
at the University of San Francisco School of Law, Innovation
Law Lab, Tahirih Justice Center.
(Attachments: # 1 Declaration
of John Doe, # 2 Declaration of
Gregory Doe, # 3 Declaration of
Bianca Doe, # 4 Declaration of
Dennis Doe, # 5 Declaration of
Alex Doe, # 6 Declaration of
Christopher Doe, # 7 Declaration
of Evan Doe, # 8 Declaration of
Frank Doe, # 9 Declaration of
Kevin Doe, # 10 Declaration of
Howard Doe, # 11 Declaration of

34

DATE

DOCKET
NUMBER PROCEEDINGS

Ian Doe) (Related document(s) 4)
(Newell, Jennifer) (Filed on
2/15/2019) (Entered: 02/15/2019)
2/15/19

2/15/19

*

* * * *
CONSENT/DECLINATION to
Proceed Before a US Magistrate
Judge by Al Otro Lado, Central
American Resource Center of
Northern California, Centro Legal de la Raza, Immigration and
Deportation Defense Clinic at the
University of San Francisco
School of Law, Innovation Law
Lab, Tahirih Justice Center..
(Newell, Jennifer) (Filed on
2/15/2019) (Entered: 02/15/2019)

*

* * * *
CONSENT/DECLINATION to
Proceed Before a US Magistrate
Judge by Al Otro Lado, Central
American Resource Center of
Northern California, Centro Legal de la Raza, Immigration and
Deportation Defense Clinic at the
University of San Francisco
School of Law, Innovation Law
Lab, Tahirih Justice Center..
(Newell, Jennifer) (Filed on
2/15/2019) (Entered: 02/15/2019)

10

12

35

DATE

DOCKET
NUMBER PROCEEDINGS

*
2/19/19

14

*
2/19/19

19

*

*

*

*

ORDER, Case reassigned to Judge
Richard
Seeborg.
Magistrate
Judge Joseph C. Spero no longer
assigned to the case. This case is
assigned to a judge who participates in the Cameras in the Courtroom Pilot Project. See General
Order
65
and
http://cand.
uscourts.gov/cameras. Signed by
Executive Committee on 2/19/19.
(Attachments: # 1 Notice of Eligibility for Video Recording) (haS,
COURT
STAFF)
(Filed
on
2/19/2019) (Entered: 02/19/2019)

16

*
2/20/19

* * * *
CLERK’S NOTICE of Impending Reassignment to U.S. District
Judge (klhS, COURT STAFF)
(Filed on 2/19/2019) (Entered:
02/19/2019)

* * * *
CLERK’S NOTICE re Motion to
Consider Whether Cases Should
Be Related (Dkt. No. 110 in 3:18cv-06810-JST East Bay Sanctuary Covenant et al v. Trump et
al). The court has reviewed the
motion and determined that no

36

DATE

2/20/19

DOCKET
NUMBER PROCEEDINGS

20

cases are related and no reassignments shall occur.
(wsn,
COURT STAFF) (Filed on
2/20/2019) (Entered: 02/20/2019)
MOTION for Temporary Restraining Order filed by Al Otro
Lado, Central American Resource Center of Northern California, Centro Legal de la Raza,
Immigration and Deportation Defense Clinic at the University of
San Francisco School of Law, Innovation Law Lab, Tahirih Justice Center. (Attachments: #
1 Memorandum in Support of
Temporary Restraining Order,
# 2 Declaration of Taslim Tavarez, # 3 Declaration of Rubi Rodriguez, # 4 Declaration of Tahirih Justice Center, # 5 Declaration of Centro Legal de la Raza, #
6 Declaration of Innovation Law
Lab, # 7 Declaration of Al Otro
Lado, # 8 Declaration of CARECEN of Northern CA, # 9 Declaration of USF Law School Deportation Defense Clinic, # 10 Declaration of Adam Isacson, # 11 Declaration of Kathryn Shepherd, #
12 Declaration of Aaron Reichlin-

37

DATE

DOCKET
NUMBER PROCEEDINGS

Melnick, # 13 Declaration of Daniella Burgi-Palomino, # 14 Declaration of Stephen W. Manning,
# 15 Declaration of Steven H.
Schulman, # 16 Declaration of
Cecilia Menjivar, # 17 Declaration of Jeremy Slack, # 18 Proposed Order, # 19 Complaint)
(Newell, Jennifer) (Filed on
2/20/2019) (Entered: 02/20/2019)
2/25/19

2/25/19

*

* * * *
Certificate of Interested Entities
by Al Otro Lado, Central American Resource Center of Northern
California, Centro Legal de la
Raza, Immigration and Deportation Defense Clinic at the University of San Francisco School of
Law, Innovation Law Lab, Tahirih Justice Center (Newell, Jennifer) (Filed on 2/25/2019) (Entered: 02/25/2019)

*

* * * *
MOTION to Transfer Case to the
Southern District of California
filed by Lee Francis Cissna, John
L. Lafferty, Kevin K. McAleenan,
Kirstjen Nielsen, Todd C. Owen,
U.S. Citizenship and Immigration

35

37

38

DATE

DOCKET
NUMBER PROCEEDINGS

Services, U.S. Customs and Border Protection, U.S. Department
of Homeland Security, U.S. Immigration and Customs Enforcement. Responses due by 3/11/2019.
Replies due by 3/18/2019. (Attachments: # 1 Exhibit A—CDCal
Transfer Order, # 2 Exhibit B—
NDCAL MTI Order, # 3 Proposed Order Granting Transfer)
(York,
Thomas)
(Filed
on
2/25/2019)
(Entered:
02/25/2019)
*
3/1/19

42

* * * *
OPPOSITION/RESPONSE (re
20 MOTION for Temporary Restraining Order) filed by Lee
Francis Cissna, John L. Lafferty,
Kevin K. McAleenan, Kirstjen
Nielsen, Todd C. Owen, U.S. Citizenship and Immigration Services, U.S. Customs and Border
Protection, U.S. Department of
Homeland Security, U.S. Immigration and Customs Enforcement, Ronald D. Vitiello. (Attachments:
# 1 Proposed Order)
(Reuveni, Erez) (Filed on
3/1/2019) (Entered: 03/01/2019)

39

DATE

DOCKET
NUMBER PROCEEDINGS

3/1/19

43

3/1/19

44

NOTICE by Lee Francis Cissna,
John L. Lafferty, Kevin K.
McAleenan, Kirstjen Nielsen,
Todd C. Owen, U.S. Citizenship
and Immigration Services, U.S.
Customs and Border Protection,
U.S. Department of Homeland
Security, U.S. Immigration and
Customs Enforcement, Ronald D.
Vitiello (filing of the administrative record) (Reuveni, Erez)
(Filed on 3/1/2019) (Additional attachment(s) added on 4/23/2019:
Administrative Record # 1 Part 1,
# 2 Part 2, # 3 Part 3, # 4 Part 4,
# 5 Part 5, # 6 Part 6, # 7 Part 7,
# 8 Part 8, # 9 Part 9, # 10 Part
10 (1 of 2), # 11 Part 10 (2 of 2))
(gbaS, COURT STAFF). (Entered: 03/01/2019)
Administrative Motion to File
Under Seal filed by Lee Francis
Cissna, John L. Lafferty, Kevin
K. McAleenan, Kirstjen Nielsen,
Todd C. Owen, U.S. Citizenship
and Immigration Services, U.S.
Customs and Border Protection,
U.S. Department of Homeland
Security, U.S. Immigration and
Customs Enforcement, Ronald D.
Vitiello.
(Attachments:
# 1

40

DATE

DOCKET
NUMBER PROCEEDINGS

3/1/19

45

3/4/19

46

Declaration of Archith Ramkumar, # 2 Proposed Order, # 3 Unredacted Version of Exhibit A)
(Ramkumar, Archith) (Filed on
3/1/2019) (Entered: 03/01/2019)
MOTION to Strike 20 MOTION
for Temporary Restraining Order
filed by Lee Francis Cissna, John
L. Lafferty, Kevin K. McAleenan,
Kirstjen Nielsen, Todd C. Owen,
U.S. Citizenship and Immigration
Services, U.S. Customs and Border Protection, U.S. Department
of Homeland Security, U.S. Immigration and Customs Enforcement, Ronald D. Vitiello. Responses due by 3/6/2019. Replies due by 3/8/2019. (Attachments:
# 1 Proposed Order)
(Ramkumar, Archith) (Filed on
3/1/2019) (Entered: 03/01/2019)
OPPOSITION/RESPONSE (re
37 MOTION to Transfer Case to
the Southern District of California) filed by Al Otro Lado, Central American Resource Center of
Northern California, Centro Legal de la Raza, Immigration and
Deportation Defense Clinic at the
University of San Francisco
School of Law, Innovation Law

41

DATE

DOCKET
NUMBER PROCEEDINGS

Lab, Tahirih Justice Center.
(Attachments: # 1 Declaration
(Supplemental) of Laura Victoria
Sanchez (CARECEN), # 2 Declaration (Supplemental) of Jacqueline Brown Scott (USF Clinic), #
3 Declaration (Supplemental) of
Eleni Wolfe-Roubatis (Centro
Legal), # 4 Declaration (Third) of
Stephen W. Manning (Law Lab),
# 5 Declaration (Supplemental)
of Rena Cutlip-Mason (Tahirih),
# 6 Declaration of Miguel
Marquez (Santa Clara County), #
7 Declaration of Emilia Garcia
and Exhibits) (Eiland, Katrina)
(Filed on 3/4/2019) (Entered:
03/04/2019)
*
3/6/19

49

3/6/19

50

* * * *
Amicus Curiae Brief by Immigration Reform Law Institute.
(gbaS, COURT STAFF) (Filed on
3/6/2019) (Entered: 03/06/2019)
OPPOSITION/RESPONSE (re
45 MOTION to Strike 20 MOTION for Temporary Restraining
Order) filed by Al Otro Lado,
Central American Resource Center of Northern California, Centro Legal de la Raza, Immigration

42

DATE

DOCKET
NUMBER PROCEEDINGS

3/6/19

51

3/7/19

52

and Deportation Defense Clinic
at the University of San Francisco School of Law, Innovation
Law Lab, Tahirih Justice Center.
(Attachments:
# 1 Proposed
Order for Briefing Schedule, # 2
Proposed Order for Consideration of Plaintiffs’ Evidence)
(Veroff, Julie) (Filed on 3/6/2019)
(Entered: 03/06/2019)
MOTION Consideration of Plaintiffs’ Evidence re 20 MOTION for
Temporary Restraining Order
filed by Al Otro Lado, Central
American Resource Center of
Northern California, Centro Legal de la Raza, Immigration and
Deportation Defense Clinic at the
University of San Francisco
School of Law, Innovation Law
Lab, Tahirih Justice Center.
Responses due by 3/8/2019. (Attachments: # 1 Proposed Order
for Briefing Schedule, # 2 Proposed Order for Consideration of
Plaintiffs’ Evidence) (Veroff, Julie) (Filed on 3/6/2019) (Entered:
03/06/2019)
REPLY (re 20 MOTION for
Temporary Restraining Order)
filed by Al Otro Lado, Central

43

DATE

3/7/19

DOCKET
NUMBER PROCEEDINGS

American Resource Center of
Northern California, Centro Legal de la Raza, Immigration and
Deportation Defense Clinic at the
University of San Francisco
School of Law, Innovation Law
Lab, Tahirih Justice Center.
(Rabinovitz, Judy) (Filed on
3/7/2019) (Entered: 03/07/2019)
REPLY (re 37 MOTION to
Transfer Case to the Southern
District of California) filed by
Lee Francis Cissna, John L. Lafferty, Kevin K. McAleenan,
Kirstjen Nielsen, Todd C. Owen,
U.S. Citizenship and Immigration
Services, U.S. Customs and Border Protection, U.S. Department
of Homeland Security, U.S. Immigration and Customs Enforcement, Ronald D. Vitiello. (York,
Thomas) (Filed on 3/7/2019) (Entered: 03/07/2019)

53

*
3/8/19

55

* * * *
REPLY (re 45 MOTION to
Strike 20 MOTION for Temporary Restraining Order) filed by
Lee Francis Cissna, John L. Lafferty, Kevin K. McAleenan,
Kirstjen Nielsen, Todd C. Owen,

44

DATE

DOCKET
NUMBER PROCEEDINGS

3/8/19

56

3/8/19

57

U.S. Citizenship and Immigration
Services, U.S. Customs and Border Protection, U.S. Department
of Homeland Security, U.S. Immigration and Customs Enforcement, Ronald D. Vitiello. (Ramkumar, Archith) (Filed on
3/8/2019) (Entered: 03/08/2019)
OPPOSITION/RESPONSE (re
51 MOTION Consideration of
Plaintiffs’ Evidence re 20 MOTION for Temporary Restraining
Order) filed by Lee Francis
Cissna, John L. Lafferty, Kevin
K. McAleenan, Kirstjen Nielsen,
Todd C. Owen, U.S. Citizenship
and Immigration Services, U.S.
Customs and Border Protection,
U.S. Department of Homeland
Security, U.S. Immigration and
Customs Enforcement, Ronald D.
Vitiello. (Ramkumar, Archith)
(Filed on 3/8/2019) (Entered:
03/08/2019)
Statement regarding scheduling
motion practice on Plaintiffs yetto-be-filed Motion to Set a Briefing Schedule for a Motion to
Complete the Record” by Lee
Francis Cissna, John L. Lafferty,
Kevin K. McAleenan, Kirstjen

45

DATE

3/18/19

DOCKET
NUMBER PROCEEDINGS

Nielsen, Todd C. Owen, U.S. Citizenship and Immigration Services, U.S. Customs and Border
Protection, U.S. Department of
Homeland Security, U.S. Immigration and Customs Enforcement, Ronald D. Vitiello. (Reuveni, Erez) (Filed on 3/8/2019)
(Entered: 03/08/2019)
NOTICE by Lee Francis Cissna,
John L. Lafferty, Kevin K.
McAleenan, Kirstjen Nielsen,
Todd C. Owen, U.S. Citizenship
and Immigration Services, U.S.
Customs and Border Protection,
U.S. Department of Homeland
Security (York, Thomas) (Filed
on
3/18/2019)
(Entered:
03/18/2019)

58

*
3/22/19

64

*

*

*

*

Minute Entry for proceedings held
before Judge Richard Seeborg:
Motion for Preliminary Injunction Hearing held on 3/22/2019.
Motion taken under submission;
Court to issue an order. Total
Time in Court:
2 hours 10
minutes.
Court Reporter:
Jo
Ann Bryce.
Plaintiff Attorney:
Judy Rabinovitz, Katrina Eiland, Eunice

46

DATE

DOCKET
NUMBER PROCEEDINGS
Lee, Julie Veroff, Lee Gelernt,
Melissa Crow, Blaine Bookey, Jennifer Chang Newell. Defendant
Attorney:
Scott Stewart, Erez
Reuveni.
(This is a text-only entry generated by the court. There is no document associated with this entry.)
(cl, COURT STAFF) (Date Filed:
3/22/2019) (Entered: 03/22/2019)

*
3/27/19

67

* * * *
Transcript of Proceedings held on
3/22/19, before Judge Richard
Seeborg.
Court Reporter Jo
Ann Bryce, telephone number
510-910-5888,
joann_bryce@
cand.uscourts.gov. Per General
Order No. 59 and Judicial Conference policy, this transcript may
be viewed only at the Clerk’s Office public terminal or may be
purchased through the Court Reporter until the deadline for the
Release of Transcript Restriction
after 90 days. After that date, it
may be obtained through PACER.
Any Notice of Intent to Request
Redaction, if required, is due no
later than 5 business days from
date of this filing. (Re 65 Tran-

47

DATE

DOCKET
NUMBER PROCEEDINGS

script Order,) Release of Transcript Restriction set for 6/25/2019.
(Related documents(s) 65) (jabS,
COURTSTAFF)
(Filed
on
3/27/2019)
(Entered:
03/27/2019)
*
4/2/19

69

4/3/19

70

* * * *
NOTICE by Lee Francis Cissna,
John L. Lafferty, Kevin K.
McAleenan, Kirstjen Nielsen,
Todd C. Owen, U.S. Citizenship
and Immigration Services, U.S.
Customs and Border Protection,
U.S. Department of Homeland
Security, U.S. Immigration and
Customs Enforcement, Ronald D.
Vitiello (York, Thomas) (Filed on
4/2/2019) (Entered: 04/02/2019)
Supplemental Brief re 68 Order
filed byLee Francis Cissna, John
L. Lafferty, Kevin K. McAleenan,
Kirstjen Nielsen, Todd C. Owen,
U.S. Citizenship and Immigration
Services, U.S. Customs and Border Protection, U.S. Department
of Homeland Security, U.S. Immigration and Customs Enforcement, Ronald D. Vitiello. (Related
document(s) 68) (Reuveni, Erez)
(Filed on 4/3/2019) (Entered:

48

DATE

4/3/19

DOCKET
NUMBER PROCEEDINGS

04/03/2019)
Supplemental Brief re 68 Order
filed by University of San Francisco School of Law Immigration
and Deportation Defense Clinic,
Al Otro Lado, Central American
Resource Center of Northern
California, Centro Legal de la
Raza, Innovation Law Lab, Tahirih Justice Center. (Related
document(s) 68) (Rabinovitz, Judy)
(Filed on 4/3/2019) (Entered:
04/03/2019)

71

*

*

*

*

*

4/8/19

73

4/8/19

74

ORDER GRANTING MOTION
FOR PRELIMINARY INJUNCTION. Signed by Judge Richard
Seeborg on 4/8/19. (cl, COURT
STAFF) (Filed on 4/8/2019) (Entered: 04/08/2019)
ORDER Granting Motion to File
Under Seal re 44 Administrative
Motion to File Under Seal filed by
Ronald D. Vitiello.
Signed by
Judge Richard Seeborg on 4/8/19.
(cl, COURT STAFF) (Filed on
4/8/2019) (Entered: 04/08/2019)

4/10/19

75

NOTICE OF APPEAL to the 9th

49

DATE

DOCKET
NUMBER PROCEEDINGS

Circuit Court of Appeals filed by
Lee Francis Cissna, John L. Lafferty, Kevin K. McAleenan,
Kirstjen Nielsen, Todd C. Owen,
U.S. Citizenship and Immigration
Services, U.S. Customs and Border Protection, U.S. Department
of Homeland Security, U.S. Immigration and Customs Enforcement, Ronald D. Vitiello. Appeal of Order, Terminate Motions
73 (Appeal fee FEE WAIVED.)
(Reuveni, Erez) (Filed on
4/10/2019)
(Entered:
04/10/2019)
*
4/22/19

77

* * * *
USCA Case Number 19-15716 for
75 Notice of Appeal, filed by
Ronald D. Vitiello, U.S. Department of Homeland Security, U.S.
Customs and Border Protection,
John L. Lafferty, Todd C. Owen,
U.S. Immigration and Customs
Enforcement, U.S. Citizenship
and Immigration Services, Kirstjen
Nielsen, Kevin K. McAleenan,
Lee Francis Cissna. (gbaS,
COURT STAFF) (Filed on
4/22/2019) (Entered: 04/22/2019)

50

DATE

5/16/19

5/20/19

DOCKET
NUMBER PROCEEDINGS

*

* * * *
OPINION of USCA as to 75 Notice of Appeal, filed by Ronald D.
Vitiello, U.S. Department of
Homeland Security, U.S. Customs and Border Protection,
John L. Lafferty, Todd C. Owen,
U.S. Immigration and Customs
Enforcement, U.S. Citizenship
and Immigration Services, Kirstjen Nielsen, Kevin K. McAleenan,
Lee Francis Cissna.
(Attachments: # 1 Concurrence, # 2
Dissent) (gbaS, COURT STAFF)
(Filed on 5/16/2019) (Entered:
05/16/2019)

*

* * * *
MOTION to Stay filed by Lee
Francis Cissna, John L. Lafferty,
Kevin K. McAleenan, Kirstjen
Nielsen, Todd C. Owen, U.S. Citizenship and Immigration Services, U.S. Customs and Border
Protection, U.S. Department of
Homeland Security, U.S. Immigration and Customs Enforcement, Ronald D. Vitiello. Responses due by 6/3/2019. Replies due by 6/10/2019. (Attachments:
# 1 Proposed Order)

83

87

51

DATE

DOCKET
NUMBER PROCEEDINGS

(Ramkumar, Archith) (Filed on
5/20/2019) (Entered: 05/20/2019)
5/24/20

6/3/19

*

* * * *
ORDER of USCA as to 75 Notice
of Appeal, filed by Ronald D. Vitiello, U.S. Department of Homeland Security, U.S. Customs and
Border Protection, John L. Lafferty, Todd C. Owen, U.S. Immigration and Customs Enforcement, U.S. Citizenship and Immigration Services, Kirstjen Nielsen, Kevin K. McAleenan, Lee
Francis Cissna.
USCA No.
19-15716.
(wsnS, COURT
STAFF) (Filed on 5/24/2019) (Entered: 05/24/2019)

*

* * * *
OPPOSITION/RESPONSE (re
87 MOTION to Stay) filed by University of San Francisco School of
Law Immigration and Deportation Defense Clinic, Al Otro Lado,
Central American Resource Center of Northern California, Centro Legal de la Raza, Immigration
Reform Law Institute, Innovation Law Lab, Tahirih Justice
Center. (Rabinovitz, Judy) (Filed

90

92

52

DATE

DOCKET
NUMBER PROCEEDINGS

6/10/19

93

7/15/19

94

on
6/3/2019)
(Entered:
06/03/2019)
REPLY (re 87 MOTION to Stay)
filed by Lee Francis Cissna, John
L. Lafferty, Kevin K. McAleenan,
Kirstjen Nielsen, Todd C. Owen,
U.S. Citizenship and Immigration
Services, U.S. Customs and Border Protection, U.S. Department
of Homeland Security, U.S. Immigration and Customs Enforcement, Ronald D. Vitiello. (Ramkumar, Archith) (Filed on
6/10/2019) (Entered: 06/10/2019)
ORDER by Judge Richard Seeborg
granting 87 Motion to Stay. (cl,
COURT
STAFF)
(Filed
on
7/15/2019) (Entered: 07/15/2019)

*
10/15/19

98

* * * *
Statement Jointly Filed Regarding Status of Appeal by Lee
Francis Cissna, John L. Lafferty,
Kevin K. McAleenan, Kirstjen
Nielsen, Todd C. Owen, U.S. Citizenship and Immigration Services, U.S. Customs and Border
Protection, U.S. Department of
Homeland Security, U.S. Immigration and Customs Enforce-

53

DATE

DOCKET
NUMBER PROCEEDINGS

ment, Ronald D. Vitiello. (Ramkumar, Archith) (Filed on
10/15/2019)
(Entered:
10/15/2019)
1/10/20

2/28/20

*

* * * *
JOINT Statement Regarding
Status of Appeal by Lee Francis
Cissna, John L. Lafferty, Kevin
K. McAleenan, Kirstjen Nielsen,
Todd C. Owen, U.S. Citizenship
and Immigration Services, U.S.
Customs and Border Protection,
U.S. Department of Homeland
Security, U.S. Immigration and
Customs Enforcement, Ronald D.
Vitiello. (Ramkumar, Archith)
(Filed on 1/10/2020) Modified on
1/12/2020
(gbaS,
COURT
STAFF).
(Entered:
01/10/2020)

*

* * * *
ORDER of USCA as to 75 Notice
of Appeal, filed by Ronald D. Vitiello, U.S. Department of Homeland Security, U.S. Customs and
Border Protection, John L. Laf-

104

106

54

DATE

DOCKET
NUMBER PROCEEDINGS

2/28/20

107

2/28/20

108

ferty, Todd C. Owen, U.S. Immigration and Customs Enforcement, U.S. Citizenship and Immigration Services, Kirstjen Nielsen, Kevin K. McAleenan, Lee
Francis Cissna. (gbaS, COURT
STAFF) (Filed on 2/28/2020) (Entered: 02/28/2020)
USCA Opinion as to 75 Notice of
Appeal, filed by Ronald D. Vitiello, U.S. Department of Homeland Security, U.S. Customs and
Border Protection, John L. Lafferty, Todd C. Owen, U.S. Immigration and Customs Enforcement, U.S. Citizenship and Immigration Services, Kirstjen Nielsen, Kevin K. McAleenan, Lee
Francis Cissna. (gbaS, COURT
STAFF) (Filed on 2/28/2020) (Entered: 02/28/2020)
ORDER of USCA as to 75 Notice
of Appeal 19-15716. The emergency request for an immediate
stay of this court’s February 28,
2020 decision pending disposition of a petition for certiorari is
granted pending further order of
this court.
(wsnS, COURT

55

DATE

3/4/20

DOCKET
NUMBER PROCEEDINGS

109

3/18/20

111

3/18/20

112

4/16/20

10/19/20

STAFF) (Filed on 2/28/2020) (Entered: 03/02/2020)
ORDER of USCA as to 75 Notice
of Appeal 19-15716.
(wsnS,
COURT STAFF) (Filed on
3/4/2020) (Entered: 03/05/2020)
*

* * * *
ADR Certification (ADR L.R. 3-5
b) of discussion of ADR options
(Rabinovitz, Judy) (Filed on
3/18/2020) (Entered: 03/18/2020)
ADR Certification (ADR L.R. 3-5
b) of discussion of ADR options
(Reuveni, Erez) (Filed on
3/18/2020) (Entered: 03/18/2020)

*

* * * *
U.S. Supreme Court Notice that
the petition for a writ of certiorari
was filed on 4/10/2020 and placed
on the docket 4/14/2020 as No.
19-1212.
(gbaS,
COURT
STAFF) (Filed on 4/16/2020) (Entered: 04/16/2020)

*

* * * *
U.S. Supreme Court Notice
that the petition for a writ of certiorari is granted.
(gbaS,
COURT STAFF) (Filed on

114

118

56

DATE

DOCKET
NUMBER PROCEEDINGS

10/19/2020)
10/20/2020)

(Entered:

57

Policy Number:
11088.1
FEA Number:
306-112-002b

Feb. 12, 2019
MEMORANDUM FOR:

FROM:

SUBJECT:

Executive Associate Directors
Principal Legal Advisor

Ronald D. Vitiello
/s/ RONALD D. VITIELLO
Deputy Director and
Senior Official Performing
the Duties of the Director
Implementation of the Migrant
Protection Protocols

On January 25, 2019, Secretary Nielsen issued a memorandum entitled Policy Guidance for Implementation
of the Migrant Protection Protocols, in which she provided guidance for the implementation of the Migrant
Protection Protocols (MPP) announced on December 20,
2018, an arrangement between the United States and
Mexico to address the migration crisis along our southern border. Pursuant to the Secretary’s direction, this
memorandum provides guidance to U.S. Immigration
and Customs Enforcement (ICE) about its role in the
implementation of the MPP.
Section 235(b)(2)(C) of the Immigration and Nationality
Act (INA) allows the Department of Homeland Security

58

(DHS), in its discretion, with regard to certain aliens
who are “arriving on land (whether or not at a designated port of arrival) from a foreign territory contiguous to the United States, . . . [to] return the alien[s]
to that territory pending a proceeding under [INA] section 240.” Consistent with the MPP, third-country nationals (i.e., aliens who are not citizens or nationals of
Mexico) who are arriving in the United States by land
from Mexico may be returned to Mexico pursuant to
INA section 235(b)(2)(C) for the duration of their INA
section 240 removal proceedings. DHS will not use the
INA section 235(b)(2)(C) process in the cases of unaccompanied alien children, aliens placed into the expedited removal (ER) process of INA section 235(b)(1),
and other aliens determined, in the exercise of discretion, not to be appropriate for such processing (which
may include certain aliens with criminal histories, individuals determined to be of interest to either Mexico or
the United States, and lawful permanent residents of
the United States).
The direct placement of an alien into INA section
240 removal proceedings (and, in DHS’s discretion, returning the alien to Mexico pursuant to INA section
235(b)(2)(C) pending those proceedings) is a separate
and distinct process from ER. Processing determinations, including whether to place an alien into ER or
INA section 240 proceedings (and, as applicable, to return an alien placed into INA section 240 proceedings to
Mexico under INA section 235(b)(2)(C) as part of MPP),
or to apply another processing disposition, will be made
by U.S. Customs and Border Protection (CBP), in CBP’s
enforcement discretion.

59

MPP implementation began at the San Ysidro port of
entry on or about January 28, 2019, and it is intended
that MPP implementation will expand eventually across
the southern border. In support of MPP, ICE Enforcement and Removal Operations (ERO) will provide appropriate transportation when necessary, for aliens returned to Mexico under the MPP, from the designated
port of entry to the court facility for the scheduled removal hearings before an immigration judge and back to
the port of entry for return to Mexico by CBP after such
hearings. ERO also will be responsible for effectuating
removal orders entered against aliens previously processed under INA section 235(b)(2)(C), including post- removal order detention. ICE attorneys will represent
DHS in the related removal proceedings pursuant to 6
U.S.C. § 252(c).
As instructed by the Secretary, in exercising prosecutorial discretion concerning the potential return of thirdcountry nationals to Mexico under INA section
235(b)(2)(C), DHS officials should act consistently with
the non-refoulement principles contained in Article 33
of the 1951 Convention Relating to the Status of Refugees and Article 3 of the Convention Against Torture
and Other Cruel, Inhuman or Degrading Treatment or
Punishment. Specifically, a third-country national who
affirmatively states a fear of return to Mexico (including
while in the United States to attend a removal hearing)
should not be involuntarily returned under INA section
235(b)(2)(C) if the alien would more likely than not be
persecuted on account of race, religion, nationality, membership in a particular social group, or political opinion
(unless described in INA section 241(b)(3)(B) as having
engaged in certain criminal, persecutory, or terrorist activity), or would more likely than not be tortured, if so

60

returned pending removal proceedings.
Non-refoulement assessments will be made by U.S. Citizenship
and Immigration Services (USCIS) asylum in accordance with guidance issued by the Director of USCIS.
Within ten (10) days after this memorandum, relevant
ICE program offices are directed to issue further guidance to ensure that MPP is implemented in accordance
with the Secretary’s memorandum, this memorandum,
and policy guidance and procedures, in accordance with
applicable law.
This document provides internal ICE policy guidance,
which may be modified, rescinded, or superseded at any
time without notice. This memorandum is not intended
to, and does not, create any right or benefit, substantive
or procedural, enforceable at law or in equity by any
party against the United States, its departments, agencies, or entities, its officers, employees, or agents, or any
other person. Likewise, no limitations are placed by
this guidance on the otherwise lawful enforcement or litigative prerogatives of DHS.
Attachment:
DHS Secretary Memorandum, Policy Guidance for Implementation of Migrant Protection Protocols, dated
January 25, 2019.

61
DEPARTMENT OF HOMELAND SECURITY
8 CFR Part 208
RIN 1615-AC34
DEPARTMENT OF JUSTICE
Executive Office for Immigration Review
8 CFR Parts 1003 and 1208
[EOIR Docket No. 18-0501; A.G. Order No. 4327-2018]
RIN 1125-AA89
Aliens Subject to a Bar on Entry Under Certain Presidential Proclamations; Procedures for Protection Claims

U.S. Citizenship and Immigration Services,
Department of Homeland Security; Executive Office for
Immigration Review, Department of Justice.
AGENCY:

ACTION:

Interim final rule; request for comment.

The Department of Justice and the Department of Homeland Security (“DOJ,” “DHS,” or, collectively, “the Departments”) are adopting an interim final rule governing asylum claims in the context of aliens
who are subject to, but contravene, a suspension or limitation on entry into the United States through the
southern border with Mexico that is imposed by a presidential proclamation or other presidential order (“a
proclamation”) under section 212(f ) or 215(a)(1) of the
Immigration and Nationality Act (“INA”). Pursuant
to statutory authority, the Departments are amending
their respective existing regulations to provide that aliens subject to such a proclamation concerning the
SUMMARY:

62

southern border, but who contravene such a proclamation by entering the United States after the effective
date of such a proclamation, are ineligible for asylum.
The interim rule, if applied to a proclamation suspending the entry of aliens who cross the southern border
unlawfully, would bar such aliens from eligibility for
asylum and thereby channel inadmissible aliens to ports
of entry, where they would be processed in a controlled,
orderly, and lawful manner. This rule would apply only
prospectively to a proclamation issued after the effective date of this rule. It would not apply to a proclamation that specifically includes an exception for aliens applying for asylum , nor would it apply to aliens subject
to a waiver or exception provided by the proclamation.
DHS is amending its regulations to specify a screening
process for aliens who are subject to this specific bar to
asylum eligibility. DOJ is amending its regulations
with respect to such aliens. The regulations would ensure that aliens in this category who establish a reasonable fear of persecution or torture could seek withholding of removal under the INA or protection from removal under regulations implementing U.S. obligations
under Article 3 of the Convention Against Torture and
Other Cruel, Inhuman or Degrading Treatment or Punishment (“CAT”).
DATES:

Effective date:
2018.

This rule is effective November 9,

Submission of public comments: Written or electronic comments must be submitted on or before January 8, 2019. Written comments postmarked on or before that date will be considered timely. The electronic

63

Federal Docket Management System will accept comments prior to midnight eastern standard time at the
end of that day.
ADDRESSES: You may submit comments, identified
by EOIR Docket No. 18-0501, by one of the following
methods:

• Federal eRulemaking Portal:
http://www.
regulations.gov. Follow the instructions for submitting comments.
• Mail: Lauren Alder Reid, Assistant Director,
Office of Policy, Executive Office for Immigration Review, 5107 Leesburg Pike, Suite 2616, Falls Church, VA
22041. To ensure proper handling, please reference
EOIR Docket No. 18-0501 on your correspondence.
This mailing address may be used for paper, disk, or
CD-ROM submissions.
• Hand Delivery/Courier: Lauren Alder Reid, Assistant Director, Office of Policy, Executive Office for
Immigration Review, 5107 Leesburg Pike, Suite 2616,
Falls Church, VA 22041, Contact Telephone Number
(703) 305-0289 (not a toll-free call).
FOR FURTHER INFORMATION CONTACT:

Lauren Alder Reid, Assistant Director, Office of Policy, Executive Office for Immigration Review, 5107
Leesburg Pike, Suite 2616, Falls Church, VA 22041,
Contact Telephone Number (703) 305-0289 (not a tollfree call).

64
SUPPLEMENTARY INFORMATION:
I.

Public Participation

Interested persons are invited to participate in this
rulemaking by submitting written data, views, or arguments on all aspects of this rule. The Departments also
invite comments that relate to the economic or federalism effects that might result from this rule. To provide
the most assistance to the Departments, comments should
reference a specific portion of the rule; explain the reason for any recommended change; and include data, information, or authority that supports the recommended
change.
All comments submitted for this rulemaking should
include the agency name and EOIR Docket No. 18-0501.
Please note that all comments received are considered
part of the public record and made available for public
inspection at www.regulations.gov. Such information includes personally identifiable information (such as a
person ‘s name, address, or any other data that might
personally identify that individual) that the commenter
voluntarily submits.
If you want to submit personally identifiable information as part of your comment, but do not want it to be
posted online, you must include the phrase “PERSONALLY IDENTIFIABLE INFORMATION” in the first
paragraph of your comment and precisely and prominently identify the information of which you seek redaction.
If you want to submit confidential business information as part of your comment , but do not want it to
be posted online, you must include the phrase “CONFIDENTIAL BUSINESS INFORMATION” in the first

65

paragraph of your comment and precisely and prominently identify the confidential business information of
which you seek redaction. If a comment has so much
confidential business information that it cannot be effectively redacted, all or part of that comment may not be
posted on www.regulations.gov. Personally identifiable information and confidential business information
provided as set forth above will be placed in the public
docket file of DOJ’s Executive Office of Immigration Review (“EOIR”), but not posted online. To inspect the
public docket file in person, you must make an appointment with EOIR. Please see the FOR FURTHER INFORMATION CONTACT paragraph above for the contact information specific to this rule.
II. Purpose of This Interim Final Rule

This interim final rule (“interim rule” or “rule”) governs eligibility for asylum and screening procedures for
aliens subject to a presidential proclamation or order restricting entry issued pursuant to section 212(f ) of the
INA, 8 U.S.C. 1182(f ), or section 215(a)(1) of the INA,
8 U.S.C. 1185(a)(1), that concerns entry to the United
States along the southern border with Mexico and is issued on or after the effective date of this rule. Pursuant to statutory authority, the interim rule renders such
aliens ineligible for asylum if they enter the United
States after the effective date of such a proclamation,
become subject to the proclamation, and enter the United
States in violation of the suspension or limitation of entry
established by the proclamation. The interim rule, if applied to a proclamation suspending the entry of aliens
who cross the southern border unlawfully, would bar
such aliens from eligibility for asylum and thereby chan-

66

nel inadmissible aliens to ports of entry, where such aliens could seek to enter and would be processed in an
orderly and controlled manner. Aliens who enter prior
to the effective date of an applicable proclamation will
not be subject to this asylum eligibility bar unless they
depart and reenter while the proclamation remains in
effect. Aliens also will not be subject to this eligibility
bar if they fall within an exception or waiver within the
proclamation that makes the suspension or limitation of
entry in the proclamation inapplicable to them, or if the
proclamation provides that it does not affect eligibility
for asylum.
As discussed further below, asylum is a discretionary
immigration benefit. In general, aliens may apply for
asylum if they are physically present or arrive in the
United States, irrespective of their status and irrespective of whether or not they arrive at a port of entry, as
provided in section 208(a) of the INA, 8 U.S.C. 1158(a).
Congress, however, provided that certain categories of
aliens could not receive asylum and further delegated to
the Attorney General and the Secretary of Homeland
Security (“Secretary”) the authority to promulgate regulations establishing additional bars on eligibility that
are consistent with the asylum statute and “any other
conditions or limitations on the consideration of an application for asylum” that are consistent with the INA.
See INA 208(b)(2)(C), (d)(5)(B), 8 U.S.C. 1158(b)(2)(C),
(d)(5)(B).
In the Illegal Immigration Reform and Immigration
Responsibility Act of 1996 (“IIRIRA”), Public Law 104208, Congress, concerned with rampant delays in proceedings to remove illegal aliens, created expedited pro-

67

cedures for removing inadmissible aliens, and authorized the extension of such procedures to aliens who entered illegally and were apprehended within two years
of their entry. See generally INA 235(b), 8 U.S.C.
1225(b). Those procedures were aimed at facilitating
the swift removal of inadmissible aliens, including those
who had entered illegally, while also expeditiously resolving any asylum claims. For instance, Congress provided that any alien who asserted a fear of persecution
would appear before an asylum officer, and that any alien who is determined to have established a “credible
fear”—meaning a “significant possibility . . . that
the alien could establish eligibility for asylum” under the
asylum statute—would be detained for further consideration of an asylum claim. See INA 23S(b)(1), (b)(1)(B)(v),
8 U.S.C. 1225(b)(1), (b)(1)(B)(v).
When the expedited procedures were first implemented approximately two decades ago, relatively few
aliens within those proceedings asserted an intent to apply for asylum or a fear of persecution. Rather, most
aliens found inadmissible at the southern border were
single adults who were immediately repatriated to Mexico. Thus, while the overall number of illegal aliens apprehended was far higher than it is today (around 1.6
million in 2000), aliens could be processed and removed
more quickly, without requiring detention or lengthy
court proceedings.
In recent years, the United States has seen a large
increase in the number and proportion of inadmissible
aliens subject to expedited removal who assert an intent
to apply for asylum or a fear of persecution during that
process and are subsequently placed into removal proceedings in immigration court. Most of those aliens

68

unlawfully enter the country between ports of entry
along the southern border. Over the past decade, the
overall percentage of aliens subject to expedited removal and referred, as part of the initial screening process, for a credible-fear interview jumped from approximately 5% to above 40%, and the total number of
credible-fear referrals for interviews increased from
about 5,000 a year in Fiscal Year (“FY”) 2008 to about
97,000 in FY 2018. Furthermore, the percentage of
cases in which asylum officers found that the alien had
established a credible fear—leading to the alien’s placement in full immigration proceedings under section 240
of the INA, 8 U.S.C. 1229a—has also increased in recent
years. In FY 2008, when asylum officers resolved a referred case with a credible-fear determination, they
made a positive finding about 77% of the time. That percentage rose to 80% by FY 2014. In FY 2018, that percentage of positive credible-fear determinations has
climbed to about 89% of all cases. After this initial
screening process, however, significant proportions of
aliens who receive a positive credible­fear determination never file an application for asylum or are ordered
removed in absentia. In FY 2018 , a total of about 6,000
aliens who passed through credible-fear screening (17%
of all completed cases, 27% of all completed cases in
which an asylum application was filed, and about 36% of
cases where the asylum claim was adjudicated on the
merits) established that they should be granted asylum.
Apprehending and processing this growing number
of aliens who cross illegally into the United States and
invoke asylum procedures thus consumes an ever increasing amount of resources of DHS, which must surveil, apprehend, and process the aliens who enter the
country. Congress has also required DHS to detain all

69

aliens during the pendency of their credible-fear proceedings, which can take days or weeks. And DOJ must
also dedicate substantial resources: Its immigration
judges adjudicate aliens’ claims, and its officials are responsible for prosecuting and maintaining custody over
those who violate the criminal law. The strains on the
Departments are particularly acute with respect to the
rising numbers of family units, who generally cannot be
detained if they are found to have a credible fear, due to
a combination of resource constraints and the manner in
which the terms of the Settlement Agreement in Flores
v. Reno have been interpreted by courts. See Stipulated Settlement Agreement, Flores v. Reno, No. 85-cv4544 (N.D. Cal. Jan. 17, 1997).
In recent weeks, United States officials have each
day encountered an average of approximately 2,000 inadmissible aliens at the southern border. At the same
time, large caravans of thousands of aliens, primarily
from Central America, are attempting to make their
way to the United States, with the apparent intent of
seeking asylum after entering the United States unlawfully or without proper documentation. Central American nationals represent a majority of aliens who enter
the United States unlawfully, and are also disproportionately likely to choose to enter illegally between ports
of entry rather than presenting themselves at a port of
entry. As discussed below, aliens who enter unlawfully
between ports of entry along the southern border, as opposed to at a port of entry, pose a greater strain on
DHS’s already stretched detention and processing resources and also engage in conduct that seriously endangers themselves, any children traveling with them, and
the U.S. Customs and Border Protection (“CBP”) agents
who seek to apprehend them.

70

The United States has been engaged in sustained
diplomatic negotiations with Mexico and the Northern
Triangle countries (Honduras, El Salvador, and Guatemala) regarding the situation on the southern border,
but those negotiations have, to date, proved unable to
meaningfully improve the situation.
The purpose of this rule is to limit aliens’ eligibility
for asylum if they enter in contravention of a proclamation suspending or restricting their entry along the
southern border.
Such aliens would contravene a
measure that the President has determined to be in the
national interest. For instance, a proclamation restricting the entry of inadmissible aliens who enter unlawfully between ports of entry would reflect a determination that this particular category of aliens necessitates a
response that would supplement existing prohibitions
on entry for all inadmissible aliens. Such a proclamation would encourage such aliens to seek admission and
indicate an intention to apply for asylum at ports of entry. Aliens who enter in violation of that proclamation
would not be eligible for asylum. They would, however,
remain eligible for statutory withholding of removal under section 241(b)(3) of the INA, 8 U.S.C. 1231(b)(3), or
for protections under the regulations issued under the
authority of the implementing legislation regarding Article 3 of the CAT.
The Departments anticipate that a large number of
aliens who would be subject to a proclamation-based ineligibility bar would be subject to expedited-removal
proceedings. Accordingly, this rule ensures that asylum officers and immigration judges account for such aliens’ ineligibility for asylum within the expeditedremoval process, so that aliens subject to such a bar will

71

be processed swiftly. Furthermore, the rule continues
to afford protection from removal for individuals who establish that they are more likely than not to be persecuted or tortured in the country of removal. Aliens
rendered ineligible for asylum by this interim rule and
who are referred for an interview in the expeditedremoval process are still eligible to seek withholding of
removal under section 241(b)(3) of the INA, 8 U.S.C.
1231(b)(3), or protections under the regulations issued
under the authority of the implementing legislation regarding Article 3 of the CAT. Such aliens could pursue
such claims in proceedings before an immigration judge
under section 240 of the INA, 8 U.S.C. 1229a, if they establish a reasonable fear of persecution or torture.
III. Background

A. Joint Interim Rule
The Attorney General and the Secretary of Homeland Security publish this joint interim rule pursuant to
their respective authorities concerning asylum determinations.
The Homeland Security Act of 2002, Public Law 107296, as amended, transferred many functions related to
the execution of federal immigration law to the newly
created Department of Homeland Security. The Homeland Security Act of 2002 charges the Secretary “with
the administration and enforcement of this chapter and
all other laws relating to the immigration and naturalization of aliens,” 8 U.S.C. 1103(a)(1), and grants the Secretary the power to take all actions “necessary for carrying out” the provisions of the INA, id. 1103(a)(3).
The Homeland Security Act of 2002 also transferred to

72

DHS some responsibility for affirmative asylum applications, i.e., applications for asylum made outside the removal context. See 6 U.S.C. 271(b)(3). Those authorities have been delegated to U.S. Citizenship and Immigration Services (“USCIS”). USCIS asylum officers
determine in the first instance whether an alien’s affirmative asylum application should be granted. See 8 CFR
208.9.
But the Homeland Security Act of 2002 retained authority over certain individual immigration adjudications (including those related to defensive asylum applications) in DOJ, under the Executive Office for Immigration Review (“EOIR”) and subject to the direction
and regulation of the Attorney General. See 6 U.S.C.
521; 8 U.S.C. 1103(g). Thus, immigration judges within
DOJ continue to adjudicate all asylum applications made
by aliens during the removal process (defensive asylum
applications), and they also review affirmative asylum
applications referred by USCIS to the immigration
court.
See INA 101(b)(4), 8 U.S.C. 1101(b)(4);
8 CFR 1208.2; Dhakal v. Sessions, 895 F.3d 532, 536-37
(7th Cir. 2018) (describing affirmative and defensive
asylum processes). The Board of Immigration Appeals
(“BIA” or “Board”), also within DOJ, in turn hears appeals from immigration judges’ decisions.
8 CFR
1003.1. In addition, the INA provides “[t]hat determination and ruling by the Attorney General with respect
to all questions of law shall be controlling.” INA
103(a)(1), 8 U.S.C. 1103(a)(1). This broad division of
functions and authorities informs the background of this
interim rule.

73

B. Legal Framework for Asylum
Asylum is a form of discretionary relief under section
208 of the INA, 8 U.S.C. 1158, that precludes an alien
from being subject to removal, creates a path to lawful
permanent resident status and citizenship, and affords
a variety of other benefits, such as allowing certain alien
family members to obtain lawful immigration status derivatively. See R-S-C v. Sessions, 869 F.3d 1176, 1180
(10th Cir. 2017); see also, e.g., INA 208(c)(1)(A), (C),
8 U.S.C. 1158(c)(1)(A), (C) (asylees cannot be removed
and can travel abroad with prior consent); INA 208(b)(3),
8 U.S.C. 1158(b)(3) (allowing derivative asylum for
asylee’s spouse and unmarried children); INA 209(b), 8
U.S.C. 1159(b) (allowing the Attorney General or Secretary to adjust the status of an asylee to that of a lawful
permanent resident); INA 316(a), 8 U.S.C. 1427(a) (describing requirements for naturalization of lawful permanent residents). Aliens who are granted asylum
are authorized to work in the United States and may receive certain financial assistance from the federal government.
See INA 208(c)(1)(B), (d)(2), 8 U.S.C.
1158(c)(1)(B), (d)(2); 8 U.S.C. 1612(a)(2)(A), (b)(2)(A);
8 U.S.C. 1613(b)(1); 8 CFR 274a.12(a)(5); see also 8 CFR
274a.12(c)(8) (providing that asylum applicants may
seek employment authorization 150 days after filing a
complete application for asylum).
Aliens applying for asylum must establish that they
meet the definition of a “refugee,” that they are not subject to a bar to the granting of asylum, and that they
merit a favorable exercise of discretion. INA 208(b)(1),
240(c)(4)(A), 8 U.S.C. 1158(b)(1), 1229a(c)(4)(A); see
Moncrieffe v. Holder, 569 U.S. 184, 187 (2013) (describ-

74

ing asylum as a form of “discretionary relief from removal”); Delgado v. Mukasey, 508 F.3d 702, 705 (2d Cir.
2007) (“Asylum is a discretionary form of relief. . . .
Once an applicant has established eligibility . . . it
remains within the Attorney General’s discretion to
deny asylum.”). Because asylum is a discretionary
form of relief from removal, the alien bears the burden
of showing both eligibility for asylum and why the Attorney General or Secretary should exercise discretion
to grant relief. See INA 208(b)(1), 240(c)(4)(A), 8 U.S.C.
1158(b)(1), 1229a(c)(4)(A); Romilus v. Ashcroft, 385
F.3d 1, 8 (1st Cir. 2004).
Section 208 of the INA provides that, in order to apply for asylum, an applicant must be “physically present” or “arriv[e]” in the United States, “whether or not
at a designated port of arrival” and “irrespective of such
alien’s status”—but the applicant must also “apply for
asylum in accordance with” the rest of section 208 or
with the expedited-removal process in section 235 of the
INA. INA 208(a)(1), 8 U.S.C. 1158(a)(1). Furthermore,
to be granted asylum, the alien must demonstrate that
he or she meets the statutory definition of a “refugee,”
INA 208(b)(1)(A), 8 U.S.C. 1158(b)(1)(A), and is not subject to an exception or bar, INA 208(b)(2), 8 U.S.C.
1158(b)(2). The alien bears the burden of proof to establish that he or she meets these criteria.
INA
208(b)(1)(B)(i), 8 U.S.C. 1158(b)(1)(B)(i); 8 CFR
1240.8(d).
For an alien to establish that he or she is a “refugee,”
the alien generally must be someone who is outside of
his or her country of nationality and “is unable or unwilling to return to . . . that country because of persecution or a well-founded fear of persecution on account

75

of race, religion, nationality, membership in a particular
social group, or political opinion.” INA 101(a)(42)(A), 8
U.S.C. 1101(a)(42)(A).
In addition, if evidence indicates that one or more of
the grounds for mandatory denial may apply, an alien
must show that he or she does not fit within one of the
statutory bars to granting asylum and is not subject to
any “additional limitations and conditions . . . under
which an alien shall be ineligible for asylum” established
by a regulation that is “consistent with” section 208 of
the INA. INA 208(b)(2)(C), 8 U.S.C. 1158(b)(2)(C); see
8 CFR 1240.8(d). The INA currently bars a grant of
asylum to any alien: (1) Who “ordered, incited, assisted, or otherwise participated in the persecution of
any person on account of ” a protected ground; (2) who,
“having been convicted by a final judgment of a particularly serious crime, constitutes a danger to the community of the United States”; (3) for whom there are serious reasons to believe the alien “has committed a serious
nonpolitical crime outside the United States” prior to arrival in the United States; (4) for whom “there are reasonable grounds for regarding the alien as a danger to
the security of the United States”; (5) who is described in
the terrorism-related inadmissibility grounds, with limited exceptions; or (6) who “was firmly resettled in another country prior to arriving in the United States.”
INA 208(b)(2)(A)(i)-(vi), 8 U.S.C. 1158(b)(2)(A)(i)-(vi).
An alien who falls within any of those bars is subject
to mandatory denial of asylum. Where there is evidence that “one or more of the grounds for mandatory
denial of the application for relief may apply,” the applicant in immigration court proceedings bears the burden
of establishing that the bar at issue does not apply.

76

8 CFR 1240.8(d); see also, e.g., Rendon v. Mukasey, 520
F.3d 967, 973 (9th Cir. 2008) (applying 8 CFR 1240.8(d)
in the context of the aggravated felony bar to asylum);
Gao v. U.S. Att’y Gen., 500 F.3d 93, 98 (2d Cir. 2007)
(applying 8 CFR 1240.8(d) in the context of the persecutor bar); Chen v. U.S. Att’y Gen., 513 F.3d 1255, 1257
(11th Cir. 2008) (same).
Because asylum is a discretionary benefit, aliens who
are eligible for asylum are not automatically entitled to
it. After demonstrating eligibility, aliens must further
meet their burden of showing that the Attorney General
or Secretary should exercise his or her discretion to grant
asylum. See INA 208(b)(1)(A), 8 U.S.C. 1158(b)(1)(A)
(the “Secretary of Homeland Security or the Attorney
General may grant asylum to an alien” who applies in
accordance with the required procedures and meets the
definition of a “refugee”). The asylum statute’s grant
of discretion “is a broad delegation of power, which restricts the Attorney General’s discretion to grant asylum only by requiring the Attorney General to first determine that the asylum applicant is a ‘refugee.’ ” Komarenko v. INS, 35 F.3d 432, 436 (9th Cir. 1994), overruled on other grounds by Abebe v. Mukasey, 554 F.3d
1203 (9th Cir. 2009) (en banc) (per curiam). Immigration judges and asylum officers exercise that delegated
discretion on a case-by-case basis. Under the Board’s
decision in Matter of Pula, 19 I&N Dec. 467 (BIA 1987),
and its progeny, “an alien’s manner of entry or attempted entry is a proper and relevant discretionary
factor” and “circumvention of orderly refugee procedures” can be a “serious adverse factor” against exercising discretion to grant asylum, id. at 473, but “[t]he dan-

77

ger of persecution will outweigh all but the most egregious adverse factors,” Matter of Kasinga, 21 I&N Dec.
357, 367 (BIA 1996).
C. Establishing Bars to Asylum
The availability of asylum has long been qualified
both by statutory bars and by administrative discretion
to create additional bars. Those bars have developed
over time in a back-and-forth process between Congress
and the Attorney General. The original asylum provisions, as set out in the Refugee Act of 1980, Public Law
96-212, simply directed the Attorney General to “establish a procedure for an alien physically present in the
United States or at a land border or port of entry, irrespective of such alien’s status, to apply for asylum, and
the alien may be granted asylum in the discretion of the
Attorney General if the Attorney General determines
that such alien is a refugee” within the meaning of
the title. See 8 U.S.C. 1158(a) (1982); see also INS v.
Cardoza-Fonseca, 480 U.S. 421, 427-29 (1987) (describing the 1980 provisions).
In the 1980 implementing regulations, the Attorney
General, in his discretion, established several mandatory bars to granting asylum that were modeled on the
mandatory bars to eligibility for withholding of deportation under the existing section 243(h) of the INA. See
Refugee and Asylum Procedures, 45 FR 37392, 37392
(June 2, 1980) (“The application will be denied if the alien does not come within the definition of refugee under
the Act, is firmly resettled in a third country, or is within
one of the undesirable groups described in section
243(h) of the Act, e.g., having been convicted of a serious
crime, constitutes a danger to the United States.”).

78

Those regulations required denial of an asylum application if it was determined that (1) the alien was “not a
refugee within the meaning of section 101(a)(42)” of the
INA, 8 U.S.C. 1101(a)(42); (2) the alien had been “firmly
resettled in a foreign country” before arriving in the
United States; (3) the alien “ordered, incited, assisted,
or otherwise participated in the persecution of any person on account of race, religion, nationality, membership
in a particular group, or political opinion”; (4) the alien
had “been convicted by a final judgment of a particularly
serious crime” and therefore constituted “a danger to
the community of the United States”; (5) there were “serious reasons for considering that the alien ha[d] committed a serious non-political crime outside the United
States prior to the arrival of the alien in the United
States”; or (6) there were “reasonable grounds for regarding the alien as a danger to the security of the
United States.” See id. at 37394-95.
In 1990, the Attorney General substantially amended
the asylum regulations while retaining the mandatory
bars for aliens who persecuted others on account of a
protected ground, were convicted of a particularly serious crime in the United States, firmly resettled in another country, or presented reasonable grounds to be
regarded as a danger to the security of the United
States. See Asylum and Withholding of Deportation
Procedures, 55 FR 30674, 30683 (July 27, 1990); see also
Yang v. INS, 79 F.3d 932, 936-39 (9th Cir. 1996) (upholding firm-resettlement bar); Komarenko, 35 F.3d at 436
(upholding particularly-serious-crime bar). In the Immigration Act of 1990, Public Law 101-649, Congress
added an additional mandatory bar to applying for or
being granted asylum for “[a]n[y] alien who has been

79

convicted of an aggravated felony.”
649, sec. 515.

Public Law 101-

In IIRIRA and the Antiterrorism and Effective
Death Penalty Act of 1996, Public Law 104-132, Congress
amended the asylum provisions in section 208 of the
INA, 8 U.S.C. 1158. Among other amendments, Congress created three exceptions to section 208(a)(1)’s provision that an alien may apply for asylum, for (1) aliens
who can be removed to a safe third country pursuant to
bilateral or multilateral agreement; (2) aliens who failed
to apply for asylum within one year of arriving in the
United States; and (3) aliens who have previously applied for asylum and had the application denied. Public
Law 104-208, div. C, sec. 604(a); see INA 208(a)(2)(A)(C), 8 U.S.C. 1158(a)(2)(A)-(C).
Congress also adopted six mandatory exceptions to
the authority of the Attorney General or Secretary to
grant asylum that largely reflect pre-existing bars set
forth in the Attorney General’s asylum regulations.
These exceptions cover (1) aliens who “ordered, incited,
or otherwise participated” in the persecution of others
on account of a protected ground; (2) aliens convicted of
a “particularly serious crime”; (3) aliens who committed
a “serious nonpolitical crime outside the United States”
before arriving in the United States; (4) aliens who are
a “danger to the security of the United States”; (5) aliens
who are inadmissible or removable under a set of specified grounds relating to terrorist activity; and (6) aliens
who have “firmly resettled in another country prior to
arriving in the United States.” Public Law 104-208,
div. C, sec. 604(a); see INA 208(b)(2)(A)(i)-(vi), 8 U.S.C.
1158(b)(2)(A)(i)-(vi). Congress further added that aggravated felonies, defined in 8 U.S.C. 1101(a)(43), would

80

be considered “particularly serious crime[s].” Public
Law 104-208, div. C, sec. 604(a); see INA 201(a)(43),
8 U.S.C. 1101(a)(43).
Although Congress enacted specific exceptions, that
statutory list is not exhaustive. Congress, in IIRIRA,
expressly authorized the Attorney General to expand
upon two of those exceptions-the bars for “particularly
serious crimes” and “serious nonpolitical offenses.”
While Congress prescribed that all aggravated felonies
constitute particularly serious crimes, Congress further
provided that the Attorney General may “designate by
regulation offenses that will be considered” a “particularly serious crime” that “constitutes a danger to the
community of the United States.” INA 208(b)(2)(A)(ii),
(B)(ii), 8 U.S.C. 1158(b)(2)(A)(ii), (B)(ii). Courts and
the Board have long held that this grant of authority
also authorizes the Board to identify additional particularly serious crimes (beyond aggravated felonies) through
case-by-case adjudication. See, e.g., Ali v. Achim, 468
F.3d 462, 468-69 (7th Cir. 2006); Delgado v. Holder, 648
F.3d 1095, 1106 (9th Cir. 2011) (en banc). Congress
likewise authorized the Attorney General to designate
by regulation offenses that constitute “a serious
nonpolitical crime outside the United States prior to the
arrival of the alien in the United States.”
INA
208(b)(2)(A)(iii), (B)(ii), 8 U.S.C. 1158(b)(2)(A)(iii),
(B)(ii). Although these provisions continue to refer
only to the Attorney General, the Departments interpret these provisions to also apply to the Secretary of
Homeland Security by operation of the Homeland Security Act of 2002. See 6 U.S.C. 552; 8 U.S.C. 1103(a)(1).

81

Congress further provided the Attorney General with
the authority, by regulation, to “establish additional limitations and conditions, consistent with [section 208 of
the INA], under which an alien shall be ineligible
for asylum under paragraph (1).” INA 208(b)(2)(C),
8 U.S.C. 1158(b)(2)(C). As the Tenth Circuit has recognized, “the statute clearly empowers” the Attorney
General to “adopt[] further limitations” on asylum eligibility. R-S-C, 869 F.3d at 1187 & n.9. By allowing the
imposition by regulation of “additional limitations and
conditions,” the statute gives the Attorney General and
the Secretary broad authority in determining what the
“limitations and conditions” should be. The additional
limitations on eligibility must be established “by regulation,” and must be “consistent with” the rest of section
208 of the INA. INA 208(b)(2)(C), 8 U.S.C. 1158(b)(2)(C).
Thus, the Attorney General in the past has invoked
section 208(b)(2)(C) of the INA to limit eligibility for
asylum based on a “fundamental change in circumstances” and on the ability of an applicant to safely relocate internally within the alien’s country of nationality
or of last habitual residence. See Asylum Procedures,
65 FR 76121, 76126 (Dec. 6, 2000). The courts have also
viewed section 208(b)(2)(C) as conferring broad discretion, including to render aliens ineligible for asylum
based on fraud. See R-S-C, 869 F.3d at 1187; Nijjar v.
Holder, 689 F.3d 1077, 1082 (9th Cir. 2012) (noting that
fraud can be “one of the ‘additional limitations . . .
under which an alien shall be ineligible for asylum’ that
the Attorney General is authorized to establish by regulation”).

82

Section 208(d)(5) of the INA, 8 U.S.C. 1158(d)(5), also
establishes certain procedures for consideration of asylum applications. But Congress specified that the Attorney General “may provide by regulation for any other
conditions or limitations on the consideration of an application for asylum,” so long as those limitations are
“not inconsistent with this chapter.” INA 208(d)(5)(B),
8 U.S.C. 1158(d)(5)(B).
In sum, the current statutory framework leaves the
Attorney General (and, after the Homeland Security
Act, the Secretary) significant discretion to adopt additional bars to asylum eligibility. Beyond providing discretion to further define particularly serious crimes and
serious nonpolitical offenses, Congress has provided the
Attorney General and Secretary with discretion to establish by regulation any additional limitations or conditions on eligibility for asylum or on the consideration of
applications for asylum, so long as these limitations are
consistent with the asylum statute.
D. Other Forms of Protection
Aliens who are not eligible to apply for or be granted
asylum, or who are denied asylum on the basis of the Attorney General’s or the Secretary’s discretion, may
nonetheless qualify for protection from removal under
other provisions of the immigration laws. A defensive
application for asylum that is submitted by an alien in
removal proceedings is also deemed an application
for statutory withholding of removal under section
241(b)(3) of the INA, 8 U.S.C. 1231(b)(3). See 8 CFR
208.30(e)(2)-(4), 1208.3(b), 1208.16(a). An immigration
judge may also consider an alien’s eligibility for withholding and deferral of removal under regulations is-

83

sued pursuant to the authority of the implementing legislation regarding Article 3 of the CAT. See Foreign
Affairs Reform and Restructuring Act of 1998, Public
Law 105-277, div. G, sec. 2242(b); 8 CFR 1208.3(b); see
also 8 CFR 1208.16-1208.17.
These forms of protection bar an alien’s removal to
any country where the alien would “more likely than
not” face persecution or torture, meaning that the alien
would face a clear probability that his or her life or freedom would be threatened on account of a protected
ground or a clear probability of torture.
8 CFR
1208.16(b)(2), (c)(2); see Kouljinski v. Keisler, 505 F.3d
534, 544-45 (6th Cir. 2007); Sulaiman v. Gonzales, 429
F.3d 347, 351 (1st Cir. 2005). Thus, if an alien proves
that it is more likely than not that the alien’s life or freedom would be threatened on account of a protected
ground, but is denied asylum for some other reason—
for instance, because of a statutory exception, an eligibility bar adopted by regulation, or a discretionary denial of asylum—the alien may be entitled to statutory
withholding of removal if not otherwise barred for that
form of protection. INA 241(b)(3), 8 U.S.C. 1231(b)(3);
8 CFR 208.16, 1208.16; see also Garcia v. Sessions, 856
F.3d 27, 40 (1st Cir. 2017) (“[W]ithholding of removal
has long been understood to be a mandatory protection
that must be given to certain qualifying aliens, while
asylum has never been so understood.”). Likewise, an
alien who establishes that he or she will more likely than
not face torture in the country of removal will qualify for
CAT protection.
See 8 CFR 208.16(c), 1208.16(c).
But, unlike asylum, statutory withholding and CAT protection do not: (1) Prohibit the Government from removing the alien to a third country where the alien
would not face the requisite probability of persecution

84

or torture; (2) create a path to lawful permanent resident status and citizenship; or (3) afford the same ancillary benefits (such as protection for derivative family
members). See R-S-C, 869 F.3d at 1180.
E. Implementation of Treaty Obligations
The framework described above is consistent with
certain U.S. obligations under the 1967 Protocol Relating to the Status of Refugees (“Refugee Protocol”),
which incorporates Articles 2 to 34 of the 1951 Convention Relating to the Status of Refugees (“Refugee Convention”), as well as U.S. obligations under Article 3 of
the CAT. Neither the Refugee Protocol nor the CAT is
self-executing in the United States.
See Khan v.
Holder, 584 F.3d 773, 783 (9th Cir. 2009) (‘[T]he [Refugee] Protocol is not self-executing.”); Auguste v. Ridge,
395 F.3d 123, 132 (3d Cir. 2005) (the CAT “was not selfexecuting”). These treaties are not directly enforceable in U.S. law, but some of the obligations they contain
have been implemented through domestic implementing
legislation. For example, the United States has implemented the non-refoulement provisions of these treaties
—i.e., provisions prohibiting the return of an individual
to a country where he or she would face persecution or
torture—through the withholding of removal provisions
at section 241(b)(3) of the INA and the CAT regulations,
not through the asylum provisions at section 208 of the
INA. See Cardoza-Fonseca, 480 U.S. at 440-41; Foreign Affairs Reform and Restructuring Act of 1998, Public Law 105-277, div. G, sec. 2242(b); 8 CFR 208.16(c),
208.17-208.18; 1208.16(c), 1208.17-1208.18.
Limitations on the availability of asylum that do not
affect the statutory withholding of removal or protection
under the CAT regulations are consistent with these

85

provisions. See RS-C, 869 F.3d at 1188 & n.11; Cazun
v. Att’y Gen., 856 F.3d 249, 257 & n.16 (3d Cir. 2017);
Ramirez-Mejia v. Lynch, 813 F.3d 240, 241 (5th Cir.
2016).
Limitations on eligibility for asylum are also consistent with Article 34 of the Refugee Convention, concerning assimilation of refugees, as implemented by section 208 of the INA, 8 U.S.C. 1158. Section 208 of the
INA reflects that Article 34 is precatory and not mandatory, and accordingly does not provide that all refugees
shall receive asylum. See Cardoza-Fonseca, 480 U.S.
at 441; Garcia, 856 F.3d at 42; Cazun, 856 F.3d at 257 &
n. 16; Mejia v. Sessions, 866 F.3d 573, 588 (4th Cir.
2017); R-S-C, 869 F.3d at 1188; Ramirez-Mejia, 813
F.3d at 241. As noted above, Congress has long recognized the precatory nature of Article 34 by imposing various statutory exceptions and by authorizing the creation of new bars to asylum eligibility through regulation.
Courts have likewise rejected arguments that other
provisions of the Refugee Convention require every refugee to receive asylum. Courts have held, in the context of upholding the bar on eligibility for asylum in reinstatement proceedings under section 241(a)(5) of the
INA, 8 U.S.C. 1231(a)(5), that limiting the ability to apply for asylum does not constitute a prohibited “penalty”
under Article 31(1) of the Refugee Convention. Cazun,
856 F.3d at 257 & n.16; Mejia, 866 F.3d at 588. Courts
have also rejected the argument that Article 28 of the
Refugee Convention, governing the issuance of international travel documents for refugees “lawfully staying”
in a country’s territory, mandates that every person who
might qualify for statutory withholding must also be

86

granted asylum.
F.3d at 1188.

Garcia, 856 F.3d at 42; R-S-C, 869

IV. Regulatory Changes

A. Limitation on Eligibility for Asylum for Aliens
Who Contravene a Presidential Proclamation Under
Section 212(f ) or 215(a)(1) of the INA Concerning the
Southern Border
Pursuant to section 208(b)(2)(C) of the INA, 8 U.S.C.
1158(b)(2)(C), the Departments are revising 8 CFR
208.13(c) and 8 CFR 1208.13(c) to add a new mandatory
bar on eligibility for asylum for certain aliens who are
subject to a presidential proclamation suspending or imposing limitations on their entry into the United States
pursuant to section 212(f ) of the INA, 8 U.S.C. 1182(f ),
or section 215(a)(1) of the INA, 8 U.S.C. 1185(a)(1), and
who enter the United States in contravention of such a
proclamation after the effective date of this rule. The
bar would be subject to several further limitations: (1)
The bar would apply only prospectively, to aliens who
enter the United States after the effective date of such
a proclamation; (2) the proclamation must concern entry
at the southern border; and (3) the bar on asylum eligibility would not apply if the proclamation expressly disclaims affecting asylum eligibility for aliens within its
scope, or expressly provides for a waiver or exception
that entitles the alien to relief from the limitation on entry imposed by the proclamation.
The President has both statutory and inherent constitutional authority to suspend the entry of aliens into
the United States when it is in the national interest.
See United States ex rel. Knauff v. Shaughnessy, 338

87

U.S. 537, 542 (1950) (“The exclusion of aliens is a fundamental act of sovereignty” that derives from “legislative
power” and also “is inherent in the executive power to
control the foreign affairs of the nation.”); see also Proposed Interdiction of Haitian Flag Vessels, 5 Op. O.L.C.
242, 244-45 (1981) (“[T]he sovereignty of the Nation,
which is the basis of our ability to exclude all aliens, is
lodged in both political branches of the government,”
and even without congressional action, the President
may “act[] to protect the United States from massive illegal immigration.”).
Congress, in the INA, has expressly vested the President with broad authority to restrict the ability of aliens
to enter the United States. Section 212(f ) states:
“Whenever the President finds that the entry of any aliens or of any class of aliens into the United States would
be detrimental to the interests of the United States, he
may by proclamation, and for such period as he shall
deem necessary, suspend the entry of all aliens or any
class of aliens as immigrants or nonimmigrants, or impose on the entry of aliens any restrictions he may deem
to be appropriate.” 8 U.S.C. 1182(f ). “By its plain
language, [8 U.S.C.] § 1182(f ) grants the President
broad discretion to suspend the entry of aliens into the
United States,” including the authority “to impose additional limitations on entry beyond the grounds for exclusion set forth in the INA.” Trump v. Hawaii, 138 S.
Ct. 2392, 2408-12 (2018). For instance, the Supreme
Court considered it “perfectly clear that 8 U.S.C. 1182(f )
. . . grants the President ample power to establish a
naval blockade that would simply deny illegal Haitian
immigrants the ability to disembark on our shores,”
thereby preventing them from entering the United

88

States and applying for asylum. Sale v. Haitian Ctrs.
Council, Inc., 509 U.S. 155, 187 (1993).
The President’s broad authority under section 212(f )
is buttressed by section 215(a)(1), which states it shall
be unlawful “for any alien to depart from or enter or attempt to depart from or enter the United States except
under such reasonable rules, regulations, and orders,
and subject to such limitations and exceptions as the
President may prescribe.” 8 U.S.C. 1185(a)(1). The
presidential orders that the Supreme Court upheld in
Sale were promulgated pursuant to both sections 212(f )
and 215(a)(1)—see 509 U.S. at 172 & n.27; see also Exec.
Order 12807 (May 24, 1992) (“Interdiction of Illegal Aliens”); Exec. Order 12324 (Sept. 29, 1981) (“Interdiction
of Illegal Aliens”) (revoked and replaced by Exec. Order
12807)—as was the proclamation upheld in Trump v.
Hawaii, see 138 S. Ct. at 2405. Other presidential orders have solely cited section 215(a)(1) as authority.
See, e.g., Exec. Order 12172 (Nov. 26, 1979) (“Delegation
of Authority With Respect to Entry of Certain Aliens
Into the United States”) (invoking section 215(a)(1) with
respect to certain Iranian visa holders).
An alien whose entry is suspended or limited by a
proclamation is one whom the President has determined
should not enter the United States, or only should do so
under certain conditions. Such an order authorizes
measures designed to prevent such aliens from arriving
in the United States as a result of the President’s determination that it would be against the national interest
for them to do so. For example, the proclamation and
order that the Supreme Court upheld in Sale, Proc. 4865
(Sept. 29, 1981) (“High Seas Interdiction of Illegal Aliens”); Exec. Order 12324, directed the Coast Guard to

89

interdict the boats of tens of thousands of migrants fleeing Haiti to prevent them from reaching U.S. shores,
where they could make claims for asylum. The order
further authorized the Coast Guard to intercept any vessel believed to be transporting undocumented aliens to
the United States, “[t]o make inquiries of those on
board, examine documents, and take such actions as are
necessary to carry out this order,” and “[t]o return the
vessel and its passengers to the country from which it
came, or to another country, when there is reason to believe that an offense is being committed against the
United States immigration laws.” Exec. Order 12807,
sec. 2(c).
An alien whose entry is suspended or restricted under such a proclamation, but who nonetheless reaches
U.S. soil contrary to the President’s determination that
the alien should not be in the United States, would remain subject to various procedures under immigration
laws. For instance, an alien subject to a proclamation
who nevertheless entered the country in contravention
of its terms generally would be placed in expeditedremoval proceedings under section 235 of the INA, 8
U.S.C. 1225, and those proceedings would allow the alien
to raise any claims for protection before being removed
from the United States, if appropriate. Furthermore,
the asylum statute provides that “[a]ny alien who is
physically present in the United States or who arrives
in the United States (whether or not at a designated port
of arrival),” and “irrespective of such alien’s status, may
apply for asylum in accordance with this section or,
where applicable, [8 U.S.C.] 1225(b).” INA 208(a)(1), 8
U.S.C. 1158(a)(1). Some past proclamations have accordingly made clear that aliens subject to an entry bar

90

may still apply for asylum if they have nonetheless entered the United States. See, e.g., Proc. 9645, sec. 6(e)
(Sept. 24, 2017) (“Enhancing Vetting Capabilities and
Processes for Detecting Attempted Entry Into the
United States by Terrorists or Other Public-Safety
Threats”) (“Nothing in this proclamation shall be construed to limit the ability of an individual to seek asylum,
refugee status, withholding of removal, or protection under the Convention Against Torture, consistent with the
laws of the United States.”).
As noted above, however, the asylum statute also authorizes the Attorney General and Secretary “by regulation” to “establish additional limitations and conditions, consistent with [section 208 of the INA], under
which an alien shall be ineligible for asylum,” INA
208(b)(2)(C), 8 U.S.C. 1158(b)(2)(C), and to set conditions or limitations on the consideration of an application for asylum, INA 208(d)(5)(B), 8 U.S.C.
1158(d)(5)(B). The Attorney General and the Secretary have determined that this authority should be exercised to render ineligible for a grant of asylum any alien who is subject to a proclamation suspending or restricting entry along the southern border with Mexico,
but who nonetheless enters the United States after such
a proclamation goes into effect. Such an alien would
have engaged in actions that undermine a particularized
determination in a proclamation that the President
judged as being required by the national interest: That
the alien should not enter the United States.
The basis for ineligibility in these circumstances
would be the Departments’ conclusion that aliens who
contravene such proclamations should not be eligible for
asylum. Such proclamations generally reflect sensitive

91

determinations regarding foreign relations and national
security that Congress recognized should be
entrusted to the President. See Trump v. Hawaii, 138
S. Ct. at 2411. Aliens who contravene such a measure
have not merely violated the immigration laws, but have
also undercut the efficacy of a measure adopted by the
President based upon his determination of the national
interest in matters that could have significant implications for the foreign affairs of the United States. For
instance, previous proclamations were directed solely at
Haitian migrants, nearly all of whom were already inadmissible by virtue of other provisions of the INA, but the
proclamation suspended entry and authorized further
measures to ensure that such migrants did not enter the
United States contrary to the President’s determination. See, e.g., Proc. 4865; Exec. Order 12807.
In the case of the southern border, a proclamation
that suspended the entry of aliens who crossed between
the ports of entry would address a pressing national
problem concerning the immigration system and our
foreign relations with neighboring countries. Even if
most of those aliens would already be inadmissible under our laws, the proclamation would impose limitations
on entry for the period of the suspension against a particular class of aliens defined by the President. That
judgment would reflect a determination that certain illegal entrants—namely, those crossing between the
ports of entry on the southern border during the duration of the proclamation—were a source of particular
concern to the national interest. Furthermore, such a
proclamation could authorize additional measures to
prevent the entry of such inadmissible aliens, again reflecting the national concern with this subset of inadmis-

92

sible aliens. The interim final rule reflects the Departments’ judgment that, under the extraordinary circumstances presented here, aliens crossing the southern
border in contravention of such a proclamation should
not be eligible for a grant of asylum during the period of
suspension or limitation on entry. The result would be
to channel to ports of entry aliens who seek to enter the
United States and assert an intention to apply for asylum or a fear of persecution, and to provide for consideration of those statements there.
Significantly, this bar to eligibility for a grant of asylum would be limited in scope. This bar would apply
only prospectively. This bar would further apply only
to a proclamation concerning entry along the southern
border, because this interim rule reflects the need to facilitate urgent action to address current conditions at
that border. This bar would not apply to any proclamation that expressly disclaimed an effect on eligibility
for asylum. And this bar would not affect an applicant
who is granted a waiver or is excepted from the suspension under the relevant proclamation, or an alien who
did not at any time enter the United States after the effective date of such proclamation.
Aliens who enter in contravention of a proclamation
will not, however, overcome the eligibility bar merely
because a proclamation has subsequently ceased to have
effect. The alien still would have entered notwithstanding a proclamation at the time the alien entered the
United States, which would result in ineligibility for asylum (but not for statutory withholding or for CAT protection). Retaining eligibility for asylum for aliens who
entered the United States in contravention of the proclamation, but evaded detection until it had ceased, could

93

encourage aliens to take riskier measures to evade detection between ports of entry, and would continue to
stretch government resources dedicated to apprehension efforts.
This restriction on eligibility to asylum is consistent
with section 208(a)(1) of the INA, 8 U.S.C. 1158(a)(1).
The regulation establishes a condition on asylum eligibility, not on the ability to apply for asylum. Compare
INA 208(a), 8 U.S.C. 1158(a) (describing conditions for
applying for asylum), with INA 208(b), 8 U.S.C. 1158(b)
(identifying exceptions and bars to granting asylum).
And, as applied to a proclamation that suspends the entry of aliens who crossed between the ports of entry at
the southern border, the restriction would not preclude
an alien physically present in the United States from being granted asylum if the alien arrives in the United
States through any border other than the southern land
border with Mexico or at any time other than during the
pendency of a proclamation suspending or limiting entry.
B. Screening Procedures in Expedited Removal for
Aliens Subject to Proclamations
The rule would also modify certain aspects of the process for screening claims for protection asserted by aliens who have entered in contravention of a proclamation and who are subject to expedited removal under
INA 235(b)(1), 8 U.S.C. 1225(b)(1). Under current procedures, aliens who unlawfully enter the United States
may avoid being removed on an expedited basis by making a threshold showing of a credible fear of persecution
at a initial screening interview. At present, those aliens are often released into the interior of the United

94

States pending adjudication of such claims by an immigration court in section 240 proceedings especially if
those aliens travel as family units. Once an alien is released, adjudications can take months or years to complete because of the increasing volume of claims and the
need to expedite cases in which aliens have been detained. The Departments expect that a substantial
proportion of aliens subject to an entry proclamation
concerning the southern border would be subject to expedited removal, since approximately 234,534 aliens in
FY 2018 who presented at a port of entry or were apprehended at the border were referred to expedited-removal proceedings. 1 The procedural changes within
expedited removal would be confined to aliens who are
ineligible for asylum because they are subject to a regulatory bar for contravening an entry proclamation.
1. Under existing law, expedited-removal procedures
—streamlined procedures for expeditiously reviewing
claims and removing certain aliens—apply to those individuals who arrive at a port of entry or those who have
entered illegally and are encountered by an immigration
officer within 100 miles of the border and within 14 days
of entering. See INA 235(b), 8 U.S.C. 1225(b); Designating Aliens For Expedited Removal, 69 FR 48877,
48880 (Aug. 11, 2004). To be subject to expedited removal, an alien must also be inadmissible under INA
212(a)(6)(C) or (a)(7), 8 U.S.C. 1182(a)(6)(C) or (a)(7),
As noted below, in FY 2018, approximately 171,511 aliens entered
illegally between ports of entry, were apprehended by CBP, and were
placed in expedited removal. Approximately 59,921 inadmissible aliens arrived at ports of entry and were placed in expedited removal.
Furthermore, ICE arrested some 3,102 aliens and placed them in
expedited removal.
1

95

meaning that the alien has either tried to procure documentation through misrepresentation or lacks such documentation altogether. Thus, an alien encountered in
the interior of the United States who entered in contravention of a proclamation and who is not otherwise amenable to expedited removal would be placed in proceedings under section 240 of the INA. The interim rule
does not invite comment on existing regulations implementing the present scope of expedited removal.
Section 235(b)(1) of the INA, 8 U.S.C. 1225(b)(1), prescribes procedures in the expedited-removal context for
screening an alien’s eligibility for asylum. When these
provisions were being debated in 1996, legislators expressed particular concern that “[e]xisting procedures
to deny entry to and to remove illegal aliens from the
United States are cumbersome and duplicative,” and
that “[t]he asylum system has been abused by those who
seek to use it as a means of ‘backdoor’ immigration.”
See H.R. Rep. No. 104-469, pt. 1, at 107 (1996). Members of Congress accordingly described the purpose of
expedited removal and related procedures as “streamlin[ing] rules and procedures in the Immigration and
Nationality Act to make it easier to deny admission to
inadmissible aliens and easier to remove deportable aliens from the United States.” Id. at 157; see Am. Immigration Lawyers Ass’n v. Reno, 18 F. Supp. 2d 38, 41
(D.D.C. 1998), aff ’d, 199 F.3d 1352 (DC Cir. 2000) (rejecting several constitutional challenges to IIRIRA and
describing the expedited-removal process as a “summary removal process for adjudicating the claims of aliens who arrive in the United States without proper documentation”).

96

Congress thus provided that aliens “inadmissible under [8 U.S.C.] 1182(a)(6)(C) or 1182(a)(7)” shall be
“removed from the United States without further hearing or review unless the alien indicates either an intention to apply for asylum under [8 U.S.C. 1158] or a fear
of persecution.”
INA 235(b)(1)(A)(i), 8 U.S.C.
1225(b)(1)(A)(i); see INA 235(b)(1)(A)(ii), 8 U.S.C.
1225(b)(1)(A)(ii) (such aliens shall be referred “for an interview by an asylum officer”). On its face, the statute
refers only to proceedings to establish eligibility for an
affirmative grant of asylum and its attendant benefits,
not to statutory withholding of removal or CAT protection against removal to a particular country.
An alien referred for a credible-fear interview must
demonstrate a “credible fear,” defined as a “significant
possibility, taking into account the credibility of the
statements made by the alien in support of the alien’s
claim and such other facts as are known to the officer,
that the alien could establish eligibility for asylum under
[8 U.S.C. 1158].”
INA 235(b)(1)(B)(v), 8 U.S.C.
1225(b)(1)(B)(v). According to the House report, “[t]he
credible-fear standard [wa]s designed to weed out nonmeritorious cases so that only applicants with a likelihood of success will proceed to the regular asylum process.” H.R. Rep. No. 104-69, at 158.
If the asylum officer determines that the alien lacks
a credible fear, then the alien may request review by an
immigration judge. INA 235(b)(1)(B)(iii)(III), 8 U.S.C.
1225(b)(1)(B)(iii)(III). If the immigration judge concurs with the asylum officer’s negative credible-fear determination, then the alien shall be removed from the
United States without further review by either the
Board or the courts. INA 235(b)(1)(B)(iii)(I), (b)(1)(C),

97

8
U.S.C.
1225(b)(1)(B)(iii)(I),
(b)(1)(C);
INA
242(a)(2)(A)(iii), (e)(5), 8 U.S.C. 1252(a)(2)(A)(iii), (e)(5);
Pena v. Lynch, 815 F.3d 452, 457 (9th Cir. 2016). By
contrast, if the asylum officer or immigration judge determines that the alien has a credible fear-i.e., “a significant possibility . . . that the alien could establish eligibility for asylum,” INA 235(b)(1)(B)(v), 8 U.S.C.
1225(b)(1)(B)(v)-then the alien, under current regulations, is placed in section 240 proceedings for a full hearing before an immigration judge, with appeal available
to the Board and review in the federal courts of appeals,
see INA 235(b)(1)(B)(ii), (b)(2)(A), 8 U.S.C.
1225(b)(1)(B)(ii), (b)(2)(A); INA 242(a), 8 U.S.C. 1252(a);
8 CFR 208.30(e)(5), 1003.1. The interim rule does not
invite comment on existing regulations implementing
this framework.
By contrast, section 235 of the INA is silent regarding procedures for the granting of statutory withholding
of removal and CAT protection; indeed, section 235 predates the legislation directing implementation of U.S.
obligations under Article 3 of the CAT. See Foreign
Affairs Reform and Restructuring Act of 1998, Public
Law 105-277, sec. 2242(b) (requiring implementation of
CAT); IIRIRA, Public Law 104-208, sec. 302 (revising
section 235 of the INA to include procedures for dealing
with inadmissible aliens who intend to apply for asylum).
The legal standards for ultimately granting asylum on
the merits versus statutory withholding or CAT protection are also different. Asylum requires an applicant
to ultimately establish a “well-founded fear” of persecution, which has been interpreted to mean a “reasonable
possibility” of persecution—a “more generous” standard than the “clear probability” of persecution or torture standard that applies to statutory withholding or

98

CAT protection. See INS v. Stevic, 467 U.S. 407, 425,
429-30 (1984); Santosa v. Mukasey, 528 F.3d 88, 92 & n.1
(1st Cir. 2008); compare 8 CFR 1208.13(b)(2)(i)(B) with
8 CFR 1208.16(b)(2), (c)(2). As a result, applicants who
establish eligibility for asylum are not necessarily eligible for statutory withholding or CAT protection.
Current regulations instruct USCIS adjudicators
and immigration judges to treat an alien’s request for
asylum in expedited-removal proceedings under section
1225(b) as a request for statutory withholding and CAT
protection as well. See 8 CFR 208.3(b), 208.30(e)(2)-(4),
1208.3(b), 1208.16(a). In the context of expedited-removal proceedings, “credible fear of persecution” is defined to mean a “significant possibility” that the alien
“could establish eligibility for asylum under section 1158,”
not CAT or statutory withholding. INA 235(b)(1)(B)(v),
8 U.S.C. 1225(b)(1)(B)(v). Regulations nevertheless
have generally provided that aliens in expedited removal should be subject to the same process for considering statutory withholding of removal claims under
INA 241(b)(3), 8 U.S.C. 1231(b)(3), and claims for protection under the CAT, as they are for asylum claims.
See 8 CFR 208.30(e)(2)-(4).
Thus, when the Immigration and Naturalization Service provided for claims for statutory withholding of removal and CAT protection to be considered in the same
expedited-removal proceedings as asylum, the result
was that if an alien showed that there was a significant
possibility of establishing eligibility for asylum and was
therefore referred for removal proceedings under section 240 of the INA, any potential statutory withholding
and CAT claims the alien might have were referred as
well. This was done on the assumption that that it

99

would not “disrupt[ ] the streamlined process established by Congress to circumvent meritless claims.”
Regulations Concerning the Convention Against Torture, 64 FR 8478, 8485 (Feb. 19, 1999). But while the
INA authorizes the Attorney General and Secretary to
provide for consideration of statutory withholding and
CAT claims together with asylum claims or other matters that may be considered in removal proceedings, the
INA does not require that approach, see Foti v. INS, 375
U.S. 217, 229-30 & n.16 (1963), or that they be considered in the same way.
Since 1999, regulations also have provided for a distinct “reasonable fear” screening process for certain aliens who are categorically ineligible for asylum and can
thus make claims only for statutory withholding or CAT
protections. See 8 CFR 208.31. Specifically, if an alien is subject to having a previous order of removal reinstated or is a non-permanent resident alien subject to
an administrative order of removal resulting from an aggravated felony conviction, then he is categorically ineligible for asylum. See id. § 208.31(a), (e). Such an alien can be placed in withholding-only proceedings to adjudicate his statutory withholding or CAT claims, but
only if he first establishes a “reasonable fear” of persecution or torture through a screening process that
tracks the credible-fear process. See id. § 208.31(c),
(e). Reasonable fear is defined by regulation to mean a
“reasonable possibility that [the alien] would be persecuted on account of his or her race, religion, nationality,
membership in a particular social group or political
opinion, or a reasonable possibility that he or she would
be tortured in the country of removal.” Id. § 208.31(c).
“This . . . screening process is modeled on the crediblefear screening process, but requires the alien to meet a

100

higher screening standard.” Regulations Concerning
the Convention Against Torture, 64 FR at 8485; see also
Garcia v. Johnson, No. 14-CV-01775, 2014 WL 6657591,
at *2 (N.D. Cal. Nov. 21, 2014) (describing the aim of the
regulations as providing “fair and efficient procedures”
in reasonable-fear screening that would comport with
U.S. international obligations).
Significantly, when establishing the reasonable-fear
screening process, DOJ explained that the two affected
categories of aliens should be screened based on the
higher reasonable-fear standard because, “[u]nlike the
broad class of arriving aliens who are subject to expedited removal, these two classes of aliens are ineligible
for asylum,” and may be entitled only to statutory withholding of removal or CAT protection. Regulations
Concerning the Convention Against Torture, 64 FR at
8485. “Because the standard for showing entitlement
to these forms of protection (a probability of persecution
or torture) is significantly higher than the standard for
asylum (a well-founded fear of persecution), the screening standard adopted for initial consideration of withholding and deferral requests in these contexts is also
higher.” Id.
2. Drawing on the established framework for considering whether to grant withholding of removal or CAT
protection in the reasonable-fear context, this interim
rule establishes a bifurcated screening process for aliens subject to expedited removal who are ineligible for
asylum by virtue of entering in contravention of a proclamation, but who express a fear of return or seek statutory withholding or CAT protection. The Attorney
General and Secretary have broad authority to implement the immigration laws, see INA 103, 8 U.S.C. 1103,

101

including by establishing regulations, see INA 103, 8
U.S.C. 1103(a)(3), and to regulate “conditions or limitations on the consideration of an application for asylum,”
id. 1158(d)(5)(B). Furthermore, the Secretary has the
authority—in her “sole and unreviewable discretion,”
the exercise of which may be “modified at any time”—to
designate additional categories of aliens that will be subject to expedited-removal procedures, so long as the
designated aliens have not been admitted or paroled nor
continuously present in the United States for two years.
INA 235(b)(1)(A)(iii), 8 U.S.C. 1225(b)(1)(A)(iii). The
Departments have frequently invoked these authorities
to establish or modify procedures affecting aliens in expedited-removal proceedings, as well as to adjust the
categories of aliens subject to particular procedures
within the expedited-removal framework.2
This rule does not change the credible-fear standard
for asylum claims, although the regulation would expand
the scope of the inquiry in the process. An alien who is
subject to a relevant proclamation and nonetheless has
entered the United States after the effective date of
such a proclamation in contravention of that proclamation would be ineligible for asylum and would thus not
be able to establish a “significant possibility . . . [of]
See, e.g., Eliminating Exception to Expedited Removal Authority
for Cuban Nationals Arriving by Air, 82 FR 4769 (Jan. 17, 2017);
Designating Aliens For Expedited Removal, 69 FR 48877; Implementation of the Agreement Between the Government of the United
States of America and the Government of Canada Regarding Asylum Claims Made in Transit and at Land Border Ports-of-Entry, 69
FR 10620 (March 8, 2004); New Rules Regarding Procedures for
Asylum and Withholding of Removal, 63 FR 31945 (June 11, 1998);
Asylum Procedures, 65 FR 76121; Regulations Concerning the Convention Against Torture, 64 FR 8478 (Feb. 19, 1999).
2

102

eligibility for asylum under section 1158.”
INA
235(b)(1)(B)(v), 8 U.S.C. 1225(b)(1)(B)(v). As current
USCIS guidance explains, under the credible-fear
standard, “[a] claim that has no possibility, or only a
minimal or mere possibility, of success, would not meet
the ‘significant possibility’ standard.” USCIS, Office of
Refugee, Asylum, & Int’l Operations, Asylum Div., Asylum Officer Basic Training Course, Lesson Plan on
Credible Fear at 15 (Feb. 13, 2017). Consistent with
section 235(b)(1)(B)(iii)(III) of the INA, the alien could
still obtain review from an immigration judge regarding
whether the asylum officer correctly determined that
the alien was subject to a limitation or suspension on entry imposed by a proclamation. Further, consistent
with section 235(b)(1)(B) of the INA, if the immigration
judge reversed the asylum officer’s determination, the
alien could assert the asylum claim in section 240 proceedings.
Aliens determined to be ineligible for asylum by virtue of contravening a proclamation, however, would still
be screened, but in a manner that reflects that their only
viable claims would be for statutory withholding or CAT
protection pursuant to 8 CFR 208.30(e)(2)-(4) and
1208.16(a). After determining the alien’s ineligibility
for asylum under the credible-fear standard, the asylum
officer would apply the long-established reasonable-fear
standard to assess whether further proceedings on a
possible statutory withholding or CAT protection claim
are warranted. If the asylum officer determined that
the alien had not established the requisite reasonable
fear, the alien then could seek review of that decision
from an immigration judge (just as the alien may under
existing 8 CFR 208.30 and 208.31), and would be subject
to removal only if the immigration judge agreed with the

103

negative reasonable-fear finding. Conversely, if either
the asylum officer or the immigration judge determined
that the alien cleared the reasonable-fear threshold, the
alien would be put in section 240 proceedings, just like
aliens who receive a positive credible-fear determination for asylum. Employing a reasonable-fear standard in this context, for this category of ineligible aliens,
would be consistent with the Department of Justice’s
longstanding rationale that “aliens ineligible for asylum,” who could only be granted statutory withholding
of removal or CAT protection, should be subject to a different screening standard that would correspond to the
higher bar for actually obtaining these forms of protection.
See Regulations Concerning the Convention
Against Torture, 64 FR at 8485 (“Because the standard
for showing entitlement to these forms of protection
. . . is significantly higher than the standard for asylum . . . the screening standard adopted for initial
consideration of withholding and deferral requests in
these contexts is also higher.”).
The screening process established by the interim
rule will accordingly proceed as follows. For an alien
subject to expedited removal, DHS will ascertain whether
the alien seeks protection, consistent with INA
235(b)(1)(A)(ii), 8 U.S.C. 1225(b)(1)(A)(ii). All aliens
seeking asylum, statutory withholding of removal, or
CAT protection will continue to go before an asylum officer for screening, consistent with INA 235(b)(1)(B),
8 U.S.C. 1225(b)(1)(B). The asylum officer will ask
threshold questions to elicit whether an alien is ineligible for a grant of asylum pursuant to a proclamation entry bar. If there is a significant possibility that the alien is not subject to the eligibility bar (and the alien oth-

104

erwise demonstrates sufficient facts pertaining to asylum eligibility), then the alien will have established a
credible fear.
If, however, an alien lacks a significant possibility of
eligibility for asylum because of the proclamation bar,
then the asylum officer will make a negative crediblefear finding. The asylum officer will then apply the
reasonable-fear standard to assess the alien’s claims for
statutory withholding of removal or CAT protection.
An alien subject to the proclamation-based asylum
bar who clears the reasonable-fear screening standard
will be placed in section 240 proceedings, just as an alien
who clears the credible-fear standard will be. In those
proceedings, the alien will also have an opportunity to
raise whether the alien was correctly identified as subject to the proclamation ineligibility bar to asylum, as
well as other claims. If an immigration judge determines that the alien was incorrectly identified as subject
to the proclamation, the alien will be able to apply for
asylum.
Such aliens can appeal the immigration
judge’s decision in these proceedings to the BIA and
then seek review from a federal court of appeals.
Conversely, an alien who is found to be subject to the
proclamation asylum bar and who does not clear the
reasonable-fear screening standard can obtain review of
both of those determinations before an immigration
judge, just as immigration judges currently review negative credible-fear and reasonable-fear determinations.
If the immigration judge finds that either determination
was incorrect, then the alien will be placed into section
240 proceedings. In reviewing the determinations, the
immigration judge will decide de novo whether the alien
is subject to the proclamation asylum bar. If, however,

105

the immigration judge affirms both determinations,
then the alien will be subject to removal without further
appeal, consistent with the existing process under section 235 of the INA. In short, aliens subject to the
proclamation eligibility bar to asylum will be processed
through existing procedures by DHS and EOIR in accordance with 8 CFR 208.30 and 1208.30, but will be subject to the reasonable-fear standard as part of those procedures with respect to their statutory withholding and
CAT protection claims.3
2. The above process will not affect the process in 8
CFR 208.30(e)(5) for certain existing statutory bars to
asylum eligibility. Under that regulatory provision,
many aliens who appear to fall within an existing statutory bar, and thus appear to be ineligible for asylum, can
nonetheless be placed in section 240 proceedings if they
are otherwise eligible for asylum and obtain immigration judge review of their asylum claims, followed by
further review before the BIA and the courts of appeals.
Specifically, with the exceptions of stowaways and aliens

Nothing about this screening process or in this interim rule would
alter the existing procedures for processing alien stowaways under
the INA and associated regulations. An alien stowaway is unlikely
to be subject to 8 CFR 208.13(c)(3) and 1208.13(c)(3) unless a proclamation specifically applies to stowaways or to entry by vessels or
aircraft. INA 101(a)(49), 8 U.S.C. 1101(a)(49). Moreover, an alien
stowaway is barred from being placed into section 240 proceedings
regardless of the level of fear of persecution he establishes. INA
235(a)(2), 8 U.S.C. 1225(a)(2). Similarly, despite the incorporation
of a reasonable-fear standard into the evaluation of certain cases under credible-fear procedures, nothing about this screening process
or in this interim rule implicates existing reasonable-fear procedures in 8 CFR 208.31 and 1208.31.
3

106

entering from Canada at a port of entry (who are generally ineligible to apply for asylum by virtue of a safethird-country agreement), 8 CFR 208.30(e)(5) provides
that “if an alien is able to establish a credible fear of persecution or torture but appears to be subject to one or
more of the mandatory bars to applying for, or being
granted, asylum contained in section 208(a)(2) and
208(b)(2) of the [INA] . . . [DHS] shall nonetheless
place the alien in proceedings under section 240 of the
[INA] for full consideration of the alien’s claim.”
The language providing that the agency “shall nonetheless place the alien in proceedings under section 240
of the [INA]” was promulgated in 2000 in a final rule implementing asylum procedures after the 1996 enactment
of IIRIRA. See Asylum Procedures, 65 FR at 76137.
The explanation for this change was that some commenters suggested that aliens should be referred to section 240 proceedings “regardless of any apparent statutory ineligibility under section 208(a)(2) or 208(b)(2)(A)
of the [INA]. The Department has adopted that suggestion and has so amended the regulation.” Id. at
76129.
This rule will avoid a textual ambiguity in 8 CFR
208.30(e)(5), which is unclear regarding its scope, by
adding a new sentence clarifying the process applicable
to an alien barred under a covered proclamation. See
8 CFR 208.30(e)(5) (referring to an alien who “appears
to be subject to one or more of the mandatory bars to
. . .
asylum contained in section 208(a)(2) and
208(b)(2) of the [INA]”). By using a definite article
(“the mandatory bars to . . . asylum”) and the phrase
“contained in,” 8 CFR 208.30(e)(5) may refer only to aliens who are subject to the defined mandatory bars

107

“contained in” specific parts of section 208 of the INA,
such as the bar for aggravated felons, INA 208(b)(2)(B)(i),
8 U.S.C. 1558(b)(2)(B)(i), or the bar for aliens reasonably believed to be a danger to U.S. security, INA
208(b)(2)(A)(iv), 8 U.S.C. 1158(b)(2)(A)(iv). It is thus
not clear whether an alien subject to a further limitation
or condition on asylum eligibility adopted pursuant to
section 208(b)(2)(C) of the INA would also be subject to
the procedures set forth in 8 CFR 208.30(e)(5). Notably, the preamble to the final rule adopting 8 CFR
208.30(e)(5) indicated that it was intended to apply to
“any apparent statutory ineligibility under section
208(a)(2) or 208(b)(2)(A) of the [INA],” and did not address future regulatory ineligibility under section
208(b)(2)(C) of the INA, 8 U.S.C. 1158(b)(2)(C). Asylum Procedures, 65 FR at 76129. This rule does not resolve that question, however, but instead establishes an
express regulatory provision dealing specifically with aliens subject to a limitation under section 212(f ) or
215(a)(1) of the INA.
C. Anticipated Effects of the Rule
1. The interim rule aims to address an urgent situation at the southern border. In recent years, there has
been a significant increase in the number and percentage of aliens who seek admission or unlawfully enter the
United States and then assert an intent to apply for asylum or a fear of persecution. The vast majority of such
assertions for protection occur in the expedited-removal
context, and the rates at which such aliens receive a positive credible-fear determination have increased in the
last five years. Having passed through the crediblefear screening process, many of these aliens are re-

108

leased into the interior to await further section 240 removal proceedings. But many aliens who pass through
the credible-fear screening thereafter do not pursue
their claims for asylum. Moreover, a substantial number fail to appear for a section 240 proceeding. And
even aliens who passed through credible-fear screening
and apply for asylum are granted it at a low rate.
Recent numbers illustrate the scope and scale of the
problems caused by the disconnect between the number
of aliens asserting a credible fear and the number of aliens who ultimately are deemed eligible for, and granted,
asylum. In FY 2018, DHS identified some 612,183 inadmissible aliens who entered the United States, of whom
404,142 entered unlawfully between ports of entry and
were apprehended by CBP, and 208,041 presented themselves at ports of entry. Those numbers exclude the inadmissible aliens who crossed but evaded detection, and
interior enforcement operations conducted by U.S. Immigration and Customs Enforcement (“ICE”). The
vast majority of those inadmissible aliens—521,090—
crossed the southern border.
Approximately 98%
(396,579) of all aliens apprehended after illegally crossing between ports of entry made their crossings at the
southern border, and 76% of all encounters at the southern border reflect such apprehensions. By contrast,
124,511 inadmissible aliens presented themselves at
ports of entry along the southern border, representing
60% of all port traffic for inadmissible aliens and 24% of
encounters with inadmissible aliens at the southern border.
Nationwide, DHS has preliminarily calculated that
throughout FY 2018, approximately 234,534 aliens who
presented at a port of entry or were apprehended at the

109

border were referred to expedited-removal proceedings. Of that total, approximately 171,511 aliens were
apprehended crossing between ports of entry; approximately 59,921 were inadmissible aliens who presented at
ports of entry; and approximately 3,102 were arrested
by ICE and referred to expedited removal.4 The total
number of aliens of all nationalities referred to expeditedremoval proceedings has significantly increased over
the last decade, from 161,516 aliens in 2008 to approximately 234,534 in FY 2018 (an overall increase of about
45%). Of those totals, the number of aliens from the
Northern Triangle referred to expedited-removal proceedings has increased from 29,206 in FY 2008 (18% of
the total 161,516 aliens referred) to approximately 103,752
in FY 2018 (44% of the total approximately 234,534 aliens referred, an increase of over 300%). In FY 2018,
nationals of the Northern Triangle represented approximately 103,752 (44%) of the aliens referred to expeditedremoval proceedings; approximately 91,235 (39%) were
Mexican; and nationals from other countries made up
the remaining balance (17%). As of the date of this
rule, final expedited-removal statistics for FY 2018 specific to the southern border are not available. But the
Departments’ experience with immigration enforcement
All references to the number of aliens subject to expedited removal in FY 2018 reflect data for the first three quarters of the year
and projections for the fourth quarter of FY 2018. It is unclear whether the ICE arrests reflect additional numbers of aliens processed at
ports of entry. Another approximately 130,211 aliens were subject to
reinstatement, meaning that the alien had previously been removed
and then unlawfully entered the United States again. The vast majority of reinstatements involved Mexican nationals. Aliens subject
to reinstatement who express a fear of persecution or torture receive
reasonable-fear determinations under 8 CFR 208.31.
4

110

has demonstrated that the vast majority of expeditedremoval actions have also occurred along the southern
border.
Once in expedited removal, some 97,192 (approximately 41% of all aliens in expedited removal) were referred for a credible-fear interview with an asylum officer, either because they expressed a fear of persecution or torture or an intent to apply for protection. Of
that number, 6,867 (7%) were Mexican nationals, 25,673
(26%) were Honduran, 13,433 (14%) were Salvadoran,
24,456 (25%) were Guatemalan, and other nationalities
made up the remaining 28% (the largest proportion of
which were 7,761 Indian nationals).
In other words: Approximately 61% of aliens from
Northern Triangle countries placed in expedited removal expressed the intent to apply for asylum or a fear
of persecution and triggered credible-fear proceedings
in FY 2018 (approximately 69% of Hondurans, 79% of
Salvadorans, and 49% of Guatemalans). These aliens
represented 65% of all credible-fear referrals in FY
2018. By contrast, only 8% of aliens from Mexico trigger credible-fear proceedings when they are placed in
expedited removal, and Mexicans represented 7% of all
credible-fear referrals. Other nationalities compose
the remaining 26,763 (28%) referred for credible-fear interviews.
Once these 97,192 aliens were interviewed by an asylum officer, 83,862 cases were decided on the merits
(asylum officers closed the others).5 Those asylum officers found a credible fear in 89% (74,574) of decided
DHS sometimes calculates credible-fear grant rates as a proportion of all cases (positive, negative, and closed cases). Because this
5

111

cases—meaning that almost all of those aliens’ cases
were referred on for further immigration proceedings
under section 240, and many of the aliens were released
into the interior while awaiting those proceedings.6 As
noted, nationals of Northern Triangle countries represent the bulk of credible-fear referrals (65%, or 63,562
cases where the alien expressed an intent to apply for
asylum or asserted a fear). In cases where asylum officers decided whether nationals of these countries had
a credible fear, they received a positive credible-fear
finding 88% of the time.7 Moreover, when aliens from
rule concerns the merits of the screening process and closed cases
are not affected by that process, this preamble discusses the proportions of determinations on the merits when describing the crediblefear screening process. This preamble does, however, account for
the fact that some proportion of closed cases are also sent to section
240 proceedings when discussing the number of cases that immigration judges completed involving aliens referred for a credible-fear
interview while in expedited-removal proceedings.
6
Stowaways are the only category of aliens who would receive a
positive credible-fear determination and go to asylum-only proceedings, as opposed to section 240 proceedings, but the number of stowaways is very small. Between FY 2013 and FY 2017, an average of
roughly 300 aliens per year were placed in asylum-only proceedings,
and that number includes not only stowaways but all classes of aliens
subject to asylum-only proceedings. 8 CFR 1208.2(c)(1) (describing
10 categories of aliens, including stowaways found to have a credible
fear, who are subject to asylum-only proceedings).
7
Asylum officers decided 53,205 of these cases on the merits and
closed the remaining 10,357 (but sent many of the latter to section
240 proceedings). Specifically, 25,673 Honduran nationals were interviewed; 21,476 of those resulted in a positive screening on the
merits, 2,436 received a negative finding, and 1,761 were closedmeaning that 90% of all Honduran cases involving a merits determination resulted in a positive finding, and 10% were denied. Some
13,433 Salvadoran nationals were interviewed; 11,034 of those resulted in a positive screening on the merits 1,717 were denied, and

112

those countries sought review of negative findings by an
immigration judge, they obtained reversals approximately 18% of the time, resulting in some 47,507 cases
in which nationals of Northern Triangle countries received positive credible-fear determinations.8 In other
words: Aliens from Northern Triangle countries ultimately received a positive credible-fear determination
89% of the time. Some 6,867 Mexican nationals were
interviewed; asylum officers gave them a positive crediblefear determination in 81% of decided cases (4,261), and
immigration judges reversed an additional 91 negative
credible-fear determinations, resulting in some 4,352
cases (83% of cases decided on the merits) in which Mexican nationals were referred to section 240 proceedings
after receiving a positive credible-fear determination.
These figures have enormous consequences for the
asylum system writ large. Asylum officers and immigration judges devote significant resources to these
screening interviews, which the INA requires to happen
within a fixed statutory timeframe. These aliens must
also be detained during the pendency of expeditedremoval proceedings.
See INA 235(b), 8 U.S.C.
682 were closed-meaning that 86% of all Salvadoran cases involving
a merits determination resulted in a positive finding, and 14% were
denied. Some 24,456 Guatemalan nationals were interviewed; 14,183
of those resulted in a positive screening on the merits, 2,359 were
denied, and 7,914 were closed-meaning that 8696 of all Guatemalan
cases involving a merits determination resulted in a positive finding,
and 14% were denied. Again, the percentages exclude closed cases
so as to describe how asylum officers make decisions on the merits.
8
Immigration judges in 2018 reversed 18% (288) of negative crediblefear determinations involving Hondurans, 19% (241) of negative
credible-fear determinations involving Salvadorans, and 17% (285)
of negative credible-fear determinations involving Guatemalans.

113

1225(b); Jennings v. Rodriguez, 138 S. Ct. 830, 834
(2018). And assertions of credible fear in expedited removal have rapidly grown in the last decade—especially
in the last five years. In FY 2008, for example, fewer
than 5,000 aliens were in expedited removal (5%) and
were thus referred for a credible-fear interview. In FY
2014, 51,001 referrals occurred (representing 21% of aliens in expedited removal). The credible-fear referral
numbers today reflect a 190% increase from FY 2014
and a nearly 2000% increase from FY 2008. Furthermore,
the percentage of cases in which asylum officers found
that aliens had established a credible fear—leading to
the aliens being placed in section 240 removal proceedings
—has also increased in recent years. In FY 2008, asylum officers found a credible fear in about 3,200 (or 77%)
of all cases. In FY 2014, asylum officers found a credible fear in about 35,000 (or 80%) of all cases in which
they made a determination. And in FY 2018, asylum
officers found a credible fear in nearly 89% of all such
cases.
Once aliens are referred for section 240 proceedings,
their cases may take months or years to adjudicate due
to backlogs in the system. As of November 2, 2018,
there were approximately 203,569 total cases pending in
the immigration courts that originated with a crediblefear referral—or 26% of the total backlog of 791,821 removal cases. Of that number, 136,554 involved nationals of Northern Triangle countries (39,940 cases involving Hondurans; 59,702 involving Salvadoran nationals;
36,912 involving Guatemalan nationals).
Another
10,736 cases involved Mexican nationals.

114

In FY 2018, immigration judges completed 34,158 total cases that originated with a credible-fear referral.9
Those aliens were likely referred for credible-fear
screening between 2015 and 2018; the vast majority of
these cases arose from positive credible-fear determinations as opposed to the subset of cases that were closed
in expedited removal and referred for section 240 proceedings. In a significant proportion of these cases,
the aliens did not appear for section 240 proceedings or
did not file an application for asylum in connection with
those proceedings. In FY 2018, of the 34,158 completions that originated with a credible-fear referral, 24,361
(71%) were completed by an immigration judge with the
issuance of an order of removal. Of those completed
cases, 10,534 involved in absentia removal orders, meaning that in approximately 31% of all initial completions
in FY 2018 that originated from a credible-fear referral,
the alien failed to appear at a hearing. Moreover, of
those 10,534 cases, there were 1,981 cases where an asylum application was filed, meaning 8,553 did not file an
asylum application and failed to appear at a hearing.
Further, 40% of all initial completions originating with
a credible-fear referral (or 13,595 cases, including the
All descriptions of case outcomes before immigration judges reflect initial case completions by an immigration judge during the fiscal year unless otherwise noted. All references to applications for
asylum generally involve applications for asylum, as opposed to some
other form of protection, but EOIR statistics do not distinguish between, for instance, the filing of an application for asylum or the filing of an application for statutory withholding. As noted, an application for asylum is also deemed an application for other forms of
protection, and whether an application will be for asylum or only for
some other form of protection is often a post-filing determination
made by the immigration judge (for instance, because the one-year
filing bar for asylum applies).
9

115

8,553 aliens just discussed) were completed in FY 2018
without an alien filing an application for asylum. In
short, in nearly half of the cases completed by an immigration judge in FY 2018 involving aliens who passed
through a credible-fear referral, the alien failed to appear at a hearing or failed to file an asylum application.
Those figures are consistent with trends from FY
2008 through FY 2018, during which time DHS pursued
some 354,356 cases in the immigration courts that involved aliens who had gone through a credible-fear review (i.e., the aliens received a positive credible-fear determination or their closed case was referred for further
proceedings). During this period, however, only about
53% (189,127) of those aliens filed an asylum application,
despite the fact that they were placed into further immigration proceedings under section 240 because they alleged a fear during expedited-removal proceedings.
Even among those aliens who received a crediblefear interview, filed for asylum, and appeared in section
240 proceedings to resolve their asylum claims—a category that would logically include the aliens with the
greatest confidence in the merits of their claims—only a
very small percentage received asylum. In FY 2018
immigration judges completed 34,158 cases that originated with a credible-fear referral; only 20,563 of those
cases involved an application for asylum, and immigration judges granted only 5,639 aliens asylum. In other
words, in FY 2018, less than about 6,000 aliens who
passed through credible-fear screening (17% of all completed cases, 27% of all completed cases in which an asylum application was filed, and about 36% of cases where
the asylum claim was adjudicated on the merits) estab-

116

lished that they should be granted asylum. (An additional 322 aliens received either statutory withholding
or CAT protection.) Because there may be multiple
bases for denying an asylum application and immigration judges often make alternative findings for consideration of issues on appeal, EOIR does not track reasons
for asylum denials by immigration judges at a granular
level. Nevertheless, experience indicates that the vast
majority of those asylum denials reflect a conclusion
that the alien failed to establish a significant possibility
of persecution, rather than the effect of a bar to asylum
eligibility or a discretionary decision by an immigration
judge to deny asylum to an alien who qualifies as a refugee.
The statistics for nationals of Northern Triangle
countries are particularly illuminating. In FY 2018,
immigration judges in section 240 proceedings adjudicated 20,784 cases involving nationals of Northern Triangle countries who were referred for credible-fear interviews and then referred to section 240 proceedings
(i.e., they expressed a fear and either received a positive
credible-fear determination or had their case closed and
referred to section 240 proceedings for an unspecified
reason). Given that those aliens asserted a fear of persecution and progressed through credible-fear screening, those aliens presumably would have had the greatest reason to then pursue an asylum application. Yet
in only about 54% of those cases did the alien file an asylum application. Furthermore, about 38% of aliens
from Northern Triangle countries who were referred for
credible-fear interviews and passed to section 240 proceedings did not appear, and were ordered removed in
absentia. Put differently: Only a little over half of aliens from Northern Triangle countries who claimed a

117

fear of persecution and passed threshold screening submitted an application for asylum, and over a third did
not appear at section 240 proceedings.10 And only 1,889
aliens from Northern Triangle countries were granted
asylum, or approximately 9% of completed cases for aliens from Northern Triangle countries who received a
credible-fear referral, 17% of the cases where such aliens filed asylum applications in their removal proceedings, and about 23% of cases where such aliens’ asylum
claims were adjudicated on the merits. Specifically, in
FY 2018, 536 Hondurans, 408 Guatemalans, and 945 Salvadorans who initially were referred for a credible-fear
interview (whether in FY 2018 or earlier) and progressed to section 240 proceedings were granted asylum.

These percentages are even higher for particular nationalities.
In FY 2018, immigration judges adjudicated 7,151 cases involving
Hondurans whose cases originated with a credible-fear referral in
expedited-removal proceedings. Of that 7,151, only 49% (3,509)
filed an application for asylum, and 44% (3,167) had their cases completed with an in absentia removal order because they failed to appear. Similarly, immigration judges adjudicated 5,382 cases involving Guatemalans whose cases originated with a credible-fear referral; only 46% (2,457) filed an asylum application, and 41% (2,218) received in absentia removal orders. The 8,251 Salvadoran cases had
the highest rate of asylum applications (filed in 65% of cases, or
5,341), and 31% of the total cases (2,534) involved in absentia removal
orders. Numbers for Mexican nationals reflected similar trends.
In FY 2018, immigration judges adjudicated 3,307 cases involving
Mexican nationals who progressed to section 240 proceedings after
being referred for a credible-fear interview; 49% of them filed applications for asylum in these proceedings, and 25% of the total cases
resulted in an in absentia removal order.
10

118

The Departments thus believe that these numbers
underscore the major costs and inefficiencies of the current asylum system. Again, numbers for Northern
Triangle nationals—who represent the vast majority of
aliens who claim a credible fear—illuminate the scale of
the problem. Out of the 63,562 Northern Triangle nationals who expressed an intent to apply for asylum or a
fear of persecution and received credible-fear screening
interviews in FY 2018, 47,507 received a positive crediblefear finding from the asylum officer or immigration
judge. (Another 10,357 cases were administratively
closed, some of which also may have been referred to
section 240 proceedings.) Those aliens will remain in
the United States to await section 240 proceedings while
immigration judges work through the current backlog
of nearly 800,000 cases—136,554 of which involve nationals of Northern Triangle countries who passed
through credible-fear screening interviews. Immigration judges adjudicated 20,784 cases involving such nationals of Northern Triangle countries in FY 2018;
slightly under half of those aliens did not file an application for asylum, and over a third were screened through
expedited removal but did not appear for a section 240
proceeding. Even when nationals of Northern Triangle countries who passed through credible-fear screening applied for asylum (as 11,307 did in cases completed
in FY 2018), immigration judges granted asylum to only
1,889, or 17% of the cases where such aliens filed asylum
applications in their removal proceedings. Immigration judges found in the overwhelming majority of cases
that the aliens had no significant possibility of persecution.
These existing burdens suggest an unsustainably inefficient process, and those pressures are now coupled

119

with the prospect that large caravans of thousands of aliens, primarily from Central America, will seek to enter
the United States unlawfully or without proper documentation and thereafter trigger credible-fear screening procedures and obtain release into the interior.
The United States has been engaged in ongoing diplomatic negotiations with Mexico and the Northern Triangle countries (Guatemala, El Salvador, and Honduras)
about the problems on the southern border, but those
negotiations have, to date, proved unable to meaningfully improve the situation.
2. In combination with a presidential proclamation
directed at the crisis on the southern border, the rule
would help ameliorate the pressures on the present system. Aliens who could not establish a credible fear for
asylum purposes due to the proclamation-based eligibility bar could nonetheless seek statutory withholding of
removal or CAT protection, but would receive a positive
finding only by establishing a reasonable fear of persecution or torture. In FY 2018, USCIS issued nearly
7,000 reasonable-fear determinations (i.e., made a positive or negative determination)—a smaller number because the current determinations are limited to the narrow categories of aliens described above. Of those determinations, USCIS found a reasonable fear in 45% of
cases in 2018, and 48% of cases in 2017. Negative
reasonable-fear determinations were then subject to
further review, and immigration judges reversed approximately 18%.
Even if rates of positive reasonable-fear findings increased when a more general population of aliens became subject to the reasonable-fear screening process,
this process would better filter those aliens eligible for

120

that form of protection. Even assuming that grant
rates for statutory withholding in the reasonable-fear
screening process (a higher standard) would be the
same as grant rates for asylum, this screening mechanism would likely still allow through a significantly
higher percentage of cases than would likely be granted.
And the reasonable-fear screening rates would also still
allow a far greater percentage of claimants through than
would ultimately receive CAT protection. Fewer than
1,000 aliens per year, of any nationality, receive CAT
protection.
To the extent that aliens continued to enter the
United States in violation of a relevant proclamation, the
application of the rule’s bar to eligibility for asylum in
the credible-fear screening process (combined with the
application of the reasonable-fear standard to statutory
withholding and CAT claims) would reduce the number
of cases referred to section 240 proceedings. Finally,
the Departments emphasize that this rule would not
prevent aliens with claims for statutory withholding or
CAT protection from having their claims adjudicated in
section 240 proceedings after satisfying the reasonablefear standard.
Further, determining whether an alien is subject to a
suspension of entry proclamation would ordinarily be
straightforward, because such orders specify the class
of aliens whose entry is restricted. Likewise, adding
questions designed to elicit whether an alien is subject
to an entry proclamation, and employing a bifurcated
credible-fear analysis for the asylum claim and reasonable-fear review of the statutory withholding and CAT
claims, will likely not be unduly burdensome. Although
DHS has generally not applied existing mandatory bars

121

to asylum in credible-fear determinations, asylum officers currently probe for this information and note in the
record where the possibility exists that a mandatory bar
may apply. Though screening for proclamation-based
ineligibility for asylum may in some cases entail some
additional work, USCIS will account for it under the Paperwork Reduction Act, 44 U.S.C. 3501 et seq., as
needed, following issuance of a covered proclamation.
USCIS asylum officers and EOIR immigration judges
have almost two decades of experience applying the
reasonable-fear standard to statutory withholding and
CAT claims, and do so in thousands of cases per year
already (13,732 in FY 2018 for both EOIR and USCIS).
See, e.g., Memorandum for All Immigration Judges, et
al., from The Office of the Chief Immigration Judge, Executive Office for Immigration Review at 6 (May 14,
1999) (explaining similarities between credible-fear and
reasonable-fear proceedings for immigration judges).
That said, USCIS estimates that asylum officers
have historically averaged four to five credible-fear interviews and completions per day, but only two to three
reasonable-fear case completions per day. Comparing
this against current case processing targets, and depending on the number of aliens who contravene a presidential proclamation, such a change might result in the
need to increase the number of officers required to conduct credible-fear or reasonable-fear screenings to maintain current case completion goals. However, current
reasonable-fear interviews are for types of aliens (aggravated felons and aliens subject to reinstatement) for
whom relevant criminal and immigration records take
time to obtain, and for whom additional interviewing and
administrative processing time is typically required.
The population of aliens who would be subject to this

122

rule would generally not have the same type of criminal
and immigration records in the United States, but additional interviewing time might be necessary. Therefore, it is unclear whether these averages would hold
once the rule is implemented.
If an asylum officer determines that credible fear has
been established but for the existence of the proclamation bar, and the alien seeks review of such determination before an immigration judge, DHS may need to
shift additional resources towards facilitating such review in immigration court in order to provide records of
the negative credible-fear determination to the immigration court. However, ICE attorneys, while sometimes present, generally do not advocate for DHS in
negative credible-fear or reasonable-fear reviews before
an immigration judge.
DHS would, however, also expend additional resources detaining aliens who would have previously received a positive credible-fear determination and who
now receive, and challenge, a negative credible-fear and
reasonable-fear determination. Aliens are generally
detained during the credible-fear screening, but may be
eligible for parole or release on bond if they establish a
credible fear. To the extent that the rule may result in
lengthier interviews for each case, aliens’ length of stay
in detention would increase. Furthermore, DHS anticipates that more negative determinations would increase the number of aliens who would be detained and
the length of time they would be detained, since fewer
aliens would be eligible for parole or release on bond.
Also, to the extent this rule would increase the number
of aliens who receive both negative credible-fear and

123

reasonable-fear determinations, and would thus be subject to immediate removal, DHS will incur increased and
more immediate costs for enforcement and removal of
these aliens. That cost would be counterbalanced by
the fact that it would be considerably more costly and
resource-intensive to ultimately remove such an alien
after the end of section 240 proceedings, and the desirability of promoting greater enforcement of the immigration laws.
Attorneys from ICE represent DHS in full immigration proceedings, and immigration judges (who are part
of DOJ) adjudicate those proceedings. If fewer aliens
are found to have credible fear or reasonable fear and
referred to full immigration proceedings, such a development will allow DOJ and ICE attorney resources to
be reallocated to other immigration proceedings. The
additional bars to asylum are unlikely to result in immigration judges spending much additional time on each
case where the nature of the proclamation bar is straightforward to apply. Further, there will likely be a decrease in the number of asylum hearings before immigration judges because certain respondents will no longer
be eligible for asylum and DHS will likely refer fewer
cases to full immigration proceedings. If DHS officers
identify the proclamation-based bar to asylum (before
EOIR has acquired jurisdiction over the case), EOIR
anticipates a reduction in both in-court and out-of-court
time for immigration judges.
A decrease in the number of credible-fear findings
and, thus, asylum grants would also decrease the number of employment authorization documents processed
by DHS. Aliens are generally eligible to apply for and
receive employment authorization and an Employment

124

Authorization Document (Form 1-766) after their asylum claim has been pending for more than 180 days.
See INA 208(d)(5)(A)(iii), 8 U.S.C. 1158(d)(5)(A)(iii);
8 CFR 1208.7(a)(1)(2). This rule and any associated future presidential proclamations would also be expected
to have a deterrent effect that could lessen future flows
of illegal immigration.
3. The Departments are not in a position to determine how all entry proclamations involving the southern
border could affect the decision calculus for various categories of aliens planning to enter the United States
through the southern border in the near future. The
focus of this rule is on the tens of thousands of aliens
each year (97,192 in FY 2018) who assert a credible fear
in expedited-removal proceedings and may thereby be
placed on a path to release into the interior of the United
States. The President has announced his intention to
take executive action to suspend the entry of aliens between ports of entry and instead to channel such aliens
to ports of entry, where they may seek to enter and assert an intent to apply for asylum in a controlled, orderly, and lawful manner. The Departments have accordingly assessed the anticipated effects of such a presidential action so as to illuminate how the rule would be
applied in those circumstances.
a. Effects on Aliens. Such a proclamation, coupled
with this rule, would have the most direct effect on the
more than approximately 70,000 aliens a year (as of FY
2018) estimated to enter between the ports of entry and

125

then assert a credible fear in expedited-removal proceedings.11 If such aliens contravened a proclamation
suspending their entry unless they entered at a port of
entry, they would become ineligible for asylum, but
would remain eligible for statutory withholding or CAT
protection. And for the reasons discussed above, their
claims would be processed more expeditiously. Conversely, if such aliens decided to instead arrive at ports
of entry, they would remain eligible for asylum and
would proceed through the existing credible-fear
screening process.
Such an application of this rule could also affect the
decision calculus for the estimated 24,000 or so aliens a
year (as of FY 2018) who arrive at ports of entry along
the southern border and assert a credible fear in
expedited-removal proceedings. 12 Such aliens would
likely face increased wait times at a U.S. port of entry,
meaning that they would spend more time in Mexico.
The Departments estimated this number by using the approximately 171,511 aliens in FY 2018 who were referred to expedited removal after crossing illegally between ports of entry and being apprehended by CBP. That number excludes the approximately 3,102
additional aliens who were arrested by ICE, because it is not clear
at this time whether such aliens were ultimately processed at a port
of entry. The Departments also relied on the fact that approximately
41% of aliens in expedited removal in FY 2018 triggered crediblefear screening.
12
The Departments estimated this number by using the approximately 59,921 aliens in FY 2018 who were referred to expedited removal after presenting at a port of entry. That number excludes
the approximately 3,102 additional aliens who were arrested by ICE,
because it is not clear at this time whether such aliens were ultimately
processed at a port of entry. The Departments also relied on the
fact that approximately 41% of aliens in expedited removal in FY
2018 triggered credible-fear screening.
11

126

Third-country nationals in this category would have
added incentives to take advantage of Mexican asylum
procedures and to make decisions about travel to a U.S.
port of entry based on information about which ports
were most capable of swift processing.
Such an application of this rule could also affect aliens who apply for asylum affirmatively or in removal
proceedings after entering through the southern border. Some of those asylum grants would become denials for aliens who became ineligible for asylum because
they crossed illegally in contravention of a proclamation
effective before they entered. Such aliens could, however, still obtain statutory withholding of removal or
CAT protection in section 240 proceedings.
Finally, such a proclamation could also affect the
thousands of aliens who are granted asylum each year.
Those aliens’ cases are equally subject to existing backlogs in immigration courts, and could be adjudicated
more swiftly if the number of non-meritorious cases declined. Aliens with meritorious claims could thus more
expeditiously receive the benefits associated with asylum.
b. Effects on the Departments’ Operations. Applying this rule in conjunction with a proclamation that
channeled aliens seeking asylum to ports of entry would
likely create significant overall efficiencies in the Departments’ operations beyond the general efficiencies
discussed above. Channeling even some proportion of
aliens who currently enter illegally and assert a credible
fear to ports of entry would, on balance, be expected to
help the Departments more effectively leverage their
resources to promote orderly and efficient processing of
inadmissible aliens.

127

At present, CBP dedicates enormous resources to attempting to apprehend aliens who cross the southern
border illegally. As noted, CBP apprehended 396,579
such aliens in FY 2018. Such crossings often occur in
remote locations, and over 16,000 CBP officers are responsible for patrolling hundreds of thousands of square
miles of territory, ranging from deserts to mountainous
terrain to cities. When a United States Border Patrol
(“Border Patrol” or “USBP”) agent apprehends an alien
who enters unlawfully, the USBP agent takes the alien
into custody and transports the alien to a Border Patrol
station for processing—which could be hours away.
Family units apprehended after crossing illegally present additional logistical challenges, and may require
additional agents to assist with the transport of the illegal aliens from the point of apprehension to the station
for processing. And apprehending one alien or group
of aliens may come at the expense of apprehending others while agents are dedicating resources to transportation instead of patrolling.
At the Border Patrol station, a CBP agent obtains an
alien’s fingerprints, photographs, and biometric data,
and begins asking background questions about the alien’s nationality and purpose in crossing. At the same
time, agents must make swift decisions, in coordination
with DOJ, as to whether to charge the alien with an
immigration-related criminal offense. Further, agents
must decide whether to apply expedited-removal procedures, to pursue reinstatement proceedings if the alien
already has a removal order in effect, to authorize voluntary return, or to pursue some other lawful course of
action. Once the processing of the alien is completed,
the USBP temporarily detains any alien who is referred
for removal proceedings. Once the USBP determines

128

that an alien should be placed in expedited-removal proceedings, the alien is expeditiously transferred to ICE
custody in compliance with federal law. The distance
between ICE detention facilities and USBP stations,
however, varies.
Asylum officers and immigration
judges review negative credible-fear findings during
expedited-removal proceedings while the alien is in ICE
custody.
By contrast, CBP officers are able to employ a more
orderly and streamlined process for inadmissible aliens
who present at one of the ports of entry along the southern border-even if they claim a credible fear. Because
such aliens have typically sought admission without violating the law, CBP generally does not need to dedicate
resources to apprehending or considering whether to
charge such aliens. And while aliens who present at a
port of entry undergo threshold screening to determine
their admissibility, see INA 235(b)(2), 8 U.S.C.
1225(b)(2), that process takes approximately the same
amount of time as CBP’s process for obtaining details
from aliens apprehended between ports of entry. Just
as for illegal entrants, CBP officers at ports of entry
must decide whether inadmissible aliens at ports of entry are subject to expedited removal. Aliens subject to
such proceedings are then generally transferred to ICE
custody so that DHS can implement Congress’s statutory mandate to detain such aliens during the pendency
of expedited-removal proceedings. As with stations,
ports of entry vary in their proximity to ICE detention
facilities. The Departments acknowledge that in the
event all of the approximately 70,000 aliens per year who
cross illegally and assert a credible fear instead decide
to present at a port of entry, processing times at ports

129

of entry would be slower in the absence of additional resources or policies that would encourage aliens to enter
at less busy ports. Using FY 2018 figures, the number
of aliens presenting at a port of entry would rise from
about 124,511 to about 200,000 aliens if all illegal aliens
who assert a credible fear went to ports of entry. That
would likely create longer lines at U.S. ports of entry,
although the Departments note that such ports have
variable capacities and that wait times vary considerably between them. The Departments nonetheless believe such a policy would be preferable to the status quo.
Nearly 40% of inadmissible aliens who present at ports
of entry today are Mexican nationals, who rarely claim
a credible fear and who accordingly can be processed
and admitted or removed quickly.
Furthermore, the overwhelming number of aliens
who would have an incentive under the rule and a proclamation to arrive at a port of entry rather than to cross
illegally are from third countries, not from Mexico. In
FY 2018, CBP apprehended and referred to expedited
removal an estimated 87,544 Northern Triangle nationals and an estimated 66,826 Mexican nationals, but
Northern Triangle nationals assert a credible fear over
60% of the time, whereas Mexican nationals assert a
credible fear less than 10% of the time. The Departments believe that it is reasonable for third-country aliens, who appear highly unlikely to be persecuted on account of a protected ground or tortured in Mexico, to be
subject to orderly processing at ports of entry that takes
into account resource constraints at ports of entry and
in U.S. detention facilities. Such orderly processing
would be impossible if large proportions of third-country nationals continue to cross the southern border illegally.

130

To be sure, some Mexican nationals who would assert
a credible fear may also have to spend more time waiting
for processing in Mexico. Such nationals, however,
could still obtain statutory withholding of removal or
CAT protection if they crossed illegally, which would allow them a safeguard against persecution. Moreover,
only 178 Mexican nationals received asylum in FY 2018
after initially asserting a credible fear of persecution in
expedited-removal proceedings, indicating that the category of Mexican nationals most likely to be affected by
the rule and a proclamation would also be highly unlikely to establish eligibility for asylum.
Regulatory Requirements

A. Administrative Procedure Act
While the Administrative Procedure Act (“APA”) generally requires agencies to publish notice of a proposed
rulemaking in the Federal Register for a period of public comment, it provides an exception “when the agency
for good cause finds . . . that notice and public procedure thereon are impracticable, unnecessary, or contrary to the public interest.” 5 U.S.C. 553(b)(B). This
exception relieves agencies of the notice-and-comment
requirement in emergency situations, or in circumstances where “the delay created by the notice and comment requirements would result in serious damage to
important interests.”
Woods Psychiatric Inst. v.
United States, 20 Cl. Ct. 324, 333 (1990), aff ’d, 925 F.2d
1454 (Fed. Cir. 1991); see also Nat’l Fed’n of Federal
Emps. v. Nat’l Treasury Emps. Union, 671 F.2d 607,
611 (D.C. Cir. 1982); United States v. Dean, 604 F.3d
1275, 1279 (11th Cir. 2010). Agencies have previously
relied on this exception in promulgating a host of

131

immigration-related interim rules. 13
Furthermore,
DHS has invoked this exception in promulgating rules
related to expedited removal-a context in which Congress recognized the need for dispatch in addressing
large volumes of aliens by giving the Secretary significant discretion to “modify at any time” the classes of aliens who would be subject to such procedures. See
INA 235(b)(1)(A)(iii)(I), 8 U.S.C. 1225(b)(1)(A)(iii)(I).14

13
See, e.g., Visas: Documentation of Nonimmigrants Under the
Immigration and Nationality Act, as Amended, 81 FR 5906, 5907
(Feb. 4, 2016) (interim rule citing good cause to immediately require
additional documentation from certain Caribbean agricultural workers to avoid “an increase in applications for admission in bad faith by
persons who would otherwise have been denied visas and are seeking
to avoid the visa requirement and consular screening process during
the period between the publication of a proposed and a final rule”);
Suspending the 30-Day and Annual Interview Requirements From
the Special Registration Process for Certain Nonimmigrants, 68 FR
67578, 67581 (Dec. 2, 2003) (interim rule claiming good cause exception for suspending certain automatic registration requirements for
nonimmigrants because “without [the] regulation approximately
82,532 aliens would be subject to 30-day or annual re-registration
interviews” over six months).
14
See, e.g., Eliminating Exception to Expedited Removal Authority for Cuban Nationals Arriving by Air, 82 FR at 4770 (claiming
good cause exception because the ability to detain certain Cuban nationals “while admissibility and identity are determined and protection claims are adjudicated, as well as to quickly remove those without protection claims or claims to lawful status, is a necessity for national security and public safety”); Designating Aliens For Expedited Removal, 69 FR at 48880 (claiming good cause exception for
expansion of expedited-removal program due to “[t]he large volume
of illegal entries, and attempted illegal entries, and the attendant
risks to national security presented by these illegal entries,” as well
as “the need to deter foreign nationals from undertaking dangerous
border crossings, and thereby prevent the needless deaths and

132

The Departments have concluded that the goodcause exceptions in 5 U.S.C. 553(b)(B) and (d)(3) apply
to this rule. Notice and comment on this rule, along
with a 30-day delay in its effective date, would be impracticable and contrary to the public interest. The
Departments have determined that immediate implementation of this rule is essential to avoid creating an
incentive for aliens to seek to cross the border during
pre-promulgation notice and comment under 5 U.S.C.
553(b) or during the 30-day delay in the effective date
under 5 U.S.C. 553(d).
DHS concluded in January 2017 that it was imperative to give immediate effect to a rule designating Cuban
nationals arriving by air as eligible for expedited removal because “pre-promulgation notice and comment
would . . . endanger[] human life and hav[e] a potential destabilizing effect in the region.” Eliminating
Exception to Expedited Removal Authority for Cuban
Nationals Arriving by Air, 82 FR at 4770. DHS in particular cited the prospect that “publication of the rule as
a proposed rule, which would signal a significant change
in policy while permitting continuation of the exception
for Cuban nationals, could lead to a surge in migration
of Cuban nationals seeking to travel to and enter the
United States during the period between the publication
of a proposed and a final rule.” Id. DHS found that
“[s]uch a surge would threaten national security and
public safety by diverting valuable Government resources from counterterrorism and homeland security
responsibilities. A surge could also have a destabilizing effect on the region, thus weakening the security of
crimes associated with human trafficking and alien smuggling operations”).

133

the United States and threatening its international relations.” Id. DHS concluded: “[A] surge could result
in significant loss of human life.” Id.; accord, e.g., Designating Aliens For Expedited Removal, 69 FR 48877
(noting similar destabilizing incentives for a surge during a delay in the effective date); Visas: Documentation of Nonimmigrants Under the Immigration and Nationality Act, as Amended, 81 FR at 5907 (finding the
good-cause exception applicable because of similar
short-run incentive concerns).
These same concerns would apply here as well. Prepromulgation notice and comment, or a delay in the effective date, could lead to an increase in migration to the
southern border to enter the United States before the
rule took effect. For instance, the thousands of aliens
who presently enter illegally and make claims of credible fear if and when they are apprehended would have
an added incentive to cross illegally during the comment
period. They have an incentive to cross illegally in the
hopes of evading detection entirely. Even once apprehended, at present, they are able to take advantage of a
second opportunity to remain in the United States by
making credible-fear claims in expedited-removal proceedings. Even if their statements are ultimately not
found to be genuine, they are likely to be released into
the interior pending section 240 proceedings that may
not occur for months or years. Based on the available
statistics, the Departments believe that a large proportion of aliens who enter illegally and assert a fear could
be released while awaiting section 240 proceedings.
There continues to be an “urgent need to deter foreign
nationals from undertaking dangerous border crossings, and thereby prevent the needless deaths and
crimes associated with human trafficking and alien

134

smuggling operations.” Designating Aliens For Expedited Removal, 69 FR at 48878.
Furthermore, there are already large numbers of
migrants—including thousands of aliens traveling in
groups, primarily from Central America—expected to
attempt entry at the southern border in the coming
weeks. Some are traveling in large, organized groups
through Mexico and, by reports, intend to come to the
United States unlawfully or without proper documentation and to express an intent to seek asylum. Creating
an incentive for members of those groups to attempt to
enter the United States unlawfully before this rule took
effect would make more dangerous their already perilous journeys, and would further strain CBP’s apprehension operations. This interim rule is thus a practical means to address these developments and avoid creating an even larger short-term influx; an extended
notice-and-comment rulemaking process would be impracticable.
Alternatively, the Departments may forgo noticeand-comment procedures and a delay in the effective
date because this rule involves a “foreign affairs function of the United States.” 5 U.S.C. 553(a)(1). The
flow of aliens across the southern border, unlawfully or
without appropriate travel documents, directly implicates the foreign policy interests of the United States.
See, e.g., Exec. Order 13767 (Jan. 25, 2017). Presidential proclamations invoking section 212(f ) or 215(a)(1) of
the INA at the southern border necessarily implicate
our relations with Mexico and the President’s foreign
policy, including sensitive and ongoing negotiations with

135

Mexico about how to manage our shared border.15 A
proclamation under section 212(f ) of the INA would reflect a presidential determination that some or all entries along the border “would [be] detrimental to the interests of the United States.” And the structure of the
rule, under which the Attorney General and the Secretary are exercising their statutory authority to establish
a mandatory bar to asylum eligibility resting squarely
on a proclamation issued by the President, confirms the
direct relationship between the President’s foreign policy decisions in this area and the rule.
For instance, a proclamation aimed at channeling aliens who wish to make a claim for asylum to ports of entry at the southern border would be inextricably related
to any negotiations over a safe-third-country agreement
(as defined in INA 208(a)(2)(A), 8 U.S.C. 1158(a)(2)(A)),
or any similar arrangements. As noted, the vast majority of aliens who enter illegally today come from the
Northern Triangle countries, and large portions of those
aliens assert a credible fear. Channeling those aliens
to ports of entry would encourage these aliens to first
avail themselves of offers of asylum from Mexico.
Moreover, this rule would be an integral part of ongoing negotiations with Mexico and Northern Triangle
For instance, since 2004, the United States and Mexico have been
operating under a memorandum of understanding concerning the repatriation of Mexican nationals. Memorandum of Understanding
Between the Department of Homeland Security of the United States
of America and the Secretariat of Governance and the Secretariat of
Foreign Affairs of the United Mexican States, on the Safe, Orderly,
Dignified and Humane Repatriation of Mexican Nationals (Feb. 20,
2004). Article 6 of that memorandum reserves the movement of
third-country nationals through Mexico and the United States for
further bilateral negotiations.
15

136

countries over how to address the influx of tens of thousands of migrants from Central America through Mexico and into the United States. For instance, over the
past few weeks, the United States has consistently engaged with the Security and Foreign Ministries of El
Salvador, Guatemala, and Honduras, as well as the Ministries of Governance and Foreign Affairs of Mexico, to
discuss how to address the mass influx of aliens traveling together from Central America who plan to seek to
enter at the southern border. Those ongoing discussions involve negotiations over issues such as how these
other countries will develop a process to provide this influx with the opportunity to seek protection at the safest
and earliest point of transit possible, and how to establish compliance and enforcement mechanisms for those
who seek to enter the United States illegally, including
for those who do not avail themselves of earlier offers of
protection. Furthermore, the United States and Mexico have been engaged in ongoing discussions of a safethird-country agreement, and this rule will strengthen
the ability of the United States to address the crisis at
the southern border and therefore facilitate the likelihood of success in future negotiations.
This rule thus supports the President’s foreign policy
with respect to Mexico and the Northern Triangle countries in this area and is exempt from the notice-and-comment and delayed-effective-date requirements in 5
U.S.C. 553. See Am. Ass’n of Exporters & ImportersTextile & Apparel Grp. v. United States, 751 F.2d 1239,
1249 (Fed. Cir. 1985) (noting that foreign affairs exception covers agency actions “linked intimately with the
Government’s overall political agenda concerning relations with another country”); Yassini v. Crosland, 618
F.2d 1356, 1361 (9th Cir. 1980) (because an immigration

137

directive “was implementing the President’s foreign policy,” the action “fell within the foreign affairs function
and good cause exceptions to the notice and comment
requirements of the APA”).
Invoking the APA’s foreign affairs exception is also
consistent with past rulemakings. In 2016, for example, in response to diplomatic developments between the
United States and Cuba, DHS changed its regulations
concerning flights to and from the island via an immediately effective interim final rule. This rulemaking explained that it was covered by the foreign affairs exception because it was “consistent with U.S. foreign policy
goals”—specifically, the “continued effort to normalize
relations between the two countries.” Flights to and
From Cuba, 81 FR 14948, 14952 (Mar. 21, 2016). In a
similar vein, DHS and the State Department recently
provided notice that they were eliminating an exception
to expedited removal for certain Cuban nationals. The
notice explained that the change in policy was subject to
the foreign affairs exception because it was “part of a
major foreign policy initiative announced by the President, and is central to ongoing diplomatic discussions
between the United States and Cuba with respect to
travel and migration between the two countries.”
Eliminating Exception To Expedited Removal Authority for Cuban Nationals Encountered in the United
States or Arriving by Sea, 82 FR at 4904-05.
For the foregoing reasons, taken together, the Departments have concluded that the foreign affairs exemption to notice-and-comment rulemaking applies.
B. Regulatory Flexibility Act

138

The Regulatory Flexibility Act, 5 U.S.C. 601 et seq.,
as amended by the Small Business Regulatory Enforcement Fairness Act of 1996, requires an agency to prepare and make available to the public a regulatory flexibility analysis that describes the effect of the rule on
small entities (i.e., small businesses, small organizations, and small governmental jurisdictions). A regulatory flexibility analysis is not required when a rule is
exempt from notice-and-comment rulemaking.
C. Unfunded Mandates Reform Act of 1995
This interim final rule will not result in the expenditure by state, local, and tribal governments, in the aggregate, or by the private sector, of $100 million or more
in any one year, and it will not significantly or uniquely
affect small governments. Therefore, no actions were
deemed necessary under the provisions of the Unfunded
Mandates Reform Act of 1995.
D. Congressional Review Act
This interim final rule is not a major rule as defined
by section 804 of the Congressional Review Act. 5
U.S.C. 804. This rule will not result in an annual effect
on the economy of $100 million or more; a major increase
in costs or prices; or significant adverse effects on competition, employment, investment, productivity, innovation, or on the ability of United States-based enterprises
to compete with foreign-based enterprises in domestic
and export markets.
E. Executive Order 12866, Executive Order 13563, and
Executive Order 13771 (Regulatory Planning and Review)

139

This interim final rule is not a “significant regulatory
action” under section 3(f ) of Executive Order 12866 because the rule is exempt under the foreign-affairs exemption in section 3(d)(2) as part of the actual exercise
of diplomacy. The rule is consequently also exempt
from Executive Order 13771 because it is not a significant regulatory action under Executive Order 12866.
Though the potential costs, benefits, and transfers associated with some proclamations may have any of a range
of economic impacts, this rule itself does not have an impact aside from enabling future action. The Departments have discussed what some of the potential impacts associated with a proclamation may be, but these
impacts do not stem directly from this rule and, as such,
they do not consider them to be costs, benefits, or transfers of this rule.
This rule amends existing regulations to provide that
aliens subject to restrictions on entry under certain
proclamations are ineligible for asylum. The expected
effects of this rule for aliens and on the Departments’
operations are discussed above. As noted, this rule will
result in the application of an additional mandatory bar
to asylum, but the scope of that bar will depend on the
substance of relevant triggering proclamations. In addition, this rule requires DHS to consider and apply the
proclamation bar in the credible-fear screening analysis,
which DHS does not currently do. Application of the
new bar to asylum will likely decrease the number of
asylum grants. By applying the bar earlier in the process, it will lessen the time that aliens who are ineligible
for asylum and who lack a reasonable fear of persecution
or torture will be present in the United States. Finally, DOJ is amending its regulations with respect to
aliens who are subject to the proclamation bar to asylum

140

eligibility to ensure that aliens who establish a reasonable fear of persecution or torture may still seek, in proceedings before immigration judges, statutory withholding of removal under the INA or CAT protection.
Executive Order 13132 (Federalism)
This rule will not have substantial direct effects on
the States, on the relationship between the national government and the States, or on the distribution of power
and responsibilities among the various levels of government. Therefore, in accordance with section 6 of Executive Order 13132, it is determined that this rule does
not have sufficient federalism implications to warrant
the preparation of a federalism summary impact statement.
F. Executive Order 12988 (Civil Justice Reform)
This rule meets the applicable standards set forth in
sections 3(a) and 3(b)(2) of Executive Order 12988.
G. Paperwork Reduction Act
This rule does not propose new or revisions to existing “collection[s] of information” as that term is defined
under the Paperwork Reduction Act of 1995, Public Law
104-13, 44 U.S.C. chapter 35, and its implementing regulations, 5 CFR part 1320.

141
List of Subjects

8 CFR Part 208
Administrative practice and procedure, Aliens, Immigration, Reporting and recordkeeping requirements.
8 CFR Part 1003
Administrative practice and procedure, Aliens, Immigration, Legal services, Organization and functions
(Government agencies).
8 CFR Part 1208
Administrative practice and procedure, Aliens, Immigration, Reporting and recordkeeping requirements.
Regulatory Amendments
DEPARTMENT OF HOMELAND SECURITY

Accordingly, for the reasons set forth in the preamble, the Secretary of Homeland Security amends 8 CFR
part 208 as follows:
PART 208—PROCEDURES FOR ASYLUM AND WITHHOLDING OF REMOVAL

• 1. The authority citation for part 208 continues to
read as follows:
Authority: 8 U.S.C. 1101, 1103, 1158, 1226, 1252,
1282; Title VII of Public Law 110-229, 8 CFR part 2.

• 2. In § 208.13, add paragraph (c)(3) to read as follows:
§ 208.13 Establishing asylum eligibility.

*

*
(c)

*

*

* * *

*

142

(3) Additional limitation on eligibility for asylum.
For applications filed after November 9, 2018, an alien
shall be ineligible for asylum if the alien is subject to a
presidential proclamation or other presidential order
suspending or limiting the entry of aliens along the
southern border with Mexico that is issued pursuant to
subsection 212(f ) or 215(a)(1) of the Act on or after November 9, 2018 and the alien enters the United States
after the effective date of the proclamation or order contrary to the terms of the proclamation or order. This
limitation on eligibility does not apply if the proclamation or order expressly provides that it does not affect
eligibility for asylum, or expressly provides for a waiver
or exception that makes the suspension or limitation inapplicable to the alien.
• 3. In § 208.30, revise the section heading and add a
sentence at the end of paragraph (e)(5) to read as follows:
§ 208.30 Credible fear determinations involving stowaways and applicants for admission who are found inadmissible pursuant to section 212(a)(6)(C) or 212(a)(7) of
the Act or whose entry is limited or suspended under section 212(f ) or 215(a)(1) of the Act.

*
(e)

*

*

*

*

* * *

(5) * * * If the alien is found to be an alien described in 8 CFR 208.13(c)(3), then the asylum officer
shall enter a negative credible fear determination with
respect to the alien’s application for asylum. The Department shall nonetheless place the alien in proceedings under section 240 of the Act for full consideration

143

of the alien’s claim for withholding of removal under section 241(b)(3) of the Act, or for withholding or deferral
of removal under the Convention Against Torture if the
alien establishes a reasonable fear of persecution or torture. However, if an alien fails to establish, during the
interview with the asylum officer, a reasonable fear of
either persecution or torture, the asylum officer will
provide the alien with a written notice of decision, which
will be subject to immigration judge review consistent
with paragraph (g) of this section, except that the immigration judge will review the reasonable fear findings
under the reasonable fear standard instead of the credible fear standard described in paragraph (g) and in 8
CFR 1208.30(g).
*

*

*

*

*

Approved:
Dated:

November 5, 2018.

Kirstjen M. Nielsen,

Secretary of Homeland Security.
DEPARTMENT OF JUSTICE

Accordingly, for the reasons set forth in the preamble, the Attorney General amends 8 CFR parts 1003 and
1208 as follows:
PART 1003—EXECUTIVE OFFICE FOR IMMIGRATION REVIEW

• 4. The authority citation for part 1003 continues to
read as follows:
Authority: 5 U.S.C. 301; 6 U.S.C 521; 8 U.S.C. 1101,
1103, 1154, 1155, 1158, 1182, 1226, 1229, 1229a, 1229b,
1229c, 1231, 1254a, 1255, 1324d, 1330, 1361, 1362; 28

144

U.S.C. 509, 510, 1746; sec. 2 Reorg. Plan No. 2 of 1950; 3
CFR, 1949-1953 Comp., p. 1002; section 203 of Pub. L.
105-100, 111 Stat. 2196-200; sections 1506 and 1510 of
Pub. L. 106-386, 114 Stat. 1527-29, 1531-32; section 1505
of Pub. L. 106-554, 114 Stat. 2763A-326 to -328.
• 5. In § 1003.42, add a sentence at the end of paragraph (d) to read as follows:
§ 1003.42 Review of credible fear determination.

*

*

*

*

*

(d) * * * If the alien is determined to be an alien
described in 8 CFR 208.13(c)(3) or 1208.13(c)(3) and is
determined to lack a reasonable fear under 8 CFR
208.30(e)(5), the immigration judge shall first review de
novo the determination that the alien is described in 8
CFR 208.13(c)(3) or 1208.13(c)(3) prior to any further
review of the asylum officer’s negative determination.
*

*

*

*

*

PART 1208-PROCEDURES FOR ASYLUM AND WITHHOLDING OF REMOVAL

• 6. The authority citation for part 1208 continues to
read as follows:
8 U.S.C. 1101, 1103, 1158, 1226, 1252,
1282; Title VII of Public Law 110-229.
Authority:

• 7. In § 1208.13, add paragraph (c)(3) to read as follows:
§ 1208.13 Establishing asylum eligibility.

*

*
(c)

*

*

* * *

*

145

(3) Additional limitation on eligibility for asylum.
For applications filed after November 9, 2018, an alien
shall be ineligible for asylum if the alien is subject to a
presidential proclamation or other presidential order
suspending or limiting the entry of aliens along the
southern border with Mexico that is issued pursuant to
subsection 212(f ) or 215(a)(1) of the Act on or after November 9, 2018 and the alien enters the United States
after the effective date of the proclamation or order contrary to the terms of the proclamation or order. This
limitation on eligibility does not apply if the proclamation or order expressly provides that it does not affect
eligibility for asylum, or expressly provides for a waiver
or exception that makes the suspension or limitation inapplicable to the alien.
• 8. In § 1208.30, revise the section heading and add
paragraph (g)(1) to read as follows:
§ 1208.30 Credible fear determinations involving stowaways and applicants for admission who are found inadmissible pursuant to section 212(a)(6)(C) or 212(a)(7) of
the Act or whose entry is limited or suspended under section 212(f ) or 215(a)(1) of the Act.

*

*
(g)

*

*

*

* * *

(1) Review by immigration judge of a mandatory
bar finding. If the alien is determined to be an alien
described in 8 CFR 208.13(c)(3) or 1208.13(c)(3) and is
determined to lack a reasonable fear under 8 CFR
208.30(e)(5), the immigration judge shall first review de
novo the determination that the alien is described in 8
CFR 208.13(c)(3) or 1208.13(c)(3). If the immigration
judge finds that the alien is not described in 8 CFR

146

208.13(c)(3) or 1208.13(c)(3), then the immigration judge
shall vacate the order of the asylum officer, and DHS
may commence removal proceedings under section 240
of the Act. If the immigration judge concurs with the
credible fear determination that the alien is an alien described in 8 CFR 208.13(c)(3) or 1208.13(c)(3), the immigration judge will then review the asylum officer’s negative decision regarding reasonable fear made under 8
CFR 208.30(e)(5) consistent with paragraph (g)(2) of
this section, except that the immigration judge will review the findings under the reasonable fear standard instead of the credible fear standard described in paragraph (g)(2).
*

*

Dated:

*

*

*

Nov. 6, 2018.

Jefferson B. Sessions III,

Attorney General.
[FR Doc. 2018-24594 Filed 11-8-18; 4:15 pm]
BILLING CODE 4410-30-P; 9111-97-P

147

Position of Mexico on the Decision of the U.S. Government to Invoke Section 235(b)(2)(C) of its Immigration
and Nationality Act

Press Release 14

148

Autor
Secretaría de Relaciones Exteriores
Fecha de publicación
20 de diciembre de 2018
Categoría
Comunicado
At 8 a.m. this morning, the Government of the United
States informed the Mexican Government that the U.S.
Department of Homeland Security (DHS) intends to invoke a section of its immigration law that would enable
it to return non-Mexican individuals to our country for
the duration of their immigration proceedings in the
United States.
Mexico reaffirms its sovereign right to implement its
immigration policy and admit or deny entry into its territory to foreign citizens. Therefore, the Government
of Mexico has decided to take the following steps on behalf of migrants, especially minors, whether accompanied or not, and to protect the right of those who wish to
begin and continue the process of applying for asylum in
United States territory:
1. For humanitarian reasons, it will authorize the temporary entrance of certain foreign individuals coming
from the United States who entered that country at a
port of entry or who were detained between ports of entry, have been interviewed by U.S. immigration authorities, and have received a notice to appear before an immigration judge. This is based on current Mexican legislation and the international commitments Mexico has
signed, such as the Convention Relating to the Status of

149

Refugees, its Protocol, and the Convention against Torture and Other Cruel, Inhuman or Degrading Treatment or Punishment, among others.
2. It will allow foreigners who have received a notice
to appear to request admission into Mexican territory
for humanitarian reasons at locations designated for the
international transit of individuals and to remain in national territory. This would be a “stay for humanitarian reasons” and they would be able to enter and leave
national territory multiple times.
3. It will ensure that foreigners who have received
their notice to appear have all the rights and freedoms
recognized in the Constitution, the international treaties
to which Mexico is a party, and its Migration Law.
They will be entitled to equal treatment with no discrimination whatsoever and due respect will be paid to their
human rights. They will also have the opportunity to
apply for a work permit for paid employment, which will
allow them to meet their basic needs.
4. It will ensure that the measures taken by each government are coordinated at a technical and operational
level in order to put mechanisms in place that allow migrants who have receive a notice to appear before a U.S.
immigration judge have access without interference to
information and legal services, and to prevent fraud and
abuse.
The actions taken by the governments of Mexico and the
United States do not constitute a Safe Third Country
arrangement, in which migrants in transit would be required to apply for asylum in Mexico. They are aimed
at facilitating the follow-up to applications for asylum in

150

the United States. This does not imply that foreign individuals face any obstacles to applying for asylum in
Mexico.
The Government of Mexico reiterates that all foreign individuals must comply with the law while they are in national territory.
Contesta nuestra encuesta de satisfacción.
Twittear
Compartir (https://www.facebook.com/sharer/sharer.php?
u=http://www.gob.mx/sre/prensa/155060&src=sdkpreparse)
Imprime la página completa
La legalidad, veracidad y la calidad de la información es
estricta responsabilidad de la dependencia, entidad o
empresa productiva del Estado que la proporcionó en
virtud de sus atribuciones y/o facultades normativas.

151

152

Fiscal Year 2018 ICE Enforcement and
Removal Operations Report
Overview

This report summarizes U.S. Immigration and Customs
Enforcement (ICE) Enforcement and Removal Operations (ERO) activities in Fiscal Year (FY) 2018. ERO
identifies, arrests, and removes aliens who present a
danger to national security or a threat to public safety,
or who otherwise undermine border control and the integrity of the U.S. immigration system. ICE shares
responsibility for administering and enforcing the nation’s immigration laws with U.S. Customs and Border
Protection (CBP) and U.S. Citizenship and Immigration
Services.
During FY2018, ICE ERO continued its focus on priorities laid out by two primary directives issued in 2017.
On January 25, 2017, President Donald J. Trump issued
Executive Order 13768, Enhancing Public Safety in the
Interior of the United States (EO), which set forth the
Administration’s immigration enforcement and removal
priorities. Subsequently, the Department of Homeland
Security’s (DHS) February 20, 2017 implementation
memorandum, Enforcement of the Immigration Laws
to Serve the National Interest provided further direction for the implementation of the policies set forth in
the EO. Together, the EO and implementation memorandum expanded ICE’s enforcement focus to include
removable aliens who (1) have been convicted of any

153

criminal offense; (2) have been charged with any criminal offense that has not been resolved; (3) have committed acts which constitute a chargeable criminal offense;
(4) have engaged in fraud or willful misrepresentation in
connection with any official matter before a governmental
agency; (5) have abused any program related to receipt of
public benefits; (6) are subject to a final order of removal
but have not complied with their legal obligation to depart
the United States; or (7) in the judgment of an immigration officer, otherwise pose a risk to public safety or national security. The Department continued to operate
under the directive that classes or categories of removable
aliens are not exempt from potential enforcement.
ICE ERO continued efforts under the direction of the
2017 EO and implementation memorandum by placing a
significant emphasis on interior enforcement by protecting national security and public safety and upholding the
rule of law. This report represents an analysis of ICE
ERO’s FY2018 year-end statistics and illustrates how
ICE ERO successfully fulfilled its mission while furthering the aforementioned policies.
FY2018 Enforcement and Removal Statistics

As directed in the EO and implementation memorandum, ICE does not exempt classes or categories of removable aliens from potential enforcement. This policy directive is reflected in ERO’s FY2018 enforcement
statistics, which show consistent increases from previous fiscal years in the following enforcement metrics: (1)
ICE ERO overall administrative arrests; (2) an accompanying rise in overall ICE removals tied to interior enforcement efforts; (3) ICE removals of criminal aliens
from interior enforcement; (4) ICE removals of sus-

154

pected gang members and known or suspected terrorists; (5) positive impact on ICE removals from policy initiatives including visa sanctions and diplomatic relations; (6) ICE ERO total book-ins and criminal alien
book-ins; and (7) ICE ERO Detainers.
ICE ERO Administrative Arrests

An administrative arrest is the arrest of an alien for a
civil violation of U.S. immigration laws, which is subsequently adjudicated by an immigration judge or through
other administrative processes. With 158,581 administrative arrests in FY2018, ICE ERO recorded the greatest number of administrative arrests 1 as compared to
the two previous fiscal years (depicted below in Figure
1), and the highest number since FY2014. ICE ERO
made 15,111 more administrative arrests in FY2018
than in FY2017, representing an 11 percent increase,
and a continued upward trend after FY2017’s 30 percent
increase over FY2016.

ERO administrative arrests include all ERO programs. All statistics are attributed to the current program of the processing officer
of an enforcement action.
1

155

Administrative Arrests of Immigration Violators by
Criminality
ICE remains committed to directing its enforcement resources to those aliens posing the greatest risk to the
safety and security of the United States. By far, the
largest percentage of aliens arrested by ICE are convicted criminals2 (66 percent), followed by immigration
violators with pending criminal charges3 at the time of
their arrest (21 percent). In FY2018, ERO arrested
138,117 aliens with criminal histories (convicted criminal
and pending criminal charges) for an increase of 10,125
aliens over FY2017. This continued the growth seen in
FY2017 when ERO arrested 26,974 more aliens with
criminal histories than in FY2016 for a 27 percent gain.
While the arrests of convicted criminals remained relatively level from FY 2017 to FY2018 at 105,736 and
105,140 respectively, administrative arrests with pending criminal charges increased by 48 percent. This
continues the upward trend seen in FY2017, where arrests with pending charges increased by 255 percent
over FY2016. Figure 2 provides a breakdown of FY2016,
FY2017, and FY2018 administrative arrests by criminality.

Immigration violators with a criminal conviction entered into
ICE systems of record at the time of the enforcement action.
3
Immigration violators with pending criminal charges entered
into ICE system of record at the time of the enforcement action.
2

156

Below, Table 1 tallies all pending criminal charges and
convictions by category for those aliens administratively
arrested in FY2018 and lists those categories with at
least 1,000 combined charges and convictions present in
this population. These figures are representative of
the criminal history as it is entered in the ICE system
of record for individuals administratively arrested. Each
administrative arrest may represent multiple criminal
charges and convictions, as many of the aliens arrested
by ERO are recidivist criminals.

157

Notes: Immigration crimes include “illegal entry,” “illegal reentry,” “false claim to U.S. citizenship,” and “alien
smuggling.”
“Obstructing Judiciary& Congress&
Legislature& Etc.,” refers to several related offenses including, but not limited to: Perjury; Contempt; Ob-

158

structing Justice; Misconduct; Parole and Probation Violations; and Failure to Appear. “General Crimes” include the following National Crime Information Center
(NCIC) charges: Conspiracy, Crimes Against Person,
Licensing Violation, Money Laundering, Morals—Decency Crimes, Property Crimes, Public Order Crimes,
Racketeer Influenced and Corrupt Organizations Act
(RICO), and Structuring.
As a result of ERO’s enhanced enforcement efforts directed at restoring the integrity of the immigration system, the percentage of administrative arrests of other
immigration violators4 increased from FY2017 (11 percent) to FY2018 (13 percent). Of this population of immigration violators arrested in FY2018, Table 2 shows
that 57 percent were processed with a notice to appear5
while 23 percent were ICE fugitives6 or subjects who
had been previously removed, illegally re-entered the
country (a federal felony under 8 U.S.C § 1326) and
served an order of reinstatement.7 Both the number of
fugitive and illegal reentry arrests continued a three“Other Immigration Violators” are immigration violators without
any known criminal convictions or pending charges entered into ICE
system of record at the time of the enforcement action.
5
A Notice to Appear (Form I-862) is the charging document that
initiates removal proceedings. Charging documents inform aliens of
the charges and allegations being lodged against them by ICE.
6
A fugitive is any alien who has failed to leave the United States
following the issuance of a final order of removal, deportation, or exclusion.
7
Section 241(a)(5) of the Immigration and Nationality Act (INA)
provides that DHS may reinstate (without referral to an immigration court) a final order against an alien who illegally reenters the
United States after being deported, excluded, or removed from the
United States under a final order.
4

159

year trend by increasing 19 percent and 9 percent, respectively, in FY2018.8

At-Large Arrests
An ERO at-large arrest is conducted in the community,
as opposed to a custodial setting such as a prison or jail.9
While at-large arrests remained consistent, with a 1 percent overall increase from 40,066 in FY2017 to 40,536 in
FY2018 (Figure 3), at-large arrests levels remain significantly higher compared to the 30,348 from FY2016.
At-large arrests of convicted criminal aliens decreased
by 13 percent in FY2018 as shown in Figure 4. However, this group still constitutes the largest proportion
of at-large apprehensions (57 percent).
Increases
year-over-year in at-large arrests of aliens with pending
criminal charges (35 percent) and other immigration violators (25 percent) offset the decrease in arrests of convicted criminals. The increased enforcement of these

“Other” types of arrests of Other Immigration Violators include,
but are not limited to, arrests for Expedited Removal, Visa
Waiver Program Removal, Administrative Removal, and Voluntary Departure/Removal.
9
ERO administrative arrests reported as “at-large” include records from all ERO Programs with Arrest Methods of Located,
Non-Custodial Arrest, or Probation and Parole.
8

160

populations without criminal convictions add to the increases seen in FY2017 for pending criminal charges
(213 percent) and other immigration violators (122 percent). Again, this demonstrates ERO’s commitment to
removing criminal aliens and public safety threats, while
still faithfully enforcing the law against all immigration
violators.

161

Rise in ICE Removals through enhanced Interior
Enforcement
The apprehension and removal of immigration violators
is central to ICE’s mission to enforce U.S. immigration
laws. In addition to the 11 percent increase in ERO administrative arrests from FY2017 to FY2018, ERO also
made significant strides in removing aliens arrested in
the interior of the country (Figure 5). Such removals
stem from an ICE arrest and is the ultimate goal of the
agency’s interior immigration enforcement efforts. Interior ICE removals continued to increase in FY2018, as
ICE removed 13,757 more aliens in this category than it
did in FY2017, a 17 percent increase (Figure 5). The
increases in both ERO administrative arrests and removals based on these interior arrests demonstrate the
significant successes ICE achieved during FY2018, as
well as the increased efficacy with which the agency carried out its mission.

162

Criminal Arrests and Prosecutions
While ICE ERO showed significant gains in all meaningful enforcement metrics, perhaps none are more impressive nor have made more of an impact on public
safety than its prosecutorial efforts. In conjunction
with the United States Attorney’s Office, ERO enforces
violations of criminal immigration law through the effective prosecution of criminal offenders.
In FY2018, ERO’s efforts resulted in the prosecutions
of offenses which include, but are not limited to: 8 U.S.C
§ 1325, Illegal Entry into the United States; 8 U.S.C
§ 1326, Illegal Re-Entry of Removed Alien; 18 U.S.C
§ 1546, Fraud and Misuse of Visas, Permits and Other
Documents; 18 U.S.C § 111, Assaulting and/or Resisting
an Officer; and 18 U.S.C § 922(g)(5), Felon in Possession
of a Firearm.
In FY2017, ERO made 5,790 criminal arrests resulting
in 4,212 indictments or Bills of Information and 3,445
convictions. While these FY2017 numbers showed moderate increases over FY2016 in criminal arrests and indictments or Bills of Information, in FY2018 ERO made
7,449 criminal arrests resulting in 7,326 indictments or
Bills of Information and 7,197 convictions. This surge
in enforcement efforts directed at criminal aliens and repeat offenders reflects a 29 percent increase in criminal
arrests, a 74 percent increase in indictments or Bills of
Information, and a 109 percent increase in criminal convictions to reverse a downturn from FY2017 (Figure 6).

163
Figure 6. FY2016 – FY2018 Prosecution Statistics

Initial Book-ins to ICE Custody

An initial book-in is the first book-in to an ICE detention
facility to begin a new detention stay. This population
includes aliens initially apprehended by CBP who are
transferred to ICE for detention and removal. As seen
in Figure 7, while overall ICE initial book-ins went down
in FY2017 (323,591) compared to FY2016 (352,882), total
book-ins increased in FY2018 to 396,448, illustrating the
ongoing surge in illegal border crossings.
Figure 7 shows the number of book-ins resulting from
ICE and CBP enforcement efforts for FY2016, FY2017,
and FY2018.10 Notably, book-ins from CBP increased
32 percent in FY2018 to 242,778, while book-ins from
ICE arrests continued an upward trend from FY2017’s

CBP enforcement efforts represent records that were processed
by Border Patrol, Inspections, Inspections-Air, Inspections-Land,
and Inspections-Sea.
10

164

29 percent increase with an additional increase of 10
percent in FY2018.

Detainers

A detainer is a request to the receiving law enforcement
agency to both notify DHS as early as practicable before
a removable alien is released from criminal custody, and
to maintain custody of the alien for a period not to exceed 48 hours beyond the time the alien would otherwise
have been released to allow DHS to assume custody for
removal purposes. ICE issues detainers to federal,
state, and local law enforcement agencies only after establishing probable cause that the subject is an alien
who is removable from the United States and to provide
notice of ICE’s intent to assume custody of a subject detained in that law enforcement agency’s custody. The
detainer facilitates the custodial transfer of an alien to
ICE from another law enforcement agency. This process may reduce potential risks to ICE officers and to
the general public by allowing arrests to be made in a
controlled, custodial setting as opposed to at-large arrests in the community.

165

The cooperation ICE receives from other law enforcement agencies is critical to its ability to identify and arrest aliens who pose a risk to public safety or national
security. Some jurisdictions do not cooperate with ICE
as a matter of state or local law, executive order, judicial
rulings, or policy. All detainers issued by ICE are accompanied by either: (1) a properly completed Form
I-200 (Warrant for Arrest of Alien) signed by a legally
authorized immigration officer; or (2) a properly completed Form I-205 (Warrant of Removal/Deportation)
signed by a legally authorized immigration officer, both
of which include a determination of probable cause of removability.
Issued Detainers
In FY2018, ERO issued 177,147 detainers—an increase
of 24 percent from the 142,356 detainers issued in
FY2017 (Figure 8). This number demonstrates the
large volume of illegal aliens involved in criminal activity and the public safety risk posed by these aliens, as
well as ERO’s commitment to taking enforcement action
against all illegal aliens it encounters. The rise in detainers issued continues the trend from FY2017’s 65
percent growth over FY2016 and shows a consistent focus on interior enforcement, particularly for those aliens
involved in criminal activity, despite continued opposition and lack of cooperation from uncooperative jurisdictions.

166

ICE Removals

Integral to the integrity of the nation’s lawful immigration system is the removal of immigration violators who
are illegally present in the country and have received a
final order of removal. 11 A removal is defined as the
compulsory and confirmed movement of an inadmissible
or deportable alien out of the United States based on
such an order.12 ICE removals include both aliens arrested by ICE and aliens who were apprehended by
CBP and turned over to ICE for repatriation efforts.

ICE removals include removals and returns where aliens were
turned over to ICE for removal efforts. This includes aliens processed for Expedited Removal (ER) or Voluntary Return (VR) that
are turned over to ICE for detention. Aliens processed for ER and
not detained by ERO or VRs after June 1st, 2013 and not detained
by ICE are primarily processed by the U.S. Border Patrol. CBP
should be contacted for those statistics.
12
Ibid.
11

167

In FY2018, ICE saw a significant increase in both overall removals as well as removals where ICE was the initial arresting agency.
Figure 9 displays total ICE removals for FY2016,
FY2017, and FY2018 and highlights the 13 percent increase from 226,119 to 256,085 in FY2018. After a drop
in FY2017 overall removals stemming from historic lows
in border crossings, ICE removals rebounded in FY2018,
with the previously identified 17 percent increase stemming from both strengthened ICE interior enforcement
efforts as well as an 11 percent increase in removals of
border apprehensions.
Figure 10 breaks down ICE removals by arresting
agency, which demonstrates a 46 percent increase from
FY2016 to FY2018 (from 65,332 to 95,360) in removals
tied to ICE arrests.

168

Figure 11 shows the breakdown of ICE removals based
on criminal history. ICE removals of convicted criminals followed overall removal trends with a small decrease from 138,669 in FY2016 to 127,699 in FY2017,
while rising to 145,262 in FY2018, a 14 percent increase.
Over this same period, ICE removals of aliens with
pending criminal charges has steadily increased from
12,163 in FY2016 to 16,374 in FY2017 for a 35 percent
increase and to 22,796 in FY2018 for another 39 percent
increase over the previous year.

169

ICE Removals to Ensure National Security and Public
Safety
ICE removals of known or suspected gang members and
known or suspected terrorists (KST) are instrumental
to ICE’s national security and public safety missions,
and the agency directs significant resources to identify,
locate, arrest, and remove these aliens.
ICE identifies gang members and KSTs by checking an
alien’s background in federal law enforcement databases, interviews with the aliens, and information received from law enforcement partners. This information
is flagged accordingly in ICE’s enforcement systems.
These populations are not mutually exclusive, as an alien
may be flagged as both a known or suspected gang member, and a KST. As seen in Figure 12, ICE removals of
known and suspected gang members increased by 162
percent in FY2017, more than doubling from the previous year. These critical removals increased again in
FY2018, rising by 9 percent from FY2017. ICE’s KST

170

removals also rose significantly between FY2016 and
FY2017 (Figure 13), increasing by 67 percent, while removals of aliens in this group were relatively level in
FY2018, with ICE conducting 42 removals compared to
45 in FY2017.

Removals of USBP Family Unit and Unaccompanied
Alien Children Apprehensions
Since the initial surge at the Southwest border SWB) in
FY2014, there has been a significant increase in the arrival of both family units (FMUAs) and unaccompanied

171

alien children (UACs). In FY2018, approximately 50,000
UACs and 107,000 aliens processed as FMUAs were apprehended at the SWB by the U.S. Border Patrol (USBP).
These numbers represent a marked increase from
FY2017, when approximately 41,000 UACs and 75,000
FMUA were apprehended by USBP. While USBP
routinely turns FMUA apprehensions over to ICE for
removal proceedings, ICE is severely limited by various
laws and judicial actions from detaining family units
through the completion of removal proceedings. For
UAC apprehensions, DHS is responsible for the transfer of custody to the Department of Health and Human
Services (HHS) within 72 hours, absent exceptional circumstances. HHS is similarly limited in their ability to
detain UACs through the pendency of their removal proceedings. When these UACs are released by * * *
*

*

*

*

*

172
Lesson Plan Overview
Course

Refugee, Asylum and International Operations Directorate
Officer Training Asylum Division Officer Training Course

Lesson

Reasonable Fear of Persecution
and Torture Determinations

Rev. Date

February 13, 2017; Effective as
of Feb 27, 2017.

Lesson Description

The purpose of this lesson is to
explain when reasonable fear
screenings are conducted and
how to determine whether the
alien has a reasonable fear of
persecution or torture using
the appropriate standard.

Terminal Performance
When a case is referred to an
Objective

Asylum Officer to make a "reasonable fear" determination,
the Asylum Officer will be able
to correctly determine whether
the applicant has established a
reasonable fear of persecution
or a reasonable fear of torture.

Enabling Performance
Objectives
1. Indicate the elements of

“torture” as defined in the
Convention Against Torture
and the regulations. (AIL5)
(AIL6)

173

2. Identify the type of harm
that constitutes “torture” as
defined in the Convention
Against Torture and the
regulations. (AIL5)(AIL6)
3. Describe the circumstances
in which a reasonable fear
screening is conducted.
(APT2)(OK4)(OK6)(OK7)
4. Identify the standard of
proof required to establish a
reasonable fear of torture.
(ACRR8)(AA3)
5. Identify the standard of
proof required to establish a
reasonable fear of persecution. (ACRR8)(AA3)
6. Examine the applicability of
bars to Asylum and withholding of removal in the
reasonable fear context.
(ACRR3)
Instructional Methods
Student Materials/
References

Lecture, practical exercises
United Nations. Convention
against Torture and Other
Cruel, Inhuman or Degrading
Treatment or Punishment (see
RAIO Training Module, International Human Rights Law)

174

Ali v. Reno; Mansour v. INS;
Matter of S-V-; Matter of G-A-;
Sevoian v. Aschcroft; In re
J-E-; Matter of Y-L-; Auguste
v. Ridge; Ramirez Peyro v.
Holder; Roye v. Att’y Gen. of
U.S.
Reasonable Fear forms and
templates (are found on the
ECN website) Written test
Method of Evaluation

Written test

Background Reading

1. Reasonable Fear Procedures
Manual (Draft).
2. Martin, David A. Office of
the General Counsel. Compliance with Article 3 of the
Convention against Torture in the cases of removable aliens, Memorandum to
Regional Counsel, District
Counsel, All Headquarters
Attorneys (Washington, DC:
May 14, 1997), 5 p.
3. Lafferty, John, Asylum Division, Updated Guidance
on Reasonable Fear NoteTaking, Memorandum to All
Asylum Office Staff (Washington, DC: May 9, 2014),
2p. plus attachments.

175

4. Lafferty, John, Asylum Division, Reasonable Fear Detennination Checklist and
Written Analysis, Memorandum to All Asylum Office Staff (Washington, DC:
Aug. 3, 2015), 1p. plus attachments.
5. Langlois, Joseph E. INS Office of International Affairs.
Implementation of Amendments to Asylum and Withholding of Removal Regulations, Effective March 22,
1999, Memorandum to Asylum Office Directors, SAOs,
AOs (Washington, D.C.:
March 18, 1999), 16 p. plus
attachments.
6. Langlois, Joseph E. Asylum
Division, Office of International Affairs.
Withdrawal of Request of Reasonable Fear Determination, Memorandum to Asylum Office Directors, et al.
(Washington, DC: May 25,
1999), 1p. plus attachment
(including updated version
of Withdrawal of Request of
Reasonable Fear Determination form, 6/13/02 version).

176

7. Pearson, Michael Implementation of Amendment to the
Legal Immigration Family
Equity Act (LIFE) Regarding Applicability of INA
Section 241(a)(5) (Reinstatement) to NACARA 203 Beneficiaries (Washington, DC:
February 23, 2001), 7p. plus
attachments.
8. Langlois, Joseph L. Implementation of Amendment
to the Legal Immigration
Family Equity Act (LIFE)
regarding applicability of
INA section 241(a)(5) (reinstatement) to NACARA
203 beneficiaries (Washington, DC:
February 22,
2001), 3p. plus attachments.
9. Langlois, Joseph E. Asylum
Division, Office of International Affairs. International
Religious Freedom Act Requirements Affecting Credible Fear and Reasonable
Fear Interview Procedures,
Memorandum for Asylum
Office Directors, et al.
(Washington, DC: April
15, 2002), 3p.
10. Langlois, Joseph E. Asylum
Division. Reasonable Fear

177

Procedures Manual, Memorandum for Asylum Office
Directors, et al. (Washington, DC: January 3, 2003),
3p. plus attachments.
11. Langlois, Joseph E. Asylum
Division. Issuance of Updated Credible Fear and
Reasonable Fear Procedures, Memorandum for
Asylum Office Directors, et
al. (Washington, DC: May
14, 2010), 2p. plus attachments.
12. Ted Kim, Asylum Division.
Implementation of Reasonable Fear Processing Timelines and APSS Guidance,
Memorandum to All Asylum
Office Staff, (Washington,
DC: April 17, 2012), 2p. plus
attachments.
13. Pearson, Michael Implementation of Amendment
to the Legal Immigration
Family Equity Act (LIFE)
Regarding Applicability of
INA Section 241(a)(5) (Reinstatement) to NACARA
203 Beneficiaries (Washington, DC: February 23,
2001), 7p. plus attachments.

178

14. Langlois, Joseph L. Implementation of Amendment
to the Legal Immigration
Family Equity Act (LIFE)
regarding applicability of
INA section 241(a)(5) (reinstatement) to NACARA
203 beneficiaries (Washington, DC:
February 22,
2001), 3p. plus attachments.
15. Langlois, Joseph E. Asylum
Division, Office of International Affairs.
International Religious Freedom
Act Requirements Affecting
Credible Fear and Reasonable Fear Interview Procedures, Memorandum for
Asylum Office Directors, et
al. (Washington, DC: April
15, 2002), 3p.
16. Langlois, Joseph E. Asylum
Division. Reasonable Fear
Procedures Manual, Memorandum for Asylum Office
Directors, et al. (Washington, DC: January 3, 2003),
3p. plus attachments.
17. Langlois, Joseph E. Asylum
Division. Issuance of Updated Credible Fear and
Reasonable Fear Procedures, Memorandum for

179

Asylum Office Directors, et
al. (Washington, DC: May
14, 2010), 2p. plus attachments.
18. Ted Kim, Asylum Division.
Implementation of Reasonable Fear Processing Timelines and APSS Guidance,
Memorandum to All Asylum
Office Staff, (Washington,
DC: April 17, 2012), 2p.
plus attachments.
CRITICAL TASKS

Knowledge of U.S. case law that impacts RAIO.

(3)

Knowledge of the Asylum Division jurisdictional authority. (4)
Skill in identifying information required to establish eligibility. (4)
Skill in identifying issues of claim.

(4)

Knowledge of relevant policies, procedures, and guidelines of establishing applicant eligibility for reasonable
fear of persecution of torture. (4)
Knowledge of mandatory bars and inadmissibilities to
asylum eligibility. (4)
Skill in organizing case and research materials (4)
Skill in applying legal, policy, and procedural guidance
(e.g., statutes, precedent decisions, case law) to information and evidence. (5)

180

Skill in analyzing complex issues to identify appropriate
responses or decisions. (5)

181
TABLE OF CONTENTS
I.
II.
III.

INTRODUCTION ................................................... 7
BACKGROUND ...................................................... 7
JURISDICTION ..................................................... 8
A. Reinstatement under Section 241(a)(5)
of the INA .......................................................... 8
B. Removal Orders under Section 238(b) of
the INA (based on aggravated felony
conviction .......................................................... 10
IV. DEFINITION OF REASONABLE FEAR ....... 10
V.
STANDARD OF PROOF ..................................... 11
VI. IDENTITY ............................................................. 11
VII. PRIOR DETERMINATIONS ON THE
MERITS ................................................................. 12
VIII. CREDIBILITY ..................................................... 12
A. Credibility Standard ....................................... 12
B. Evaluating Credibility in a Reasonable
Fear Interview ................................................. 12
C. Assessing Credibility in Reasonable
Fear when Making a Reasonable Fear
Determination .................................................. 14
D. Documenting a Credibility Determination .................................................................... 16
IX. ESTABLISHING A REASONABLE
FEAR OF PERSECUTION ................................ 17
A. Persecution ...................................................... 17
B. Nexus to a Protected Characteristic ............. 17
C. Past Persecution .............................................. 18
D. Internal Relocation ......................................... 19
E. Mandatory Bars ............................................... 19
X.
CONVENTION AGAINST TORTURE—
BACKGROUND .................................................... 20

182

XI.

XII.

XIII.

XIV.

XV.
XVI.

A. U.S. Ratification of the Convention and
Implementing Legislation .............................. 21
B. Article 3 ............................................................ 22
DEFINITION OF TORTURE ............................ 22
A. Identity of Torturer ........................................ 23
B. Torturer’s Custody or Control over
Individual ......................................................... 31
C. Specific Intent .................................................. 31
D. Degree of Harm ............................................... 33
E. Mental Pain or Suffering ................................ 34
F. Lawful Sanctions ............................................. 36
ESTABLISHING A REASONABLE
FEAR OF TORTURE .......................................... 37
A. Torture ............................................................. 37
B. No Nexus Requirement .................................. 38
C. Past Torture ..................................................... 39
D. Internal Relocation ......................................... 40
E. Mandatory Bars ............................................... 41
EVIDENCE ........................................................... 40
A. Credibility Testimony .... Error! Bookmark not
defined.
B. Country Condition ........................................... 42
INTERVIEWS ...................................................... 43
A. General Considerations ................................... 43
B. Confidentiality ................................................. 44
C. Interpretation .................................................. 44
D. Note Taking ..................................................... 45
E. Representation ................................................ 46
F. Eliciting Information ...................................... 46
REQUESTS TO WITHDRAW THE
CLAIM FOR PROTECTION .............................. 49
SUMMARY ............................................................ 50

183
A. Applicability ..................................................... 50
B. Definition of Reasonable Fear of
Persecution ...................................................... 50
C. Definition of Reasonable Fear of
Torture ............................................................. 51
D. Bars ................................................................... 51
E. Credibility ........................................................ 51
F. Effect of Past Persecution or Torture ........... 51
G. Internal Relocation ......................................... 52
H. Elements of the Definition of Torture ........... 52
I. Evidence ........................................................... 53
J. Interviews ........................................................ 53

184
Presentation
I.

References

INTRODUCTION

This lesson instructs asylum officers on the substantive elements
required to establish a reasonable
fear of persecution or torture.
More detailed instruction on procedures for conducting interviews
and processing cases referred for
reasonable fear determinations
are provided in the Reasonable
Fear Procedures Manual and separate procedural memos. For guidance on interviewing techniques to
elicit information in a non-adversarial manner, asylum officers
should review the RAIO Training
Modules:
Interviewing—Introduction to the Non-Adversarial Interview; Interviewing—Eliciting
Testimony; and Interviewing—
Survivors of Torture and Other
Severe Trauma.
II.

BACKGROUND

Federal regulations require asylum officers to make reasonable
fear determinations in two types
of cases referred by other DHS officers, after a final administrative
removal order has been issued
under section 238(b) of the Immigration and Nationality Act (INA),

8 C.F.R. § 208.31;
Immigration and
Naturalization
Service, Regulations Concerning
the Convention
Against Torture,

185

or after a prior order of removal, 64 Fed. Reg. 8478
exclusion, or deportation has been (Feb. 19, 1999).
reinstated under section 241(a)(5)
of the INA. These are cases in
which an individual ordinarily is
removed without being placed in
removal proceedings before an
immigration judge.
Congress has provided for special
removal processes for certain aliens who are not eligible for any
form of relief from removal. At
the same time, however, obligations under Article 33 of the Refugee Convention relating to the
Status of Refugees and Article 3 of
the United Nations Convention
against Torture and Other Cruel,
Inhuman, or Degrading Treatment or Punishment (“Convention Against Torture”, “the Convention”, or “CAT”) still apply in
these cases. Therefore, withholding of removal under either section 241(b)(3) of the INA or under
the regulations implementing the
Convention Against Torture may
still be available in these cases.
Withholding of removal is not considered to be a form of relief from
removal, because it is specifically
limited to the country where the
individual is at risk and does not
prohibit the individual’s removal

186

from the United States to a country other than the country where
the individual is at risk.
The purpose of the reasonable
fear determination is to ensure
compliance with U.S. treaty obligations not to return a person to a
country where the person’s life or
freedom would be threatened on
account of a protected characteristic in the refugee definition, or
where person would be tortured,
and, at the same time, to adhere to
Congressional directives to subject certain categories of aliens to
streamlined removal proceedings.
Similar to credible fear determinations in expedited removal proceedings, reasonable fear determinations serve as a screening
mechanism to identify potentially
meritorious claims for further
consideration by an immigration
judge, and at the same time to prevent individuals subject to removal from delaying removal by
filing clearly unmeritorious or
frivolous claims.

These treaty obligations
are
based on Article
33 of the 1951
Convention relating to the Status of Refugees;
and Article 3 of
the Convention
the Against Torture.

187
III.

JURISDICTION

See Reasonable
Fear Procedures
Manual (Draft).
A. Reinstatement under Section 241(a)(5) of the INA
1. Reinstatement of Prior Or- INA § 241(a)(5);
der
8 C.F.R. § 241.8.
Section 241(a)(5) of the INA
requires DHS to reinstate a
prior order of exclusion, deportation, or removal, if a
person enters the United
States illegally after having
been removed, or after having left the United States after the expiration of an allotted period of voluntary departure, giving effect to an
order of exclusion, deportation, or removal.
Once a prior order has been
reinstated under this provision, the individual is not
permitted to apply for Asylum or any other relief under the INA.
However,
that person may apply for
withholding of removal under section 24l(b)(3) of the
INA (based on a threat to
life or freedom on account

188

of a protected characteristic
in the refugee definition)
and withholding of removal
or deferral of removal under
the Convention Against Torture.
There are certain restrictions on issuing a reinstatement order to people
who may qualify to apply for
NACARA 203 pursuant to
the Legal Immigration
Family Equity Act (LIFE).
The LIFE amendment provides that individuals eligible to apply for relief under
NACARA 203 and who are
otherwise eligible for relief
“shall not be barred from
applying for such relief by
operation
of
section
241(a)(5) of the Immigration
and Nationality Act.”

Langlois, Joseph
E. Implementation of Amendment to the Legal
Immigration
Family Equity
Act (LIFE) Regarding Applicability of INA Section
241(a)(5)
(Reinstatement)
to NACARA 203
Beneficiaries
(Washington,
DC:
February
22, 2001).
Pearson, Michael.
Implementation
of Amendment to
the Legal Immigration Family
Equity
Act
(LIFE) Regarding Applicability
of INA Section
24I (a)(5) (Reinstatement)
to
NACARA
203

189

Beneficiaries
(Washington,
DC:
February
23, 2001).
In all cases, section 241(a)(5)
applies retroactively to all
prior removals, regardless
of the date of the alien’s illegal reentry.
There are
other issues that may affect
the validity of a reinstated
prior order, such as questions concerning whether
the applicant’s departure
executed a final order of removal. An Asylum Prescreening Officer (APSO)
who is unsure about the validity of a reinstated prior
removal order should consult the Reasonable Fear
Procedures Manual, a supervisor, or the Headquarters
Quality
Assurance
Branch.

See FernandezVargas v. Gonzales, 548 U.S. 30
(2006).
Note:
In the
Fifth Circuit, an
individual’s departure from the
U.S. after issuance of an NTA,
but prior to the
order of removal,
does not strip an
immigration
judge of jurisdiction to order that
individual
removed; thus, that
individual can be
subject to reinstatement if previously ordered
removed
in
absentia.
See
U.S. v Ramirez­
Carcamo,
559
F.3d 384 (5th Cir.
2009).

190

2. Referral to Asylum Officer
If a person subject to rein- 8 C.F.R.
statement of a prior order of §§ 208.31(a)-(b),
removal expresses a fear of 241.8(e).
return to the intended country of removal, the DHS officer must refer the case to
an asylum officer for a reasonable fear determination,
after the prior order has
been reinstated.
3. Country of Removal
Form 1-871, Notice of Intent/Decision to Reinstate
Prior Order does not designate the country where DHS
intends to remove the alien.
Depending on which removal
order is being reinstated under INA § 241(a)(5), that order may or may not designate a country of removal.
For example, Form 1-860,
Notice and Order of Expedited Removal, does not indicate a country of removal,
but an IJ order of removal
resulting from section 240
proceedings does designate
a country of removal.
Regardless of which type of
prior order is being reinstated, DHS must indicate

191

where it proposes to remove
the alien in order for the
APSO to determine if the alien has a reasonable fear
of persecution or torture in
that particular country.
The asylum officer need only
explore the person’s fear
with respect to the countries
designated or the countries
proposed. For example, if
the applicant was previously
ordered removed to country
X, but is now claiming to be
a citizen of country Y, the
asylum officer should explore the person’s fear with
respect to both countries. If
the person expresses a fear
of return to any other country, the officer should memorialize it in the file to ensure that the fear is explored
should DHS ever contemplate removing the person to
that other country.
B. Removal Orders under Section 238(b) of the INA (based
on aggravated felony conviction)

192

1. DHS removal order
Under certain circum- INA § 238(b).
stances, DHS may issue an order ofremoval if
DHS determines that a
person is deportable under section 237(a)(2)(A)(iii)
of the INA (convicted by
final judgment of an aggravated felony after
having been admitted to
the U.S.). This means
that the person may be
removed without removal proceedings before an immigration
judge.
2. Referral to an asylum officer
8
C.F.R.
§§
208.31(a)-(b),
238.1(f )(3). Note
that regulations
require the DHS
to give notice of
the right to request withholding of removal to
a particular coun3. Country of Removal
try, if the person
The removal order under ordered removed
section 238(b) should fears persecution
designate a country of or torture in that
If a person who has been
ordered removed by DHS
pursuant to section 238(b)
of the INA expresses a
fear of persecution or
torture, that person must
be referred to an asylum
officer for a reasonable
fear determination.

193

removal, and in some country. 8 C.F.R.
cases, will designate an § 238.1(b)(2)(i).
alternative country.

IV. DEFINITION OF “REASONABLE FEAR”

Regulations define “reasona- 8 C.F.R.
ble fear of persecution or tor- § 208.31(c).
ture” as follows:
The alien shall be determined to have a reasonable
fear of persecution or torture if the alien establishes a
reasonable possibility that
he or she would be persecuted on account of his or
her race, religion, nationality, membership in a particular social group or political
opinion, or a reasonable possibility that he or she would
be tortured in the country of
removal. For purposes of
the screening determination, the bars to eligibility
for withholding of removal
under section 241(b)(3)(B) of
the Act shall not be considered.
A few points to note, which are
discussed in greater detail

194

later in the lesson, are the following:
1. The “reasonable possibility” standard is the
same standard required
to establish eligibility
for asylum (the “well­
founded fear” standard).
2. Like asylum, there is an
“on account of” requirement necessary to establish reasonable fear
of persecution: the persecution must be on account of a protected
characteristic in the refugee definition.

8 C.F.R.
§ 208.31(c); Immigration
and
Naturalization
Service, Regulations Concerning
the Convention
Against Torture,
64 Fed. Reg.
8478, 8485 (Feb.
19, 1999).

3. There is no “on account
of’ requirement necessary to establish a reasonable fear of torture.
4. Mandatory and discretionary bars are not considered in a determination of reasonable fear
of persecution or reasonable fear of torture.
V.

STANDARD OF PROOF

The standard of proof to es- See RAIO Traintablish “reasonable fear of ing
Modules,
persecution or torture” is the Well-Founded

195

“reasonable possibility” stand- Fear and
ard. This is the same stand- dence.
ard required to establish a
“well-founded fear” of persecution in the asylum context.
The “reasonable possibility”
standard is lower than the
“more likely than not standard” required to establish eligibility for withholding of removal. It is higher than the
standard of proof required to
establish a “credible fear” of
persecution.
The standard
of proof to establish a “credible fear” of persecution or torture is whether there is a significant possibility of establishing eligibility for asylum
or protection under the Convention Against Torture before an immigration judge.
Where there is disagreement
among the United States Circuit Courts of Appeal as to the
proper interpretation of a legal issue, the precedent for
the Circuit in which the applicant resides is used in determining whether the applicant
has a reasonable fear of persecution or torture. Note that
this differs from the credible

Evi-

196

fear context in which the Circuit interpretation most favorable to the applicant is
used.
VI. IDENTITY

The applicant must be able to See RAIO Traincredibly establish his or her ing Module, Refidentity by a preponderance ugee Definition.
of the evidence.
In many
cases an applicant will not
have documentary proof of
identity or nationality. However credible testimony alone
can establish identity and nationality.
Documents such
as birth certificates and passports are accepted into evidence if available. The officer may also consider information provided by Immigration and Customs Enforcement (ICE) or Customs and
Border Protection (CBP).
VII. PRIOR DETERMINATIONS ON THE MERTIS

An adjudicator or immigration judge previously may
have made a determination on
the merits of the claim. This is
most common .in the case of
an applicant who is subject to
reinstatement of a prior order. For example the appli-

197

cant may have requested asylum and withholding of removal in prior removal proceedings before an immigration judge and the immigration judge may have made a
determination on the merits
that the applicant was ineligible.
The APSO must explore the
applicant s claim according
deference to the prior determination unless there is clear
error in the prior determination. The officer should also
inquire as to whether there
are any changed circumstances
that would otherwise affect
the applicant’s eligibility.
VIII. CREDIBILITY
A. Credibility Standard

In making a reasonable
fear determination the asylum officer must evaluate
whether the applicant’s testimony is credible.
The asylum officer should
assess the credibility of
the assertions underlying
the applicant s claim, considering the totality of the

198

circumstances and all relevant factors.
The U.S. Supreme Court
has held that to properly
consider the totality of the
circumstances, “the whole
picture
. . .
must be
taken into account.” The
Board of Immigration Appeals (BIA) has interpreted this to include taking into account the whole
of the applicant’s testimony as well as the individual circumstances of
each applicant.

United States v.
Cortez, 449 U.S.
411 417 (1981).
See RAIO Training Module, Credibility; see also
Matter of B-, 21
I&N Dec. 66, 70
(BIA 1995) and
Matter of Kasinga,
21 I&N Dec. 357,
364 (BIA 1996).

B. Evaluating Credibility in a
Reasonable Fear Interview

1. General
tions

Considera- See RAIO Training
Module,
a. The asylum officer Credibility
must gather sufficient information to
determine whether
the alien has a reasonable fear of persecution or torture.
The applicant’s credibility should be
evaluated (1) only after all information is
elicited and (2) in

199

light of “the totality
of the circumstances,
and all relevant factors.”
b. The asylum officer
must remain neutral
and unbiased and
must evaluate the
record as a whole.
The asylum officer’s
personal opinions or
moral views regarding an applicant
should not affect the
officer’s decision.
c. The applicant’s ability or inability to
provide detailed descriptions of the
main points of the
claim is critical to
the credibility evaluation. The applicant’s
willingness
and ability to provide those descriptions may be directly
related to the asylum
officer’s skill at placing the applicant at
ease and eliciting all
the information necessary to make a

200

proper
decision.
An asylum officer
should be cognizant
of the fact that an applicant’s ability to
provide such descriptions may be
impacted by the context and nature of
the reasonable fear
screening process.
2. Properly Identifying
and Probing Credibility Concerns During
the Reasonable Fear
Interview
a. Identifying Credibility Concerns
In making this determination, the asylum officer should
take into account the
same factors considered in evaluating
credibility in the affirmative
asylum
context, which are
discussed in the
RAIO
Modules:
Credibility and Evidence.

201

Section 208 of the
Act provides a nonexhaustive list of factors that may be
used in a credibility
determination in the
asylum
context.
These include: internal consistency, external consistency,
plausibility,
demeanor, candor, and
responsiveness.
The amount of detail
provided by an applicant is another factor that should be
considered in making a credibility determination. In order to rely on “lack
of detail” as a credibility factor, however, asylum officers
must pose questions
regarding the type
of detail sought.
While demeanor, candor, responsiveness,
and detail provided
are to be taken into
account in the reasonable fear context

202

when making a credibility
determination, an adjudicator
must take into account cross-cultural
factors, effects of
trauma, and the nature of the reasonable fear interview
process—including
detention, relatively
brief and often telephonic interviews,
etc.—when evaluating these factors in
the reasonable fear
context.
b. Informing the Applicant of the Concern and Giving the
Applicant an Opportunity to Explain
When
credibility
concerns
present
themselves during
the course of the reasonable fear interview, the applicant
must be given an opportunity to address
and explain them.
The asylum officer
must follow up on all

203

credibility concerns
by making the applicant aware of each
portion of the testimony, or his or her
conduct, that raises
credibility concerns,
and the reasons the
applicant’s credibility is in question.
The asylum officer
must clearly record
in the interview notes
the questions used to
inform the applicant
of any relevant credibility issues, and the
applicant’s responses
to those questions.
C.

Assessing Credibility in Reasonable Fear when Making a Reasonable Fear Determination

1. In assessing credibility, the
officer must consider the
totality of the circumstances and all relevant factors.

See also RAIO
Training Module,
InterviewingSurvivors of Torture;
RAIO
Training Module,
InterviewingWorking with an
Interpreter.

2. When considering the totality of the circumstances in
determining whether the
assertions underlying the
applicants claim are credi- Asylum officers
ble, the following factors must ensure that
must be considered as they

204

may impact an applicant’s persons with pobiases
ability to present his or her tential
claim:
against
appli(i) trauma the applicant cants on the
grounds of race,
has endured;
religion, nation(ii) passage of a signifi- ality,
membercant amount of time ship in a particusince the described lar social group,
events occurred;
or political opin(iii) certain cultural fac- ion are not used
tors, and the chal- as interpreters.
Internalenges inherent in See
tional
Religious
cross-cultural commuFreedom Act of
nication;
1998, 22 U.S.C. §
(iv) detention of the appli- 6473(a);
RAIO
cant;
Training Module,
(v) problems between the IRFA (Internainterpreter and the tional Religious
applicant,
including Freedom Act).
problems
resulting
from differences in dialect or accent, ethnic
or class differences, or
other differences that
may affect the objectivity of the interpreter or the applicant’s comfort level;
and unfamiliarity with
speakerphone technology, the use of an in-

205

terpreter the applicant cannot see, or
the use of an interpreter that the applicant does not know
personally.
3. The asylum officer must
have followed up on all
credibility concerns during
the interview by making the
applicant aware of each
concern, and the reasons
the applicant’s testimony is
in question. The applicant
must have been given an
opportunity to address and
explain all such concerns
during the reasonable interview.
4. Generally, trivial or minor
credibility concerns in and
of themselves will not be
sufficient to find an applicant not credible.
Nonetheless, on occasion
such credibility concerns
may be sufficient to support
a negative reasonable fear
determination considering
the totality of the circumstances and all relevant factors.
Such concerns
should only be the basis of a

206

negative determination if
the officer attempted to
elicit sufficient testimony,
and the concerns were not
adequately resolved by the
applicant during the reasonable fear interview.
5. The officer should compare
the applicant’s testimony
with any prior testimony
and consider any prior
credibility findings.
The
individual previously may
have provided testimony
regarding his or her claim
in the context of an asylum
or withholding of removal
application. For example,
the applicant may have requested asylum and withholding of removal in prior
removal proceedings before
an immigration judge, and
the immigration judge may
have made a determination
that the claim was or was
not credible.
It is important that the asylum
officer ask the individual
about any inconsistencies
between prior testimony
and the testimony provided

207

at the reasonable fear interview.
In any case in which the
asylum officer’s credibility
determination differs from
the credibility determination previously reached by
another adjudicator on the
same allegations, the asylum officer must provide a
sound explanation and support for the different finding.
6. All reasonable explanations
must be considered when
assessing the applicant’s
credibility.
The asylum
officer need not credit an unreasonable explanation.
If, after providing the applicant with an opportunity
to explain or resolve any
credibility concerns, the officer finds that the applicant has provided a reasonable explanation, a positive
credibility determination
may be appropriate when
considering the totality of
the circumstances and all
relevant factors.

208

If, however, after providing
the applicant with an opportunity to explain or resolve any credibility concerns, the applicant fails to
provide an explanation, or
the officer finds that the applicant did not provide a
reasonable explanation, a
negative credibility determination based upon the totality of the circumstances
and all relevant factors will
generally be appropriate.
D.

Documenting a Credibility Determination

1. The asylum officer must
clearly record in the interview notes the questions
used to inform the applicant
of any relevant credibility
issues, and the applicant’s
responses to those questions.
2. The officer must specify in
the written case analysis
the basis for the negative
credibility finding. In the
negative credibility context, the officer must note
any portions of the testimony found not credible, including the specific inconsistencies, lack of detail or

209

other factors, along with
the applicant’s explanation
and the reason the explanation is deemed not to be
reasonable.
3. If information that impugns
the applicant’s testimony
becomes available after the
interview but prior to serving the reasonable fear determination, a follow-up interview must be scheduled
to confront the applicant
with the derogatory information and to provide the
applicant with an opportunity to address the adverse information. Unresolved credibility issues
should not form the basis of
a negative credibility determination.
IX. ESTABLISIDNG A REASONABLE FEAR OF
PERSECUTION

To establish a reasonable fear
of persecution, the applicant
must show that there is a reasonable possibility he or she
will suffer persecution on account of race, religion, nationality, membership in a particular social group, or political
opinion. As explained above,

210

this is the same standard asylum officers use in evaluating
whether an applicant is eligible for asylum.
However,
the reasonable fear standard
in this context is used not as
part of an eligibility determination for asylum, but rather
as a screening mechanism to
determine whether an individual may be able to establish eligibility for withholding of removal in Immigration Court.
In contrast to an asylum adjudication, the APSO may not
exercise discretion in making
a positive or negative reasonable fear determination and
may not consider the applicability of any mandatory bars
that may apply if the applicant
is permitted to apply for withholding of removal before the
immigration judge.
A. Persecution

The harm the applicant fears
must constitute persecution.
The determination of whether
the harm constitutes persecution for purposes of the
reasonable fear determination is no different from the

See Discussion of
“persecution” in
RAIO Training
Module, Persecution.

211

determination in the affirmative asylum context. This
means that the harm must be
serious enough to be considered persecution, as described in case law, the UNHCR Handbook, and USCIS
policy guidance. Note that
this is different from the
evaluation of persecution in
the credible fear context,
where the applicant need only
demonstrate a significant possibility that he or she could
establish that the feared
harm is serious enough to
constitute persecution.
B. Nexus to a Protected Characteristic

As in the asylum context, the 8 C.F.R.
applicant must establish that § 208.31(c).
the feared harm is on account of a protected characteristic in the refugee definition (race, religion, nationality, membership in a particular social group, or political
opinion).
This means the
applicant must provide some
evidence, direct or circumstantial, that the persecutor
is motivated to persecute the

212

applicant because the applicant possesses or is believed
to possess one or more of the
protected characteristics in
the refugee definition.
The applicant does not bear
the burden of establishing
the persecutor’s exact motivation. For cases where no
nexus to a protected ground
is immediately apparent, the
asylum officer in reasonable
fear interviews should ask
questions related to all five
grounds to ensure that no
nexus issues are overlooked.
Although the applicant bears
the burden of proof to establish a nexus between the
harm and the protected
ground, asylum officers have
an affirmative duty to elicit
all information relevant to
the nexus determination.
Evidence of motive can be either direct or circumstantial.
Reasonable inferences regarding the motivations of
persecutors should be made,
taking into consideration the
culture and patterns of persecution within the applicant’s country of origin and

213

any relevant country of origin information, especially if
the applicant is having difficulty answering questions regarding motivation.
There is no requirement that
the persecutor be motivated
only by the protected belief
of characteristic of the applicant. As long as there is
reasonable possibility that at
least one central reason motivating the persecutor is the
applicant’s possession or perceived possession of a protected characteristic, the applicant may establish the
harm is “on account of ” a protected characteristic in the
reasonable fear context.
C. Past Persecution

1. Presumption
persecution

of

future

If an applicant establishes See 8 C.F.R.
past persecution on ac- § 208.16(b)(1)(i).
count of a protected characteristic, it is presumed
that the applicant has a
reasonable fear of persecution in the future on the
basis of the original claim.
This presumption may be

214

overcome if a preponderance of the evidence establishes that,
a. there has been a fundamental change in
circumstances
such
that the applicant no
longer has a wellfounded fear of persecution, or
b. the applicant could
avoid future persecution by relocating to
another part of the
country of feared persecution and, under all
circumstances,
it
would be reasonable to
expect the applicant to
do so.
2. Severe past persecution
and other serious harm
A finding of reasonable
fear of persecution cannot
be based on past persecution alone, in the absence
of a reasonable possibility
of future persecution. A
reasonable fear of persecution may be found only
if there is a reasonable
possibility the applicant

In contrast, a
grant of asylum
may be based on
the finding that
there are compelling reasons for
the
applicant’s
unwillingness to
return
arising
from the severity

215

will be persecuted in the
future, regardless of the
severity of the past persecution or the likelihood
that the applicant will
face other serious harm
upon return. This is because withholding of removal is accorded only to
provide protection against
future persecution and
may not be granted without a likelihood of future
persecution.
As noted above, a finding
of past persecution raises
the presumption that the
applicant’s fear of future
persecution is reasonable.

of past persecution or where the
applicant establishes that there
is a reasonable
possibility that
he or she may
suffer other serious harm upon
removal to that
country, even if
there is no longer
a reasonable possibility the applicant would be
persecuted in the
future. 8 C.F.R.
§ 208.13(b)(1)(iii).

D. Internal Relocation

As in the asylum context, the
evidence must establish that
the applicant could not avoid
future persecution by relocating within the country of
feared persecution or that,
under all the circumstances,
it would be unreasonable to
expect him or her to do so.
In cases in which the persecutor is a government or is
government-sponsored, or
the applicant has established

See Discussion of
internal relocation
in RAIO Training
Module,
WellFounded Fear;
see also 8 C.F.R.
§ 208.16(b)(3).

216

persecution in the past, it
shall be presumed that internal relocation would not
be reasonable, unless DHS
establishes by a preponderance of the evidence that,
under all the circumstances,
it would be reasonable for
the applicant to relocate.
E. Mandatory Bars

Asylum officers may not
take into consideration mandatory bars to withholding
of removal when making
reasonable fear of persecution determinations.
If the asylum officer finds
that there is a reasonable
possibility the applicant
would suffer persecution on
account of a protected characteristic, the asylum officer
must refer the case to the
immigration judge, regardless of whether the person
has committed an aggravated felony, has persecuted
others, or is subject to any
other mandatory bars to
withholding of removal.

8 C.F.R.
§ 208.31(c)
See Reasonable
Fear Procedures
Manual (Draft).

217

However, during the interview the officer must develop the record fully by exploring whether the applicant may be subject to a
mandatory bar.
If the officer identifies a potential bar issue, the officer
should consult a supervisory
officer and follow procedures outlined in the Reasonable Fear Procedures
Manual on “flagging” such
information for the hearing.
The immigration judge will
consider mandatory bars in
deciding whether the applicant is eligible for withholding of removal under section
241(b)(3) of the Act or CAT.

8
C.F.R.
§§
208.16(c)(4)(d).
Please note there
are no bars to deferral of removal
under CAT.

The following mandatory
bars apply to withholding of
removal
under
section
241(b)(3)(A) for cases commenced April 1, 1997 or
INA § 241(b)(3)(B);
later:
8
C.F.R.
§§
(1) the alien ordered, in- 208.16(d)(2), (d)(3)
cited, assisted, or oth- (for applications
erwise participated in for withholding
the persecution of an in- of
deportation
dividual because of the adjudicated
in

218

individual’s race, religion, nationality, membership in a particular
social group, or political
opinion;
(2) the alien, having been
convicted by a final judgment of a particularly
serious crime, is a danger to the community of
the United States;
(3) there are serious reasons to believe that the
alien committed a serious nonpolitical crime
outside
the
United
States before the alien
arrived in the United
States;
(4) there are reasonable
grounds to believe that
the alien is a danger to
the security of the
United States (including anyone described in
subparagraph (B) or (F)
of section 212(a)(3)); or
(5) the alien is deportable
under
Section
237(a)(4)(D)
(participated in Nazi persecution, genocide, or the

proceedings commenced prior to
April 1, 1997,
mandatory denials are found
within section 243
(h)(2) of the Act
as it appeared
prior to that
date).

219

commission of any act of
torture or extrajudicial
killing. Any alien described in clause (i), (ii),
or (iii) of section
212(a)(3)(E) is deportable.)
X. CONVENTION
AGAINST
TORTURE–BACKGROUND

This section contains a background discussion of the Convention Against Torture, to
provide context to the reasonable fear of torture determinations. As a signatory
to the Convention Against
Torture the United States
has an obligation to provide
protection where there are
substantial grounds to believe that an individual would
be in danger of being subjected to torture.
Notably,
there are no bars to protection under the Convention
Against Torture. Torture is
an act universally condemned
and so repugnant to basic notions of human rights that
even individuals who are undeserving of refugee protection, will not be returned to a

220

country where they are likely
to be tortured. An overview
of the Convention Against
Torture may be found in the
RAIO Module:
International Human Rights Law.
A. U.S. Ratification of the
Convention and Implementing Legislation

The United States Senate
ratified the Convention
Against Torture on October 27, 1990. President
Clinton then deposited the
United States instrument
of ratification with the
United Nations Secretary
General on October 21,
1994, and the Convention
entered into force for the
United States thirty days
later, on November 20,
1994.
Recognizing that a treaty
is considered “law of the
land” under the United
States Constitution, the
Executive Branch took
steps to ensure that the
United States was in compliance with its treaty obli-

Similarly,
the
Department
of
State considered
whether a person
would be subject
to torture when
addressing
requests for extradition.

221

gations, even though Congress had not yet enacted
implementing legislation.
The INS adopted an informal process to evaluate
whether a person who
feared torture and was
subject to a final order of
deportation, exclusion, or
removal would be tortured
in the country to which the
person would be removed.
The United States relied
on this informal process to
ensure compliance with
Article 3 in immigration
cases until the CAT rule
was promulgated.
On October 21, 1998, President Clinton signed legislation that required the
Department of Justice to
promulgate regulations to
implement in immigration
cases the United States’
obligations under Article 3
of the Convention Against
Torture, subject to any
reservations, understandings, and declarations contained in the United States
Senate resolution to ratify
the Convention.

Section 2242(b)
of the Foreign
Affairs Reform
and Restructuring Act of 1998
(Pub. L. 105-277,
Division G, Oct.
21, 1998).

222

Pursuant to the statutory See 8 C.F.R. §§
directive, the Department 208.16-208.18.
of Justice regulations provide a mechanism for individuals fearing torture to
seek protection under Article 3 of the Convention in
immigration cases. One
of the mechanisms for protection provided in the regulations, effective March
22, 1999, is the “reasonable
fear” screening process.
B. Article 3

1. Non-Refoulement
Article 3 of the Convention provides:
No State Party shall
expel, return (“refouler”) or extradite a
person to another
State where there are
substantial grounds
for believing that he
would be in danger of
being subjected to
torture.
This provision does not
prevent the removal of
a person to a country
where he or she would

223

not be in danger of being subjected to torture. Like withholding of removal under
section 241(b)(3) of the
INA, which is based on
Article 33 of the Convention relating to the
Status of Refugees,
protection under Article 3 of the Convention
Against Torture is
country-specific.
In addition, this obligation does not prevent
the United States from
removing a person to
a country at any time
if
conditions
have
changed such that it no
longer is likely that the
individual would be tortured there.
2. U.S. Ratification Document
When ratifying the
Convention
Against
Torture, the U.S. Senate adopted a series of
reservations,
understandings and declarations, which modify the
U.S. obligations under

See 8 C.F.R. §§
208.17(d)­(f ),
208.24 for procedures for terminating withholding and deferral
of removal.

224

Article 3, as described
in the section below on
the Convention definition of torture. These
reservations,
understandings, and declarations are part of the
substantive standards
that are binding on the
United States and are
reflected in the implementing regulations.
XI. DEFINITION OF TORTURE

Torture has been defined in a
variety of documents and in
legislation unrelated to the
Convention Against Torture.
However, only an act that falls
within the definition described
in Article 1 of the Convention,
as modified by the U.S. ratification document may be considered “torture” for purposes
of making a reasonable fear of
torture determination. These
substantive standards are incorporated in the regulations
at 8 C.F.R. § 208.18(a) (1999).

See RAIO Training Module, InterviewingSurvivors of Torture and Other
Severe Trauma,
background reading
associated
with that lesson;
Alien Tort Claims
Act, codified at 28
U.S.C. § 1350.

Article 1 of the Convention See also 8 C.F.R.
§§ 208.18(a)(1),
defines torture as:
(3).

225

any act by which severe pain
or suffering, whether physical or mental, is intentionally inflicted on a person for
such purposes as obtaining
from him or a third person
information or a confession,
punishing him for an act he
or a third person has committed or is suspected of having committed, or intimidating or coercing him or a third
person, or for any reason
based on discrimination of
any kind, when such pain or
suffering is inflicted by or at
the instigation of or with the
consent or acquiescence of a
public official or other person acting in an official capacity. It does not include
pain or suffering arising
only from, inherent in or incidental to lawful sanctions.
The Senate adopted several
important “understandings”
regarding the definition of
torture, which are included in
the implementing regulations
and are discussed below. These
“understandings” are binding
on adjudicators interpreting
the definition of torture.

136 Cong. Rec.
S17429
at
S17486-92 (daily
ed. October 27,
1990); 8 C.F.R. §
208.18(a).

226
A. Identity of Torturer

The torture must be “in- Convention
flicted by or at the instiga- Against Torture,
tion of or with the consent Article 1.
or acquiescence of a public
official or other person acting in an official capacity.”
Convention
1. Public official
against Torture,
The torturer or the Article 1.
See
person who acquiesces
also Committee
in the torture must be a
on Foreign Relapublic official or other
tions
Report,
person acting in an offiConvention
cial capacity in order to Against Torture,
invoke Article 3 ConExec.
Report
vention Against Tor101-30, August
ture protection.
A
30, 1990 (hereinnon-governmental acafter “Committee
tor could be found to
Report”), p. 14;
have committed torImmigration and
ture within the meanNaturalization
ing of the Convention
Service, Regulaonly if that person intions Concerning
flicts the torture (1) at
the Convention
the instigation of, (2)
Against Torture,
with the consent of, or
64 Fed. Reg.
(3) with the acquies8478, 8483 (Feb.
cence of a public official 19, 1999); Ali v.
or other person acting
Reno, 237 F.3d
in an official capacity.
591, 597 (6th Cir.
2001).

227

The phrase “acting in
an official capacity”
modifies both “public
official” and “other
person,” such that a
public official must be
“acting in an official capacity” to satisfy the
state action element of
the torture definition.
When a public official
acts in a wholly private
capacity, outside any
context of governmental authority, the state
action element of the
torture definition is not
satisfied. On this topic,
the Second Circuit provided that, “[a]s two
of the CAT’s drafters
have noted, when it is a
public official who inflicts severe pain or
suffering, it is only in
exceptional cases that
we can expect to be
able to conclude that
the acts do not constitute torture by reason
of the official acting for
purely private reasons.”

Matter of Y-L-,
A-G-, R-S­R, 23
I&N Dec. 270
(AG 2002); Matter of S-V-, 22
I&N Dec. 1306
(BIA 2000); Matter of J-E-, 23
I&N Dec. 291
(BIA 2002)
Khouzam v. Ashcroft, 361 F.3d
161, 171 (2d Cir.
2004).

228

To determine whether
a public official is acting in a private capacity or in an official capacity, APSOs must
elicit testimony to determine whether the
public official was acting within the scope of
their authority and/or
under color of law. A
determination that the
public official is acting
under either of the
scope of their authority
or under color of law
would result in a determination that the
public official was acting “in an official capacity”.
Although the regulation does not define
“acting in an official capacity,” the Attorney
General equated the
term to mean “under
color of law” as interpreted by cases under
the civil rights act.

See Ali v. Reno,
237 F.3d 591, 597
(6th Cir. 2001);
Ahmed
v.
Mukasey,
300
Fed. Appx. 324
(5th Cir. 2008)
(unpublished).

Thus, a public official is Ramirez Peyro v.
acting in an official ca- Holder, 574 F.3d

229

pacity when “he mis- 893 (8th
uses power possessed 2009).
by virtue of law and
made possible only because he was clothed
with the authority of
law.”
To establish whether
a public official is acting in an official capacity (i.e. under the color
of law), the applicant
must establish a nexus
between the public official’s authority and the
harmful conduct inflicted on the applicant
by the public official.
The Eighth Circuit addressed “acting in an
official capacity” in its
decision in Ramirez
Peyro v. Holder. The
court indicated such an
inquiry is fact intensive
and includes considerations like “whether the
officers are on duty and
in uniform, the motivation behind the officer’s
actions and whether
the officers had access
to the victim because of

Cir.

See U.S. v. Colbert, 172 F.3d
594, 596-597 (8th
Cir 1999); West v.
Atkins, 487 U.S.
42, 49 (1988).

230

their positions, among
others.” Id.
Following
the guidance
provided
in
Ramirez
Peyro
v.
Holder, the Fifth Circuit also addressed
“acting in an official capacity” by positing “[w]e
have recognized on numerous occasions that
acts motivated by an
officer’s personal objectives are ‘under
color of law’ when the
officer uses his official
capacity to further
those objectives.” Citing directly to Ramirez
Peyro v. Holder, the
Fifth Circuit determined that “proving action in an officer’s official capacity ‘does not
require that the public
official be executing official state policy or
that the public official
be the nation’s president or some other official at the upper echelons of power. Rather
. . . the use of official
authority by low-level

Mamorato
v.
Holder, 376 Fed.
Appx. 380, 385
(5th Cir. 2010)
(unpublished).

231

officials, such a[s] police officers, can work
to place actions under
the color of law even
where they are without
state sanction.’ ”
In this context, the
court points to two published cases as examples. First, Bennett v.
Pippin, 74 F.3d 578,
589 (5th Cir. 1996), in
which the court found
“that an officer’s action
was ‘under color of
state law’
where a
sheriff raped a woman
and used his position to
ascertain when her
husband would be
home and threatened
to have her thrown in
jail if she refused.”
The Fifth Circuit compared this case to Delcambre v. Delcambre,
635 F.2d 407, 408 (5th
Cir. 1981) (per curiam),
in which the court found
“no action under color
of law where a police
chief assaulted his sisterin-law over personal

See also Miah v.
Mukasey, 519 F.
3rd 784 (8th Cir.
2008) (elected official was not acting in his official
capacity in his
rogue efforts to
take control of
others property).

232

arguments about family matters, but did not
threaten her with his
power to arrest.”
As
Marmorato
v.
Holder illustrates with
its citation to Bennett
v. Pippin, an official
need not be acting in
the scope of their authority to be acting under color of law.
See Matter of S-V-,
Int. Dec. 3430
(BIA 2000) (concurring opinion);
see also Habtemichael v. Ashcroft, 370 F.3d
774 (8th Cir.
2004) (remanding
for agency determination as to the
extent of the Eritrean
People’s
Liberation Front’s
(EPLF) control
over parts of
Ethiopia during
the period when
2. Acquiescence
the applicant was
When the “torturer” is conscripted
by
not a public official or the
EPLF);
It is unsettled whether
an organization that
exercises power on behalf of the people subjected to its jurisdiction, as in the case of a
rebel force which controls a sizable portion
of a country, would be
viewed as a “government actor.” It would
be necessary to look at
factors such as how
much of the country is
under the control of the
rebel force and the
level of that control.

233

other individual acting
in an official capacity, a
claim under the Convention Against Torture only arises if a
public official or other
person acting in an official capacity instigates,
consents, or acquiesces
to the torture.

D-Muhumed v.
U.S. Atty. Gen.,
388 F.3d 814
(11th Cir. 2004)
(denying protection under CAT
because “Somalia
currently has no
central government, and the
clans who control
various sections
of the country do
so through continued warfare
and not through
official power.”);
but see the Committee Against
Torture decision
in Elmi v. Australia,
Comm.
No.
120/1998
(1998)
(finding
that warring factions in Somalia
fall within the
phrase “public official(s) or other
person(s) acting
in an official capacity).
Note
that the United

234

Nations Committee Against Torture a monitoring
body for the
implementation
and observance
of the Convention
Against Torture.
The U.S. recognizes the Committee, but does
not recognize its
competence
to
consider cases.
The BIA considers the Committee’s opinions to
be advisory only.
See Matter of
S-V-, I&N Dec.
22 I&N Dec.
1306, 1313 n.1
(BIA 2000).
A public official cannot 8
C.F.R.
be said to have “acqui- 208.18(a)(7).
esced” in torture unless, prior to the activity constituting torture, the official was
“aware” of such activity
and
thereafter
breached a legal re-

§

235

sponsibility to intervene to prevent the activity.
The Senate ratification
history explains that
the term “awareness”
was used to clarify that
government acquiescence may be established by evidence of
either actual knowledge or willful blindness.
“Willful blindness” imputes knowledge to a government
official who has a duty
to prevent misconduct
and “deliberately closes
his eyes to what would
otherwise have been
obvious to him.”

136 Cong. Rec. at
S17, 491-2 (daily
ed. October 27,
1990); Committee
Report (Aug. 30,
1990), p. 9; see
also S. Hrg 101718 (July 30,
1990), Statement
of Mark Richard,
Dep. Asst. Attorney
General,
DOJ
Criminal
Division, at 14.

In addressing the mean- Matter of S-V-,
ing of acquiescence as Int. Dec. 3430
it relates to fear of Co- (BIA 2000).
lombian guerrillas, paramilitaries and narco­
traffickers who were
not attached to the government, the Board of
Immigration Appeals
(BIA) indicated that
more than awareness
or inability to control is

236

required.
The BIA
held that for acquiescence to take place the
government
officials
must be “willfully accepting” of the torturous activity of the
non-governmental actor.
Several federal circuit
courts of appeals have
rejected the BIA’s “willful acceptance” phrase
in favor of the more
precise “willful blindness” language that appears in the Senate’s
ratification history.
For purposes of threshold reasonable fear
screenings, asylum officers must use the willful blindness standard.

Pieschacon-Villegas v. Att’y Gen.
of U.S., 671 F.3d
303
(3d
Cir.
2011); Hakim v.
Holder, 628 F.3d
151 (5th Cir.
2010); AguilarRamos v. Holder,
594 F.3d 701, 706
(9th Cir. 2010);
Diaz v. Holder,
2012 WL 5359295
(10th Cir. 2012)
(unpublished);
Silva-Rengifo v.
Atty. Gen. of
U.S., 473 F.3d 58,
70 (3d Cir. 2007);
Khouzam v. Ashcroft, 361 F.3d
161 (2d Cir. 2004);
Lopez-Soto
v.
Ashcroft,
383
F.3d 228, 240 (4th

237

Cir. 2004); Azanor v. Aschcroft,
364 F.3d 1013
(9th Cir. 2004);
Amir v. Gonzales, 467 F.3d 921,
922 (6th Cir.
2006); Zheng v.
Ashcroft,
332
F.3d 1186 (9th Cir.
2003); OntunezTurcios v. Ashcroft, 303 F.3d
341, 354-55 (5th
Cir. 2002); Ali v.
Reno, 237 F.3d
591, 597 (6th Cir.
2001).
The United States Circuit Court of Appeals
for the Ninth Circuit
ruled that the correct
inquiry concerning the
acquiescence of a state
actor is “whether a respondent can show that
public officials demonstrate willful blindness
to the torture of their
citizens.” The court rejected the notion that
acquiescence requires
a public official’s “actual knowledge” and

Zheng v. INS,
332 F.3d 1186
(9th Cir. 2003).
Azanor v. Ashcroft, 364 F.3d
1013, 1020 (9th
Cir. 2004).

238

“willful
acceptance.”
The Ninth Circuit subsequently reaffirmed
that the state actor’s
acquiescence to the torture must be “knowing,” whether through
actual knowledge or
imputed
knowledge
(“willful
blindness”).
Both
forms
of
knowledge constitute
“awareness.”
The United States Circuit Court of Appeals
for the Second Circuit
agreed with the Ninth
Circuit approach on the
issue of acquiescence of
government officials,
stating “torture requires only that government officials know
of or remain willfully
blind to act and thereafter breach their legal
responsibility to prevent it.”
a. Relevance of a government’s ability
to control a non­
governmental en-

Khouzam v. Ashcroft, 361 F.3d
161, 171 (2d Cir.
2004)
(finding
that even if the
Egyptian police
who would carry
out the abuse
were not acting
in an official capacity, “the ‘routine’ nature of
the torture and
its connection to
the criminal justice system supply ample evidence that higherlevel officials either know of the
torture or remain

239

tity from engag- willfully blind to
ing in acts of tor- the torture and
ture
breach their legal responsibility
to prevent it”).
The requirement that Pieschacon v. Atthe torture be inflicted torney General,
by or at the instigation, 671 F.3d 303 (3d
or with the consent or Cir. 2011) (quotacquiescence of a pub- ing from Silvalic official or other per- Rengifo v. Att’y
son acting in an official Gen. of U.S., 473
capacity is distinct F.3d 58, 65 (3d
from the “unable or un- Cir. 2007)); see
willing to protect” stand- also Gomez v.
ard used in the defini- Gonzales,
447
tion of “refugee”.
F.3d 343 (C.A.5,
ReyesAlthough a govern- 2006);
Sanchez
v.
U.S.
ment’s ability to control a particular group Atty. Gen., 369
1239
may be relevant to an F.3d
2004)
inquiry into govern- (C.A.11,
(“That
the
police
mental
acquiescence
under CAT, that in- did not catch the
quiry does not turn on culprits does not
a government’s ability mean that they
to control persons or acquiesced in the
groups engaged in tor- harm.”).
turous activity.
In De La Rosa v.
Holder the Second Cir- De La. Rosa v.
cuit stated “it is not Holder, 598 F.3d
clear to this Court why 103 (2d Cir. 2010).

240

the preventative efforts of some government actors should
foreclose the possibility of government acquiescence, as a matter
of law, under the CAT.
Where a government
contains officials that
would be complicit in
torture, and that government, on the whole,
is admittedly incapable
of actually preventing
that torture, the fact
that some officials take
action to prevent the
torture would seem
neither
inconsistent
with a finding of government acquiescence
nor necessarily responsive to the question of
whether torture would
be “inflicted by or at
the instigation of or
with the consent or acquiescence of a public
official or other person
acting in an official capacity.”
In a similar case, the PieschaconThird Circuit reman- Villegas v. Attorney General, 671

241

ded to the BIA, indicating that the fact that
the government of Colombia was engaged in
war against the FARC,
it did not in itself establish that it could not be
consenting or acquiescing to torture by members of the FARC.

F.3d 303 (3d Cir.
2011); Gomez-Zuluaga v. Attorney
General,
527
F.3d 330 (3d Cir.
2008).

Evidence that private
actors have general
support, without more,
in some sectors of the Ontunez-Tursios;
government may be in- 303 F.3d 341 (5th
sufficient to establish Cir. 2002).
that the officials would
acquiesce to torture
by the private actors.
Thus,
a Honduran
peasant and land reform activist who testified to fearing severe
harm by a group of
landowners did not
demonstrate that government officials would
turn a blind eye if he
were tortured simply
because they had ties
to the landowners.

242

There is no acquiescence when law enforcement does not
breach a legal responsibility to intervene to
prevent torture. For
example, in Ali v.
Reno, the Danish po- Ali v. Reno, 237
lice arrested and incar- F.3d 591, 598 (6th
cerated the male rela- Cir. 2001).
tives of a domestic violence
victim
while
charges against them
were pending.
Only
after the victim requested that the male
relatives not be punished were they released.
In the context of government consent or
acquiescence, the court
in Ramirez-Peyro v.
Holder reiterated its 574 F.3d 893, 901
prior
holding
that (8th Cir. 2009).
“[u]se of official authority by low level officials, such a police officers, can work to
place actions under the
color of law even when
they act without state
sanction.”

243

Therefore, even if country conditions show that
a national government
is fighting against corruption, that fact may
not mean there is no acquiescence/consent by
a local public official to
torture. The Fifth Circuit visited this issue in
Marmorato v. Holder,
in which the court found
that the immigration
judge misinterpreted
“in official capacity”
when it found that the
consent or acquiescence standard could
never be satisfied in a
country like Italy, but
only in nations with
“rogue governments”
with “no regard for human rights or civil
rights. The Fifth Circuit rejected “any notion that a petitioner’s
entitlement to relief
depends upon whether
his country of removal
could be included on
some hypothetical list
of ‘rogue’ nations.”

244

See Sevoian v.
Ashcroft,
290
F.3d 166 (3d Cir.
2002)
(finding
that there is no
“acquiescence” to
torture unless officials
know
1. A public official would about the torture
have prior knowledge before it occurs).
or would willfully turn
a blind eye to avoid gaining knowledge of the
potential activity constituting torture; and
The Convention Against
Torture is designed to
protect against future
instances of torture.
Therefore, the asylum
officer should consider
whether there is a reasonable possibility that:

2. The public official would
breach a legal duty to
intervene to prevent
such activity.
Evidence of how an official or officials have
acted in the past (toward the applicant or
others similarly situated) may shed light on
how the official or officials may act in the future. “Official as well
as unofficial country
reports are probative
evidence and can, by
themselves,
provide

Zubeda v. Ashcroft, 333 F.3d
463
(3d
Cir.
2003).

245

sufficient proof to sustain an alien’s burden
under the INA .”
B. Torturer’s Custody or Control
over Individual

The definition of torture applies only to acts directed against
persons in the offender’s custody or physical control.

8
C.F.R.
§
208.18(a)(6);
Committee Report, p. 9 (Aug.
30, 1990).

The United States Circuit
Court of Appeals for the
Ninth Circuit held that an applicant need not demonstrate
that he or she would likely
face torture while in a public
official’s custody or physical
control. It is enough that the
alien would likely face torture
while under private individuals’ exclusive custody or control if such torture were to
take place with consent or acquiescence of a public official
or other individual acting in
an official capacity.

Reyes-Reyes v.
Ashcroft,
384
F.3d 782 (9th Cir.
2004); Azanor v.
Ashcroft,
364
F.3d 1013, 1019
(9th Cir. 2004).

For example, the Seventh Circuit has posited in dictum
that “[p]robably more often
than not the victim of a murder is within the murderer’s
physical control for at least a

Comollari
v.
Ashcroft,
378
F.3d 694, 697 (7th
Cir. 2004).

246

short time before the actual
killing . . . ” However,
the court provided “that would
not be true if for example the
murderer were a sniper or a
car bomber”.
Pre-custodial police operations or military combat operations are outside the scope of
Convention protection.
Establishing whether the act
of torture may occur while in
the offender’s custody or physical control is very fact specific and in practicality it is
very difficult to establish.
While the applicant bears the
burden of establishing “custody or physical control”, the
burden must be a reasonable
one and this element may be
established solely by circumstantial evidence.
While the law is unsettled as
to the meaning of “in the offender’s custody or physical
control”, when considering this
element, APSOs must give applicants the benefit of doubt.

247

For an act to constitute torture, it must be specifically intended to inflict severe physical or mental pain or suffering. An intentional act that
results in unanticipated and
unintended severity of pain is
not torture under the Convention definition.

8
C.F.R.
§§
208.18(a)(1), (5);
Auguste v. Ridge,
395 F.3d 123, 146
(3d Cir. 2005);
136 Cong. Rec. at
S17, 491-2 (daily
ed. October 27,
1990). See Committee
Report,
pp 14, 16.

Where the evidence shows
that an applicant may be specifically targeted for punishment that may rise to the level
of torture, the harm the applicant faces is specifically intended.

Kang v. Att’y
Gen. of the U.S.,
611 F.3d 157 (3d
Cir. 2010) (distinguishing the facts
from those in Auguste v. Ridge).

C. Specific Intent

However an act of legitimate
self-defense or defense of others would not constitute torture.
Matter of J-E-,
23 I&N Dec. 291,
300-01
(BIA
2002); but see
Matter of G­A-,
23 I&N Dec. 366,
372 (BIA 2002)
(finding
that
For example, in Matter of J-Ewhere deliberate
the BIA considered a request
acts of torture
Also, harm resulting from
poor prison conditions generally will not constitute torture
when such conditions were
not intended to inflict severe
physical or mental pain or suffering.

248

for protection under the Convention Against Torture by a
Haitian national who claimed
that upon his removal to Haiti,
as a criminal deportee, he would
be detained indefinitely in
substandard prison conditions
by Haitian authorities. The
BIA found that such treatment does not amount to torture where there is no evidence that the authorities are
“intentionally and deliberately maintaining such prison
conditions in order to inflict
torture.”
Like other elements of the reasonable fear
of torture analysis, the evidence establishing specific intent can be circumstantial.
It is important to analyze the
specific facts of each case in
order to accurately determine
the specific intent element.
For example, in a case that
was very similar to the facts in
Matter of J-E-, the Eleventh
Circuit directed the BIA to
consider whether a Haitian
criminal deportee, who was
mentally ill and infected with
the AIDS virus satisfied the
specific intent element where

are pervasive and
widespread and
where authorities
use torture as a
matter of policy,
the specific intent requirement
can be satisfied);
see also Settenda
v. Ashcroft, 377
F.3d 89 (1st Cir.
2004); Elien v.
Ashcroft,
364
F.3d 392 (1st Cir.
2004); Cadet v.
Bulger, 377 F.3d
1173 (11th Cir.
2004).

v.
Jean-Pierre
U.S.
Attorney
General,
500
F.3d 1315 (11th
Cir. 2007).

249

there was evidence that mentally ill detainees with HIV
are singled out for forms of
punishment that included earboxing (being slapped simultaneously on both ears), beatings with metal rods, and confinement to crawl spaces where
detainees cannot stand up was
eligible for withholding of removal under the CAT. In
distinguishing the facts from
Matter of J-E-, the court
stated that in J-E-, the petitioner did not establish that
he would be individually and
intentionally singled out for
harsh treatment and only produced evidence of generalized
mistreatment and isolated instances of torture.
Note that, in contrast, when
determining asylum eligibility, there is no requirement of
specific intent to inflict harm
to establish that an act constitutes persecution: “requiring an alien to establish the
specific intent of his/her persecutors could impose insurmountable obstacles to affording the very protections the
community of nations sought

See Matter of
Kasinga, 21 I&N
Dec. 357 (BIA
1996);
Pitcherskaia v. INS,
118 F.3d 641 (9th
Cir. 1997).
Zubeda v. Ashcroft, 333 F.3d
463
(3d
Cir.
2003).

250

to guarantee under the Convention Against Torture.”
1. Reasons
flicted

torture

is

in-

The Convention definition
provides a non-exhaustive
list of possible reasons torture may be inflicted. The
definition states that torture is an act that inflicts
severe pain or suffering on
a person for such purposes
8
C.F.R.
as:
208.18(a)(1).
a. obtaining from him or a
third person information or a confession,

§

b. punishing him for an
act he or a third person
has committed or is
suspected of having
committed,
c. intimidating or coercing him or a third person, or
d. for any reason based on Note:
All disdiscrimination of any crimination is not
kind
torture.
2. No nexus to protected characteristic required.
Unlike the non-return (nonrefoulment) obligation in

251

the Convention relating to
the Status of Refugees, the
Convention Against Torture does not require that
the torture be connected
to any of the five protected
characteristics identified
in the definition of a refugee, or any other characteristic the individual possesses or is perceived to
possess.
D. Degree of Harm

“Torture” requires severe
pain or suffering, whether
physical or mental. Torture”
is an extreme form of cruel
and inhuman treatment and
does not include lesser forms
of cruel, inhuman or degrading treatment or punishment
that do not amount to torture.

8
C.F.R.
208.18(a)(1).

§

8 C.F.R.
208.18(a)(2).

§

See Matter of J-E-,
23 I&N Dec. 291
(BIA 2002) (citing to Ireland v.
United
Kingdom, 2 Eur. Ct.
H.R. 25 (1978)
(discussing the
severe nature of
torture)).

The Report of the Committee
on Foreign Relations, accom- Committee
panying the transmission of port, p. 13.
the Convention to the Senate
for ratification, explained:

Re-

252

The requirement that torture be an extreme form of
cruel and inhuman treatment is expressed in Article
16, which refers to “other
acts of cruel, inhuman or degrading treatment or punishment which do not
amount to torture. . . . ”
The negotiating history indicates that the underlined
portion of this description
was adopted in order to emphasize that torture is at the
extreme end of cruel, inhuman and degrading treatment or punishment and
that Article 1 should be construed with this in mind.
See,
RAIO
Training Module,
InterviewingSurvivors of Torture and other
Severe Trauma,
Types of harm that may be
section Forms of
considered torture include,
Torture.
but are not limited to the following:
Therefore, certain forms of
harm that may be considered
persecution may not be considered severe enough to
amount to torture.

1. rape and other severe sex- Zubeda v. Ashcroft, 333 F.3d
ual violence;
463, 472 (3d Cir.
2003).

253

2. application of electric
shocks to sensitive parts of
the body;
3. sustained, systematic beating;
4. burning;
5. forcing the body into posi- Matter of G-A-,
tions that cause extreme 23 I&N Dec. 366,
pain, such as contorted po- 372 (BIA 2002).
sitions,
hanging,
or
stretching the body beyond normal capacity;
6. forced non-therapeutic administration of drugs; and
7. severe mental pain and
suffering.
Any harm must be evaluated
on a case-by-case basis to determine whether it constitutes
torture.
In some cases,
whether the harm above constitutes torture will depend
upon its severity and cumulative effect.
The BIA in Matter of G-A- Matter of G-A-,
held that treatment that in- 23 I&N Dec. 366,
cluded “suspension for long 370 (BIA 2002).
periods in contorted positions,
burning with cigarettes, sleep
deprivation, and . . . severe and repeated beatings

254

with cables or other instruments on the back and on the
soles of the feet . . . beatings about the ears, resulting
in partial or complete deafness, and punching in the
eyes, leading to partial or complete blindness” when intentionally and deliberately inflicted constitutes torture.
8
C.F.R.
§
208.18(a)(4); 136
For mental pain or suffering
Cong. Rec. at
to constitute torture, the menS17, 491-2 (daily
tal pain must be prolonged
ed. Oct. 27, 1990).
mental harm caused by or resulting from:
E. Mental Pain or Suffering

a. The intentional inflic-

tion or threatened infliction of severe physical pain or suffering;

b. The administration or

application, or threatened administration or
application, of mind altering substances or
other procedures calculated to disrupt profoundly the senses or
the personality;

c. The threat of imminent

death; or

255
d. The threat that an-

other person will imminently be subjected to
death, severe physical
pain or suffering, or
the administration or
application of mind altering substances or
other procedures calculated to disrupt profoundly the senses or
personality.

F. Lawful Sanctions

Article 1 of the Convention 8
C.F.R.
provides that pain or suffer- 208.18(a)(3).
ing “arising only from, inherent in or incidental to lawful
sanctions” does not constitute
torture.
8. Definition of lawful sanc8 C.F.R.
tions
208.18(a)(3).
“Lawful sanctions include
judicially imposed sanctions and other enforcement actions authorized
by law, including the death
penalty, but do not include
sanctions that defeat the
object and purpose of the
Convention Against Torture to prohibit torture.”

§

§

256

The supplementary information published with the
implementing regulations
explains that this provision
“does not require that, in
order to come within the
exception, an action must
be one that would be authorized by United States
law. It must, however, be
legitimate, in the sense
that a State cannot defeat
the purpose of the Convention to prohibit torture.”
Note that “lawful sanctions” do not include the
intentional infliction of severe mental or physical
pain during interrogation
or incarceration after an
arrest that is otherwise
based upon legitimate law
enforcement
considerations.

Immigration and
Naturalization
Service, Regulations Concerning
the Convention
Against Torture,
64 Fed. Reg. 8478
(Feb. 19, 1999).

See 8 CFR §
208.18; Khouzam
v. Ashcroft, 361
F.3d 161 (2d Cir.
2004).

9. Sanctions cannot be used
to circumvent the Convention
A State Party cannot
through its domestic sanctions defeat the object and
purpose of the Convention
to prohibit torture.
In
other words, the fact

8 C.F.R.
§
208.18(a)(3); 136
Cong. Rec. at
S17, 491-2 (daily
ed. Oct. 27, 1990).

257

that a country’s law allows
a particular act does not
preclude a finding that the
act constitutes torture.
Example: A State Party’s
law permits use of electric
shocks to elicit information during interrogation. The fact that such
treatment is formally permitted by law does not exclude it from the definition
of torture.
10. Failure to comply with legal procedures
Failure to comply with apC.F.R.
plicable legal procedural 8
rules in imposing sanc- 208.18(a)(8).
tions does not per se
amount to torture.

§

11. Death penalty
The Senate’s ratification 136 Cong. Rec. at
resolution expresses the S17, 491-2 (daily
“understanding” that the ed. Oct. 27, 1990).
Convention Against Torture does not prohibit the
United States from applying the death penalty consistent with the Fifth,
Eighth and/or Fourteenth
Amendments to the Constitution.

258

The supplementary infor- Immigration and
mation to the implement- Naturalization
ing regulations explains,
Service, Regula“The
understanding tions Concerning
does not mean
. . . the Convention
that any imposition of Against Torture,
the death penalty by a 64 Fed. Reg.
8482-83
foreign state that fails 8478,
to satisfy United States (Feb. 19, 1999).
constitutional requirements constitutes torture. Any analysis of
whether the death penalty is torture in a specific case would be subject to all requirements
of the Convention’s definition, the Senate’s reservations, understandings, and declarations,
and the regulatory definitions. Thus, even if
imposition of the death
penalty would be inconsistent with United
States
constitutional
standards, it would not
be torture if it were imposed in a legitimate
manner to punish violations of law. Similarly, it
would not be torture if
it failed to meet any

259

other element of the definition of torture.”
XII. ESTABLISHING A REASONABLE FEAR OF TORTURE

C.F.R.
§§
To establish a reasonable 8
208.31(c),
208.18(a).
fear of torture, the applicant
must show that there is a reasonable possibility the applicant would be subject to torture, as defined in the Convention Against Torture, subject to the reservations, understandings, declarations,
and provisos contained in the
United States Senate resolution of ratification of the Convention.
A. Torture

In evaluating whether an
applicant has established
a reasonable fear of torture, the asylum officer
must address each of the
elements in the torture
definition and determine
whether there is a reasonable possibility that each
element is satisfied.
1. Severity
harm

of

feared

260

Is there a reasonable
possibility the applicant will suffer severe
pain and suffering?
If the feared harm is
mental suffering, does
it meet each of the requirements listed in
the Senate “understandings,” as reflected in the regulations?
2. State action
Is there a reasonable
possibility the pain or
suffering would be inflicted by or at the instigation of a public official or other person
acting in an official capacity?
If not, is there a reasonable possibility the
pain or suffering would
be inflicted with the
consent or acquiescence of a public official or other person
acting in an official capacity?
3. Custody or physical
control

261

Is there a reasonable
possibility the feared
harm would be inflicted while the applicant is in the custody
or physical control of
the offender?
4. Specific intent
Is there a reasonable
possibility the feared
harm would be specifically intended by the
offender to inflict severe physical or mental pain or suffering?
5. Lawful sanctions
Is there a reasonable
possibility the feared
harm would not arise
only from, would not
be inherent in, and
would not be incidental to, lawful sanctions?
If the feared harm
arises from, is inherent in, or is incidental
to, lawful sanctions, is
there a reasonable
possibility the sanctions would defeat the

262

object and purpose of
the Convention?
B. No Nexus Requirement

There is no requirement that
the feared torture be on account of a protected characteristic in the refugee definition. While there is a “specific intent” requirement that
the harm be intended to inflict
severe pain or suffering, the
reasons motivating the offender to inflict such pain or
suffering need not be on account of a protected characteristic of the victim.
Rather, the Convention defi- See Committee
nition provides a non-exhaus- Report, p. 14.
tive list of possible reasons
the torture may be inflicted,
as described in section IX.C.
above. The use of the modifier “for such purposes” indicates that this is a non-exhaustive list, and that severe
pain and suffering inflicted for
other reasons may also constitute torture.
Note that the reasons for See Sevoian v.
290
which a government has in- Ashcroft,
flicted torture on individuals F.3d 166 (3d Cir.
(finding
in the past may be important 2002)
that the BIA did

263

in determining whether the not abuse its disgovernment is likely to tor- cretion in denyture the applicant.
ing a motion to
reopen to consider a Convention claim when
country
conditions
indicate
that the government in question
usually uses torture to extract
confessions or in
politically-sensitive cases and
there is no reason
to believe that
the
applicant
falls into either
category).
C. Past Torture

Unlike a finding of past persecution, a finding that an applicant suffered torture in the
past does not raise a presumption that it is more likely than
not the applicant will be subject to torture in the future.
However, regulations
require that any past torture
be considered in evaluating
whether the applicant is likely

Immigration and
Naturalization
Service, Regulations Concerning
the Convention
Against Torture,
64 Fed. Reg.
8478, 8480 (Feb.
19,
1999);
8
C.F.R.
§
208.16(c)(3).

264

to be tortured, because an applicant’s experience of past
torture may be probative of
approach
whether the applicant would be This
subject to torture in the future. governs only the
reasonable fear
However, for purposes of the screening and is
reasonable fear screening, not applicable to
which requires a lower standthe actual eligiard of proof than is required bility determinafor withholding of removal, tion for withholdthat an applicant who dem- ing under the
onstrates that he or she has
Convention
been tortured in the past
Against Torture.
should generally be found to
See
Abdelhave met his or her burden of
Masieh v. INS,
establishing a reasonable pos73 F.3d 579, 584
sibility of torture in the future, (5th Cir. 1996)
absent evidence to the con(past actions do
trary.
not create “an
Conversely, past harm that outer limit” on
does not rise to the level of tor- the government’s
ture does not mean that tor- future
actions
ture will not occur in the fu- against an inditure, especially in countries vidual).
were torture is widespread.
D. Internal Relocation

Regulations require the immi- 8
C.F.R.
§
gration judge to consider evi- 1208.16(c)(3)(ii).
dence that the applicant could
relocate to another part of the
country of removal where he or
she is not likely to be tortured,

265

in assessing whether the applicant can establish that it is
more likely than not that he or
she would be tortured. Therefore, asylum officers should
consider whether or not the applicant could safely relocate to
another part of his or her country in assessing whether there
is a reasonable possibility that
he or she would be tortured.
Under the Convention Against
Torture, the burden is on the applicant to show that it is more
likely than not that he or she
will be tortured, and one of the
relevant considerations is the
possibility of relocation. In
deciding whether the applicant
has satisfied his or her burden,
the adjudicator must consider
all relevant evidence, including
but not limited to the possibility of relocation within the country of removal.

8
C.F.R.
§§
208.16(c)(2), (3)(ii).
Maldonado
v.
Holder, 786 F.3d
1155, (9th Cir.
2015) (overruling
Hassan v. Ashcroft, 380 F.3d
1114 (9th Cir.
2004) (“Section
1208.16(c)(2)
does not place a
burden on an applicant to demonstrate that relocation within the
proposed country
of removal is impossible because
the IJ must consider all relevant
evidence; no one

266

factor is determinative.
. . .
Nor do the regulations shift the
burden to the
government because they state
that the applicant
carries the overall burden of
proof.”)
Credible evidence that the
feared torturer is a public official will normally be sufficient
evidence that there is no safe
internal relocation option in
the reasonable fear context.
Unlike the persecution context, the regulations implementing CAT do not explicitly
reference the need to evaluate
the reasonableness of internal
relocation. Nonetheless, the
regulations provide that “all
evidence relevant to the possibility of future torture shall be
considered . . . ” Therefore, asylum officers should apply the same reasonableness
inquiry articulated in the persecution context to the CAT
context.

See, e.g., Comollari v. Ashcroft,
378 F.3d 694,
697-98 (7th Cir.
2004).

8
C.F.R.
§
208.16(c)(3)(iv).
8
C.F.R.
§
208.13(b)(3); See
RAIO Training
Module,
Well
Founded Fear.

267

E. Mandatory Bars
Although certain mandatory 8
C.F.R.
bars apply to a grant of with- 208.16(d)(2);
holding of removal under the 208.31(c).
Convention Against Torture,
no mandatory bars may be considered in making a reasonable
fear of torture determination.
Because there are no bars to
C.F.R.
protection under Article 3, an 8
immigration judge must grant 208.17(a).
deferral of removal to an applicant who is barred from a
grant of withholding of removal, but who is likely to be
tortured in the country to
which the applicant has been
ordered removed. Therefore,
the reasonable fear screening
process must identify and
refer to the immigration judge
aliens who have a reasonable
fear of torture, even those who
would be barred from withholding of removal, so that an
immigration judge can determine whether the alien should
be granted deferral of removal.
APSOs must elicit information
regarding any potential bars to
withholding of removal during
the interview.

§§

§

268

The officer must keep in mind
that the applicability of these
bars requires further evaluation that will take place in the
full hearing before an immigration judge if the applicant
otherwise has a reasonable
fear of persecution or torture.
In such cases, the officer
should consult a supervisory
officer and follow procedures
on “flagging” such information
for the hearing as outlined in
the Reasonable Fear Procedures Manual.
XIII. EVIDENCE
A. Credible Testimony

To establish eligibility for
withholding of removal under 8
C.F.R.
section 241(b)(3) of the Act or 208.16(b);
the Convention Against Tor- 208.16(c)(2).
ture, the testimony of the applicant, if credible, may be sufficient to sustain the burden of
proof without corroboration.
As in the asylum context, there
may be cases where lack of corroboration, without reasonable
explanation, casts doubt on the
credibility of the claim or otherwise affects the applicant’s
ability to meet the requisite

§§

269

burden of proof. Asylum officers should follow the guidance in the RAIO Modules,
Credibility, and Evidence, and
HQASY memos on this issue in
evaluating whether lack of corroboration affects the applicant’s ability to establish a reasonable fear of persecution or
torture.
B. Country Conditions

Country
conditions
information is integral to most reasonable fear determinations,
whether the asylum officer is
evaluating reasonable fear of
persecution or reasonable fear
of torture.

See RAIO Training
Module,
Country
of
Origin
Information
(COI)
Researching and
Using COI in
RAIO Adjudications.

The Convention Against Torture specifically requires State
Parties to take country condition information into account,
where applicable, in evaluating
whether a person would be
subject to torture in a particular country.
“[T]he competent authori- Convention
ties shall take into account Against Tortures
all relevant considerations, Article 3, para. 2.
including, where applicable

270

the existence in the State
concerned of a consistent
pattern of gross, flagrant or
mass violations of human
rights.”
The implementing regulations
reflect this treaty provision by 8
C.F.R.
providing that all evidence rel- 208.16(c)(3).
evant to the possibility of future torture must be considered, including, but not limited
to, evidence of gross flagrant
or mass violations of human
rights within the country of removal, where applicable, and
other relevant information regarding conditions in the country of removal.
As discussed in the supplementary information to the regulations, “the words ‘where applicable’ indicate that, in each
case, the adjudicator will determine whether and to what
extent evidence of human rights
violations in a given country is
in fact a relevant factor in the
case at hand. Evidence of the
gross and flagrant denial of
freedom of the press, for example, may not tend to show that
an alien would be tortured if
referred to that country.”

§§

Immigration and
Naturalization
Service, Regulations Concerning
the Convention
Against Torture,
64 Fed. Reg.
8478, 8480 (Feb.
19, 1999).

271

Analysis of country conditions
requires an examination into
the likelihood that the applicant will be persecuted or tortured upon return. Some evidence indicating that the feared
harm or penalty would be enforced against the applicant
should be cited in support of a
positive reasonable fear determination.

See Matter of MB-A-, 23 I&N
Dec. 474, 478-79
(BIA 2002) (finding that a Nigerian woman convicted of a drug
offense in the
United
States
was ineligible for
protection under
the Convention
where she provided no evidence
that a Nigerian
law criminalizing
certain drug offenses committed
outside Nigeria
would be enforced
against
her).

In Matter of G-A-, the BIA Matter of G-A-,
found that an Iranian Chris- 23 I&N Dec. 366,
tian of Armenian descent who 368 (BIA 2002).
lived in the U.S. for more than
25 years and who had been convicted of a drug-related crime
is likely to be subjected to torture if returned to Iran. The
BIA considered the combination of the harsh and discriminatory treatment of ethnic and

272

religious minorities in Iran, the
severe punishment of those associated with narcotics trafficking, and the perception that
those who have spent an extensive amount of time in the U.S.
are opponents of the Iranian
government or even U.S. spies
to determine that, in light of
country conditions information,
the individual was entitled to
relief under the Convention
Against Torture.
In Matter of J-F-F-, the Attorney General held that the applicant failed to meet his evidentiary burden for deferral of
removal to the Dominican Republic under the Conventions
Against Torture. Here, the IJ
improperly “ . . . strung together [the following] series of
suppositions: that respondent
needs medication in order to
behave within the bounds of
the law; that such medication is
not available in the Dominican
Republic; that as a result respondent would fail to control
himself and become ‘rowdy’;
that this behavior would lead
the police to incarcerate him;
and that the police would tor-

Matter of J-F-F-,
23 I&N Dec. 912,
917 n.4 (AG 2006)
(“An alien will
never be able to
show that he
faces a more
likely than not
chance of torture
if one link in the
chain
cannot
be shown to be
more likely than
not to occur.”
Rather, it “is the
likelihood of all
necessary events
coming together
that must more
likely than not
lead to torture,

273

ture him while he was incarcerated.” The Attorney General
determined that this hypothetical chain of events was insufficient to meet the applicant’s
burden of proof. In addition
to considering the likelihood of
each step in the hypothetical
chain of events, the adjudicator
must also consider whether the
entire chain of events will come
together to result in the probability of torture of the applicant.

and a chain of
events cannot be
more likely than
its least likely
link.”)
(citing
Matter of Y-L-,
23 I&N Dec. 270,
282 (AG 2002)).

“Official as well as unofficial
country reports are probative
evidence and can, by themselves, provide sufficient proof
to sustain an alien’s burden under the INA”.

Zubeda v. Ashcroft, 333 F.3d
463
(3d
Cir.
2003).

The Ninth Circuit has also addressed the use of country conditions in withholding cases,
holding in Kamalthas v. INS
that the “BIA failed to consider probative evidence in the
record of country conditions
which confirm that Tamil males
have been subjected to widespread torture in Sri Lanka.”

Kamalthas
v.
INS, 251 F.3d
1279 (9th Cir.
2001).

274
XIV.

INTERVIEWS

See Reasonable
Fear Procedures
Interviews for reasonable fear
Manual (Draft).
determinations should gener- 8
C.F.R.
§
ally be conducted in the same
208.31(c).
manner as asylum interviews.
They should be conducted in a
non-adversarial manner, separate from the public and consistent with the guidance in the
RAIO Combined Training lessons regarding interviewing.

A. General Considerations

The circumstances surrounding a reasonable fear interview
may be significantly different
from an affirmative asylum interview.
A reasonable fear
interview may be conducted in
a jail or other detention facility
and the applicant may be handcuffed or shackled. Such conditions may be particularly
traumatic for individuals who
have escaped persecution or
survived torture and may impact their ability to testify.
Additionally, the applicant may
have an extensive criminal record. Given these circumstances, officers should take
particular care to maintain a

8
C.F.R.
208.31(c).

§

Officers should
read to the applicant paragraph
1.19 on Form 1899, which de-

275

non-adversarial tone and at- scribes the purmosphere during reasonable pose of the interfear interviews.
view.
At the beginning of the interview, the asylum officer should
determine whether the applicant has an understanding of
the reasonable fear process
and answer any questions the
applicant may have about the
process.
B. Confidentiality

The information regarding the 8 C.F.R. § 208.6.
applicant’s fear of persecution
and/or fear of torture is confidential and cannot be disclosed
without the applicant’s written
consent, unless one of the exceptions in the regulations regarding the confidentiality of
the asylum process apply. At
the beginning of the interview,
the asylum officer should explain to the applicant the confidential nature of the interview.
C. Interpretation

If the applicant is unable to 8
C.F.R.
proceed effectively in English, 208.31(c).
the asylum officer must use a
commercial interpreter with
which USCIS has a contract to
conduct the interview.

§

276

If the applicant requests to use
a relative, friend, NGO or other
source as an interpreter, the
asylum officer should proceed
with the interview using the
applicant’s interpreter. However, asylum officers are required to use a contract interpreter to monitor the interview
to verify that the applicant’s
interpreter is accurate and
neutral while interpreting.

Asylum officers
may conduct interviews in the
applicant’s preferred language
provided that the
officer has been
certified by the
State
Department, and that local office policy
permits asylum
officers to conduct interviews
in
languages
other than English.

The applicant’s interpreter
must be at least 18 years old. See Reasonable
The interpreter must not be:
Fear Procedures
• the applicant’s attorney Manual (Draft)
or representative,
• a witness testifying on behalf of the applicant, or
• a representative or employee of the applicant’s
country of nationality, or
if the applicant is stateless, the applicant’s country of last habitual residence.

277
D. Note Taking

Interview notes must be taken
in a Question & Answer (Q&A)
format. It is preferable that
the interview notes be typed.
When the interview notes are
taken longhand, the APSO
must ensure that they are legible. Interview notes must accurately reflect what transpired during the reasonable
fear interview so that a reviewer can reconstruct the interview by reading the interview notes. In addition, the
interview notes should substantiate the asylum officer’s
decision.
The Reasonable Fear Q&A interview notes are not required
to be a verbatim transcript.
Although interview notes are
not required to be a verbatim
record of everything said at
the interview, they must provide an accurate and complete
record of the specific questions
asked and the applicant’s specific answers to demonstrate
that the APSO gave the applicant every opportunity to establish a reasonable fear of
persecution, or a reasonable

8
C.F.R.
208.31(c).

§

Lafferty, John,
Asylum Division,
Updated Guidance on Reasonable Fear Note­
Taking, Memorandum to All
Asylum
Office
Staff (Washington, DC), May 9,
2014.
See also Reasonable Fear Procedures
Manual
(Draft).

278

fear of torture. In doing so,
the Q&A notes must reflect
that the APSO asked the applicant to explain any inconsistencies as well as to provide
more detail concerning material issues. This type of record will provide the SAPSO
with a clear record of the issues that may require followup questions or analysis, as
well as assist the asylum officer in the identification of issues related to credibility and
analysis of the claim after the
interview.
Before ending the interview,
the APSO must provide a summary of the material facts related to the protection claim
and read it to the applicant
who, in turn, will have the opportunity to add, or correct
facts. The interview record is
not considered complete until
the applicant agrees that the
summary of the protection claim
is complete and correct.

279

See Reasonable
The applicant may be repre- Fear Procedures
sented by counsel or by an ac- Manual (Draft).
credited representative at the 8
C.F.R.
§
interview.
The representa- 208.31(c); see distive must submit a signed form cussion on role of
G-28. The role of the repre- the representasentative in the reasonable tive in the RAIO
fear interview is the same as Training Module,
the role of the representative Interviewingin the asylum interview.
Introduction to
The representative may pre- the Non Adversent a statement at the end of sarial Interview.

E. Representation

the interview and, where appropriate, should be allowed to
make clarifying statements in
the course of the interview, so
long as the representative is
not disruptive. The asylum
officer, in his or her discretion,
may place reasonable limits on
the length of the statement.
F. Eliciting Information

The APSO must elicit all information relating both to fear of
persecution and fear of torture, even if the asylum officer
determines early in the interview that the applicant has established a reasonable fear of
either.

See RAIO Training Module, InterviewingEliciting Testimony,
section
3.0:
“Officer’s
Duty to Elicit
Testimony”.

280

Specifically, the asylum officer
must explore each of the following areas of inquiry, where
applicable:
1. What the applicant fears
would happen to him/her if
returned to a country (elicit
details regarding the specific type of harm the applicant fears)
2. Whom the applicant fears
3. The relationship of the
feared persecutor or torturer to the government or
government officials
4. Was a public official or
other individual acting in
an official capacity? Often
the public official is a police
officer. The following is a
brief list of questions that
may be asked when addressing whether a police
officer was acting in an official capacity:
a. Was the officer on duty?
b. Was the officer in uniform?
c. Did the officer show a
police badge or other

“Eliciting” testimony
means
fully exploring
an issue by asking
follow-up
questions to expand upon and
clarify the interviewee’s
responses
before
moving on to another topic.
The list of areas
of inquiry is not
exhaustive.
There may be
other areas of inquiry that arise
in the course of
the
interview.
Also, the asylum
officer is not required to explore
the areas of inquiry in the sequence listed below.
As in an
asylum
interview, each interview has a flow of
information
unique to the applicant.

281

type of official credential?
d. Did the officer have access to the victim because of his/her authority as a police officer?
e. If a potential torturer is
not a public official or
someone acting in official capacity, is there evidence that a public official or other person acting in official capacity
had ,or would have prior
knowledge of the torture and breached, or
would breach a legal
duty to prevent the torture, including acting a
manner that
can be
considered
to be willfully blind to the torture? Is the torturer
part of the government
in that country (including local government)?
f. If not, would a government or public official
know what they were
doing?

282

g. Would a government or
public official think it
was okay?
h. If you believe that the
government
would
think this was okay or
that the government is
corrupt, why do you
think this?
i. What experiences have
you or people you know
of had with the authorities that make you think
they would think it was
okay if someone was
tortured?
j. Would the (agents of
harm?) person or persons inflicting torture
be told by the government or public official to
do that?
k. Did you report any past
harm to a public official?
l. What did the public official say to you when you
reported it?
m. Did the public official
ask you questions about

283

the incident? Did public officials go to crime
scene to investigate?
n. Did you ever speak with
police after you reported incident?
o. Did you inquire about
any investigation?
If
so, please provide details.
p. Do you know if anyone
was ever investigated or
charged with crime?
5. The reason(s) someone
would want to harm the applicant. For cases where
no nexus to a protected
ground is immediately apparent, the asylum officer
in reasonable fear interviews should ask questions
related to all five grounds
to ensure that no nexus issues are overlooked.
6. Whether the applicant has
been and/or would be in the
feared offender’s custody
or control
a. How do you think you
will be harmed?

284

b. How will the feared offender find you?
7. Whether the harm the applicant fears may be pursuant to legitimate sanctions
a. Would anyone have a legal reason to punish you
in your home country?
b. Do you think you will be
given a trial if you are
arrested?
c. What will happen to you
if you are put in prison?
8. Information about any individuals similarly situated to
the applicant, including family members or others
closely associated with the
applicant, who have been
threatened,
persecuted,
tortured, or otherwise
harmed
9. Any groups or organizations the applicant is associated with that would place
him/her at risk of persecution or torture, in light of
country conditions information
10. Any actions the applicant
has taken in the past (either

285

in the country of feared
persecution or another
country, including the U.S.)
that would place him/her at
risk of persecution or torture, in light of country conditions information
11. Any harm the applicant has
experienced in the past:
a. a description of the type
of harm
b. identification of who
harmed the applicant
c. the reason the applicant
was harmed
d. the relationship between the person(s) who
harmed the applicant
and the government
e. whether the applicant
was in that person(s)
custody or control
f. whether the harm was
in accordance with legitimate sanctions
When probing into a particular
line of questioning, it is important to keep asking questions that elicit details so that
information relating to the is-

286

sues above is thoroughly elicited. It is also important to
ask the application questions
such as, “Is there anyone else
or anything else you are afraid
of, other than what we’ve already discussed?” until the applicant has been given an opportunity to present his or her
entire claim.
The asylum officer should also
elicit information relating to
exceptions to withholding of removal, if it appears that an exception may apply. This information may not be considered in evaluating whether the
applicant has a reasonable fear,
but should be included in the
interview Q&A notes, where
applicable.
XV. REQUESTS TO WITHDRAW
THE CLAIM FOR PROTECTION

An applicant may withdraw his
or her request for protection
from removal at any time during the reasonable fear process. When an applicant expresses a desire to withdraw
the request for protection, the
asylum officer must conduct an
interview to determine whether

See Reasonable
Fear Procedures
Manual (Draft).

287

the decision to withdraw is entered into knowingly and willingly.
The asylum officer
should ask sufficient questions
to determine the following:
• The nature of the fear
that the applicant originally expressed to the
DHS officer,
• Why the applicant no
longer wishes to seek protection and whether there
are any particular facts
that led the applicant to
change his or her mind,
• Whether any coercion or
pressure was brought to
bear on the applicant in
order to have him or her
withdraw the request,
and
• Whether the applicant
clearly understands the
consequences of withdrawal, including that he
or she will be barred from
any legal entry into the
United States for a period
that may run from 5 years
to life.

288

An elicitation of the nature of
the fear that the applicant
originally expressed does not
require a full elicitation of
the facts of the applicant’s
case.
Rather, information
regarding whether the request to withdraw is knowing
and voluntary is central to
determining whether processing the withdrawal of the
claim for protection is appropriate. The determination as
to whether the request to
withdraw is knowing and voluntary is unrelated to whether
the applicant has a fear of future harm. Processing the
withdrawal of the claim for
protection is appropriate when
the decision was made knowingly and voluntarily even
when the applicant still fears
harm.
XVI. SUMMARY
A. Applicability

Asylum officers conduct
reasonable fear of persecution or torture screenings
in two types of cases in
which an applicant has expressed a fear of return:
1) A prior order has been

289

reinstated pursuant to section 241(a)(5) of the INA; or
2) DHS has ordered an individual removed pursuant
to section 238(b) of the INA
based on a prior aggravated felony conviction.
B. Definition of Reasonable
Fear of Persecution

A reasonable fear of persecution must be found if the
applicant establishes a reasonable possibility that he
or she would be persecuted
on account of his or her race,
religion, nationality, membership in a particular social group, or political opinion.
C. Definition of Reasonable
Fear of Torture

A reasonable fear of torture
must be found if the applicant establishes there is a
reasonable possibility he or
she will be tortured.
D. Bars

No mandatory bars may be
considered in determining
whether an individual has
established a reasonable

290

fear of persecution or torture.
E. Credibility

The same factors apply in
evaluating whether an applicant’s testimony is credible as apply in the asylum
adjudication context. The
asylum officer should assess the credibility of the
assertions underlying the
applicant’s claim, considering the totality of the circumstances and all relevant
factors.
F. Effect of Past Persecution
or Torture

1. If an applicant establishes past persecution
on account of a protected characteristic, it
is presumed that the applicant has a reasonable
fear of future persecution on the basis of the
original claim.
This
presumption may be
overcome if a preponderance of the evidence
establishes that,

291

a. due to a fundamental
change in circumstances, the fear is no
longer well-founded,
or
b. the applicant could
avoid future persecution by relocating to
another part of the
country of feared
persecution
and,
under all the circumstances, it would be
reasonable to expect
the applicant to do
so.
2. If the applicant establishes past torture, it
may be presumed that
the applicant has a reasonable fear of future
torture, unless a preponderance of the evidence establishes that
there is no reasonable
possibility the applicant
would be tortured in the
future.
G. Internal Relocation

To establish a reasonable fear
of persecution, the applicant
must establish that it would

292

be unreasonable for the applicant to relocate. If the government is the feared offender,
it shall be presumed that internal relocation would not be
reasonable, unless a preponderance of the evidence establishes that, under all the circumstances, internal relocation would be reasonable.
Asylum officers should consider whether or not the applicant could safely relocate to
another part of his or her
country in reasonable fear of
torture determinations. Credible evidence that the feared
torturer is a public official will
normally be sufficient evidence that there is no safe internal relocation option in the
reasonable fear context. Asylum officers should apply the
same reasonableness inquiry
articulated in the persecution
context to the CAT context.
H. Elements of the Definition of
Torture

1. The torturer must be a public official or other person
acting in an official capacity, or someone acting with

293

the consent or acquiescence of a public official or
someone acting in official
capacity.
2. The applicant must be in
the torturer’s control or
custody.
3. The torturer must specifically intend to inflict severe physical or mental
pain or suffering.
4. The harm must constitute
severe pain or suffering.
5. If the harm is mental suffering, it must meet the requirements listed in the
regulations, based on the
“understanding” in the ratification instrument.
6. Harm arising only from,
inherent in, or incidental
to lawful sanctions generally is not torture. However, sanctions that defeat
the object and purpose of
the Torture Convention are
not
lawful
sanctions.
Harm arising out of such
sanctions may constitute
torture.
7. There is no requirement
that the harm be inflicted

294

“on account”
ground.

of

any

I. Evidence

Credible testimony may be
sufficient to sustain the burden of proof, without corroboration. However, there may
be cases where a lack of corroboration affects the applicant’s credibility and ability to
establish the requisite burden
of proof. Country conditions
information, where applicable, must be considered.
J. Interviews

Reasonable fear screening interviews generally should be
conducted in the same manner
as interviews in the affirmative
asylum process, except DHS
is responsible for providing
the interpreter. The asylum
officer must elicit all relevant
information.

295

296
Department of Homeland Security
U.S. Citizenship and Immigration Services,
Asylum Division
BRIEFING PAPER ON EXPEDITED REMOVAL
AND CREDIBLE FEAR PROCESS
I.

OVERVIEW OF EXPEDITED REMOVAL PROCESS

The expedited removal provisions of the Immigration
and Nationality Act (INA) became effective April 1,
1997. Under the expedited removal provisions, where
an immigration officer (usually CBP) determines that an
alien arriving at a port of entry is inadmissible because
the alien engaged in fraud or misrepresentation (section
212(a)(6)(C) of the INA) or lacks proper documents (section 212(a)(7) of the INA), the individual is ordered removed from the U.S. without a hearing before an immigration judge. However, if an individual expresses a
fear of persecution or torture or an intention to apply
for asylum, the case is referred to a USCIS asylum officer for a credible fear protection screening. In 2004,
pursuant to notice published in the Federal Register,
expedited removal was expanded beyond ports of entry
to include those individuals apprehended within 100 air
miles of the border and within 14 days of illegal entry.
II.

CREDIBLE FEAR PROCESS

Any individual who asserts a fear of persecution or torture or an intention to seek asylum during the course of
the expedited removal process is referred to an asylum
officer for an interview to determine if the individual has
a credible fear of persecution or torture. A credible
fear of persecution or torture is established when there

297

is a significant possibility, taking into account the credibility of the statements made by the individual in support of his or her claim and such other facts as are
known to the officer, that the individual could establish
eligibility for asylum under Section 208 of the INA or
withholding of removal or deferral of removal under the
Convention Against Torture. (8 C.F.R. § 208.30(e)(2) &
(3)). The “significant possibility” standard used in
credible fear cases is intended to be a low threshold
screening process in order to capture all potential refugees. The purpose of the credible fear screenings is to
identify all individuals who may have viable claims in order to prevent the removal of a refugee or someone who
would be tortured without a full hearing on the claim;
asylum officers do not adjudicate actual asylum applications during this preliminary screening process.
If the asylum officer finds that an individual has established a credible fear of persecution or torture, the individual is placed into removal proceedings (under Section
240 of the INA) where he or she is afforded the opportunity to apply for asylum before the Immigration
Court. If the asylum officer finds that the individual
has not established a credible fear of persecution or torture, the individual may ask an Immigration Judge to
review the asylum officer’s determination. If the individual does not ask for review, or if the Immigration
Judge does not overturn the asylum officer’s decision,1
then the individual is removed from the U.S. under the
expedited removal order.

If an individual neither requests nor declines review of the determination, the individual is still referred to the Immigration Judge
for review of the credible fear determination.
1

298

The majority of individuals in the credible fear process
are subject to mandatory detention while their cases are
pending. (8 C.F.R. § 235.3(b)(4)(ii)). Individuals found
to have a credible fear are subject to continued detention, but ICE may use its discretion to parole them from
custody on a case-by-case basis.
For those individuals apprehended between ports of entry, the individual may ask an Immigration Judge to review their custody determination. On January 4, 2010,
ICE changed its parole policy for arriving aliens found
to have a credible fear by requiring each case to be considered for parole without requiring a specific request.2
The Asylum Division coordinated and assisted ICE in
the implementation of those changes, including the development of a notice to such aliens to gather and provide information helpful to a parole determination.
The Asylum Division’s goals are to complete 85% of all
credible fear screenings within 14 days of referral to an
asylum officer. Since establishing these completion
goals, the Asylum Division has routinely met the 85% goal
and usually exceeds it by completing more than 90% of
cases within 14 days.
In July 2013, USCIS accelerated the processing goal
from 85 % of all credible fear screenings within 14 days,
to an 8-day average target. At the end of the FYl3, the
Asylum Division was processing credible fear cases at
an overall 8-day average.

The revised parole policy does not apply to individuals placed
into ER upon apprehension between ports of entry.
2

299

III.

STATISTICS

Table A: Consistently, a small percentage of individuals subjected to expedited removal have been referred
for a credible fear interview.

Table B: A high percentage of those referred for a
credible fear interview meet the credible fear standard.

300
Table C: Top Five Nationalities Referred for a Credible Fear Interview

301

TESTIMONY OF
Robert E. Perez
Acting Deputy Commissioner
U.S. Customs and Border Protection
BEFORE
U.S. Senate
Committee on Homeland Security
and Governmental Affairs
ON
“The Implications of the Reinterpretation of the Flores
Settlement Agreement for Border Security and Illegal
Immigration Incentives”
Sept. 18, 2018
Washington, DC

302
Introduction

Chairman Johnson, Ranking Member McCaskill, and
distinguished Members of the Committee, thank you for
the opportunity to appear before you today on behalf of
U.S. Customs and Border Protection (CBP).
As America’s unified border agency, CBP protects the
United States from terrorist threats and prevents the
illegal entry of persons and contraband, while facilitating lawful travel and trade. CBP works tirelessly to
detect illicit smuggling of people and trafficking of
drugs, weapons, and money, while facilitating the flow
of cross-border commerce and tourism.
CBP is responsible for securing approximately 7,000
miles of land border, 95,000 miles of shoreline, 328 ports
of entry, and the associated air and maritime space from
the illegal entry of people and contraband into the United
States. The border environment in which CBP works
is dynamic and requires continual adaptation to respond
to emerging threats and changing conditions. Recently,
we have seen an increase in the levels of migration at
our southwest border.
There are many factors that influence an individual’s decision to attempt to migrate to the United States.
These individuals are often driven by so-called “push
factors,” such as violent conditions in the country of
origin, or “pull factors,” such as immigration loopholes
that increase the probability of being released into the
interior of the United States. The result has been an
increase in southwest border migration, both at our
ports of entry and between them. Comparing July
2018 to July 2017, the overall numbers of individuals encountered are up nearly 57 percent; the largest increase

303

has been in the number of family units, which increased
more than 142 percent since last year. Although FY
2017 was an anomalously low year for southwest border
migration, the sharp increase is a cause for concern.
From October 1, 2017, to July 31, 2018, the U.S. Border
Patrol apprehended more than 317,000 individuals between ports of entry. In the same period of time, the
Office of Field Operations determined that more than
105,000 individuals presenting themselves at ports of
entry were inadmissible.
After CBP encounters an alien who has unlawfully entered or is inadmissible to the United States, the alien is
processed and, in general, is temporarily held in CBP
custody before being transferred to U.S. Immigration
and Customs Enforcement (ICE) Enforcement and Removal Operations (ERO) or, in the case of unaccompanied alien children (UAC), to the U.S. Department of
Health and Human Services (HHS) Office of Refugee
Resettlement (ORR). Increased migration due to push
and pull factors causes a strain on U.S. Citizenship and
Immigration Services (USCIS), CBP, and ICE operations and stresses the system at various points in the
processing, holding, detention, and placement continuum. Increasing numbers of aliens held in CBP facilities divert CBP resources from addressing a number of
serious threats to our nation, including transnational
criminal organizations, dangerous narcotics, and harmful agricultural products.
The rise in migration is, in part, a consequence of the
gaps created by layers of laws, judicial rulings, and policies. Today, I would like to testify about the operational impact these laws, judicial decisions, and policies

304

—however well-intentioned—have on CBP’s ability to
fulfill its mission.
Flores Settlement Agreement

The 1997 Flores Settlement Agreement requires the government to release alien minors from detention without
unnecessary delay, or, under the current operational environment, to transfer them to non-secure, licensed programs “as expeditiously as possible.” The settlement
agreement also sets certain standards for the holding
and detention of minors, and requires that minors be
treated with dignity, respect, and receive special concern for their particular vulnerability.
The Department of Homeland Security (DHS) maintains that the settlement agreement was drafted to apply only to unaccompanied minors. In 2014, DHS increased the number of family detention facilities in response to the surge of alien families crossing the border.
Soon after, the U.S. District Court for the Central District of California interpreted Flores as applying not
only to UAC, but also to those children who arrived with
their parents or legal guardians. This ruling limited
DHS’s ability to detain family units during their immigration proceedings. In general, pursuant to this and
other court decisions interpreting the Flores Settlement
Agreement, DHS rarely holds accompanied children and
their parents or legal guardians for longer than 20 days.
However, an unintended consequence of the limitations
on time-in-custody mandated by the Flores Settlement
Agreement and court decisions interpreting it is that
adults who arrive in this country alone are treated differently than adults who arrive with a child.

305
UAC Provision of Trafficking Victims Protection Reauthorization Act of 2008

There are similar unintended consequences associated
with the UAC provision enacted in the Trafficking Victims Protection Reauthorization Act of 2008 (TVPRA).
The provision requires that, once a child is determined
to be a UAC, the child be transferred to ORR within 72
hours, absent exceptional circumstances, unless the
UAC is a national or habitual resident of a contiguous
country and is determined to be eligible to withdraw his
or her application for admission and be repatriated to
that contiguous country immediately. CBP complies
with the Flores Settlement Agreement, court orders, and
the TVPRA and processes, and holds all UAC accordingly.
UAC who are nationals or habitual residents of Mexico
or Canada require additional consideration. Under the
UAC provision of the TVPRA, a UAC who is a national
or habitual resident of Canada or Mexico may be permitted to withdraw his or her application for admission
and be repatriated immediately, as long as CBP determines that he or she has not been a victim of severe
forms of trafficking in persons, and there is no credible
evidence that the UAC is at risk of being trafficked upon
return to the country of nationality or of last habitual
residence; has no fear of returning owing to a credible
fear of persecution; and has the ability to make an independent decision to withdraw his or her application for
admission. CBP uses CBP Form 93 to screen these contiguous country UAC to determine whether they meet
the requirements of the TVPRA. Under current procedures, CBP also screens all UAC using CBP Form 93

306

to determine whether they have been, or are likely to be,
victims of human trafficking or have a fear of return.
The CBP Form 93 includes examples of trafficking indicators and requires the processing Border Patrol Agent
or CBP Officer to pursue age appropriate questions to
help identify if a UAC may have been, or is likely to be,
the victim of trafficking; has a fear of return; or, for contiguous country UAC, is able to make an independent
decision to withdraw an application for admission.
Based on the totality of the situation, including visual
and verbal responses, the Border Patrol Agent or CBP
Officer determines if the UAC is a victim or potential
victim of trafficking or has a fear of return. CBP
conducts these screenings at the processing location—
generally at a port of entry or Border Patrol station.
For Mexican and Canadian UAC who cannot be returned immediately because they do not meet one or
more of these requirements or who do not choose to
withdraw their application for admission, and for all
UAC from countries other than Mexico or Canada, the
UAC provision of the TVPRA requires that they be served
a Notice to Appear, placed in formal removal proceedings under Section 240 of the Immigration and Nationality Act, and transferred to the care and custody of
ORR. If an immigration judge orders a UAC removed
or grants voluntary departure, ICE arranges for the
UAC’s safe return to their country of nationality.
Upon determining that a UAC is unable to withdraw his
or her application for admission, or chooses not to, CBP
notifies both the local ICE Field Office Juvenile Coordinator (FOJC) and HHS/ORR. Once HHS/ORR notifies CBP and ICE that a bed is available for the UAC,
either ICE, CBP, or DHS contractors transport the

307

UAC to an HHS/ORR shelter facility. CBP maintains
custody of the UAC while awaiting notification from
HHS/ORR that facilities are available—again, usually
for no longer than 72 hours, absent exceptional circumstances.
CBP operates short-term detention facilities for, as defined in 6 U.S.C. § 211(m), detention for 72 hours or
fewer before repatriation to a country of nationality or
last habitual residence. In order to comply with the
TVPRA and other statutory requirements, CBP prioritizes UAC for processing. However, HHS/ORR’s ability to quickly place UAC in shelters or with adequate
sponsors is severely limited by any increases in UAC
apprehensions—such as those we have seen in recent
months.
Because of the TVPRA, UAC are often released to adult
sponsors in the community, and some subsequently fail
to show up for court hearings or comply with removal
orders.
Asylum Claims

CBP carries out its mission of border security while adhering to U.S. and legal international obligations for the
protection of vulnerable and persecuted persons. The
laws of the United States, as well as international treaties to which we are a party, allow people to seek asylum
on the grounds that they fear being persecuted outside
of the United States because of their race, religion, nationality, membership in a particular social group, or political opinion. CBP understands the importance of complying with these laws, and takes its legal obligations seriously.

308

Accordingly, CBP has designed policies and procedures
based on these legal standards, in order to protect vulnerable and persecuted persons in accordance with
these legal obligations.
If a CBP officer or agent encounters an alien who is subject to expedited removal at or between ports of entry,
and the person expresses fear of being returned to his
or her home country, CBP processes that individual for
a credible or reasonable fear screening with an asylum
officer from USCIS for adjudication of that claim. CBP
officers and agents neither make credible fear determinations, nor weigh the validity of the claims.
Importance of Border Security

Ultimately, enforcement of immigration laws is the foundation of a secure border and a secure nation. Each action taken by lawmakers, the judiciary, policymakers,
and operators—while made in good faith by people grappling with complex issues—can have unintended consequences on the functioning of the immigration system as
a whole. DHS leaders have worked closely with other
Administration officials and members of Congress to address existing loopholes that allow individuals and dangerous transnational criminal organizations to exploit
our immigration laws. I look forward to continuing to
work with the Committee toward this goal.
Thank you for the opportunity to appear before you today. I look forward to your questions.

309

STATEMENT
OF
MATTHEW T. ALBENCE
EXECUTIVE ASSOCIATE DIRECTOR
ENFORCEMENT AND REMOVAL OPERATIONS
U.S. IMMIGRATION AND
CUSTOMS ENFORCEMENT
DEPARTMENT OF HOMELAND SECURITY
REGARDING A HEARING ON
“Reinterpretation of Flores Settlement and Its Impact
on Family Separation and Catch and Release”
BEFORE THE
UNITED STATES SENATE
HOMELAND SECURITY AND GOVERNMENTAL
AFFAIRS COMMITTEE
Tuesday, Sept. 18, 2018
342 Senate Dirksen Office Building

310
Introduction

Chairman Johnson, Ranking Member McCaskill, and
distinguished members of the Committee:
My name is Matthew T. Albence, and I am the Executive Associate Director of U.S. Immigration and Customs Enforcement (ICE), Enforcement and Removal
Operations and the Senior Official Performing the Duties of the Deputy Director. Thank you for the opportunity to appear before you today to discuss the impact
of the Flores Settlement Agreement (FSA) on ICE’s
critical mission of protecting the homeland, securing the
border, enforcing criminal and civil immigration laws in
the interior of the United States, and ensuring the integrity of our nation’s immigration system.
Our nation’s immigration laws are extremely complex, and in many cases, outdated and full of loopholes.
Moreover, the immigration laws have been increasingly
subject to litigation before the federal courts, which has
resulted in numerous court decisions, orders, and injunctions that have made it increasingly difficult for ICE to
carry out its mission. The current legal landscape often makes it difficult for people to understand all that
the dedicated, courageous, professional officers, agents,
attorneys, and support staff of ICE do to protect the
people of this great nation. To ensure the national security and public safety of the United States, our officers faithfully execute the immigration laws enacted by
Congress, which may include enforcement action against
any alien encountered in the course of their duties who
is present in the United States in violation of immigration law.

311

Executive Orders
During his first two weeks in office, President Trump
signed a series of Executive Orders that laid the policy
groundwork for the Department of Homeland Security
(DHS) and ICE to carry out the critical work of securing
our borders, enforcing our immigration laws, and ensuring that individuals who pose a threat to national security or public safety, or who otherwise are in violation of
the immigration laws, are not permitted to enter or remain in the United States. These Executive Orders established the Administration’s policy of effective border
security and immigration enforcement through the
faithful execution of the laws passed by Congress.
On June 20, 2018, President Trump signed an Executive Order entitled, Affording Congress an Opportunity to Address Family Separation. This Executive
Order clarified that it is the policy of the Administration
to rigorously enforce our immigration laws, including by
pursuing criminal prosecutions for illegal entry under
8 U.S.C. § 1325(a), until and unless Congress directs
otherwise. The goal of this Executive Order was to allow DHS to continue its judicious enforcement of U.S.
immigration laws, while maintaining family unity for
those illegally crossing the border. However, the FSA,
as interpreted by court decisions, makes it operationally
unfeasible for DHS and ICE to simultaneously enforce
our immigration laws and maintain family unity, and
DHS supports legislation that replaces this decades-old
agreement with a contemporary solution that effectively
addresses current immigration realities and border security requirements.

312

Challenges and Legislative Fixes
Since the initial surge at the Southwest border in Fiscal Year (FY) 2014, there has been a significant increase
in the arrival of both family units and unaccompanied
alien children (UACs) at the Southern border, a trend
which continues despite the Administration’s enhanced
enforcement efforts. Thus far in FY 2018, as of the end
of August, approximately 53,000 UACs and 135,000
members of alleged family units have been apprehended
at the Southern border or deemed inadmissible at Ports
of Entry. These numbers represent a marked increase
from FY 2017, when approximately 49,000 UACs and
105,000 members of family units were apprehended or
deemed inadmissible throughout the entire fiscal year.
Most of these family units and UACs are nationals of
the Central American countries of El Salvador, Guatemala, and Honduras. While historically Mexico was the
largest source of illegal immigration to the United States,
the number of Mexican nationals attempting to cross the
border illegally has dropped dramatically in recent
years. This is significant, because removals of nonMexican nationals take longer, and require ICE to use
additional detention capacity, expend more time and effort to secure travel documents from the country of
origin, and arrange costly air transportation. Additionally, pursuant to the Trafficking Victims Protection
Reauthorization Act of 2008 (TVPRA), UACs from countries other than Canada and Mexico may not be permitted to withdraw their applications for admission, further
encumbering the already overburdened immigration
courts. With an immigration court backlog of over
700,000 cases on the non-detained docket alone, it takes
years for many of these cases to work their way through

313

the immigration court system, and few of those who receive final orders are ever actually returned to their
country of origin. In fact, only approximately 3% of
UACs from Honduras, El Salvador, or Guatemala encountered at the Southwest border in FY 2014 had been
removed or returned by the end of FY 2017, despite the
fact that by the end of FY 2017 approximately 26% of
this cohort had been issued a final removal order.1
One of the most significant impediments to the fair
and effective enforcement of our immigration laws for
family units and UACs is the FSA. In 1997, the former
Immigration and Naturalization Service (INS) entered
into the FSA, which was intended to address the detention and release of unaccompanied minors. Since it
was executed, the FSA has spawned over twenty years
of litigation regarding its interpretation and scope and
has generated multiple court decisions resulting in expansive judicial interpretations of the original agreement in ways that have severely limited the government’s
ability to detain and remove UACs as well as family units.
Pursuant to court decisions interpreting the FSA, DHS
can generally only detain alien minors accompanied by
a family member in a family residential center for approximately 20 days before releasing them, and the
TVPRA generally requires that DHS transfer any UAC
to the Department of Health and Human Services (HHS)
within 72 hours, absent exceptional circumstances. However, when these UACs are released by HHS, or family

This figure includes aliens who accepted an order of voluntary
departure but whose departure from the United States has not been
confirmed. Approximately 44% of the cohort remained in removal
proceedings as of the end of FY 2017.
1

314

units are released from DHS custody, many fail to appear for court hearings and actively ignore lawful removal orders issued against them. Notably, for family
units encountered at the Southwest border in FY 2014,
as of the end of FY 2017, 44% of those who remained in
the United States were subject to a final removal order,
of which 53% were issued in absentia. With respect to
UACs, the Department of Justice’s Executive Office for
Immigration Review reports that from the beginning of
FY 2016 through the end of June in FY 2018, nearly
19,000 UACs were ordered removed in absentia—an average of approximately 568 UACs per month.
This issue has not been effectively mitigated by the
use of Alternatives to Detention (ATD), which has proved
to be substantially less effective and cost-efficient in securing removals than detention. Specifically, while the
ATD program averages 75,000 participants, in FY 2017,
only 2,430 of those who were enrolled in the ATD program were removed from the country—this accounts for
only one percent of the 226,119 removals conducted by
ICE during that time. Aliens released on ATD have
their cases heard on the non-detained immigration court
dockets, where cases may linger for years before being
resolved. Thus, while the cost of detention per day is
higher than the cost of ATD per day, because those enrolled in the ATD program often stay enrolled for several years or more, while those subject to detention have
an average length of stay of approximately 40 days, the
costs of ATD outweighs the costs of detention in many
cases. Nor are the costs of ATD any more justified by
analyzing them on a per-removal basis. To illustrate,
in FY 2014, ICE spent $91 million on ATD, which resulted in 2,157 removals; by FY 2017, ICE spending on

315

ATD had more than doubled to $183 million but only resulted in 2,430 removals of aliens on ATD—an increase
of only 273 removals for the additional $92 million investment, and an average cost of $75,360 per removal.
Had this funding been utilized for detention, based on
FY 2017 averages, ICE could have removed almost ten
times the number of aliens as it did via ATD.
Moreover, because family units released from custody and placed on ATD abscond at high rates—rates
significantly higher than non-family unit participants—
many family units must be apprehended by ICE while
at large. Specifically, in FY 2018, through July 31,
2018, the absconder rate for family units on ATD was
27.7%, compared to 16.4% for non-family unit participants. Such at-large apprehensions present a danger
to ICE officers, who are the victims of assaults in the
line of duty at alarmingly increasing rates. In FY 2017
and FY 2018, through the end of August, ICE’s Office of
Professional Responsibility and/or the DHS Office of
the Inspector General investigated 73 reported assaults
on ICE officers, 17 of which have resulted in an arrest,
indictment, and/or conviction to date. Additionally, because ICE lacks sufficient resources to locate, arrest,
and remove the tens of thousands of UACs and family
units who have been ordered removed but are not in
ICE custody, most of these aliens remain in the country,
contributing to the more than 564,000 fugitive aliens on
ICE’s docket as of September 8, 2018.
Unfortunately, by requiring the release of family
units before the conclusion of immigration proceedings,
seemingly well-intentioned court rulings, like those related to the FSA, and legislation like the TVPRA in its
current form create legal loopholes that are exploited by

316

transnational criminal organizations and human smugglers. These same loopholes encourage parents to
send their children on the dangerous journey north, and
further incentivizes illegal immigration. As the record
numbers indicate, these loopholes have created an enormous pull-factor. Amendments to the laws and immigration court processes are needed to help ensure the
successful repatriation of aliens ordered removed by an
immigration judge. Specifically, the following legislative changes are needed:

317

MEMORANDUM FOR THE RECORD

FROM:

David A. Marin /s/ DAVID MARIN
Acting Deputy Executive Associate
Director

SUBJECT:

U.S. Immigration and Customs Enforcement Data Regarding Detention, Alternatives to Detention Enrollment and Removals as of December 23, 2018, Related
to Rulemaking Entitled, Procedures to
Implement Section 235(b)(2)(C) of the
Immigration and Nationality Act, RIN
1651-AB13

Purpose:
This memorandum includes detention, alternatives to
detention enrollment, and removal data as of December
23, 2018. The data in the tables below were compiled
by U.S. Immigration and Customs Enforcement, Enforcement and Removal Operations as part of periodic
internal U.S. Department of Homeland Security reporting a snapshot in time. This data is derived from various manual and systematic data sources to report ongoing operations. This memorandum is intended for inclusion in the administrative record for the above-referenced
rulemaking.

318

319

Contact Information

Office of Policy
Communications and Legislative Affairs Division
5107 Leesburg Pike, Suite 1902
Falls Church , VA 22041
(703) 305-0289
(703) 605-0365 (fax)
Disclaimer

The Statistics Yearbook has been prepared as a public
service by the Executive Office for Immigration Review
and is strictly informational in nature. In no way should
any information in the Statistics Yearbook, in whole or
in part, be regarded as legal advice or authority, or be
understood in any way to enlarge upon, or otherwise
modify or interpret, any existing legal authority, including, but not limited to, the Immigration and Nationality
Act and Title 8 of the Code of Federal Regulations.

320

321

322

323
A NOTE ON FORMAT

Since publication of the Executive Office for Immigration Review (EOIR) fiscal year (FY) 2016 Statistics
Yearbook EOIR has reassessed the format of its annual
yearbook, leading to some delay in the release of the FY
2017 Statistics Yearbook. For the FY 2017 Yearbook,
EOIR has improved the graphics and the layout to make
the data easier to understand. It has also endeavored
to improve the precision of reported statistics and their
utility for operations and public interest. Further, EOIR’s
ongoing public release of data reports, many of which
have already reported FY 2017 data contained in the
Yearbook, and the periodic public release of EOIR’s
overall Case Data file, which contains almost all data
from FY 2017 that is otherwise presented in the Yearbook, potentially render the release of an annual yearbook obsolete. Nevertheless, EOIR anticipates releasing the FY 2018 Statistics Yearbook on a much more expeditious timetable, though its primary commitment will
continue to be updates to its online data.
Please refer any questions on these improvements to
EOIR’s Office of Policy, Communications and Legislative Affairs Division.

324
THE EXECUTIVE OFFICE FOR IMMIGRATION REVIEW

EOIR is responsible for adjudicating immigration cases.
On behalf of the Attorney General, EOIR interprets and
administers federal immigration laws and regulations
through immigration court cases, appellate reviews, and
administrative hearings in certain types of immigrationrelated cases. EOIR consists of three adjudicatory
bodies: The Office of the Chief Immigration Judge
(OCIJ), the Board of Immigration Appeals (BIA), and
the Office of the Chief Administrative Hearing Officer
(OCAHO).
OCIJ provides overall program direction and establishes priorities for 338 immigration judges (IJ) located
in 61 immigration courts throughout the nation. The
BIA hears appeals from certain decisions rendered by
IJs and by district directors of Department of Homeland
Security (DHS) in a wide variety of cases. OCAHO conducts hearings in civil penalty cases arising from the unlawful employment of aliens, unfair immigration-related
employment practices, and civil document fraud.
Although this Statistics Yearbook addresses each of
EOIR’s three adjudicatory bodies, most of the data presented comes from immigration court cases. Most immigration court cases involve removal proceedings. A
removal proceeding has two parts. First, an immigration judge assesses whether an alien is removable as
charged under the applicable law. If an immigration
judge determines that the alien is not removable, then

325

the immigration judge will terminate proceedings.1 If
the immigration judge sustains the charge or charges of
removability, proceedings continue. A finding of removability by itself never guarantees that an alien will
be ordered removed or that the alien will actually be removed. Rather, if the alien is found removable, the
judge must also make a second determination as to
whether the alien is eligible for any relief or protection
that would allow the alien to remain in the United States.
Examples of such relief or protection include asylum,
withholding of removal, protection under the Convention Against Torture, adjustment of status, cancellation
of removal for lawful permanent residents, cancellation
of removal for certain non-permanent residents, and
certain waivers provided by the Immigration and Nationality Act.2
The removal proceeding begins when the DHS (either
U.S. Immigration and Customs Enforcement (ICE), U.S.
Citizenship and Immigration Services (USCIS), or U.S.

Although applicable regulation distinguish between the dismissal of proceedings and the termination of proceedings, EOIR classifies both of them as “terminations” for statistical purposes because the outcomes are substantively identical.
2
Although relief (e.g. asylum) and protection (e.g. withholding of
removal) are legally distinct outcomes, EOIR classifies both of them
as “relief ” for statistical purposes because the outcomes are similar
in that for both, an alien is generally allowed to remain in the United
States. Additionally, voluntary departure is a form of relief from
removal, but it carries an alternate order of removal if the departure is not timely effectuated. Consequently, EOIR classifies it as a
separate outcome for statistical purposes and does not count it as
either relief or an order of removal.
1

326

Customs and Border Protection (CBP)) serves an individual with a charging document, called a Notice to Appear
(NTA), and files it with an immigration court.
Aliens in removal proceedings, called respondents, have
a right to legal representation at no expense to the government. EOIR also provides a list of pro bono legal
service providers to any respondent who appears in removal proceedings without representation.
During the removal proceeding, the immigration court
schedules an initial hearing, referred to as a master calendar hearing, before an immigration judge. At this
hearing, the immigration judge informs the respondent
of his or her rights and addresses representation. The
judge may also take pleadings, determine removability,
and ascertain apparent eligibility for any relief or protection provided for by law. If a judge finds an alien removable and the alien wishes to apply for relief or protection from removal, the judge will schedule an individual merits hearing on the alien’s application where both
parties (the respondent and DHS) may present arguments and evidence regarding that application. If the
immigration judge finds the alien eligible for relief or
protection from removal, the judge will then grant the
application.
If an immigration judge finds an alien is removable and
ineligible for any relief or protection from removal, the
judge will order the alien removed. ICE is then responsible for any subsequent detention and removal activities. The issuance of a removal order does not guarantee the actual physical removal of an alien from the
United States.

327

Within 30 days of the immigration judge’s decision in a
removal case, either party or both parties may appeal
the decision to the BIA. If the BIA decision is adverse
to the alien, the alien may file a petition for review of
that decision with the appropriate federal circuit court
of appeals within 30 days.
In certain circumstances, a party to a removal case may
also file a motion with the immigration court to reconsider or reopen the case after an immigration judge or
the BIA has rendered a decision.
In certain circumstances, for aliens detained by DHS or
aliens recently released from custody by DHS, an immigration judge may consider requests to redetermine
the conditions of custody or to ameliorate the conditions
of release. Any alien may make such a request, and
an immigration judge will preside over a hearing on the
request, commonly called a “bond hearing.” Whether
an immigration judge grants the request ultimately depends on the facts and applicable law of each case. Either party or both parties may appeal the immigration
judge’s bond decision to the BIA.

328
STATISTICS YEARBOOK KEY DEFINITIONS

The following definitions are applicable to the FY 2017
Yearbook. Please note that prior Yearbooks may have
utilized different definitions and that some terms may
have different usages or definitions outside the Yearbook context.
Immigration court matters include cases, bond redeter-

minations , and motions to reopen, reconsider and recalendar.
Immigration court cases include twelve case types, di
vided into four categories. I-862 case types include removal, deportation, and exclusion cases. I-863 case
types include asylum-only, withholding­only, credible
fear review, reasonable fear review, and claimed status
review cases. Other case types include rescission nonremoval Nicaraguan Adjustment and Central American
Relief Act (NACARA), departure control, and continued
detention review cases.
Immigration court receipts is the total number of charg-

ing documents, bond redeterminations, and motions to
reopen, reconsider, and recalendar received within the
reporting period.
Immigration court matter completions is the total number of immigration judge decisions on cases and bond
redeterminations, plus the total number of denied motions to reopen, reconsider, and recalendar.
Initial case completion (ICC) is the first dispositive deci-

sion rendered by an immigration judge. For instance,
an I-862 removal case is completed by an order of removal, relief, voluntary departure, termination, or other.

329

An order granting a continuance, changing venue, or administratively closing a case is not a dispositive decision
and, thus, does not constitute a case completion.
Subsequent case completion refers to any dispositive decision by an immigration judge after an ICC.
IMMIGRATION COURTS

330

331

332

333

334

335

336

337

338

339

340

341

342

343

344

345

346

347

348

349

350

351

352

353

354

355

356

357

358

359

360

361

362

363

364

365

366
Dramatic Surge in the Arrival of Unaccompanied
Children Has Deep Roots and No Simple Solutions,
Migration Policy Institute

(June 13, 2014)
*

*

*

*

*

Additionally, according to Kids In Need of Defense
(KIND), an estimated 30 percent of unaccompanied minors are ordered removed in absentia because they fail
to appear at their initial or later hearings. The Vera
Institute of Justice estimates 40 percent of unaccompanied children are potentially eligible for relief.
Why Is This Happening?

There are deep root causes for this child migration, and
for the recent surge in arrivals. While there is consensus that there are significant push and pull factors at
work, there is not agreement as to which are more important. And inevitably, the issue of unaccompanied
child migration has become ensnared in the broader political fight over immigration reform.
For the White House, push factors in the countries of
origin account for the surge. Many children are “fleeing violence, persecution, abuse, or trafficking,” Attorney General Eric Holder said recently, referring to sustained violence in Central America. For congressional
Republicans, who lay their unwillingness to take up immigration legislation at the feet of an administration
they view as insufficiently focused on enforcement, the
surge owes to President Obama’s policies. House Judiciary Committee Chairman Robert Goodlatte (R-VA)
termed the surge in arrivals an “administration-made
disaster” created because “word has gotten out around

367

the world about President Obama’s lax immigration enforcement policies, and it has encouraged more individuals to come to the United States illegally, many of
whom are children from Central America.”
In reality, there is no single cause. Instead , a confluence of different pull and push factors has contributed
to the upsurge. Recent U.S. policies toward unaccompanied children, faltering economies and rising crime
and gang activity in Central American countries, the desire for family reunification, and changing operations of
smuggling networks have all converged.
There is some evidence of a growing perception among
Central Americans that the U.S. government’s treatment of minors, as well as minors traveling in family
units, has softened in recent years. These child-friendly
policies in many ways directly flow from TVPRA. In
addition to the screening and ORR transfer requirements described above, the law also requires the United
States to ensure safe repatriation of minors and established standards for custody, created more child-friendly
asylum procedures, and relaxed eligibility for SIJ visa
status. Some also contend that minors are spurred to
migrate by the false idea that they could benefit under
the Obama administration’s Deferred Action for Childhood Arrivals (DACA) program, which offers a reprieve
from deportation for certain young unauthorized immigrants who have lived in the United States since 2007.
Furthermore, while these minors are all placed in removal proceedings, it is not clear that they are ultimately repatriated to their home countries. According
to U.S. Immigration and Customs Enforcement (ICE)
data, the agency carried out 496 repatriations (removals

368

and returns) of juveniles from Guatemala, Honduras,
and El Salvador in 2013, down from 2,311 in 2008.
On the other hand, strong evidence also points to increasingly grave conditions in Central America as principal drivers of the new influx. A number of investigations by journalists and studies by nongovernmental organizations have found that children are fleeing their
home countries to escape violence, abuse, persecution,
trafficking, and economic deprivation. To be sure,
murder, poverty, and youth unemployment rates paint a
bleak picture of conditions that children may face in
Honduras, Guatemala, and El Salvador in particular.
Rising gang violence in some of these countries has become an undeniable factor in many children’s decision to
migrate.
A recent UN High Commissioner for Refugees (UNHCR) study based on interviews with more than 400 unaccompanied minors found that 48 percent had experienced violence or threats by organized-crime groups, including gangs, or drug cartels, or by state actors in their
home countries, and 22 percent reported experiencing
abuse at home and violence at the hands of their caretakers. Thirty-nine percent of Mexican children reported being recruited into or exploited by human
smuggling organizations.
Additionally, family separation has long been a strong
motivation for unaccompanied minors to migrate. Immigration to the United States from Central America
and Mexico in high numbers over the last decade has led
adults, now settled in the United States, to send for the
children they left behind. UNHCR researchers found
that 81 percent of the children they interviewed cited

369

joining a family member or pursuing better opportunities as a reason for migrating to the United States. While
the family separation dynamic is not a new one, homecounty conditions have added urgency to it. Lastly,
stronger, more sophisticated smuggling infrastructure
and networks are surely playing a role in facilitating the
rise in children’s attempts to cross the border by themselves.
Whatever mix of factors has triggered the surge, there
is universal concern about the harrowing journey that
children endure as they travel north. These children
are frequently * * *
*

*

*

*

*

370
Symposium: The U.S.-Mexico Relationship in International Law and Politics, Contiguous Territories: The
Expanded Use of “Expedited Removal” in the Trump
Era, 33 Md. J. Int’l Law 268 (2018)

*

*

*

*

*

* * * scenarios present themselves where individuals
could be immediately “returned” to the contiguous territories without clear instructions, or under a misimpression they have been actually deported and then barred
from re-entry. Under these situations, the removal
proceedings to which they are actually entitled would be
rendered a mere nullity. They would be allegedly
“awaiting” a proceeding outside the U.S. which could be
completed without them were they not to show up for
their hearing. If they for whatever reason do not appear on the appointed day for their hearing, an in absentia order of removal can be issued against them.8
The text of the President’s executive order expanding
expedited removal to the entire country and for those
arriving aliens caught within two years from entry was
operationalized in an implementing memorandum, by
then-Department of Homeland Security (“DHS”) Secretary John Kelly.9 In that memorandum former Secretary Kelly noted that INA § 235(b)(2)(C) permits the return of “aliens to contiguous countries.”10 In so doing,
the Secretary opined that the rationale for the return
pending “the outcome of removal proceedings saves
the Department’s detention and adjudication resources
for other priority aliens.”11 Importantly, the provision
appears to be intended to be limited to those “aliens so
apprehended who do not pose a risk of a subsequent illegal entry or attempted illegal entry. . . .”12 The

371

memorandum also specifically addresses operationalization of the contiguous territories provision with respect
to unaccompanied alien children (“UACs”), noting that
as to those children the requirements *271 of
8 U.S.C. § 1232 must be followed.”13 Clearly, the provision is still to be applied to such children with the express proviso found in the memorandum that “the law
and U.S. international treaty obligations” be followed
and so long as the children pose “no risk of recidivism.”14
A close reading of the memorandum of February 20,
2017 reveals a lot about how the contiguous territories
provision is expected to be implemented. First, the
provision is envisioned by the federal agency at issue,
DHS, to be used on certain classes of undocumented immigrants and not others.15
The imposition of the
phrase “who do not pose a risk of a subsequent illegal
entry or attempted illegal entry’’ tells us that the agency
(at least from the point of view of the publicly available
policy) does not apparently want to utilize the provision
for individuals with a high risk of illegal re-entry. It
begs the question how the agency is going to determine
this issue. It also is problematic in that people may not
be given any choice in the matter. When an individual
is not given a preference, they may be forcibly returned
to a contiguous territory where they could be subjected
to persecution, crime, homelessness or, worse for some,
expulsion back to their point of origin to face persecution there.
It is troubling that the implementing memorandum contains absolutely no discussion of safeguards in the
neighboring country for those who are returned pending
removal.16 The lack of safeguards, such as adequate

372

housing, protection, access to counsel, food or other procedural protections are missing. With respect to the
nature of the removal proceedings which will be available to the returned person, there is mention of the Executive Office for Immigration Review consulting with
U.S. Customs and Border Protection and Immigration
and Customs Enforcement “to establish a functional, interoperable video teleconference system to ensure maximum capability to conduct video teleconference removal hearings for those aliens so returned to the contiguous country.”17 The inclusion of video equipment
means that the future removal hearings do not have to
be held in any established immigration court location,
but could be held anywhere that video equipment is
available. Such mobility implies that the hearings in
such cases may be held at the border itself where presumably the returned immigrant’s fate would be decided
without *272 their ever having to be officially “re-entered”
into the United States.
As noted by at least one commentator, the return of a
person to the contiguous territory, e.g., Mexico, pending
further proceedings leads to three logical possibilities:
(1) the person is a citizen of Mexico, (2) the person is a
citizen of some third country but has valid immigration
status in Mexico; or (3) the person is a citizen of some
third country but lacks valid immigration status in Mexico.18 In the first and third cases, according to the blog,
the returning of the person to Mexico under these circumstances would be “deeply problematic.”19 As will
be discussed in a further section of this article, the provision if utilized in this deleterious way could violate
U.S. treaty obligations, such as the 1987 U.N. Convention Against Torture (the U.S. is a state party), 1967
Protocols relating to the Status of Refugees (the U.S. is

373

a state party), among other international instruments
and norms, as well as portions of U.S. domestic law,
most notably INA § 241(b)(3), relating to mandatory
withholding of removal for those whose life or freedom
would be threatened (enshrining the principle of nonrefoulement).
A similar point also was made by the Harvard Immigration and Refugee Clinical Program, in a monograph discussing the impact of President Trump’s executive orders on asylum seekers.20 As explained in that paper,
the principle of non-refoulement states that “No Contracting Stale shall expel or return (“refouler”) a refugee in any manner whatsoever to the frontiers or territories where his life or freedom would be threatened on
account of his race, religion, nationality, or membership
of a particular social group or political opinion.”21 The
Harvard Clinic noted that the implementation of the
President’s executive order, in section 7, is unclear and
implementation would require cooperation from Mexico
and Canada.22 Furthermore, they note that in the
event the U.S. sends “asylum seekers back to Mexico
pending a formal removal proceeding, there is significant likelihood that Mexico would send those asylum
seekers *273 back to their countries of origin.”23 The
monograph then goes on to cite statistics showing an increase in deportations from Mexico, and especially to
countries in the Central American northern triangle
countries of El Salvador, Guatemala, and Honduras.24
“Lawyers have noted multiple violations of due process
for asylum seekers in Mexico; crime against migrants
(including human trafficking, kidnapping, and rape) is
widespread and largely goes unprosecuted.25

374

A final point to notice by way of introduction is that the
contiguous territories provision contains no express
time or geographical limitation found in the INA. Even
the related expedited removal provisions for those found
to have entered without inspection without valid entry
documents or through fraud or misrepresentation are
limited to those found within the U.S. within two years.26
Since no limit exists on the contiguous territories provision, it is possible that DHS could return those found
within the U.S. who are deemed to be “arriving aliens”
even where a person has actually been in the country far
longer than the two-year period. It is problematic furthermore because those who are caught within the U.S.
and who entered from a contiguous territory (no matter
when they entered, may now presumably be “returned”
immediately to Mexico without seeing an immigration
judge and without the possibility of any protection in the
neighboring country, a place they may fear persecution,
or where they have little or no connection and no way to
support themselves while awaiting a future hearing
which may be wholly inaccessible to them.
II.

POSSIBLE LEGAL CHALLENGES IN UNITED
STATES FEDERAL COURTS

A.

Habeas Corpus and the Real ID Act of 2005—limits
imposed on habeas by the INA

Petitioning for a writ of habeas corpus presents one way
to seek to remedy the use or abuse of the contiguous territories provision. Necessarily, any immigrant’s options for relief in this regard are going to be severely
limited by several factors. First, the person may be no
*274 longer present in the U.S. Second, she may lack access to counsel, and especially counsel who are able to
navigate federal court procedures required to seek to

375

enjoin the Department of Home land Security from “returning’’ an arriving alien to a contiguous territory under the INA. Furthermore, there are various sections
of the INA which limit jurisdiction in federal district
court, following the Real ID Act of 2005.27 INA § 242
[8 U.S.C. § 1252] has provisions which restrict courts
from even hearing actions to challenge expedited removal proceedings, more generally. In the words of
the statute, “no court shall have jurisdiction to review
. . . any individual determination or to entertain any
other cause or claim arising from or relating to the
implementation or operation of an order of removal pursuant to [8 U.S.C. § 1225(b)(1)]. . . . ”28 Because
the contiguous territories provision is in 8 U.S.C.
§ 1225(b)(2)(C) and not 1225(b)(1), then the restriction
on judicial review (at least with respect to this limiting
statutory provision) should not be used as a valid reason
to restrict judicial review over a contiguous territories
claim.29
As the Real ID Act of 2005 made clear, federal district
courts no longer have jurisdiction over challenges to final orders of removal.30 Instead, pursuant to 8 U.S.C.
§ 1225(a), petitioners must exhaust their administrative
remedies before the immigration judge (“IJ”) and Board
of Immigration Appeals (“BIA”) and then bring a challenge in the form of a petition for review to a final order
exclusively in the circuit court of appeals. Unfortunately, this jurisdiction-stripping provision often means
that petitioners will have to await a remedy to their constitutional challenges until the appropriate circuit court
of appeals reviews their case. Many times, however, a
“victory” at the circuit court level may be an illusory one
where the petitioner has already been deported and cannot be found or is unable to return to the U.S.31

376

The jurisdiction-stripping provision, in 8 U.S.C. § 1252,
does not *275 foreclose all habeas cases since they still
can be brought to challenge the conditions of, and the
reasons for, a person’s confinement if in violation of law.
If a person is being held “in custody” by the federal government in violation of a federal statute or the United
States Constitution, then habeas may permit a federal
district court to remedy the violation.32 The argument
will turn on whether a federal court will exercise jurisdiction over a person who has been “returned” (or about
to be returned) to a contiguous territory. One issue will
be whether that person is still “in custody” for purposes
of habeas jurisdiction. Given how expansively the definition of “in custody” has been interpreted, there
should be no question that such an immigrant is ‘in custody’’ for purposes of a valid habeas claim.33 Another
issue may be the appropriate venue in cases where an
immigrant is returned and no longer in the * * *
* * * * *

377
The border is tougher to cross than ever. But there is
still one way into America. — The Washington Post

11/29/18
*

*

*

*

*

* * * telling them to come back later. Harbury and
others have criticized the practice as unlawful, but DHS
officials say that port officers have multiple responsibilities and that busy border crossings have capacity limits.
It was Harbury who provided ProPublica with the surreptitious audio recording of a child screaming for her
mother that dealt a severe blow to the family-separation
policy. She has absorbed the stories of thousands of
asylum seekers over the decades and increasingly views
her job with the urgency of an emergency responder.
She intends to help as many asylum seekers enter the
United States as possible, because she believes she is
saving their lives.
“These people have the most horrifying stories I have
ever heard,” she said. “I don’t think people have better
claims than those running from the cartels.”
The shelter in Reynosa was crowded with newly deported Mexicans, many still carrying their belongings in
plastic bags provided by the U.S. government. Immigration and Customs Enforcement had dropped off 85
deportees the previous night, and several complained
harshly of bad food and bysmal conditions in U.S. detention.
The nuns had asked Harbury to help a young mother
stranded for more than a week, Maria Magdalena Gon-

378

zalez, 21, and her son, Emiliano, 3. A gangster in Gonzalez’s home state of Guerrero was threatening to kill
her for rejecting his advances, she said. But when she
and her son tried to approach the U.S. border crossing
a few days earlier to seek asylum, they had been turned
away.
With more and more Central Americans showing up at
the port of entry, U.S. officers had set up an impromptu
checkpoint over the middle of the Rio Grande, blocking
them from setting foot on the U.S. side to start the asylum process.
Those who fail to cross are put at risk, because cartel
lookouts ply the Mexican side of the bridge, watching for
Central Americans who have been turned away. The
migrants are prime targets for kidnapping because criminal groups assume they have relatives living in the United
States with enough money to pay a ransom.
Harbury was there to make sure Gonzalez and her son
weren’t rejected again.
*

*

*

*

*

379

380

The San Diego Rapid Response Network (SDRRN), a
coalition of human rights, service and faith-based organizations, is urging government officials to develop and
implement “a sustainable plan to keep vulnerable asylumseeking families off the streets and help them reach their
final destination.”
The organization claims that U.S. Immigration and Customs Enforcement has released hundreds of migrants
into San Diego—the largest land border crossing in the
world.
The problem, SDRRN says, is that the recent influx is
too much to handle.
“The shelter can accommodate only about 150 people,
with average stays of 24 to 48 hours,” Edward Sifuentes,
a spokesman for the ACLU of San Diego & Imperial
Counties, said. “It stays filled to capacity because as
quickly as one group of families moves on, others are released by immigration authorities.”

381

Sifuentes warns that “the need for migrant shelter and
related services is expected to escalate in coming weeks
as hundreds gather in Tijuana hoping to claim asylum in
the U.S.”
Once asylum seekers are processed, federal agents drop
off them off at various shelters and Greyhound bus stations around the city at the person’s request.
Norma Chavez-Peterson, the executive director of the
ACLU of San Diego and Imperial Counties, said the network’s resources have been stretched to their thinnest
point yet. The network is on their fifth shelter location
in six weeks, and for the first time has had to turn families away due to capacity.

382

“We’re at a moment of a lack of capacity, we cannot sustain this any longer,” Chavez­Peterson said. “We need
a higher level of leadership.”
During a press conference at Our Lady of Mount Carmel
in San Ysidro, Chavez-Peterson outlined what the network needs to continue to fill the gaps of care for asylum
seekers. In a series of meetings with state and local
government leaders, she has advocated for an infusion
of cash and physical resources, along with a concrete
plan of sustainability.
Specifically, she said the network needs a high-capacity
facility that can house up to 200 people, along with the
resources to hire staff, security, provide food, travel
money, and cover some transportation costs for the asylum seekers. Most urgent among these is a secure, stable shelter.
Often, though, the migrants themselves have nowhere to
go, Vino Panjanor, executive director of Catholic Charities
at the Diocese of San Diego, told Fox News. If they by
chance have a place to go, they typically have no way of
getting there.
“These migrant families consist of small children as young
as a 3-day old baby,” he said. “We don’t have resources.
We are working on shoe-string budgets. This started on
Oct. 26. It’s week 5. It’s not sustainable.”
Several other humanitarian groups echoed Panjanor’s
sentiments and say they are running out of options.

383

“SDRRN’s efforts were intended as a stopgap measure,
but the growing number of asylum-seeking families in
need is surpassing the network’s collective ability to provide basic resources, including food, shelter, emergency
healthcare and travel assistance,” the organization told
Fox News in a written statement.
Since setting up an emergency shelter in November,
SDRRN has helped more than 1,700 migrants released
by federal immigration authorities. Those released
have been initially processed by Homeland Security and
are waiting for their scheduled ICE hearing which can
be months away. Without a safe place to go, many
wander the streets homeless and hungry.
“We have to take some to the ER for medical help,” Panjanor said. “This isn’t a political issue. We aren’t taking a political stand. It’s a humanitarian one.”

384

ICE told Fox News: “Family units that are released
will be enrolled in a form of ICE’s Alternatives to Detention or released on another form of supervision.”
It added: “ICE continues to work with local and state
officials and NGO partners in the area so they are prepared to provide assistance with transportation or other
services.”
Not satisfied, SDRRN has reached out to local and state
leaders pleading for help.
California’s Gov.-elect Gavin Newsom, a Democrat who
frequently takes on the Trump administration over immigration issues, recently said the state government
needs to step up and make a greater effort in supporting
asylum seekers.

“We’re all in this together,” he said. “I feel a deep
sense of responsibility to address the issues that we as a
border community face and I think we need to humanize
this issue, not politicize the issue.”

385

For now, it seems that migrants are stuck in San Diego.
Many, though not all, have fled countries like Honduras
after receiving death threats from brutal street thugs
such as MS-13 and the 18th Street gang. Some are also
running from corrupt government officials in their home
countries that have made living there sheer hell.
The migrants are also having a tough time returning to
Mexico. Residents there are fed up by thousands of Central American asylum seekers pushing their way onto
Mexican soil. Some have circled encampments and
shouted at migrants.
In one case, things got so bad that an 8-month pregnant
woman, her husband and toddler son, scaled a portion of
the border wall after feeling unsafe at a caravan stopping point near the Tijuana-San Diego border.
Late last month, Mexicans in Tijuana marched down the
street with one clear message to the migrants: Get out!
“We want the caravan to go; they are invading us,” Patricia Reyes, a 62-year-old protester, hiding from the
sun under an umbrella, told NPR. “They should have
come into Mexico correctly, legally, but they came in like
animals.”
Fox News’ Andrew Keiper contributed to this report.
You can find Barnini Chakraborty on Twitter @Barnini

386

ARRIAGA, Mexico (AP)—Hundreds of Mexican federal
officers carrying plastic shields blocked a Central American caravan from advancing toward the United States
on Saturday, after a group of several thousand migrants
turned down the chance to apply for refugee status and
obtain a Mexican offer of benefits.

387

Mexican President Enrique Pena Nieto has announced
what he called the “You are at home” plan, offering shelter, medical attention, schooling and jobs to Central
Americans in Chiapas and Oaxaca states if migrants apply, calling it a first step toward permanent refugee status. Authorities said more than 1,700 had already applied for refugee status.
But a standoff unfolded as federal police officers blocked
the highway, saying there was an operation underway to
stop the caravan. Thousands of migrants waited to advance, vowing to continue their long trek toward the
U.S. border.
At a meeting brokered by Mexico’s National Human
Rights Commission, police said they would reopen the
highway and only wanted an opportunity for federal authorities to explain the proposal to migrants who had rejected it the previous evening. Migrants countered
that the middle of a highway was no place to negotiate
and said they wanted to at least arrive safely to Mexico
City to discuss the topic with authorities and Mexican
lawmakers.

388

They agreed to relay information back to their respective sides and said they would reconvene,
Orbelina Orellana, a migrant from San Pedro Sula, Honduras, said she and her husband left three children behind and had decided to continue north one way or another.
“Our destiny is to get to the border,” Orellana said.
She was suspicious of the government’s proposal and
said that some Hondurans who had applied for legal status had already been sent back. Her claims could not
be verified, but migrants’ representatives in the talks
asked the Mexican government to provide a list of anyone who had been forced to return.
The standoff comes after one of the caravan’s longest
days of walking and hanging from passing trucks on a
60-mile (100 kilometer) journey to the city of Arriaga.
The bulk of the migrants were boisterous Friday evening in their refusal to accept anything less than safe passage to the U.S. border.
“Thank you!” they yelled as they voted to reject the offer in a show of hands. They then added: “No, we’re
heading north!”
Sitting at the edge of the edge of the town square, 58year-old Oscar Sosa of San Pedro Sula, Honduras concurred.
“Our goal is not to remain in Mexico,” Sosa said. “Our
goal is to make it to the (U.S). We want passage, that’s
all.”
Still 1,000 miles (1,600 kilometers) from the nearest U.S.
border crossing at McAllen, Texas, the journey could be

389

twice as long if the group of some 4,000 migrants heads
for the Tijuana-San Diego frontier, as another caravan
did earlier this year. Only about 200 in that group made
it to the border.
While such migrant caravans have taken place regularly
over the years, passing largely unnoticed, they have received widespread attention this year after fierce opposition from U.S. President Donald Trump.
On Friday, the Pentagon approved a request for additional troops at the southern border, likely to total several hundred, to help the U.S. Border Patrol as Trump
seeks to transform concerns about immigration and the
caravan into electoral gains in the Nov. 6 midterms.
Defense Secretary Jim Mattis signed off on the request
for help from the Department of Homeland Security and
authorized the military staff to work out details such as
the size, composition and estimated cost of the deployments, according to a U.S. official who spoke on condition of anonymity to discuss planning that has not yet
been publicly announced.
Stoking fears about the caravan and illegal immigration
to rally his Republican base, the president insinuated
that gang members and “Middle Easterners” are mixed
in with the group, though he later acknowledged there
was no proof of that.
At a church in Arriaga that opened its grounds to women
and children Friday, Ana Griselda Hernandez, 44, of
Mapala, Honduras, said she and two friends traveling
with children had decided to pay for a bus ride from Pijijiapan, because the 4-year-old and 5-year-old would
have never covered the 60-mile distance.

390

“It’s difficult because they walk very slowly,” she said.
She pointed out scabbed-over blisters on her feet, a testament to the fact they had walked or hitched rides since
leaving their country.
The caravan is now trying to strike out for Tapanatepec,
about 29 miles (46 kilometers) away.
Up until now, Mexico’s government has allowed the migrants to make their way on foot, but has not provided
them with food, shelter or bathrooms, reserving any aid
for those who turn themselves in.
Police have also been ejecting paid migrant passengers
off buses, enforcing an obscure road insurance regulation to make it tougher for them to travel that way.
On Friday, authorities were cracking down on smaller
groups trying to catch up with the main caravan, detaining about 300 Hondurans and Guatemalans who crossed
the Mexico border illegally, said an official with the national immigration authority.
Migrants, who enter Mexico illegally every day, usually
ride in smugglers’ trucks or buses, or walk at night to
avoid detection. The fact that the group of about 300
stragglers was walking in broad daylight suggests they
were adopting the tactics of the main caravan, which is
large enough to be out in the open without fear of mass
detention.
However, it now appears such smaller groups will be
picked off by immigration authorities, keeping them from
swelling the caravan’s ranks.

391

On Friday evening, Irineo Mujica, whose organization
People without Borders is supporting the caravan, accused Mexican immigration agents of harassment and
urged migrants to travel closely together.
“They are terrorizing us,” he said.
——
Associated Press writers Mark Stevenson and Peter
Orsi in Mexico City contributed to this report.

392

1
EXECUTIVE SUMMARY

An estimated 500,000 people cross into Mexico every
year.1 The majority making up this massive forced migration flow originate from El Salvador, Honduras, and
Guatemala, known as the Northern Triangle of Central

Source: UNHCR MEXICO FACTSHEET. February 2017.
Last visited 18 April 2017. Data compiled by UNHCR based on
SEGOB and INM official sources.
1

393

America (NTCA), one of the most violent regions in the
world today.
Since 2012, the international medical humanitarian organization Doctors Without Borders/Médecins Sans
Frontiéres (MSF) has been providing medical and mental health care to tens of thousands of migrants and refugees fleeing the NTCA’s extreme violence and traveling along the world’s largest migration corridor in Mexico. Through violence assessment surveys and medical
and psychosocial consultations, MSF teams have witnessed and documented a pattern of violent displacement, persecution, sexual violence, and forced repatriation akin to the conditions found in the deadliest armed
conflicts in the world today2.
For millions of people from the NTCA region, trauma,
fear and horrific violence are dominant facets of daily
life. Yet it is a reality that does not end with their
forced flight to Mexico. Along the migration route
from the NTCA, migrants and refugees are preyed upon
by criminal organizations, sometimes with the tacit approval or complicity of national authorities, and subjected to violence and other abuses—abduction, theft,
extortion, torture, and rape—that can leave them injured and traumatized.
Despite existing legal protections under Mexican law,
they are systematically detained and deported—with
devastating consequences on their physical and mental
health. In 2016, 152,231 people from the NTCA were
The Geneva Declaration on Armed Violence and Development,
Global Burden of Armed Violence 2015: Every Body Counts, October 2015, Chapter Two, http://www.genevadeclaration.org/fileadmin/
docs/GBAV3/GBAV3_Ch2_pp49-86.pdf
2

394

detained/presented to migration authorities in Mexico,
and 141,990 were deported.
The findings of this report, based on surveys and medical programmatic data from the past two years, come
against the backdrop of heightened immigration enforcement by Mexico and the United States, including the use
of detention and deportation. Such practices threaten
to drive more refugees and migrants into the brutal hands
of smugglers or criminal organizations.
From January 2013 to December 2016, MSF teams have
provided 33,593 consultations to migrants and refugees
from the NTCA through direct medical care in several
mobile health clinics, migrant centers and hostels—
known locally as albergues—across Mexico. Through
these activities, MSF has documented the extensive levels of violence against patients treated in these clinics,
as well as the mental health impact of trauma experienced prior to fleeing countries of origin and while on
the move.
Since the program’s inception, MSF teams have expressed concern about the lack of institutional and government support to the people it is treating and supporting along the migration route. In 2015 and 2016, MSF
began surveying patients and collecting medical data
and testimonies. This was part of an effort by MSF to
better understand the factors driving migration from
the NTCA, and to assess the medical needs and vulnerabilities specific to the migrant and refugee population
MSF is treating in Mexico.
The surveys and medical data were limited to MSF patients and people receiving treatment in MSF-supported

395

clinics. Nevertheless, this is some of the most comprehensive medical data available on migrants and refugees
from Central America. This report provides stark evidence of the extreme levels of violence experienced by
people fleeing from El Salvador, Honduras, and Guatemala, and underscores the need for adequate health
care, support, and protection along the migration route
through Mexico.
In 2015, MSF carried out a survey of 467 randomly sampled migrants and refugees in facilities the organization
supports in Mexico. We gathered additional data from
MSF clinics from 2015 through December 2016. Key
findings of the survey include:
Reasons for leaving:

– Of those interviewed, almost 40 percent (39.2%)
mentioned direct attacks or threats to themselves
or their families, extortion or gang-forced recruitment as the main reason for fleeing their countries.
– Of all NTCA refugees and migrants surveyed,
43.5 percent had a relative who died due to violence in the last two years. More than half of
Salvadorans surveyed (56.2 percent) had a relative who died due to violence in this same time
span.
– Additionally, 54.8% of Salvadorans had been the
victim of blackmail or extortion, significantly
higher than respondents from Honduras or Guatemala.

396
Violence on the Journey:

– 68.3 percent of the migrant and refugee populations entering Mexico reported being victims of
violence during their transit toward the United
States.
– Nearly one-third of the women surveyed had been
sexually abused during their journey.
– MSF patients reported that the perpetrators of
violence included members of gangs and other
criminal organizations, as well as members of the
Mexican security forces responsible for their protection.
According to medical data from MSF clinics from 2015
through December 2016:

– One-fourth of MSF medical consultations in the
migrants/refugee program were related to physical injuries and intentional trauma that occurred
en route to the United States.
– 60 percent of the 166 people treated for sexual violence were raped, and 40 percent were exposed
to sexual assault and other types of humiliation,
including forced nudity.
– Of the 1,817 refugees and migrants treated by MSF
for mental health issues in 2015 and 2016, close to
half (47.3 percent) were victims of direct physical
violence en route, while 47.2 percent of this group
reported being forced to flee their homes.
The MSF survey and project data from 2015-2016 show
a clear pattern of victimization—both as the impetus for
many people to flee the NTCA and as part of their expe-

397

rience along the migration route. The pattern of violence documented by MSF plays out in a context where
there is an inadequate response from governments, and
where immigration and asylum policies disregard the
humanitarian needs of migrants and refugees.
Despite the existence of a humanitarian crisis affecting
people fleeing violence in the NTCA, the number of related asylum grants in the US and Mexico remains low.
Given the tremendous levels of violence against migrants and refugees in their countries of origin and
along the migration route in Mexico, the existing legal
framework should provide effective protection mechanisms to victimized populations. Yet people forced to
flee the NTCA are mostly treated as economic migrants
by countries of refuge such as Mexico or the United
States. Less than 4,000 people fleeing El Salvador,
Honduras, and Guatemala were granted asylum status
in 2016 3 . In addition, the government of Mexico deported 141,990 people from the NTCA. Regarding the
situation in US, by the end of 2015, 98,923 individuals
from the NTCA had submitted requests for refugee or
asylum status according to UNHCR 4 . Nevertheless,
the number of asylums status granted to individuals
from the NTCA has been comparatively low, with just
9,401 granted status since FY 20155.

Source: UNHCR MEXICO FACTSHEET. February 2017.
Regional Response to the Northern Triangle of Central America
Situation. UNHCR. Accessed on 01/02/2017 at http://reporting.unhcr.
org/sites/default/files/UNHCR%20-%20NTCA%20Situation%20
Supplementary%20Appeal%20-%20June%20202016.pdf
5
Source: MSF calculations based on information from US Homeland Security. Yearbook of Immigration Statistics 2015.
3
4

398

As a medical humanitarian organization that works in
more than 60 countries, MSF delivers emergency aid to
people affected by armed conflict, epidemics, disasters,
and exclusion from health care. The violence suffered
by people in the NTCA is comparable to the experience
in war zones where MSF has been present for decades,
Murder, kidnappings, threats, recruitment by non-state
armed actors, extortion, sexual violence and forced disappearance are brutal realities in many of the conflict
areas where MSF provides support.
The evidence gathered by MSF points to the need to understand that the story of migration from the NTCA is
not only about economic migration, but about a broader
humanitarian crisis.
While there are certainly people leaving the NTCA for
better economic opportunities in the United States, the
data presented in this report also paints a dire picture
of a story of migration from the NTCA as one of people
running for their lives. It is a picture of repeated violence, beginning in NTCA countries and causing people
to flee, and extending through Mexico, with a breakdown in people’s access to medical care and ability to
seek protection in Mexico and the United States.
It is a humanitarian crisis that demands that the governments of Mexico and United States, with the support
of countries in the region and international organizations, rapidly scale up the application of legal protection
measures—asylum, humanitarian visas, and temporary
protected status—for people fleeing violence in the
NTCA region; immediately cease the systematic deportation of NTCA citizens; and expand access to medical,
mental health, and sexual violence care services for migrants and refugees.

399
2

INTRODUCTION:
CARING FOR REFUGEES AND MIGRANTS

MSF has worked with migrants and refugees in Mexico
since 2012, offering medical and psychological care to
thousands of people fleeing the Northern Triangle of
Central America (NTCA). Since the MSF program
started, the organization has worked in several locations
along the migration route: Ixtepec (Oaxaca State); Arriaga (Chiapas); Tenosique (Tabasco); Bojay (Hidalgo);
Tierra Blanca (Veracruz State); Lechería-Tultitlán,
Apaxco, Huehuetoca (State of Mexico); San Luis Potosi
(San Luis Potosi State); Celaya (Guanajuato State); and
Mexico City.
Locations have changed based on
changes in routes used by migrants and refugees or the
presence of other organizations. MSF’s services have
mainly been provided inside hostels, or albergues, along
the route. In some locations, MSF set up mobile clinics
close to the rail roads and train stations.
In addition, MSF teams have trained 888 volunteers and
staff at 71 shelters and hostels in “psychological first
aid”—in which patients are counseled for a short period
of time before they continue their journey. Health staff
and volunteers in key points along the transit route, at 41
shelters and 166 medical facilities, received training on
counseling related to sexual and gender-based violence
(SGBV).
From January 2013 to December 2016, MSF teams carried out 28,020 medical consultations and 5,573 mental
health consultations. More than 46,000 individuals attended psychosocial activities organized by our teams to

400

address the following topics: stress on the road, violence on the road, mental health promotion and prevention, myths and truths about the migration route, and
developing tools to deal with anxiety.
Some of the people treated by MSF report extreme pain
and suffering due to physical and emotional violence inflicted on them on the migration route. In 2016, MSF,
in collaboration with the Scalabrinian Mission for Migrants and Refugees (SMR), opened a rehabilitation
center for victims of extreme violence and other cruel,
inhuman or degrading treatment. Since then MSF has
treated 93 patients who required longer-term mental
health and rehabilitation services.
Torture is inflicted by governmental security actors,
while criminal organizations inflict extreme degrees of
violence on these already vulnerable populations. Migrants and refugees are often easy prey, and they face
severe difficulties in making any formal legal complaint.
Some patients reported having been kidnapped, repeatedly beaten for days or even weeks for the purposes of
extortion and ransom, or sometimes to frighten or intimidate other migrants and refugees. Attacks often include sexual assault and rape.

401

402

*

*

*

*

*

Direct attacks, threats, extortion or a forced recruitment attempt by criminal organizations were given as
main reasons for survey respondents to flee their countries, with numbers significantly higher in El Salvador
and Honduras. Of the surveyed population, 40 percent
left the country after an assault, threat, extortion or a
forced recruitment attempt.

403

Regarding exposure to violence along the migration
route through Mexico
The findings related to violence in the survey are appalling: more than half the sample population had experienced recent violence at the time they were interviewed:
44 percent had been hit, 40 percent had been pushed,
grabbed or asphyxiated, and 7 percent had been shot.
Of the migrants and refugees surveyed in Mexico, 68.3
percent of people from the NTCA reported that they
were victims of violence during their transit. Repeated
exposure to violence is another reality for the population
from NTCA crossing Mexico. Of the total surveyed
population, 38.7 percent reported more than one violent
incident, and 11.3 percent reported more than three incidents.

404

In a migration context marked by high vulnerability like
the one in Mexico, sexual violence, unwanted sex, and
transactional sex in exchange for shelter, protection or
for money was mentioned by a significant number of
male and female migrants in the surveys. Considering
a comprehensive definition of those categories, out of
the 429 migrants and refugees that answered SGBV
questions, 31.4 percent of women and 17.2 percent of men
had been sexually abused during their transit through
Mexico. Considering only rape and other forms of di-

rect sexual violence, 10.7 percent of women and 4.4 percent of men were affected during their transit through
Mexico.
The consequences of violence on the psychological wellbeing and the capacity to reach out for assistance are
striking: 47.1 percent of the interviewed population
expressed that the violence they suffered had affected
them emotionally.
Hondurarn—Male—30 years old—“I am from San Pedro

Sula, I had a mechanical workshop there. Gangs wanted
me to pay them for “protection”, but I refused, and then
they wanted to kill me. First they threatened me; they
told me that if I stayed without paying, they would take
my blood and one of my children. In my country, killing is ordinary; it is as easy as to kill an animal with your
shoe. Do you think they would have pitied me? They
warn you, and then they do it, they don’t play, and so
they came for me. Last year in September, they shot
me three times in the head, you can see the scars. Since
then my face is paralyzed, I cannot speak well, I cannot
eat. I was in a coma for 2 months. Now I cannot move
fingers on this hand. But what hurts most is that I cannot live in my own country, is to be afraid every day that

405

they would kill me or do something to my wife or my
children. It hurts to have to live like a criminal, fleeing
all the time.”
*

*

*

*

*

Of the 1,817 refugees and migrants seen by MSF in
2015-2016, 47.3 percent of patients survived “physical violence” as a precipitating event for the mental health
consultation. Injuries included gunshot wounds, blunt
force trauma from kicks and punches, mutilation of body
parts during kidnappings, wounds from machete attacks, breaking of bones by blows from baseball bats,
and wounds from being thrown out of a running train.
In most cases, incidents registered under “physical violence” by MSF occurred along the migration route in
Mexico.
The “precipitating event” most frequently mentioned
during consultations was “Forced to flee/internally
displaced/refugee/migrant”—registered by 47.2 percent
of patients. This covers the period before people made
the decision to flee.
Being a “victim of threats” (44.0 percent) and having
“witnessed violence or crime against others” (16.5 percent) are the third and fourth most common risk factors.
Witnesses to violence included patients forced to watch
while others were tortured, mutilated, and/or killed—
often in scenarios where they were deprived of their liberty, such as during a kidnapping for extortion.
The anguish and stress that migrants and refugees face
both in their home countries and along the migration
route make this population particularly vulnerable to
anxiety, depression and post-traumatic stress disorder.
The following graphic shows the main categories of

406

symptoms presented by the 1,817 MSF patients seen in
mental health consultations during 2015 and 2016.

*

*

*

*

*

407

6
LIMITED ACCESS TO PROTECTION IN MEXICO
Legal framework applicable to the protection of refugees
in Mexico

The Americas region already has relatively robust normative legal frameworks to protect refugees: the countries of Central and North America either signed the
1951 convention on refugees or its 1967 protocol and all
have asylum systems in place. Furthermore, Mexico
has been at the forefront of international efforts to pro-

408

tect refugees: its diplomats promoted the 1984 Cartagena Declaration on Refugees, which expands the definition to those fleeing “generalized violence”.
In 2010, UNHCR established a guideline156for the consideration of asylum and refugee status for victims of gang
violence, inviting concerned countries to apply broader
criteria to the refugee definition of the 1951 Convention.
In relation to these specific patterns of violence, the UNHCR concluded that direct or indirect threats (harm
done to family members) and consequences (forced displacement, forced recruitment, forced “marriage” for
women and girls, etc.) constituted “well-founded grounds
for fear of persecution” and bases for the recognition
of the refugee status or the application of the non­
refoulement principle, the practice of not forcing refugees or asylum seekers to be returned to a country
where their life is at risk or subject to persecution.
Mexico integrated those recommendations and the right
to protection stated in Article 11 of Mexico’s constitution
in its 2011 Refugee Law16.7 This law considers broad
inclusion criteria for refugees—stating, alongside the
internationally recognized definition from the 1951 Convention, the eligibility of persons fleeing situations of
generalized violence, internal conflict, massive violations of human rights or other circumstances severely
impacting public order.

UNHCR Guidance Note on Refugee Claims Related to Victims
of Organized Gangs - March 2010. Available at: http://www.refworld.org/cgi-bin/texis/vtx/rwmain?page=search&docid=4bb21fa0
2&skin=0&query=organized%20gangs
16
Available in Spanish at http://www.diputados.gob.mx/LeyesBiblio/
pdf/LRPCAP_301014.pdf
15

409

After Brazil Declaration of December 2014 and in line
with its 2010 recommendations, the UNHCR established
specific guidelines for the access to international protection mechanisms for asylum seekers from El Salvador
and Honduras.
Nevertheless, despite the relatively adequate legal
framework and the goodwill expressed in regional and
international forums, the reality at the field level is extremely worrying: seeking asylum, getting refugee status, or even securing other forms of international protection, such as complementary measures in Mexico and
the United States, remains almost impossible for people
fleeing violence in the NTCA.
Detentions and deportations from Mexico

The number of undocumented migrants from the NTCA
detained178in Mexico has been growing exponentially for
the last five years, rising from 61,334 in 2011 to 152,231
in 2016. Migrants from NTCA account for 80.7 percent
of the total population apprehended in Mexico during
2016. The number of minors apprehended is extremely
worrying as it nearly multiplied by 10 in the last five
years, from 4,129 in 2011 to 40,542 in 201618.9 Of children
under 11 years old, 12.7 percent were registered as travelling through Mexico as unaccompanied minors (without an adult relative or care taker).

SEGOB. Mexico. Boletín Estadistico Mensual 2016. Eventos
de extranjeros presentados ante la autoridad migratoria, según
continente y país de nacionalidad, 2016. Accessed on 06/09/2017.
http://www. politicamigratoria.gob.mx/work/models/SEGOB/CEM/
PDF/Estadisticas/Boletines_Estadisticos/2016/Boletin_2016.pdf
18
Ibid.
17

410

Despite the exposure to violence and the deadly risks
these populations face in their countries of origin, the
non-refoulement principle is systematically violated in
Mexico. In 2016, 152,231 migrants and refugees from
the NTCA were detained/presented to migration authorities in Mexico and 141,990 were deported19.10 The
sometimes swift repatriations (less than 36 hours) do not
seem to allow sufficient time for the adequate assessment of individual needs for protection or the determination of a person’s best interest, as required by law.
Refugee and asylum recognition in Mexico

In 2016, Mexican authorities processed 8,781 requests
for asylum from the NTCA population20.11 Out of the total asylum requests, less than 50 percent were granted.
Despite the fact that Mexico appears to be consolidating
its position as a destination country for asylum seekers
from the NTCA, and that the recognition rate improved
from last year's figures, people fleeing violence in the
region still have limited access to protection mechanisms.
Many asylum seekers have to abandon the process due
to the conditions they face during the lengthy waiting
period in detention centers.
Protection for refugee and migrant victims of violence
while crossing Mexican territory

Foreign undocumented victims or witnesses of crime in
Mexico are entitled by law to regularization on humani-

19
20

Ibid.
Source: UNHCR MEXICO FACTSHEET. February 2017.

411

tarian grounds and to get assistance and access to justice21.12 In 2015, a total of 1,243 humanitarian visas were
granted by Mexico for victims or witnesses of crime
from the NTCA22.13 These numbers might seem implausible, however the vast majority of patients (68.3 percent) in MSF’s small cohort of migrants and refugees
report having been victims of violence and crime.
Lack of access to the asylum and humanitarian visa processes, lack of coordination between different governmental agencies, fear of retaliation in case of official denunciation to a prosecutor, expedited deportation procedures that do not consider individual exposure to violence: These are just some of the reasons for the gap
between rights and reality.
Failure to provide adequate protection mechanisms has
direct consequences on the level of violence to which refugees and migrants are exposed. The lack of safe and
legal pathways effectively keeps refugees and migrants
trapped in areas controlled by criminal organizations.
*

*

*

*

*

Ley General de Migración - Article 52 Section V-a. See also Article 4 for a definition of the “victims” covered by the law.
22
Source: Boletín Mensual de Estadisticas Migratorias 2015.
Secretaría de Gobernación. Gobierno de México. Accessed on
01/02/2017.
21

412

8
CONCLUSION: ADDRESSING THE GAPS

As a medical humanitarian organization providing care
in Mexico, in particular to migrants and refugees, since
2012, MSF staff has directly witnessed the medical and
humanitarian consequences of the government’s failure
to implement existing policies meant to protect people
fleeing violence and persecution in El Salvador. Guatemala and Honduras, as described in the report.
As of 2016, MSF teams have provided 33,593 consultations through direct assistance to patients from NTCA
with physical and mental traumas. People tell our staff

413

that they are fleeing violence, conflict and extreme hardship. Instead of finding assistance and protection,
they are confronted with death, different forms of violence, arbitrary detention and deportation. The dangers are exacerbated by the denial of or insufficient
medical assistance, and the lack of adequate shelter and
protection.
Furthermore, the findings of this report—the extreme
levels of violence experienced by refugees and migrants
in their countries of origin and in transit through Mexico
—comes against a backdrop of increasing efforts in Mexico and the United States to detain and deport refugees
and migrants with little regard for their need for protect
ion.
Medical data, patient surveys, and terrifying testimonies illustrate that NTCA countries are still plagued by
extreme levels of crime and violence not dissimilar from
the conditions found in the war zones. Many parts of
the region are extremely dangerous, especially for vulnerable women, children, young adults, and members of
the LGBTQ community. As stated by MSF patients in
the report, violence was mentioned as a key factor for
50.3 percent of Central Americans leaving their countries. Those being denied refugee or asylum status or
regularization under humanitarian circumstances are
left in limbo. Furthermore, being deported can be a
death sentence as migrants and refugees are sent back
to the very same violence they are fleeing from. The
principle of non-refoulement must be respected always,
and in particular for people fleeing violence in the
NTCA.

414

A stunning 68.3 percent of migrants and refugees surveyed by MSF reported having been victims of violence
on the transit route to the United States.
Mexican authorities should respect and guarantee—in
practice and not only in rhetoric—the effective protection and assistance to this population according to existing legal standards and policies.
There is a longstanding need to strengthen the Refugee
Status Determination System (RSD). It must ensure
that individuals in need of international protection and
assistance are recognized as such and are given the
support—including comprehensive health care, to which
they are all entitled. Access to fair and effective RSD
procedures must be granted to all asylum-seekers either
in Mexico, the US, Canada and the region.
Governments across the region—mainly El Salvador,
Guatemala, Honduras, Mexico, Canada and the United
States—should cooperate to ensure that there are better alternatives to detention, and should adhere to the
principle of non-refoulement. They should increase
their formal resettlement and family reunification quotas, so that people from NTCA in need of protection and
asylum can stop risking their lives and health.
Attempts to stem migration by fortifying national borders and increasing detention and deportation, as we
have seen in Mexico and the United States, do not curb
smuggling and trafficking operations. Instead, these
efforts increase levels of violence, extortion and price of
trafficking. As described in the report, these strategies have devastating consequences on the lives and
health of people on the move.

415

The impact of forced migration on the physical and mental well-being of people on the move—in particular refugees and migrants, and, among them, the most vulnerable categories represented by women, minors, and
LGBTQ individuals—requires immediate action. The
response should ensure strict respect of the law and the
adequate allocation of resources to provide access to
health care and humanitarian assistance, regardless of
the administrative status of the patient (as enshrined by
Mexican law).
Addressing gaps in mental health care, emergency care
for wounded, and strengthening medical and psychological care for victims of sexual violence by ensuring the
implementation of adequate protocols, including provision of and access to the PEP kit, is fundamental to treating refugee patients with dignity and humanity.
As witnessed by MSF teams in the field, the plight of an
estimated 500,000 people on the move from the NTCA
described in this report represents a failure of the governments in charge of providing assistance and protection. Current migration and refugee policies are not
meeting the needs and upholding the rights of assistance
and international protection of those seeking safety outside their countries of origin in the NTCA. This unrecognized humanitarian crisis is a regional issue that
needs immediate attention and coordinated action, involving countries of origin, transit, and destination.

416

417
Migration Transit Zone Conditions and Mexico’s Migration Policies

Conditions of migration facing unaccompanied children
likely play a considerable role in determining whether
they emigrate to the United States. While the persistence of economic stagnation, poverty, and criminal violence may explain why flows of unaccompanied minors
have increased, the journey through Central America
and Mexico to the United States has become more costly
and dangerous. Unauthorized migrants from Central
America, often lacking legal protection in Mexico because of their immigration status, have reportedly become increasingly vulnerable to human trafficking, kidnapping, and other abuses.4514 Corrupt Mexican officials
have been found to be complicit in activities such as robbery and abuse of authority.46 15 While Mexico has
stepped up immigration enforcement in some areas (see
below), enforcement along train routes frequently used
by Central American child migrants continues to be
lacking.4716
As U.S. border security has tightened, more unauthorized Central American migrants have reportedly turned
Steven Dudley, Transnational Crime in Mexico and Central
America: Its Evolution and Role in International Migration,
Woodrow Wilson International Center for Scholars & Migration Policy Institute, November 2012, http://www.wilsoncenter.org/sites/
default/files/transnational_crime_mexico_centralamerica.pdf.
46
Adam Isacson, Maureen Meyer, and Gabriela Morales, Mexico’s
Other Border: Security, Migration, and the Humanitarian Crisis
as the Line with Central America, Washington Office on Latin
America (WOLA), June 2014, available at http://www.wola.org/news/
new_wola_report_mexicos_other_border (hereinafter referred to as
WOLA, Mexico’s Other Border Security.)
47
Ibid.
45

418

to smugglers (coyotes),4817who in turn must pay money
to transnational criminal organizations (TCOs) such as
Los Zetas, to lead them through Mexico and across the
U.S.­Mexico border.49 18 The Administration has estimated that 75-80% of unaccompanied child migrants are
now traveling with smugglers.5019 Some smugglers have
reportedly sold migrants into situations of forced labor
or prostitution (forms of human trafficking) in order to
recover their costs; other smugglers’ failure to pay Los
Zetas has reportedly resulted in massacres of groups of
migrants.5120 Mass grave sites, where migrants have been
executed by TCOs have been recovered in recent years.
The Mexican government appears to be attempting to
balance enforcement and humanitarian concerns in its
migration policies. Implementation of its new laws
and policies has been criticized both by those who favor
more enforcement and those who favor more migrants’
rights.5221 In addition to stepping up efforts against human trafficking and passing new laws to stiffen penalties
for alien smuggling (2010) and human trafficking (2012),
Human Smuggling typically involves the provision of a service,
generally procurement or transport, to people who knowingly consent to that service in order to gain illegal entry into a foreign country. For more information, see CRS Report RL34317, Trafficking
in Persons: U.S. Policy and Issues for Congress, by Alison Siskin
and Liana Rosen.
49
See Caitlin Dickson, “How Mexico’s Cartels are Behind the Border Kid Crisis,” The Daily Beast, June 23, 2014.
50
White House, Office of the Vice President, “Remarks to the Press
with Q&A by Vice President Joe Biden in Guatemala,” press release,
June 20, 2014.
51
Oscar Martinez, “How the Zetas Tamed Central America’s ‘Coyotes,’ ” Insight Crime, May 1, 2014.
52
WOLA, Mexico’s Other Border Security.
48

419

Mexico enacted a comprehensive migration reform law
in 2011 and secondary legislation to implement that law
in 2012. Previously, Mexico’s immigration law, the
General Population Act (GPA) of 1974, limited legal immigration and restricted the rights of foreigners in Mexico, with unauthorized migrants subject to criminal penalties. In 2008, the Mexican Congress reformed the
GPA to decriminalize simple migration offenses, making
unauthorized migrants subject to fines and deportation,
but no longer subject to imprisonment. In May 2011, it
passed a broader reform of the GPA.5322
Contrary to some media reports, Mexico’s 2011 law did
not create a transit visa for migrants crossing through
Mexico, as civil society groups had been advocating. As
a result of the law Mexico now requires visas for Central
Americans entering its territory (aside from those on
temporary work permits or those possessing a valid U.S.
visa).
According to many migration experts, implementation
of Mexico’s 2011 migration law has been uneven.
While some purges of corrupt staff within the National
Migration Institute (INM) in the Interior Ministry have
Mexico’s 2011 migration reform was aimed at (1) guaranteeing
the rights and protection of all migrants in Mexico; (2) simplifying
Mexican immigration law in order to facilitate legal immigration; (3)
establishing the principles of family reunification and humanitarian
protection as key elements of the country’s immigration policy; and
(4) concentrating immigration enforcement authority within the National Migration Institute (INM) in the Interior Ministry in order to
improve migration management and reduce abuses of migrants by
police and other officials. For a general description of the law in
English, see Gobierno Federal de México. “Mexico’s New Law on
Migration,” September 2011, available at http://usmex.ucsd.edu/
assets/028/12460.pdf.
53

420

occurred in the past year, implementation of the migration law has been hindered by the government’s failure
to more fully overhaul INM.5423 Some experts maintain
that Mexico lacks the funding and institutions to address traditional migration flows, much less the increasing numbers of U.S.-bound unaccompanied children that
its agents are detaining. Mexico has only two shelters
for migrant children and no foster care system in which
to place those who might be granted asylum.
Despite provisions to improve migrants’ rights included
in the 2011 migration law, the Mexican government also
continues to remove large numbers of Central American
adult migrants, arrest smugglers of those migrants, and
return unaccompanied child migrants to Central America.5524 According to INM, Mexico detained 86,929 foreigners in 2013, 80,079 of whom were removed (79,416
people were removed in 2012). Of those who were removed, some 97.4% originated in the northern triangle
countries of Central America. In the first four months
of 2014, Mexico removed some 24,000 people from the
northern triangle countries, 9% more than during that

54
Reforms that migration experts have recommended include raising hiring standards for immigration agents, regulating how migrants should be treated, and strengthening internal and external
controls over migration agents. Sonja Wolf et. al., Assessment of
the National Migration Institute: Towards an Accountability
System for Migrant Rights in Mexico, INSYDE, 2014.
55
From January through May 2014, the Mexican government arrested 431 people for breaking provisions in the migration law; most
of those individuals were accused of smuggling-related crimes. Gobierno de Mexico, Sistema Institucional de Información Estadística
(SIIE), “Incidencia Delictiva del Fuero Federal, 2014.”

421

period in 2013.5625 Child protection officers from INM
accompanied 8,577 children to their countries of origin
in 2013 and 6,330 from January through May 2014; 99%
of those children originated in northern triangle countries.5726
With U.S. support, the Mexican government in 2013
started implementing a southern border security plan
that has involved the establishment of 12 naval bases
on the country’s rivers and three security cordons
that stretch more than 100 miles north of the MexicoGuatemala and Mexico-Belize borders.5827

Gobierno de Mexico, Secretaría de Gobernación, Instituto
Nacional de Migración, Boletín de Estadistica Migratorias, 2013,
2014 statistics are available at http://www.politicamigratoria. gob.mx/.
57
Gobierno de Mexico, Secretaría de Gobernación, Instituto
Nacional de Migración, “Reintegra INM a Más de 14 Mil Niños Migrantes con sus Familias,” Boletín 31/14, June 11, 2014.
58
The State Department has provided $6.6 million of mobile NonIntrusive Inspection Equipment (NIIE) and approximately $3.5 million in mobile kiosks, operated by Mexico’s National Migration Institute, that capture the (continued . . . )
56

422
Congress of the United States
Washington, DC 20515

Nov. 30, 2018
Donald J. Trump
President of the United States
The White House
1600 Pennsylvania Avenue
Washington, DC 20500
Dear President Trump:
As Members of Congress who sit on the House Foreign Affairs Committee and the House Appropriations
Committee, we write to express our grave concerns
about reports of a so-called “Remain in Mexico” policy
for asylum seekers being negotiated between your administration and the incoming Mexican government.
This policy would reportedly force individuals seeking
asylum to stay in Mexico as their asylum cases move
through the U.S. court system.
Current law is clear. 8 U.S.C. 1158(a)(1) states: “Any
alien who is physically present in the United States or
who arrives in the United States (whether or not at a
designated port of arrival and including an alien who is
brought to the United States after having been interdicted in international or United States waters), irrespective of such alien’s status, may apply for asylum in
accordance with this section . . . ” Furthermore,
8 U.S.C. 1231(b)(3)(A) states: “[T]he Attorney General
may not remove an alien to a country if the Attorney
General decides that the alien’s life or freedom would be
threatened in that country because of the alien’s race,

423

religion, nationality, membership in a particular social
group, or political opinion.”
Restated, federal law expressly provides asylum
seekers permission to seek asylum no matter the manner in which they have entered the United States. Furthermore, the Attorney General may not remove asylum
seekers from the United States when doing so threatens
their lives or freedom—the very qualifications of an asylum seeker in the first place. Finally, forcing asylum
seekers to wait in Mexico for indefinite periods of time
in dangerous conditions would make it all but impossible
for families, children and other vulnerable individuals to
access asylum and receive meaningful review of their
claims under U.S. law. Consequently, the proposed
“Remain in Mexico” policy would violate these laws.
We strongly encourage you to refrain from adopting
new policies that are inconsistent with existing federal
law, and to refrain from encouraging other governments
—such as Mexico’s incoming government—to enter into
agreements with the United States that violate our nation’s laws and undermine American values.
The
United States has been and should continue to be a beacon of light for other countries, and it is in the best interest of Americans and Mexicans alike to enforce existing asylum laws with dignity, respect, and efficiency.
We must work together to ensure the safety and wellbeing of those seeking asylum.
You have repeatedly said that the law must be followed with respect to persons crossing America’s borders. We hope you will stay true to this conviction with
respect to individuals seeking asylum in America.

424

Sincerely,
/s/ GRACE MENG
GRACE MENG
Member of Congress
/s/ JOAQUIN CASTRO
JOAQUIN CASTRO
Member of Congress
/s/ DAVID PRICE
DAVID PRICE
Member of Congress
Cc:
Secretary of State Mike Pompeo
Secretary of Homeland Security Kirstjen Nielsen
Acting Attorney General Matthew Whitaker
John S. Creamer, Chargé d’Affaires, U.S. Embassy in
Mexico
President-elect of Mexico, Andrés Manuel López Obrador

